<html>
<title> - MISCELLANEOUS PUBLIC LANDS BILLS</title>
<body><pre>[Senate Hearing 109-778]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-778
 
                    MISCELLANEOUS PUBLIC LANDS BILLS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON
                                     

                           S. 3000                               S. 3599

                           S. 3794                               S. 3854

                           H.R. 3603                             H.R. 5025



                                     

                               __________

                           SEPTEMBER 27, 2006


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
32-724                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               KEN SALAZAR, Colorado
GORDON SMITH, Oregon                 ROBERT MENENDEZ, New Jersey
JIM BUNNING, Kentucky

                   Frank Macchiarola, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                    LARRY E. CRAIG, Idaho, Chairman
                CONRAD R. BURNS, Montana, Vice Chairman

CRAIG THOMAS, Wyoming                RON WYDEN, Oregon
JAMES M. TALENT, Missouri            DANIEL K. AKAKA, Hawaii
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
LAMAR ALEXANDER, Tennessee           TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
GEORGE ALLEN, Virginia               DIANNE FEINSTEIN, California
                                     MARIA CANTWELL, Washington

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Frank Gladics, Professional Staff Member
                David Brooks, Democratic Senior Counsel
                    Scott Miller, Democratic Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     2
Blumenauer, Hon. Earl, U.S. Representative From Oregon...........    20
Calvert, Chad, Principal Deputy Assistant Secretary, Land and 
  Minerals Management, Department of the Interior................    22
Craig, Hon. Larry E., U.S. Senator From Idaho....................     1
Crapo, Hon. Mike, U.S. Senator From Idaho........................     9
Grant, Fred Kelly, Chairman, Owyhee County Initiative 
  Implantation Act, Nampa, ID....................................    71
Hansen, Cliff, Commissioner, Custer County, ID...................    69
Heughins, Russ, Issues Coordinator, Idaho Wildlife Federation, 
  Boise, ID......................................................    53
Huff, Fred D., Land Use Coordinator, Las Cruces Four Wheel Drive 
  Club, Las Cruces, NM...........................................    48
Hunt, Adrian P., Ph.D., Executive Director, New Mexico Museum of 
  Natural History and Science....................................    46
Johnson, Rick, Executive Director of the Idaho Conservation 
  League, Boise, ID..............................................    61
King, Carole, Custer County, ID..................................    98
Madron, Brett William, President, Idaho Trail Machine 
  Association, Boise, ID.........................................    86
Maguire, Brian, Member of the Board of Directors, Back Country 
  Hunters and Anglers, Portland, OR..............................   114
Matthews, Amanda, Stanley, ID....................................    96
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     7
Rey, Mark, Under Secretary, Natural Resources and Environment, 
  Department of Agriculture......................................    31
Salazar, Hon. Ken, U.S. Senator From Colorado....................     7
Simonds, Grant, Executive Director, Idaho Outfitter and Guides 
  Association, Boise, ID.........................................    77
Simpson, Hon. Michael K., U.S. Representative From Idaho.........    13
Smith, Hon. Gordon H., U.S. Senator From Oregon..................     6
Van Winkle, Jill, Trail Specialist, International Mountain Biking 
  Association, Boulder, OR.......................................   122
Walden, Hon. Greg, U.S. Representative From Oregon...............    17
Ward, Jay, Conservation Director, Oregon Natural Resources 
  Council, Portland, OR..........................................   117
Webster, Mike, President, Idaho Cattlemen's Association, Roberts, 
  ID.............................................................    92
Wyden, Hon. Ron, U.S. Senator From Oregon........................     4

                               APPENDIXES
                               Appendix I

Responses to additional questions................................   137

                              Appendix II

Additional material submitted for the record.....................   153


                    MISCELLANEOUS PUBLIC LANDS BILLS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 27, 2006

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
SD-628, Dirksen Senate Office Building, Hon. Larry E. Craig 
presiding.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Senator Craig. Good morning, ladies and gentlemen and 
welcome to the Public Lands and Forests Subcommittee of the 
Senate Energy and Natural Resources Committee. We have a very 
long hearing day scheduled for all of you, and a number of very 
large and complex pieces of legislation. It is my desire that 
these matters get a full airing on all of the issues of 
concern. If we are going to give our last panel of witnesses 
the same consideration as we do our first panel, then it is 
going to be my concerted effort to keep us all on schedule 
today. I'm going to start the hearing with a forewarning to all 
of our committee members first, as well as our Member 
witnesses, that due to the number of bills and the 
extraordinary number of witnesses who will testify, I'm going 
to be exceedingly strict on our time limits today, out of sheer 
courtesy to all of our witnesses.
    As most of you know in this audience, Idaho is a State of 
competing interests. For all other kinds of things that are 
critical to our State. I've reserved judgment and am ready to 
hear how you all feel. The Federal lands of our State that are 
now under question ought to be designated. I have never 
strictly opposed wilderness in my tenure and believe wilderness 
is appropriate. However, I am concerned that these Idaho bills 
we are talking about today place unique restrictions on 
approximately 825,000 acres and the next Congress will face the 
same competing interests, wanting to add some additional unique 
restrictions to the very lands of our State.
    I want you all to think about your respective States. There 
are four that will be under consideration here today and 
future, along with current, land allocations. Will this be it 
or will we be back in a generational sense, to decide future or 
different kinds of restrictions as it relates to accessing our 
public lands?
    I want to welcome my colleagues from Idaho, Senator Mike 
Crapo and Representative Mike Simpson. We will be joined by 
Congressman Greg Walden and Earl Blumenauer, Congressman from 
Oregon, to comment on legislation today. All have sponsored or 
co-sponsored legislation we will consider. I also want to 
welcome Chad Calvert, Principal Deputy Assistant Secretary for 
Land and Minerals Management, Department of Interior, along 
with Mark Ray, Undersecretary for Natural Resources and the 
Environment, Department of Agriculture. I suspect you're not 
being paid enough today to do what I sense will be an 
interesting political dance that these two witnesses will do. 
In fact, I was admonishing Mark Ray a moment ago for the 
brevity, believe it or not, of his testimony.
    I also want to welcome all of the other witnesses that we 
have before us. We will consider the following legislation 
today: S. 3599, Senator Bingaman's Prehistoric Trackways 
National Monument Establishment Act; S. 3794, Senator Mike 
Crapo's Owyhee Initiative Implementation Act; H.R. 3854, 
Representative Mike Simpson's Central Idaho Economic 
Development and Recreation Act; and H.R. 3603, Senator Wyden's 
and Senator Smith's Louis and Clark Mount Hood Wilderness Act; 
H.R. 5025, Representative Walden and Blunenauer's Mount Hood 
Storageship Legacy Act; and Senator Steven's and Senator 
Murkowski's Copper Valley Native Allotment Resolution Act.
    I would observe that most of the bills that we will be 
hearing today have provisions that some have found troubling 
and I would encourage all of our sponsors to work with the 
committee and our staff to address these concerns so that there 
is an opportunity to move these bills forward in the markup.
    Finally, some housekeeping. We have a vote this morning at, 
I believe, 11:45. We make take that opportunity to break for a 
lunch period, which would take us from 11:45 to approximately 1 
o'clock. I would then reconvene the committee at 1 o'clock and 
we will move through the balance of the day to complete these 
hearings so that everybody has an equal opportunity.
    On the tables in front of the witnesses is this device that 
will flash red and we would hope that all of you would adhere 
to that so that we can stay on time. We will also leave the 
committee's record open for 10 days for additional statements 
to be a part of the record.
    With that, let me turn to the Senior Ranking Member of the 
Senate Energy and Natural Resources Committee, Senator 
Bingaman. Jeff?

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Thank you very much, Senator Craig and 
thank you for having this hearing. I wanted to briefly speak 
about one of the bills being considered, S. 3599, which is a 
bill that I introduced to establish the Prehistoric Trackways 
National Monument outside Las Cruces, New Mexico. Senator 
Domenici is co-sponsoring this legislation. Senator Domenici 
and myself and former Congressman Joe Skeen sponsored 
legislation that directed the BLM to study this site and access 
the significance of the fossilized footprints that had been 
discovered there. This was back in 1994, when that study was 
completed.
    These fossilized footprints date back over 280 million 
years. Despite the study's glowing recommendations, 
unfortunately little has been done in the 14 years since the 
study was completed. In order to move ahead with this, I hope 
the creation of the national monument that is proposed in this 
bill will change that, and will bring new attention and 
investigation to this find. I want to just mention that Jerry 
McDonald, who is a resident of Las Cruces, was the first to 
discover these trackways. He has labored for years to see that 
they have received proper protection and attention. Finally, I 
think we have two New Mexico witnesses here today, Adrian Hunt, 
who is the Executive Director of the Mexican Museum of National 
History and Science and was one of the authors of the 1994 
study that I referred to. Fred Huff is with the Las Cruces Four 
Wheel Drive Club so I welcome them.
    Let me just make a couple of very general statements about 
wilderness legislation. I know that we do have wilderness bills 
before us here and others that have been introduced and I have 
not had a chance to review in detail these bills. I look 
forward to hearing and studying the testimony, but I understand 
that any proposal to designate wilderness involves compromise 
and tradeoffs as to how many acres need to be protected and 
what potential impacts will be on other users. Ultimately, the 
size of the wilderness area being designated reflects the 
balancing of those issues.
    I think this balancing has become complicated in recent 
years in that many wilderness proposals are now packaged 
together with provisions directing Federal land sales, 
requiring the use of inflated land valuations, mandating 
motorized use areas, and requiring land management agencies to 
fund local development projects and I think that there has been 
a trend of more and more of that type of provision included. I 
think it is a troubling trend and it's one that I believe, 
although we all defer to the senators from individual States as 
to wilderness issues in their States, I think these other 
issues that I've referred to, are broader management issues and 
it is appropriate for our committee to look into those and try 
to understand the impact of those provisions in some detail.
    So I look forward to the testimony and learning more about 
each of these bills and I welcome all the witnesses. Thank you.
    Senator Craig. Jeff, thank you very much. Before I 
recognize the Ranking Member of the Subcommittee, Senator 
Wyden, let me knit you another housekeeping. It's obvious by 
the room today, we have an overflow crowd and that is 
appreciated. We're glad you're all here. There is an overflow 
room for those of you who are simply here to observe. It 
doesn't truly have the flavor of a live hearing room but it is 
a room where you can sit and watch it on television and that is 
Russell 428A. Russell 428A, that's the office building just 
next door to us here, for those of you who might like a more 
comfortable environment than standing up.
    With that, let me turn to the Ranking Member of the 
Subcommittee on Public Lands and Forests, Senator Ron Wyden. 
Ron and I have worked very closely together over the years, to 
craft what we think is some very futuristic and appropriate 
forest policy and we're continuing to work on a variety of 
projects. We have your legislation before us today, Ron. Ron?

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    Senator Wyden. Thank you very much, Mr. Chairman. As you've 
noted, whether it's been county payments or whether it is a 
forest health legislation, we've worked together and we are 
going to continue to do that. Senator Smith is here as well and 
we're going to work with you in a bipartisan way.
    It's obvious that today, from around the West, the 
committee is going to get a sense of how much Americans love 
the great outdoors. In my home State, Oregonians treasure Mount 
Hood and protecting the land and air and water that surrounds 
our beloved mountain is practically in our chromosomes.
    Mount Hood is a place of spectacular vistas, extraordinary 
hiking and fantastic views, an outdoor experience without 
parallel. The bipartisan Lewis and Clark Mount Hood Wilderness 
legislation I've introduced my friend and colleague is built on 
a citizen's driven process. It included scores of meetings that 
the two of us have held over the last 3 years, to listen to 
Oregonians and incorporate suggestions and ideas that I have 
learned during the more than two decades that I have been 
honored to represent Oregon in the U.S. Congress.
    Two years ago, Senator Smith held a hearing on my original 
Lewis and Clark Mount Hood Wilderness legislation and it would 
have been very easy for my colleague, at that point, to say 
that he had heard from me and he was going to call it a day. 
But suffice it to say, Senator Smith didn't want to go that 
route. We have been working very, very closely for more than 3 
years. We intend to work very closely with our colleagues as 
well. They'll be joining us in a moment and sufficed to say, 
the bill that Senator Smith and I have jointly introduced in 
the U.S. Senate is different than my original legislation.
    For example, it is not as many acres but I think from the 
very beginning, we have said, this is not primarily a contest 
about who can get the most acres. More than anything, 
wilderness legislation is about protecting special places. For 
example, in the Senate legislation, we protect one of those 
places, Memaloose Lake, an extremely popular part of our State 
listed in every single hiking guidebook I've ever seen. It's 
the last intact forest in the area and it has to be protected 
as a means of helping to restore surrounding areas.
    The same is true of the Lower White River. Proposed 
additions to the Bangor Creek Wilderness area and then we also 
feel very strongly about protection for the newly designated 
Richard L. Constall Memorial Area dedicated in honor of a 
gentleman who passed recently, who restored the historic 
Timberline Lodge, built originally by the WPA in 1937 and the 
late Dick Constall restored it to its former grandeur.
    These are all areas where we have been able, working in a 
bipartisan way, to protect special places. They are not in the 
House legislation. We are going to work with our colleagues to 
try to reconcile those differences.
    We also wanted to look at some of the big challenges for 
wilderness and recreation in the days ahead and so we took up a 
special approach to deal with the concerns of mountain bikers, 
which is something I know our Idaho colleagues know a lot 
about. There is a lot of interest in our part of the country in 
it. We felt that we ought to get away from a one-kind sort of 
fits all approach and come up with a homegrown way to make sure 
that their concerns were addressed. We thought that local 
riders raised some very valid concerns about the use of the 
mountain, so we did two things. We proposed a national 
recreation area. It will offer greater permanent environmental 
protection for these special treasures while providing mountain 
bikers and other recreational users an opportunity to continue 
to recreate in these areas.
    Additionally, we made boundary adjustments to ensure open 
mountain biking trails were not part of the wilderness we 
included beyond that House bill. This is also an area where we 
have differences of opinion with the House but as I indicated 
before our friends arrived, we are going to be working very 
closely and cooperatively with our House colleagues on that.
    Wild and scenic rivers--another area Senator Smith and I 
felt strongly about. It is the third area where there are 
differences that the delegation is going to work on and 
finally, yesterday, the General Accounting Office released a 
disturbing report indicating that an appraisal used for one of 
the exchanges does not meet the Federal standard. The Senate 
bill does not require the use of this deficient appraisal 
process, doesn't legislate the land values and stipulated that 
the Secretary of Agriculture has the last word on the appraisal 
process to ensure that any appraisal complies with required 
general appraisal standards.
    But the bottom line on the appraisal is both of Oregon's 
senators and Congressman Walden and Congressman Blunenauer want 
to honor the fact that there has been an awful lot of work done 
by citizens at home on this exchange, so we're going to work 
constructively to get this addressed and do it in a way that 
meets the General Accounting Office standards.
    Our colleagues have arrived and time is short. I want to 
wrap up by way of saying that I think our colleagues from the 
House deserve substantial credit for their efforts. They have 
put in many, many hours on this. It has been a citizen's driven 
process. In the House, they have made contributions, 
particularly Congressman Blunenauer talking about 
transportation issues because you can't enjoy some of these 
recreational treasures if you don't address those concerns. So 
Senator Smith and I are going to work very closely with our 
colleagues in the House to again, an Oregon solution to this 
and I welcome them here today and thank again, my friend and 
colleague, Senator Smith. It would have been awful easy for my 
colleague to say, I'm going to pass on this. After holding that 
first hearing on my original legislation and watch what happens 
in the House. He didn't do any of that and I want to thank him 
for all of the efforts he's made to get us to this day.
    Thank you, Mr. Chairman.
    Senator Craig. Well, thank you very much. Now let me turn 
to your colleague and mine, from the State of Oregon, Gordon 
Smith.

        STATEMENT OF HON. GORDON H. SMITH, U.S. SENATOR 
                          FROM OREGON

    Senator Smith. Thank you, Senator Craig. Thank you also for 
including the Mount Hood bills on today's ambitious docket. I'm 
grateful you have also included our Congressman from Oregon, 
Congressman Walden and Congressman Blunenauer. These two 
gentlemen have done tremendous work on this bill. They have 
shown great leadership and esteem them for it.
    In moving this concept forward, we have all, in our own 
ways and in our two chambers, grappled with very divergent 
interests and have come to a closer conclusion. As my 
colleague, Senator Wyden, has recalled from our hearing that we 
held on this issue 2 years ago, at the time I was concerned 
that we were protecting the mountain from the people rather 
than for the people. Since that time, Senator Wyden and I have 
worked in good faith with one another to try and craft, as best 
we can, a consensus bill for the Senate.
    But I think it is important to say that both the House and 
Senate bills are the result of significant dialog with 
Oregonians, all users of Mount Hood. And I can now say that 
both bills, in the House and the Senate, are designed to 
protect Mount Hood for the people.
    Two years ago, the Senate legislation proposed to designate 
roughly 180,000 acres of wilderness on Mount Hood but over the 
last couple years, again after countless meetings and 
responding to thousands of letters, we have, I think, reached 
very close to an agreement. I'm now the proud co-sponsor of the 
Lewis and Clark Mount Hood Wilderness Act. I believe it is a 
fair compromise between the bill this committee heard 2 years 
ago and the bill passed by the House. I also recognize that it 
is not the only compromise and it is my hope that in the course 
of the next few weeks, we'll be able to tell the Chairman here 
that there is a single Oregon position and we would like to 
pass the legislation this year.
    That being said, let me spend a moment now addressing how 
Senator Wyden and I arrived at the bill we've introduced. 
First, we generally accepted the House-passed bill in its 
entirety. In school, that would be called plagiarism. In 
Congress, it's called embracing the House position.
    Second, we wanted to be respective of existing uses on the 
mountain--snowmobiling, mountain biking and the like. In doing 
so, we drew the wilderness boundaries in such a way so as to 
minimize or eliminate any detrimental effect to recreational 
users. However, there were areas where protection was strongly 
supported by our constituents but wilderness just did not seem 
appropriate for those areas. In these cases, we proposed to 
designate them as National Recreation Areas. This will not only 
allow but enhance existing recreational uses. We also intend 
these areas to be managed according to their forest health 
needs. In this sense, our bill breaks new ground in terms of 
demonstrating that protection need not be at the expense of the 
resource we're trying to protect nor does protection need to be 
at the expense of loggers and mills that will be needed as 
partners in restoring forest health on public lands.
    I fully recognize the needs of Oregon's forest products 
industry and in the past, I have objected to larger wilderness 
proposals that would have seriously impacted the Federal Timber 
Program, the Northwest Forest Plan as proposed and passed by 
the Congress with President Clinton. As such, Senator Wyden and 
I carefully excluded areas designated for timber production or 
matrix, as it's known, from our wilderness additions to the 
House bill. I recognize that this is a complex piece of 
legislation, that it is certainly not perfect. I, Mr. Chairman, 
have yet to vote for a perfect bill. I suppose I never will. As 
Churchill once said, ``to improve is to change. To be perfect 
is to change often.''
    The concept of a Mount Hood Wilderness bill has changed 
often and will change more before reaching its legislative 
summit. But I think all of us in the congressional delegation 
are inspired by the landscape, which we seek to protect, which 
we know as Oregon. Mount Hood is the singular icon of our 
State. It is viewed with equal awe from the office suites of 
Portland, as from the wheat fields of eastern Oregon. As such, 
it is fitting that this legislation reflects those diverse 
views to the best of our ability. Thank you, Mr. Chairman.
    Senator Craig. Gordon, thank you very much. We've been 
joined by more of our colleagues. I'll ask them if they wish to 
make comments, I trust in brevity, so we can move to this long 
list of witnesses. Senator Salazar, of Colorado. Ken?

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Thank you very much, Mr. Chairman. I will 
be brief. I know you have a long agenda in front of you.
    There are two bills that are not on the agenda that we 
write to Colorado, that I hope to be able to bring to the 
attention of the committee at later times. One involves the 
designation of the Rocky Mountain National Park as a Wilderness 
Area. We are working through some final commas and periods on 
that legislation and we hope to be able to get that in front of 
the Senate. The second is a Brown's Canyon Wilderness Area 
legislation, which Representative, happily retiring now from 
the House of Representatives, legislation that is his and that 
of Senator Allard's. We hope to be able to make some progress 
yet on that legislation in this session.
    And I appreciate, Mr. Chairman, your long agenda that you 
have in front of you here today and I look forward to listening 
to all the testimony.
    Senator Craig. Well, thank you very much, Ken. We will be 
back in early November and this Subcommittee will be convening 
to look at some other pieces of public land legislation. We 
hope maybe you will be ready by then and if you are, we'll take 
a run at it. Thank you very much. Let me turn to Senator Lisa 
Murkowski of Alaska. She and her colleague, Senator Stevens, do 
have a piece of legislation before us today. Lisa?

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman and I will be 
very brief. I have my full comments that I would like included 
in the record.
    Senator Craig. Without objection, they will be.
    Senator Murkowski. But I just want to speak just very 
quickly to S. 3000. This relates to the Copper Valley Electric 
Association, which is a rural electric co-op for the eastern 
part of Alaska that borders the Wrangell-St. Elias National 
Park. This is a part of the State that is not particularly 
wealthy. It built power lines under the authority of the 
Department of Interior rights-of-way over lands that were 
subsequently determined to belong to native Allakakets. The 
Department of Interior now claims that it was never authorized 
to grant those rights-of-ways. The Allakakets, we feel, are 
clearly deserving of compensation and the question is, whether 
or not the compensation will come from Copper Valley's rate 
payers, who are by no means wealthy people, following prolonged 
litigation with the Federal Government, which granted the 
rights-of-way and will hopefully make things right.
    At Senator Stevens' request, the GAO looked into the 
situation, validated these facts and the need for a legislative 
solution and Mr. Chairman, I would like to submit that report 
and their testimony before the Resources Committee and the 
other body as well as the letter from the State of Alaska, 
supporting S. 3000.*
---------------------------------------------------------------------------
    * The report and letter have been retained in subcommittee files.
---------------------------------------------------------------------------
    Senator Craig. Without objection.
    Senator Murkowski. I do understand that the Interior 
Department will also validate the need for a legislative 
solution but wishes to exclude from S. 3000, situations where 
Copper Valley built its right-of-way within highway easements 
that were reserved for the State of Alaska. The sponsors 
clearly stand ready to work with the Interior Department and 
our colleagues toward a resolution that is acceptable to the 
parties and to the administration. I look forward to working 
with you and thank you, Mr. Chairman, for the opportunity to, 
just very briefly, address the legislation. Thank you.
    [The prepared statement of Senator Murkowski follows:]

  Prepared Statement of Hon. Lisa Murkowski, U.S. Senator From Alaska

    Good morning, Mr. Chairman and Ranking Member Wyden. I know that we 
have a full day so I will be brief.
    One of the bills that the committee will hear today is S. 3000 
pertaining to Interior Department rights of way granted to a rural 
electrical cooperative in eastern Alaska known as the Copper Valley 
Electric Association.
    Senator Stevens and I often observe to our colleagues that things 
are different in Alaska. Our colleagues often grumble back that nothing 
involving Alaska is ever easy. I share both of these sentiments this 
morning.
    The Alaska Allotment Act of 1906 authorized the Secretary of the 
Interior to allot not more than 160 acres of land in Alaska to Alaska 
Natives as a homestead. The Act was repealed by the Alaska Native 
Claims Settlement Act of 1971, although pending allotment applications 
were grandfathered and Congress has since loosened the restriction to 
allow Alaska Native veterans to file applications after the cutoff. 
Unlike the allotment situation in the Lower 48, these lands were never 
set aside as Indian reservations nor were they ever held by tribal 
governments.
    I've often expressed frustration in this committee at the slow pace 
with which Native allotment applications have been processed by the 
Interior Department. Suffice it to say that delays in processing 
applications have been substantial and we are hopeful that by the 50th 
anniversary of Alaska's statehood in 2009, all of the land owed to the 
allottees will finally be distributed. At least that was the intent of 
the Alaska Land Transfer Acceleration Act we passed in 2004.
    Copper Valley Electric Association is the rural electrical 
cooperative for the part of eastern Alaska that borders Wrangell-St. 
Elias National Park. It is not a particularly wealthy part of Alaska. 
It built power lines under the authority of Department of Interior 
rights of way over lands that we subsequently determined to belong to 
Native allottees. The Department of the Interior now claims that it was 
never authorized to grant those rights of way. The allottees are 
deserving of compensation. The question is whether that compensation 
will come from Copper Valley's ratepayers, who are by no means wealthy 
people, following prolonged litigation or the federal government which 
granted the rights of way will make things right.
    At Senator Stevens request the Government Accountability Office 
looked into the situation and validated these facts and the need for a 
legislative solution. I would like to submit that report and their 
testimony before the Resources Committee in the other body as well as a 
letter from the State of Alaska supporting S. 3000.
    I understand that the Interior Department will also validate the 
need for a legislative solution but wishes to exclude from S. 3000 
situations where Copper Valley built its right of way within highway 
easements reserved to the State of Alaska. The sponsors stand ready to 
work with the Interior Department and our colleagues toward a 
resolution that is acceptable to the administration.
    I thank my colleagues and look forward to hearing from the 
witnesses.

    Senator Craig. Thank you, Lisa. Now let us turn to our 
witnesses at the table. Did we have a time crunch with you or 
are you OK?
    Mr. Simpson. I have to preside at 11 o'clock, so----
    Senator Craig. Oh, we're in good shape. Let me, first of 
all, then recognize my colleagues from Idaho and as they 
testify, let me comment that both of these gentlemen, both 
Senator Crapo and Congressman Simpson, have worked for a good 
long while with a variety of interests, to strike a compromised 
piece of legislation that they feel addresses the issues of the 
area that these pieces cover. I had said at the time and say 
today, I stepped back from that because of my past experience 
in trying to strike compromises and not being as successful as 
they appear to have been and I congratulate them for that. 
These are very difficult and arduous tasks with very strong 
opinions and competing forces and I appreciate that very much.
    So that's why, in part, we are here today, to give as 
thorough an open hearing process as we can, to these very 
important pieces of legislation.
    Let me introduce my colleague, Mike Crapo, first, to talk 
about the Owyhee Initiative. This will be the first time that 
this bill has been aired fully before a public body of this 
type and we're pleased to be able to do that. Obviously that 
southwestern corner of our State is unique and beautiful and 
many of us have struggled mightily for a good long while to try 
to strike balance in the region for all of the importance that 
it is to our State and to those who live there and make a 
living from that region. So with that, let me turn to Senator 
Mike Crapo, to talk about the Owyhee Initiative. Mike?

          STATEMENT OF HON. MIKE CRAPO, U.S. SENATOR 
                           FROM IDAHO

    Senator Crapo. Thank you very much, Senator Craig, Ranking 
Member Bingaman, other members of the Subcommittee. I 
appreciate the opportunity for this prompt hearing on the 
Owyhee Initiative Implementation Act of 2006. I would also like 
to recognize my friend and colleague, Mike Simpson, whose 
efforts I want to acknowledge and I support his work and his 
legislation. As well, I acknowledge Representatives Walden and 
Blunenauer, who are here today to testify on behalf of their 
legislation.
    Mr. Chairman, I would like to thank you and the members of 
the Energy Committee for giving us the opportunity to speak to 
you today on behalf of legislation that I introduced earlier 
this year, the Owyhee Initiative Implementation Act of 2006. 
This comprehensive land management bill is the result of a 5-
year collaborative effort between a remarkably diverse group of 
stakeholders, local, State and Federal Governments, the tribes, 
ranchers, hunters, outfitters, motorized recreational users and 
conservationists, to resolve decades of heated land use 
conflict in the Owyhee Canyon lands. The Owyhee Initiative is a 
ground-breaking proposal that seeks lasting protection for 
significant ecological areas in Owyhee County, while ensuring 
economic viability for the local community. This picture of the 
confluence of the Owyhee River and Battle Creek establishes for 
everyone the unique character of this wonderful place. Seventy-
three percent of Owyhee County's land base is owned by the 
United States and while traditionally, it has been ranching 
country, it has long been prized by recreationists, hunters, 
anglers and motorized users alike.
    The county is within an hour's drive of one of the fastest 
growing metropolitan areas in the nation, Boise, Idaho. This 
combination is having an explosive effect on property value, 
community expansion and development and ever-increasing demands 
on public land. Given this confluence of circumstances and 
events, the Owyhee County faces this question: How do we manage 
for this diversity and do so in a way that protects and 
restores the quality of that fragile environment? The core that 
was to become the Owyhee Working Group said, enough is enough 
and decided to focus on efforts to solve these problems rather 
than wasting resources on endless fighting.
    In 2001, I was asked to join the effort. I told the group 
that if it could form a comprehensive base of interests, who 
would agree to collaborate in a process committed to problem 
solving, that I would dedicate myself to working with them and 
if they were successful, would introduce the resulting 
legislation. They did it and we are here today. The group 
operated on a true consensus basis, only making decisions when 
there was no voiced objection to a proposal. The members spent 
hundreds of hours modifying proposals and developing solutions. 
They have driven thousands of miles, listening to and 
soliciting ideas from people and they've sought to ensure that 
they had a thorough understanding of the issues on the ground. 
This has been difficult work for everyone but the result has 
proven to be worth the effort. For me, one of the most 
gratifying outcomes has been to see this group transform itself 
from polarized camps into an extraordinary force of intense 
effort to accommodate trust and a willingness to work toward a 
solution.
    The Owyhee Initiative represents the next generation of 
collaborative, cooperative conservation. It transforms 
protracted conflict and uncertainty into a resolution with 
bright prospects for the future. Ranchers can plan for 
subsequent generations. Off-road vehicle users have access 
ensured. Wilderness is established. The Shoshone Paiute Tribes 
know their cultural resources will be protected. The Air Force 
will train its pilots in perpetuity. Local, State and Federal 
Government agencies will have structure to assist their joint 
management of the region. The Owyhee Initiative protects water 
rights, releases wilderness study areas and protects 
traditional uses. This will all coincide with the preservation 
of environmental and ecological health. This is a revolutionary 
land management structure that looks ahead to the future.
    This can't be called solely a ranching or a wilderness or 
Air Force or tribal bill. It is a comprehensive land management 
bill. Each group negotiated aggressively and now remarkably, 
each supports the objectives of those with whom they had 
previous conflict. That is the most crucial element to consider 
as you hear further testimony today. Certainly there are those 
who oppose the Owyhee Initiative. Respectfully I assert that 
they are wrong. There are others who are uncertain or have 
reservations. To them, I pledge to continue working to perfect 
this legislation and to assure its passage. I appreciate your 
willingness to work with us in this process, to achieve a win-
win solution.
    Let's move forward to successfully managed conflict rather 
than to exploit disagreements. The status quo is unacceptable. 
The Owyhee Canyon lands and its inhabitants deserve their 
conflicts to be resolved in a meaningful and timely fashion. 
The surge in support since the bill has been introduced, has 
been powerful with letters of support received from dozens of 
organizations and entities. As with the Work Group that forged 
this agreement, the advocates of the bill have proved strong 
and diverse. The Owyhee Canyon lands, all its inhabitants, and 
the cultures that they represent are truly a treasure of Idaho 
and of the United States and I ask you to join me in ensuring 
their future by passing this legislation. Thank you, Mr. 
Chairman.
    [The prepared statement of Senator Crapo follows:]

    Prepared Statement of Hon. Mike Crapo, U.S. Senator From Idaho, 
                               on S. 3794

    Good Morning, Chairman Craig, Ranking Member Bingaman, and Members 
of the Subcommittee. I'd also like to recognize my colleague from 
Idaho, Representative Mike Simpson, as well as Representatives Walden 
and Blumenauer, who are here today to testify on behalf of their 
legislation.
    Mr. Chairman. I would like to thank you and members of the Energy 
Committee for giving me the opportunity to speak to you today on behalf 
of legislation I introduced earlier this year, the Owyhee Initiative 
Implementation Act of 2006. This comprehensive land management bill is 
the result of a five-year collaborative effort between a remarkably 
diverse group of stakeholders--the Tribe, local, state, and federal 
governments, ranchers, hunters, outfitters, motorized recreational 
users, and conservationists--to resolve decades of heated land-use 
conflict in the Owyhee Canyonlands in the southwesternmost part of my 
home state of Idaho. The Owyhee Initiative is a groundbreaking proposal 
that seeks lasting protection for significant ecological areas in 
Owyhee County while ensuring economic viability for the local 
community.
    Owyhee County contains some of the most unique and beautiful 
canyonlands in the world and offers large areas in which all of us can 
enjoy the grandeur. Many people wonder about the origin of the name 
`Owyhee.' Interestingly, `Owyhee' was an early spelling for Senator 
Akaka's home state of Hawaii. The initial ``0'' in the name is a 
reflection of the fact that in Hawaiian, the name of the island is 
expressed by saying `0 Hawaii, which means ``[This] is Hawaii.'' The 
Owyhee Canyonlands were so named for a group of native Hawaiian fur-
trappers of the Hudson's Bay Company who disappeared there during an 
expedition in the area in 1826. The river and surrounding area was 
named in their honor. Very significantly, this history is brief 
compared to the that of the Shoshone-Paiute Tribes who have worked with 
us from the beginning to develop the Owyhee initiative and support its 
passage. The Shoshone-Paiutes believe this to be a major step forward 
as we protect and honor their homeland.
    This picture of the Confluence of the Owyhee River and Battle Creek 
(point to poster), establishes for everyone the unique character of 
this place. 73% of Owyhee County's land base is owned by the United 
States and while traditionally ranching country, has long been prized 
by recreationists, hunters & anglers and motorized users alike. The 
county is located within an hour's drive of one of the fastest-growing 
metropolitan areas in the nation: Boise, Idaho.
    This combination of attributes is having an explosive effect on 
property value, community expansion & development and ever-increasing 
demands on public land. Given this confluence of circumstances and 
events, Owyhee County has been at the core of decades of heated 
political and regulatory battles. The conflict over land management is 
both inevitable and understandable. The question is: how do we manage 
for this diversity and do so in a way that protects and restores the 
quality of that fragile environment?
    In this context, the core that was to become the Owyhee Working 
Group said ``enough is enough'' and decided to focus efforts on solving 
these problems rather than wasting resources on an endless fight. In 
2001, I was asked to join the effort. I told them if they could form a 
comprehensive base of interests who would agree to collaborate in a 
process committed to problem-solving, I would dedicate myself to 
working with them and if they were successful, would introduce 
resulting legislation. They did and here we are today.
    This unique group of people worked face-to-face and together 
created new ideas. For me, one of the most gratifying and emotional 
outcomes has been to see this group transform itself from polarized 
camps into an extraordinary force that has become known for its intense 
effort, comity, trust and willingness to work toward a solution.
    They operated on a true consensus basis, only making decisions when 
there was no voiced objection to a proposal. They spent hundreds of 
hours modifying proposals and developing solutions. They have driven 
thousands of miles inspecting roads and trails, listening to and 
soliciting ideas from people from all walks of life who have in common 
deep roots and deep interest in the Owyhee Canyonlands. They sought to 
ensure that they had a thorough understanding of the issues and could 
take proper advantage of the insights and experience of all these 
people.
    This is very difficult work for everyone and I want to acknowledge 
the effort of my friend and colleague from Idaho, Representative Mike 
Simpson. I support his work and his legislation.
    The Owyhee Initiative represents the next generation of 
collaborative conservation. It transforms protracted conflict and 
uncertainty into resolution with bright prospects for the future. 
Ranchers can plan for subsequent generations. Off-road vehicle users 
have access assured. Wilderness is established. The Shoshone-Paiute 
Tribe knows its cultural resources will be protected. The Air Force 
will train its pilots in perpetuity. Local, state and federal 
government agencies will have structure to assist their joint 
management of the region. The Owyhee Initiative protects water rights, 
releases wilderness study areas and protects traditional uses. And this 
will all happen within the context of the preservation of environmental 
and ecological health. This is indeed a revolutionary land management 
structure--and one that looks ahead to the future.
    This can't be called solely a ranching, wilderness, Air Force or 
Tribal bill. It is comprehensive land management legislation. Each 
group negotiated aggressively, and now remarkably, each supports the 
objectives of those with whom they had previous conflict. That is the 
most crucial element to consider as you hear further testimony today.
    Certainly there is opposition to the Owyhee Initiative. 
Respectfully, I assert that they are wrong. There are others who are 
uncertain or have reservations. To them, I pledge to continue working 
to perfect this legislation and assure its passage; I appreciate your 
willingness to work rather than simply oppose. We prefer to move 
forward in an effort that successfully manages conflict and land, 
rather than exploit disagreements.
    The status quo is unacceptable. The Owyhee Canyonlands and all its 
inhabitants deserve to have their conflicts resolved in a meaningful 
and timely fashion. The people of Idaho have agreed. The surge in 
support since the introduction has been powerful. I have received 
letters of support from dozens of organizations and entities. As with 
the Work. Group that forged this agreement, the advocates of the bill 
have proved diverse and strong.
    The Owyhee Canyonlands, all it's inhabitants and cultures are truly 
a treasure of Idaho and the United States; I ask you to join me in 
ensuring their future by passing this legislation.

    Senator Craig. Senator Crapo, thank you very much for that 
testimony. Now we move from the southwestern corner of the 
State to the south central part of our State, a few hundred 
miles away, to another beautiful and critical area and being 
represented in the legislation that Representative Mike Simpson 
brings before this committee. Mike, please proceed.

     STATEMENT OF MICHAEL K. SIMPSON, U.S. REPRESENTATIVE 
                           FROM IDAHO

    Mr. Simpson. Thank you, Chairman Craig, Ranking Member 
Bingaman, Ranking Member Wyden, and members of the committee. I 
appreciate you hearing this testimony. I've submitted my full 
remarks for the record and I want to talk to you just a little 
bit about why we are here with this bill today.
    For over 30 years, Idahoans have been debating and arguing 
about some older White Clouds and what to do with them. Several 
attempts have been made, unsuccessfully, to try to create--to 
designate what was going to be wilderness and what was not 
going to be wilderness and how we were going to manage this 
land.
    As I said, there have been unsuccessful attempts and as a 
result, we've been managing this land by lawsuits, which I 
think you'd all agree, is both a poor way and a very expensive 
way to manage public lands. Senator Bingaman, I appreciate your 
opening remarks. The wilderness debates and wilderness bills 
are changing. They are different that they have been in the 
past. The attempts that were made in the Boulder White Clouds 
before were attempts to just draw lines and decide what was 
going to be wilderness and what was not going to be wilderness. 
None of those had been successful.
    For over 6 years now, myself and my staff have been working 
on this legislation. We decided that we had to address more 
than just what was wilderness in the area. We had to address 
the other conflicts that existed and the other problems that 
existed if we were going to get the collaboration and the 
support that was necessary to get this type of bill done.
    Let me tell you that this has four components that we 
identified that were necessary in order to get a bill together. 
One was we had ranchers in the east who were being ran out of 
their area. Some of them were using about 20 percent of their 
AUMs because of Endangered Species Acts and other management 
decisions. They had non-viable operations. We tried to do some 
things to help them. Unfortunately, because of some opposition 
of the cattle industry and concerns about AUM buy-outs and 
those types of things, we haven't been successful in this bill 
yet, at helping them but we are still working on ways and we 
think we have some methods that we can use to address their 
concerns.
    Second, we have Custer County. This is a county that is 3.4 
million acres, bigger than three States. It is 96 percent 
Federal land. That means 4 percent of the property are paying 
the property taxes to provide the services that everyone uses. 
People that come there and recreate, these people, these 4,000 
citizens of Custer County, on this 4 percent of the land are 
paying to provide the services for these individuals. We needed 
to do something to give them a larger economic base on which to 
support themselves.
    Third was the motorized use. We have areas in the Boulder 
White Clouds that motorized use has been used over the years. 
We wanted to protect that high elevation snow machining that 
these individuals use so they wont' be run out of there in the 
future by lawsuits. Now, someone can still bring a lawsuit but 
at least a Federal law would be on their side and it still 
leaves the Forest Service with the ability, if there is damage 
because of this, environmental damage and other things, to be 
able to close down certain trails but they would have to open 
other ones of comparable use.
    Fourth is the wilderness area. This creates 315,000 acres 
of wilderness and releases 131,000 acres of wilderness study 
area for multiple use. We've also put a very unique provision 
in here, which is the first ever wheelchair accessible trail in 
a wilderness area. If you think this is a paved trail, you 
ought to see these guys in their wheelchairs. Some of the areas 
are pretty tough to walk in.
    Some of the provisions caused people some concern. It has 
been called both a motorized Disneyland and by motorized people 
that were locking all the motorized people out. Well, both 
those things can't be true. The reality is and what we've tried 
to do is strike a compromise so that we won't be managing this 
motorized use by lawsuits in the future. Some are concerned 
about the land transfers. We give this county 5,000 acres of 
public lands. Most of it is used for parks, for transfer 
stations and other things for public uses.
    There are 162 acres that caused people some heartburn 
within the Stanley area. If you look at it, over the years, we 
have transferred 7,000 acres of private land into the Sawtooth 
National Recreation Area. What we are asking for is to transfer 
162 acres out so that they can build homes on it, for home 
sites. You've got a city there that actually has a $200,000 
budget. They can double their city budget with the home sites. 
We've got building restrictions in there that the Sawtooth 
Society requires for them to support it, which I support. Some 
people are concerned that we are putting building restrictions 
in Federal law. I can tell you that is absolutely essential 
that those remain in the bill so that the Sawtooth Society and 
the SNRA can maintain the unique characteristics of Stanley.
    Some people are concerned that we don't have reserved 
Federal water rights in this bill. I would remind you that the 
Boulder White Clouds is headwaters. It doesn't need a reserved 
water right. In fact, we've used the language that has commonly 
been used in the Colorado Wilderness bills and other areas, to 
preserve the water in the area.
    Last, I would ask the committee to remove, during the 
markup, Section 302 as it applies to the unpatented mining 
claims. CBO has scored that at a cost of $155,000 million, 
which is kind of a strange score. What they are saying is, they 
would lose that amount of revenue but it is revenue that they 
would never be able to mine anyway. But nevertheless, it is 
what is it. They've said it is $155,000 million cost so we 
would ask you to remove that section of the bill as it relates 
to unpatented mining claims.
    Mr. Chairman, I can tell you that every provision in this 
bill is essential to this compromise. Many people have worked a 
long time to try to create a bill for Idaho by Idahoans. I hope 
this committee supports it during markup and I look forward to 
working with you. Thank you, Senator.
    [The prepared statement of Mr. Simpson follows:]

  Prepared Statement of Hon. Michael K. Simpson, U.S. Representative 
                               From Idaho

    Mr. Chairman, it is a pleasure to testify before Idaho's senior 
Senator and alongside Idaho's junior Senator. I want to thank you for 
holding today's hearing on the Central Idaho Economic Development and 
Recreation Act (CIEDRA). It is historic that both Senator Crapo and I 
are here today with separate wilderness bills that were developed in 
Idaho by Idahoans for Idahoans. This is a significant occasion and a 
long time coming. I am pleased that after significant work in the House 
Resources Committee, we have moved CIEDRA out of the House and are here 
before your committee today.
    Since my election to Congress, one of my priorities has been to 
resolve conflicts in central Idaho's Boulder-White Cloud Mountains. 
Mine is not the first attempt to solve management issues in this area. 
Senator McClure and Governor Andrus worked together to find a 
wilderness compromise. Representative Stallings and then Representative 
Crapo each made their own attempts. Their efforts faced a political 
climate that had little desire for compromise.
    Things are different today; lawsuits, national monument threats, 
ESA protections for fish and wildlife, as well as a myriad of other 
restrictions and conflicts have forced all parties to reconsider the 
need for a compromise in the Boulder-White Clouds. Today we have a rare 
opportunity to control our own destiny by crafting legislation that 
fits the needs of the people who live and recreate in central Idaho 
while creating substantive wilderness.
    During the past three years, my staff and I have had countless 
meetings with the groups and individuals that will be impacted by my 
proposed wilderness designation. These meetings included Custer 
County's commissioners, ranchers, snowmobilers, off road vehicle users, 
outfitters, conservationists and others as well as public meetings I 
held in Stanley, Challis and Ketchum. What I heard made me believe that 
we could find a positive outcome in the management of the Boulder-White 
Clouds that benefits all users.
    In my discussions I found there were some important issues that had 
to be addressed if this bill were to move forward. These include 
providing economic stability for Custer County, securing roads and 
trails for today's motorized recreation users and future generations of 
motorized users, providing economic viability to ranching families, and 
creating a substantive wilderness. CIEDRA represents my best effort at 
resolving these issues in a manner that provides certainty for today's 
users and future generations in the Boulder-White Clouds.
    This bill is a carefully balanced compromise that seeks to protect 
the needs of the people who live and recreate in the Boulder-White 
Clouds while creating a substantive wilderness. It's unique in that we 
are trying to be inclusive and recognize the needs of motorized users, 
the community surrounding it, the ranchers who live in the area, even 
creating new opportunities such as a first of its kind ``primitive 
access wheelchair trail'' into the wilderness. The old approach to 
wilderness of sacrificing the needs of individuals and specific user 
groups to the benefit of others will not work anymore. I began this 
process with the assumption that those who are affected by wilderness 
creation must be a part of the solution. In short, the needs of the 
people who live and recreate in the area are as important as the lines 
drawn on a map.
    What I have heard has made me believe we can find a positive, 
reasonable outcome for the management of the Boulder-White Clouds that 
benefits all users. It has also made me realize there are four main 
components that have to be addressed in this legislation.
    The first component is the need for economic development in Custer 
County. Custer County is larger than three states yet has just over 
4,000 people. Unfortunately, it is burdened with a high proportion of 
public lands with over 95% of the county's 3.4 million acres 
administered by federal agencies. As we will hear from Custer County 
Commissioner Hansen, this grossly disproportionate public ownership 
causes a severe strain on their resources. Simply put, the county's tax 
base, or more specifically the lack thereof, is inadequate to support 
the services required for such an expansive county. I think it's 
important to note, the county's citizens and taxpayers are supporting 
those who recreate in the area by maintaining roads, law enforcement, 
search and rescue, medical aid and other services, infrastructure and 
facilities.
    The second component is ensuring our ranchers, outfitters, miners 
and others who are permitted to operate on Forest Service and BLM lands 
in the Boulder-White Clouds can continue to maintain their livelihoods. 
They need an opportunity to remain as viable and sustainable operations 
so that they and their children can continue their traditional way of 
life. I must say that at this point, we have not found the solution to 
compensating ranchers for their AUMs. In the House passed bill I 
remained silent on the grazing issue. I will continue to work to find a 
way to compensate these ranching families in a manor that provides for 
AUMs that they have lost and stand to lose.
    The third component consists of recreation and motorized users who 
need certainty so that they are guaranteed continued access to 
recreation areas without finding their roads, trailheads, or 
snowmobiling areas have been shut down overnight.
    The last component is to release 131,600 acres of wilderness study 
areas back to multiple use according to their current management plans 
and to designate approximately 319,000 acres as wilderness in the 
Boulder-Hemingway Wilderness, the White Clouds Wilderness and the Jerry 
Peak Wilderness.
    I would like to address some concerns I hear regarding this 
legislation.

          1. There are concerns with the transfer of 162 acres to 
        Stanley and Custer County. As part of the overall compromise 
        162 SNRA acres adjacent to Stanley and Custer County is a small 
        price to pay to create a 300,000 acre wilderness in the 
        Boulder-White Clouds. With respect to these 162 acres, the land 
        is being made available to aid the local economy by increasing 
        the tax base through the sale of no more than 14 home sites and 
        providing land for low income housing or parks and other public 
        purposes. There are significant deed restrictions on these 
        lands to assure that the SNRA's special qualities are 
        protected.
          2. I have heard that my bill will both create a ``motorized 
        Disneyland'' and in the alternative it will ``prohibit all 
        motorized activity''. Under CIEDRA there will not be an 
        increase in motorized use beyond existing motorized roads or 
        motorized trails and at the same time motorized users will not 
        be locked out of the Boulder-White Clouds. With the exception 
        of closing one motorized trail and two segments of motorized 
        trails, the SNRA travel map will remain as it is today with the 
        requirement that if roads or trails are impeded they shall be 
        fixed or placed in a manner that will allow continued access to 
        traditional recreation areas or trailheads. As part of our 
        compromise, we have closed the motorized Grand Prize corridor 
        and we have left the Germania motorized corridor open. In 
        addition, snowmobilers will be locked into their high elevation 
        snowmobile areas in the Fourth for July, Washington Basin, 
        Champion Lakes and Warm Springs areas. By its name, the SNRA is 
        a ``recreation area'' which encompasses many uses. Today and 
        into the future, we will not deprive traditional recreation 
        users for the benefit of others. The bottom line is that there 
        will not be new motorized trails or roads beyond what are used 
        today. My goal has been to maintain the status quo as close as 
        possible so all can use and enjoy the SNRA.
          3. Some have stated that there is no ``trigger language'' in 
        CIEDRA and that promises made in the legislation will not be 
        kept. What they do not state is that immediately upon enactment 
        of CIEDRA the following will take place: Custer County and the 
        local communities will receive their land grants; one million 
        dollars that has already been appropriated will go immediately 
        to Custer County; 131,600 acres will be released from 
        wilderness study area into multiple use under the current 
        management plans; the existing travel plan will be locked into 
        place for motorized users as detailed above; as well as many 
        other aspects of the legislation.
          4. I have also heard that the pristine waters of the Boulder-
        White Clouds will be vulnerable to future appropriations by the 
        State of Idaho. This is incorrect as CIEDRA contains language 
        regarding water rights commonly referred to as ``headwaters 
        language''. This language makes clear that the wilderness is 
        high elevation land, that there are no upstream threats to its 
        waters and thus, it is not necessary to assert a new federal 
        water right to protect those waters. In addition, the language 
        prevents any new water projects from being developed inside the 
        wilderness. This language was first proposed by Colorado 
        Democratic Senator Tim Wirth in 1993 and has been used a number 
        of times to apply to that state's high elevation wilderness 
        areas, most recently, I believe, by Mr. Mark Udall in the James 
        Peak Wilderness designated in 2002.
          5. In response to concerns by the BLM related to Section 302. 
        ``Land Acquisition and Acquisition of Unpatented Mining Claims 
        in Management Area'', I am asking Senator Craig to remove that 
        provision in markup or will remove it myself in conference. It 
        has come to my attention that my intentions of acquiring 
        unpatented mining claims within the management area will have 
        unintended consequences on general mining law.
          6. Finally, it is critical that the restrictions on 
        development on SNRA lands conveyed to Custer County and Stanley 
        in Sections 101 and 103 remain as written. These restrictions 
        were developed cooperatively between the Sawtooth Society, the 
        City of Stanley and the Custer County Commissioners. They are 
        vital to the integrity of CIEDRA and removing or changing these 
        provisions would alter the cooperative agreement that was 
        reached in Idaho putting the true compromise of CIEDRA in 
        peril. I would ask the committee to inquire directly with 
        Commissioner Hansen regarding the necessity of these provisions 
        when his panel is up shortly. Cliff was directly involved in 
        developing the transfers and recognizes the importance of the 
        provisions in providing ``assurances'' to the Sawtooth Society 
        and others that any development on these parcels will take 
        place as agreed upon with explicit restrictions.

    There is no doubt that Idahoans are passionate about CIEDRA. In my 
office alone I have received over 3000 pieces of mail including 
personal letters, form letters, post cards and petitions. I know that 
Senators Craig and Crapo have received a significant amount also.
    The scope and breadth of the bill is one of its greatest detriments 
in that it provides its critics an opportunity to read, interpret, and 
disseminate their views in any manner they see fit. This is not a 
perfect bill. I have told many people that this isn't the bill I would 
have written-which sounds kind of funny since I'm the author-however, 
it's the compromise that best balances the needs of the people who live 
near and use and enjoy the Boulder-White Clouds. I would like to add 
that these compromises place the legislation on a precarious knife 
edge. I want to reassure people that I will not allow the compromises 
we reached in Idaho to be changed here in Washington in a manner that 
affects the substance of the bill.
    To the people on each side of the wilderness debate who oppose this 
bill I would only ask--are they fighting my efforts as a continuation 
of past wilderness battles-seeking all or nothing--or are they opposing 
my efforts because they think that today's users and future generations 
will be made worse off. It appears to me that those individuals and 
organizations on both sides who oppose my efforts would prefer to roll 
the dice and take their chances on the status quo of threatened 
lawsuits and litigation rather than see their own or another user group 
gain a certain, definite future for their continued use and enjoyment 
in the Boulder-White Clouds.
    CIEDRA meets the needs of today's users and secures the future for 
generations of Idahoans who want to continue using and enjoying our 
beautiful Boulder-White Clouds. I firmly believe that this is our last 
best opportunity to resolve many of the long standing and thorny land 
use, recreation, and wilderness designation issues in Central Idaho. It 
may well be another 25 years before we see this chance again. By 
enacting CIEDRA, we can put to rest many long standing conflicts and 
move ahead to a stronger, more secure economy in the rugged, beautiful 
and productive heart of Idaho.
    I want to thank Senator Craig again for allowing me to testify 
today.

    Senator Craig. Mike, thank you very much. Now let us turn 
to our Oregon colleagues who've joined us today from the House 
and as both of my Oregon colleagues who are on the dais, have 
mentioned that they have worked mightily on a piece of 
legislation that is co-equally before us at the moment. So let 
us turn, first of all, to Representative Greg Walden for any 
comments he would like to make and then to Representative Earl 
Blumenaur. We welcome both of you.

      STATEMENT OF HON. GREG WALDEN, U.S. REPRESENTATIVE 
                          FROM OREGON

    Mr. Walden. Thank you very much, Mr. Chairman. We certainly 
appreciate the opportunity to be here today and your indulgence 
in allowing us to comment on this very important piece of 
legislation. I want to recognize my Oregon colleagues and 
Ranking Member of the Subcommittee, Mr. Wyden, Mr. Smith, my 
friend and colleagues and other members on the committee for 
their work on this issue as well and we are delighted to be 
here today. I would ask that my full statement be inserted into 
the record, along with a handout we have on some fact sheets 
involving the mountains.
    Senator Craig. It will be.
    Mr. Walden. Mount Hood is many things to many people but 
for most, it is Oregon's recreation mountain where most people 
who come to visit actually come to ski. That's the predominant 
use on the mountain. It is also home to great backpacking, 
hiking, viewing, camping, not to mention snowmobiling, 
climbing, bird watching and much more and from its flanks to 
the water for farms and cities, it is a spiritual place for 
Native Americans and holds similar qualities for many who 
escape to its environs today.
    When Earl came to me more than 3 years ago, to say the 
mountain is under pressure. Let's work together to find 
something that can help solve the problems. I agreed to work 
with him and we have had an extraordinary and positive and very 
public partnership in crafting the legislation that we bring to 
you today from the House. This has not been easy and it's not 
going to be easy to get into law. But we are here to try and 
find common ground that we actually enact into law to provide 
the protections, whether they be wilderness or forest health 
improvement or improvements to recreation or improvements to 
transportation, that I think in common, Oregonians would like 
to see happen.
    I want to tell you how we built our plan. We started by 
looking at what are the protections already on the mountain? 
First, in green, you will see there are 118,350 acres already 
designated as roadless. The next overlay will show you Lake 
Success reserve of 360,000 acres already designated on the 
mountain to be managed for old growth characteristics. The 
forest green color next is designed for timber production, 
about 99,000 acres. The next overlay shows the current wild 
land urban interface area. Mount Hood National Forest lies 
within 50 miles of nearly two million people.
    The blue overlay is the repairing reserves. These are areas 
protected around our streams today. That's 71,400 acres.
    The next show the bug infestation areas, actually I think 
it is the red one, right, Colby?
    [Off mic--identified as Colby]: It is out there.
    Mr. Walden. These are the class II and III areas on the 
forest, predominately on the north and east sides, that are 
overstocked and are at high risk of catastrophic fire. The 
final one, I think, is the bug infestation area, some 87,000 
acres of land that is subject to catastrophic fire because of 
the overstock and the bug infestation.
    We looked at all of those overlays and then in multiple 
public sessions starting in August 2003, one of three summits 
we held where we invited everybody who had an interest in this 
issue to bring forth their ideas and suggestions and we built a 
plan from the ground up. That is the legislation that the House 
has sent to you today, much of which you have incorporated into 
the Senate version of your bill and we are very appreciative of 
that.
    We are here because we want to see a law. We are here 
because as Oregonians, all of us--the House, the Senate--care a 
lot about this mountain. Earl and I cared enough about it that 
last August we became the only bipartisan backpacking 
congressional duo in Congress. We actually put on 50-pound 
packs or more and hiked around the mountain and in the course 
of that hike, we included advocates for every side of this 
issue: the technical experts from the Forest Service who talked 
about bug infestation, recreation, wildlife issues, geologic 
and hydrological issues, to give us help and guidance. I have 
to tell you, it was an extraordinary hike and we learned a lot 
and we've learned a lot from our various summits and our 
various roundtables and in working together and I am convinced 
that if we are willing to exert the same energy in this process 
that we exerted on the mountain, then all of us together can 
hopefully, sooner rather than later, come to terms with a bill 
that makes sense for all the users of the mountain and for the 
future of Oregon and its citizens.
    Mr. Chairman, thank you again for your assistance in 
allowing us to be here today and to testify and that of our 
staff, on both sides of the isle. We look forward to working 
with you to come to conclusion with an Oregon plan that can 
become law. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Walden follows:]
Prepared Statement of Hon. Greg Walden, U.S. Representative From Oregon
    Chairman Craig, Ranking Member Wyden, committee members. Thank you 
for allowing us to testify today regarding the future of Mt. Hood.
    Mt. Hood is many things to many people, but for most it is Oregon's 
recreation mountain where most people who visit come in the winter to 
ski. It is also home to great backpacking, hiking, viewing and camping, 
not to mention snowmobiling, climbing, bird watching and much more. 
From its flanks flow water for farms and cities. It is a spiritual 
place for Native Americans and holds similar qualities for many who 
escape to its environs today.
    It is also an area under increasing pressure from human demands and 
from Nature. Bugs are chewing their way through its forests and fuel 
loads are increasing. Some 87-thousand acres suffer from significant 
amounts of dead trees from recent bark beetle outbreaks. The overall 
growth rate of trees in the forest is more than 13 times that of 
harvest or fuel reduction activity. The natural yearly tree death rate 
exceeds all stewardship activities on the forest by an eight-toone 
ratio. And this summer we saw first hand the devastating effect of fire 
on Mt. Hood as it shut down access, polluted our air sheds and 
destroyed habit.
    More than a decade ago, an historic agreement laid out a plan to 
manage its forests, and yet the promises of the Northwest Forest Plan 
have gone unfulfilled. Areas that should be managed for late 
successional reserve--old growth characteristics--are in desperate need 
of work, for example.
    For nearly three decades, a dispute has raged in the upper Hood 
River Valley about various development plans for the north side of Mt. 
Hood. The opposing parties reached a mediated settlement to end such 
plans. That settlement agreement, supported by the local county and the 
state of Oregon, requires Congressional approval to take effect.
    I tell you this because after nearly four years of public work, my 
colleague from Portland, Earl Blumenauer and I wrote and passed in the 
House a comprehensive measure to address all of these issues and more. 
Our bill, H.R. 5025, won unanimous approval of the House Resources 
Committee and the full House, and the President has said he will sign 
it into law.
    Earl and I recognize that this is a bicameral process, and have had 
our staffs working day, night and weekends to seek comment from the 
many stakeholders we've consulted over the years in an effort to find 
accommodation with the senate proposal which was made public earlier 
this month.
    We look forward to finding common ground on legislation that can 
pass both chambers and provide the necessary legacy Mt. Hood deserves.

    Senator Craig. Greg, thank you very much. Your timing is 
excellent. You are right on cue and a bipartisan backpacking 
trip is, in itself, not a junket.
    Mr. Walden. We actually picked up junk along the way.
    Senator Craig. Oh, I see. All right.
    Mr. Walden. I carried out our trash----
    Senator Craig. All right, thank you very much. Earl?
    Mr. Blumenauer. Dozens of dollars on freeze-dried food!
    Senator Craig. Welcome to the committee. Please proceed.

            STATEMENT OF HON. EARL BLUMENAUER, U.S. 
                   REPRESENTATIVE FROM OREGON

    Mr. Blumenauer. Thank you, Mr. Chairman, Ranking Member 
Bingaman and Senator Wyden and Senator Smith. We appreciate 
both the courtesy to make a presentation today and to focus on 
the leadership that this committee can have, not just in our 
legislation but other items. It can really be a signal event 
for this Congress.
    As my colleagues have mentioned, this represents a 
tremendous amount of hard work by thousands of Oregonians who 
have found common ground on our icon. I can say that now in my 
34th year of policymaking on the State, local and Federal 
level, this is the single-most rewarding experience I have had 
in terms of how the process can work for things that we hold 
dear. And I extend my heartfelt thanks to my colleague, Greg 
Walden, for his friendship, even if it was his idea to hike 
around the mountain! I had some second thoughts about that, 
about the third night. But it was an extraordinary punctuation 
point where we were able not just to experience it ourselves 
but to invite dozens of people for a series of meetings on the 
move and it made this even more real for me.
    I'm proud that we've been able to enact, in the House, the 
first new wilderness legislation on Mount Hood in either 
Chamber, in 22 years and I believe that the collaboration with 
Senator Wyden and Senator Smith, can take what I think is an 
excellent piece of House legislation, we think we can make it 
stronger with your help. We've had tremendous effort in the 
last couple of weeks on behalf of staff from all four of us, 
which leads me to think that we are perhaps only hours away 
from being able to tighten these things down and reach what 
Senator Smith referred to as an Oregon solution. I hope that is 
something that we are able to deliver on. I'm not going to go 
through further the process so that I am proud of it and it was 
great fun. But I want to say, Senator Smith, that I don't 
regard it as plagiarism. I think this has been an iterative 
process. I think it would be unfortunate to re-plow the same 
ground and I think what we have all come to share as a common 
framework, allows us to get to a decision point much, much 
faster, with the help of this committee.
    Senator Smith. The pleasure in common was just a poor 
attempt at humor!
    Mr. Blumenauer. I am pleased that the language you have in 
the Senate bill, for instance, incorporates the so-called 
mediated settlement. I think what is critical is less the 
mechanism than we honor the hard work that people on the north 
side of the mountain have done over the last years, to settle a 
long simmering dispute that puts at risk the delicate 
environment on the north side of the mountain and I think that 
this is an extraordinary opportunity, not only to protect that 
fragile north side but also to avoid needless expenditure of 
tens of millions of dollars that nobody has in their budget, if 
development were to occur on the north side.
    Our bill, frankly, is--probably it did not go as far as 
some people would--frankly, that I represent and candidly, if 
it were just me and not the legislative process, the 
legislation would look much different and have a larger 
footprint. Frankly, my colleague, Congressman Walden, has, 
perhaps in the most difficult of positions, because the people 
he represents, this legislation pushed limits. But our goal was 
and remains to be able to pass a bill in a difficult 
environment that honored the mountain and was an important step 
forward. We do feel that with the House and the Senate united 
on a solution to a Oregon solution that we can successfully 
stretch further in terms of meeting Mount Hood's challenges. 
We've already suggested that it looks like we're in the 
neighborhood of 100,000 acres and there are areas with the wild 
and scenic that working together, we might be able to 
identify--that would meet those tests and be able to move 
forward. I just want to say that as we finish the final 
discussions with our Senate partners, hopefully this week, that 
together with the leadership of this committee, we can break 
new ground, not just for Oregon and Mount Hood, but as 
referenced here by the senator and representative who spoke 
before, that you are dealing with things that can move the ball 
forward in a different way. We are appreciative of the 
opportunity to be here this morning and continue the process 
and ultimately, it's going to make a difference not just for 
the future of our mountain, but I think a model for natural 
resource management in Oregon and beyond. We look forward to 
working with the committee in any way that we can.
    [The prepared statement of Mr. Blumenauer follows:]

    Prepared Statement of Hon. Earl Blumenauer, U.S. Representative 
                              From Oregon

    I would like to thank Chairman Craig and Ranking Member Wyden for 
the opportunity to testify today on H.R. 5025, the ``Mount Hood 
Stewardship Legacy Act.'' This proposal represents a tremendous amount 
of hard work by thousands of Oregonians who found common ground on the 
crucial issues concerning our state's greatest icon, Mt. Hood. I was 
pleased to see it pass unanimously by the House of Representatives on 
July 24th, 2006 and I appreciate the Senate's willingness to discuss it 
today.
    I look forward to this hearing as another chapter in an exciting 
four year process. The collaboration with my colleague on the House 
side, Representative Greg Walden, and more recently with Oregon's two 
Senators, has been a very rewarding process. While I am proud of our 
House legislation, which would designate the first new wilderness on 
Mount Hood in 22 years, I believe that by working with the Senate we 
can make it even stronger.
    The strength of this proposal comes from extensive involvement by 
citizen groups, environmental organizations, recreation advocates, 
public agencies, tribal representatives and local governments. With 
their help, we were able to create a bill that establishes a long term, 
sustainable vision for the mountain and addresses immediate challenges 
of wilderness protection, recreation, transportation, forest health and 
water quality, development, and Native American rights. The ideas in 
this bill were developed through two major public summits, a 41-mile 
hike around the mountain, and long sessions with experts and 
stakeholders, and were the subject of public review and comment at two 
town hall meetings last fall--one in Portland and one in Hood River.
    I would like to highlight one specific piece in H.R. 5025 that I 
hope will continue to be part of the Senate discussion. The House 
legislation incorporated a local agreement that settles a 30-year 
dispute by shifting development away from the pristine North side while 
keeping it on the South side of Mt. Hood where infrastructure already 
exists. Allowing development on the North side would not be in the 
public interest, and would bring huge impacts in just transportation 
costs alone. The House and Senate proposals address this issue in 
different ways, but it is essential that this agreement, which is 
widely supported by conservation groups, citizens, the ski industry, 
and county government, is honored.
    Thanks again for the opportunity to be here this morning and to 
continue this conversation on building a legacy for Mount Hood. I 
believe our success here is critical not only for the future of the 
Mountain, but as a model for natural resources management in Oregon.

    Senator Craig. Gentlemen, thank you both for being here. It 
is also very good to hear that you are working together to see 
if we can't arrive at one approach toward this and I think that 
is going to be appreciated by all of us, if that can be 
accomplished. Are there questions of my colleagues, of any on 
the panel? If not, we all thank you very much for being here 
this morning and participating. Mike, if you wish to join us at 
this dais, you are certainly welcome to do so, for the 
proceedings of the day.
    Thank you and we'll call our first panel forward. Let me 
once again invite Chad Calvert, Principal Deputy Assistant 
Secretary, Land and Minerals Management, Department of Interior 
and the Hon. Mark Ray, Undersecretary, National Resources and 
Environment, Department of Agriculture.
    Chad, rearranging the deck chairs on the Titanic does not 
get you out of testifying first.
    Gentlemen, thank you for being with us this morning. Chad, 
you may proceed.

     STATEMENT OF CHAD CALVERT, PRINCIPAL DEPUTY ASSISTANT 
  SECRETARY, LAND AND MINERALS MANAGEMENT, DEPARTMENT OF THE 
                            INTERIOR

    Mr. Calvert. Thank you, Mr. Chairman. I'd start with just 
two indulgences for you. I promise to keep my statement brief. 
I've got four bills here in 5 minutes but I will hopefully come 
in under that.
    Senator Craig. Well, because both of you are covering a 
much broader range than are our witnesses, I'll be a little 
lenient but not too lenient.
    Mr. Calvert. Thank you. The second indulgence--I just offer 
which dance you would like to see us perform this morning, a 
two-step or perhaps we could attempt a line dance for you, if 
that's--
    Senator Craig. At arm's length.
    Mr. Calvert. All right, well thank you for the opportunity 
to testify today. I'll start with Copper Valley. The Department 
of the Interior supports the goals of S. 3000, the Copper 
Valley Native Allotment Resolution Act and this would resolve 
many issues that were raised by the General Accountability 
Office in 2004. The Department's concerns are noted in our 
written statement. We do have an interest in granting this 
easement to the Copper Valley Electric Association and we have 
some concerns about two provisions in the bill, notably 
relating to the codification of the other easements and the use 
of the judgment fund.
    With regard to the Prehistoric Trackways National Monument, 
the Department supports this bill. We too, are excited about 
the discovery of these trackways. We believe they are natural 
wonders of the world and would like to work with the sponsor, 
Senator Bingaman and Senator Domenici and the subcommittee 
staff on the legislation.
    I think the theme that I see here today is really one of 
cooperative conservation and the three bills relating to land 
uses in Idaho and Oregon are strong examples of cooperative 
conservation and we want them all to be successful. The Owyhee 
Initiative Implementation Act is the culmination of a multiyear 
effort to resolve land use controversies in southern Idaho. All 
of the participants in this process deserve credit for their 
hard work, diligence and cooperative spirit. Senator Crapo 
particularly deserves recognition for his ongoing commitment to 
the Initiative.
    We would like to work with the committee. We support the 
resolution of these local entities' conflicts. We do want to 
work with the committee to resolve some issues relating to land 
valuation and what we see as issues relating to grazing 
retirements, before the legislation moves forward.
    With regard to the Central Idaho Economic Development and 
Recreation Act, this too, is the result of a lengthy, very 
thorough, collaborative process led by Congressman Simpson. It 
would resolve a number of issues in the Boulder White Cloud 
area and help deal with Custer County and its 96 percent 
Federal land. We want to work with Mr. Simpson and this 
committee on issues relating to that, that are raised in my 
written statement. We have definitely supported bills of this 
kind before and we support of the use of these types of 
collaborative agreements.
    There are issues relating to the transfer of Federal lands 
without compensation and language relating to the purchase of 
patented mining claims. It may be that the issues relating to 
unpatented mining claims are resolved before I had an 
opportunity to testify.
    With that, I will conclude and I'll be happy to answer any 
questions that you have.
    [The prepared statement of Mr. Calvert follows:

    Prepared Statement of Chad Calvert, Principal Deputy Assistant 
  Secretary, Land and Minerals Management, Department of the Interior
                                S. 3000

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to testify on S. 3000, the ``Copper Valley Native Allotment 
Resolution Act of 2006.'' As discussed in more detail below, the 
Department supports the goals of S. 3000, which would grant rights-of-
way for electric transmission lines over certain Alaska Native 
allotments.

                               BACKGROUND

    The issues related to this bill are described in detail in a 
September 2004 Government Accountability Report titled ``Alaska Native 
Allotments: Conflicts with Utility Rights-of-Way Have Not Been Resolved 
Through Existing Remedies'' (GAO-04-923). As noted in the GAO Report, 
the Department and the State of Alaska have granted rights-of-way for a 
variety of uses, including electrical transmission lines, and some of 
these rights-of-way cross Alaska Native allotments, giving rise to 
conflicts between Alaska Natives and holders of rights-of-way. One such 
holder is Copper Valley, a rural nonprofit electric cooperative which 
provides electricity to about 4,000 members in Alaska's Valdez and 
Copper River Basin areas. According to the Report, as early as 1958, 
Copper Valley obtained rights-of-way permits from Interior, and later 
from the State of Alaska, to construct and maintain electric lines. 
However, in some instances it has been determined (either by the 
Department or the Alaska Realty Consortium, which provides realty 
services for over 160 Native allotments in south-central Alaska) that 
Copper Valley is trespassing or allegedly trespassing across Alaska 
Native allotments.
    Since the late 1980s, the Department has applied the ``relation 
back'' doctrine when addressing disputes between Alaska Native 
allotments and rights-of-way holders. Under that doctrine, the rights 
of Alaska Native allottees relate back to when each first started using 
the land, not when the allotment was filed or granted. Prior to that 
time, Alaska Native allotments generally were subject to rights-of-way 
existing at the time the allotment was approved. Federal courts have 
dismissed legal challenges to Interior's use of the relation back 
doctrine because of sovereign immunity.

                               DISCUSSION

    The GAO identified 14 specific allotments where Copper Valley's 
rights-of-way conflict with Native Allottee ownership. S. 3000 would 
resolve the dispute by granting to Copper Valley a right-of-way over 
the specific allotments listed in the bill; the bill would also ratify 
any existing right-of-way within a federally-granted highway easement 
granted by the State to Copper Valley before the date of enactment. In 
exchange for the rights-of-way granted across each of the properties, 
owners of the listed allotments would each be compensated based on the 
results of an appraisal conforming with the Uniform Appraisal Standards 
for Federal Land Acquisitions, plus interest, from the date of first 
entry of Copper Valley on the allotment. We have not yet conducted any 
appraisals, but we do not expect these costs to be significant. 
Compensation would be paid from the Judgment Fund (31 U.S.C. 1304).
    As noted above, the Department supports the resolution of this 
matter. With this in mind, however, we do have some concerns with the 
bill. Specifically, we recommend that section 3(c)(1) be deleted. The 
provision addresses a property dispute between the State and the 
federal government based on highway easements, and has nothing to do 
with conflicts between Copper Valley and owners of Alaska Native 
allotments. In fact, this section would reverse a longstanding 
Departmental interpretation upheld by the Ninth Circuit Court (See 
United States v. Gates of the Mountains Lakeshore Homes, Inc., 732 F.2d 
1411 (9th Cir. 1985)), and could be cited by the State as a precedent 
in future disputes with the BLM. In addition, we have concerns about 
whether this is an appropriate use of the Judgment Fund. We also 
believe that section 3(c)(1) is unnecessary, as section 3(a) provides 
the ratification being sought by Copper Valley. Finally, we note that 
there are alternative methods for calculating the value of the property 
interest granted to Copper Valley that could result in different 
amounts of compensation being awarded to allotment owners. We think 
this is an important issue and one that should be addressed. We look 
forward to working with you on this and other technical issues.

                               CONCLUSION

    Thank you, Mr. Chairman, for the opportunity to present this 
testimony. I will be pleased to answer any questions you and other 
Members of the Committee may have.

                                S. 3599

    Thank you for the opportunity to testify in support of S. 3599, the 
Prehistoric Trackways National Monument Establishment Act. We are 
excited about the discovery of these important prehistoric trackways on 
Bureau of Land Management (BLM) managed land in New Mexico and agree 
with Senator Bingaman that we must permanently protect these 
exceptional resources.

                               BACKGROUND

    The Paleozoic trackways site is located on public land managed by 
the BLM in the Robledo Mountains in south-central New Mexico. The area 
is located within a sequence of sedimentary rocks representing a 
transition zone between marine and continental environments that 
existed during the early Permian period (280 million years ago). During 
times of higher sea level, limestone formed. The limestones contain a 
variety of invertebrate fossils. As the sea retreated, a tidal flat 
environment developed and sand, silt and clay dominated deposition. The 
sandy siltstones contain a variety of sedimentary structures, including 
raindrop impressions, mudcracks, and ripple laminations. These sandy 
siltstones are known to contain fossil tracks of land dwelling 
vertebrates which roamed New Mexico before the age of the dinosaurs.
    In 1987, Las Cruces resident Jerry MacDonald discovered a major 
Paleozoic trackways area. Over the next few years, other significant 
sites were also discovered by MacDonald. The resources that have been 
found in the Robledos are considered by scientists who have examined 
them to be the largest, and scientifically, the most important 
Paleozoic fossil footprint discovery ever made in the western United 
States and possibly the world. The trackways are extremely diverse and 
varied, and appear to represent a very broad spectrum of ancient animal 
life; including the 11 foot long, fin-backed Dimetrodon and the big 
headed amphibian Batrachichnus, as well as other reptiles, amphibians, 
insects and other invertebrates. They also represent not just an 
occasional footprint, but entire trackways where different animals had 
left a record of activity. This is considered the best locality in the 
world for early Permian tetrapod trackways.
    In 1990, the Congress passed legislation sponsored by Senator 
Bingaman along with Senator Domenici and Representative Skeen which 
withdrew 736 acres around the trackway site and called for a study of 
the area. In 1993, the BLM using its resource management planning 
process designated 720 acres as a Research Natural Area (RNA). The 
study was completed in 1994 and gave a range of alternatives for 
protection, most of which were implemented, including an agreement BLM 
initiated with the New Mexico Museum of Natural History and Science to 
ensure professional curation of fossils. The Museum holds the largest 
collection of these important fossils to allow for scientific study and 
interpretation from around the world. In fact, the public is now able 
to access the collection on the Museum's website. As part of the BLM's 
ongoing planning process, additional protections for the area are being 
considered.
    Jerry MacDonald's excavation and collection of material from the 
trackways site is now preserved in the New Mexico Museum of Natural 
History and Science, the Carnegie Museum, the Smithsonian, the Los 
Angeles County Museum, and the City of Las Cruces Natural History 
Museum.
    The legislation before the Committee today would designate 5,367 
acres of public land in Dona Ana County as the Prehistoric Trackways 
National Monument. The legislation's stated goal is to conserve, 
protect, and enhance the unique and nationally important 
paleontological, scientific, educational, scenic, and recreational 
resources and values of the area. We strongly support those goals and 
legislation to implement them. We would like the opportunity to work 
with Senator Bingaman, as well as Senator Domenici and the Committee 
staff, on amendments which we believe can improve the legislation.
    Section 5(a)(3) of the bill directs the BLM to ``manage public land 
adjacent to the Monument in a manner that is consistent with the 
protection of the resources and values of the monument.'' The intent of 
this provision is not clear, and it is not clear how the BLM would 
implement it. In addition, we would encourage the sponsor and the 
Committee to include within the monument boundaries all public lands 
intended for protection without setting up de facto buffer zones.
    Section 5(d) of the bill gives priority to exhibiting and curating 
the resources from the monument in Dona Ana County, New Mexico. Many, 
if not most, of the significant specimen resources will remain in situ 
for study. Those that are removed for scientific purposes deserve the 
highest level of curation. At this time we are concerned that there may 
not be adequate facilities in Dona Ana County for curation at the level 
afforded by the excellent facility at the New Mexico Museum of Natural 
History and Science. It may be preferable for curation to take place at 
the museum in Albuquerque and then exhibition in Dona Ana County.
    The legislation in section 5(g) withdraws the area from the land, 
mining, mineral leasing and minerals materials laws. We generally 
support this withdrawal in order to protect the important 
paleontological resources within the proposed monument. We encourage 
the sponsor and the Committee to consider whether it might be wise to 
exclude a small 90 acre parcel on the southern boundary of the proposed 
monument. Within this area is a ten acre site on which a mineral 
materials operation has existed for a number of years. Continuation of 
this operation should not interfere with the protection of the 
resources within the monument and there is strong local demand for the 
rock produced from the mine.
    While we strongly support the concept of protecting the Prehistoric 
Trackways, we believe a designation of the area as a National 
Conservation Area (NCA) is more appropriate. The title of ``National 
Monument'' may raise the expectation of the public that this area is 
similar to an area like the Kasha Katuwe Tent Rocks National Monument. 
The visual qualities found at Tent Rocks will not be replicated at the 
trackways site. An NCA would provide as much as or even more protection 
for the trackways than a National Monument, depending on the 
legislation written, and may be preferable.
    Finally, we would like to clarify that the BLM does not regulate 
hunting on public lands, but may in some circumstances work 
cooperatively with the state to limit firearms in particular areas such 
as campgrounds or active excavation sites.

                               CONCLUSION

    We want to express our deep appreciation to Senator Bingaman and 
Senator Domenici for introducing this legislation to protect the 
important Paleozoic Trackways in south-central New Mexico. It is 
critical that we protect these resources for future generations. We 
look forward to working cooperatively with the Committee to ensure 
their protection.

                                S. 3794

    Thank you for inviting me to testify on S. 3794 the Owyhee 
Initiative Implementation Act of 2006. This bill is the culmination of 
a multi-year effort to resolve many of the land use controversies in 
southwestern Idaho. The Department of Interior commends the hard work, 
diligence and cooperative spirit of the participants of this effort. 
Senator Crapo deserves special recognition for his ongoing commitment 
to the Owyhee Initiative. I also want to recognize the dedication and 
collaborative efforts of the Owyhee Initiative Work group. They have 
worked tirelessly for several years to resolve land management issues 
in southwestern Idaho. The Department of the Interior supports the 
resolution of local land use conflicts and we will work with the 
sponsors and the Committee to resolve or clarify issues raised related 
to land and grazing preferences acquisition and valuation to help 
advance this effort.

                               BACKGROUND

    Owyhee County encompasses over 7,600 square miles of the 
southwestern corner of Idaho. With a population of just over 11,000, it 
is a sparsely-peopled land where magnificent canyons, rushing rivers, 
and wide-open skies dominate the landscape. Ranching is the traditional 
and predominant economic force throughout Owyhee County.
    In 2000, the Owyhee County Commissioners invited a number of 
interested parties to begin discussions with an eye toward resolving a 
wide range of natural resource issues in the county. Innumerable 
meetings, conversations, and dialogues ensued. Over time, the Owyhee 
initiative included representatives from many interests within the 
county, including: local government officials, tribal representatives, 
ranchers, conservationists, recreationists, and others. The BLM has 
provided technical assistance and information to this group but is not 
a member of the initiative group.
    On May 10 of this year the Owyhee Initiative Agreement (Agreement) 
was signed by 12 representatives and in early August, Senator Crapo 
introduced S. 3794 aimed at implementing that initiative.
Title I--Owyhee Initiative Agreement
    Title I describes the role of the Secretary of the Interior. We 
suggest clarifying several parts of the Secretary's role. Section 2(b) 
states that the purpose of S. 3794 is to provide for the implementation 
of the Agreement, but the language in the rest of the title is 
ambiguous as to what is expected of the Department. Section 102, for 
example, requires the Secretary to coordinate with the Board of 
Directors of the Owyhee Initiative Project in conducting the science 
review processes outlined in the Agreement, however, it does not make 
clear the Secretary's responsibilities (if any) in the conduct of the 
science review process or requirements on how the information from the 
science review process is to be used. Likewise section 103 references 
the Conservation and Research Center described in the Agreement. While 
$20 million is authorized to the Secretary to carry out the provisions 
of Title I, it is not clear how these funds are to be expended or what 
the Secretary's responsibilities are in expending them. In particular, 
we would be concerned about the ongoing costs of establishing and 
operating a new Conservation and Research Center. These questions 
should be resolved before moving the legislation forward.
Title II--Wilderness and Wild and Scenic Rivers
    The Department of the Interior supports the Wilderness and Wild and 
Scenic River designations in the bill, subject to adjustments in 
boundaries and management language as is routine in such proposed 
designations.
    In general, the Department of the Interior supports the efforts of 
Congressional delegations to resolve wilderness issues in their states. 
Congress has the sole authority to designate lands to be managed as 
wilderness and we have repeatedly urged that these issues be addressed 
legislatively. It is our general policy to defer to the consensus of a 
state's delegation in the designation of wilderness and the release of 
wilderness study areas (WSAs) while at the same time making 
recommendations for boundary adjustments to ensure that designated 
areas can be managed as wilderness.
    Section 201 of Title II of S. 3794 designates as wilderness over a 
half million acres in six separate areas. This section also releases 
approximately 200,000 acres from WSA status and will return these lands 
to non-wilderness, multiple use status. We have been working with 
Senator Crapo's office to construct maps for this title and our 
comments are based on those maps dated September 14, 2006. The 
Department generally supports the designations and releases proposed by 
the legislation.
    The areas identified to be designated as wilderness include: Big 
Jacks Creek Wilderness, Bruneau-Jarbidge Rivers Wilderness, Little 
Jacks Creek Wilderness, North Fork Owyhee Wilderness, Owyhee River 
Wilderness and Pole Creek Wilderness. These proposed wilderness areas 
contain some of the most beautiful and remote desert landscapes in the 
American West. The terrain within the proposed wilderness is diverse, 
ranging from deep river canyons to vast sagebrush and grassland 
plateaus that provide habitat for sage grouse, pronghorn antelope, 
bighorn sheep, songbirds, raptors, and numerous rare plant species. The 
river canyons are spectacular. Many are more than 1,000 feet deep--
nearly twice as deep as the Washington Monument is tall. Rivers meander 
for hundreds of miles through southwestern Idaho and form what may be 
the largest, most unaltered, desert region remaining in the continental 
United States.
    Section 202 would designate more than 380 miles of waterways as 
segments of the Wild and Scenic Rivers System. These 25 segments 
ranging from 6 tenths of a mile to 67 miles would be established on 20 
different rivers including the Owyhee, Bruneau, and Jarbidge Rivers. As 
with wilderness, it is the prerogative of the Congress to make 
determinations for additions to the Wild and Scenic River System and we 
generally defer to the consensus of individual congressional 
delegations while providing input on manageability and potential 
conflicts. We would like the opportunity to clarify some of the 
management language to ensure consistency with the Wild & Scenic Rivers 
Act.
    The proposed additions to the Wild and Scenic River System are 
rugged, isolated and unique. This region, the Owyhee Uplands, is unlike 
any other desert region in the United States because it is dissected by 
hundreds of miles of free-flowing rivers. The rivers begin in the 
mountains of northern Nevada and, flowing north, radiate like spokes 
across southwestern Idaho. Each river has cut a deep, magnificent 
canyon through alternating layers of black and red volcanic rock. Each 
river is also an oasis for wildlife, including bighorn sheep and large 
flocks of waterfowl. There are no paved roads along any of these rivers 
and only a few dirt roads provide limited access to these remote 
streams. The larger rivers, like the Owyhee and Bruneau, contain some 
of the most challenging whitewater in the United States. River 
enthusiasts come from around the country to float these rivers and 
experience one of the ultimate river adventures in the United States.
Section 204--Land Exchanges and Acquisitions and Grazing Preferences
    The Department would like to work with the Committee, Senator 
Crapo, and the Owyhee Initiative to clarify Section 204 of S. 3794, 
which addresses land valuation issues and the Secretary's authorities 
and responsibilities under this section.
    In December 2004, then Secretary of the Interior Gale Norton issued 
policy guidance (Secretary of the Interior Order No. 3258) to all 
Interior bureaus on legislative exchanges and land valuation issues. 
This policy was developed to ensure that land transactions are 
conducted with integrity and earn public confidence.
    The policy requires that the Department subject all exchanges or 
sales of real property or interests in real property to appraisals that 
conform to nationally recognized appraisal standards (i.e., the Uniform 
Appraisal Standards for Federal Land Acquisitions (UASFLA) and the 
Uniform Standards of Professional Appraisal Practice (USPAP)). 
Accordingly, the policy specifically prohibits the use of alternative 
methods of valuation in appraisals. The policy recognizes, however, 
there may be times when Congress will direct the use of alternative 
methods of valuation other than or in addition to a standard appraisal. 
Under the policy guidance, if Congress directs the Department to use an 
alternative method of valuation in a specific transaction, the 
Department will expressly describe the alternative method of valuation 
applied; explain how the alternative method of valuation differs from 
appraisal methods applied under the Uniform Appraisal Standards or the 
Uniform Standards of Professional Appraisal Practice; and, if directed 
by Congress, provide this material to the appropriate Committees prior 
to or after completion of the transaction, as required by the 
direction.
    Section 204 appears to require the Secretary of the Interior to 
enter into a number of exchanges and acquisitions of land and grazing 
preferences from private parties within Owyhee County. We note that the 
language as drafted is ambiguous. In the absence of explicit direction 
from Congress, the Department views this language in its entirety as 
providing discretion to carry out the acquisitions provided for under 
subsection (a), and would apply the Department's land transaction 
standards with regard to valuation and public interest that are 
contained in the Federal Land Policy Management Act (FLPMA).
    Section 206 of the FLPMA provides the BLM with the authority to 
undertake land exchanges where the Secretary ``determines that the 
public interest will be well served by making that exchange.'' 
Exchanges allow the BLM to acquire environmentally-sensitive lands 
while transferring public lands into private ownership for local needs 
and consolidating scattered tracts.
    Section 204(a)(3) of the bill, however, specifically references a 
document entitled ``Land Exchanges and Acquisitions'' and dated 
September 1, 2006. This document includes a list of properties to be 
exchanged to the Federal government or acquired by the Federal 
government along with assigned monetary values as well as a description 
of Federal lands available to landowners for exchange. The discretion 
provided in the general authority to carry out section 204(a), means 
that the direction contained in the document entitled ``Land Exchanges 
and Acquisition'' will not control the terms of these transactions. In 
addition, this section of the bill references the September 2006 
document for purposes of identifying the land or interest that may be 
acquired. It does not incorporate the terms of that document into the 
Act. The Department will therefore look to FLPMA with regard to these 
transactions.
    The BLM has not had an opportunity to fully assess the values of 
the various parcels of land proposed for exchange to or acquisition by 
the Federal government under section 204(a). In addition, many of the 
lands identified for exchange to private parties from the Federal 
government have not been identified and would be subject to surveys for 
cultural resources and wildlife habitat values. Such detail is 
necessary to ensure the public interest is served in exchanging these 
lands. The Department would like to work with the Committee to modify 
the legislation to clearly state that the land exchanges and 
acquisitions authorized by the bill take place in accordance with 
uniform appraisal standards.
    Finally, section 204(b) provides for the buyout by the Federal 
government of grazing interests according to values assigned them in 
the September 1, 2006, document entitled ``Land Exchanges and 
Acquisitions.'' While we oppose the permanent retirement of grazing 
permits, we acknowledge that the goals of the Owyhee Initiative behind 
this proposal are consistent with the multiple use mission of the BLM. 
We are committed to working with the Committee, Senator Crapo, and the 
Owyhee Initiative to reconcile their specific objectives on this 
landscape with our longstanding position.
    We also note that, because this section does not give the Secretary 
discretion, it would appear that Congress intends to determine the 
value of these interests in accordance with the referenced document. 
This diverges from the valuation process in section 402(g) of FLPMA 
which provides that, when grazing leases are canceled in whole or in 
part, a permittee or lessee shall receive reasonable compensation for 
the adjusted value, to be determined by the Secretary, of his or her 
interest in authorized permanent improvements made by the permittee or 
lessee, but not to exceed the fair market value of the terminated 
portion of the permittee's or lessee's interest. Without conducting 
appraisals, the Department is unable to determine whether the amounts 
provided for in the referenced document are consistent with the 
valuation method provided in FLPMA. The Department would like to work 
with the Committee to ensure that the grazing provisions of the bill 
provide a fair outcome for all parties.
    The legislation would also permanently retire the AUMs associated 
with conveyed preference rights. This approach is consistent with a 
Solicitor's Opinion issued by Solicitor Bill Myers in 2002 which stated 
only Congress can permanently retire AUMs permitted in districts 
originally created pursuant to the Taylor Grazing Act, where these 
lands had been identified as ``chiefly valuable for grazing.''
Title III--Transportation and Recreation Management
    This title calls on the BLM to establish travel plans for the areas 
covered by this legislation. The BLM in Idaho is currently working on 
travel management plans (TMPs) for a number of the areas covered by the 
legislation and supports the development and implementation of TMPs as 
part of an open and inclusive public process. We would like the 
opportunity to work with the sponsors and the Committee to make these 
provisions consistent with the land use planning process and to clarify 
the intent of certain sections of Title III.
    Finally, section 303 calls on the BLM to establish a search and 
rescue program in cooperation with the county. Search and rescue 
operations are traditionally local functions and the BLM does not have 
the expertise to establish such a program. The language in the bill 
provides the Department considerable discretion in negotiating this 
agreement and we welcome more specificity to ensure the sponsors' 
expectations are clearly understood.
Title IV--Cultural Resources
    Title IV provides for the implementation of a plan for the 
management of cultural resources on public lands by the Shoshone-Paiute 
Tribes of the Duck Valley Indian Reservation. The BLM and the Shoshone-
Paiute Tribe have an excellent cooperative relationship and work 
together effectively on a wide range of public land management issues 
in southwest Idaho. We look forward to continuing and expanding this 
cooperative relationship. We oppose this section as written, because it 
does not clearly reserve to BLM appropriate oversight and ultimate 
enforcement authority over the lands in question.
    This language may change or alter the way in which cultural and 
historic resources are managed by the BLM on public lands. Under 
Federal law (including FLPMA, the Antiquities Act, the National 
Historic Preservation Act, the National Environmental Policy Act, the 
American Indian Religious Freedom Act, the Archaeological Resources 
Protection Act, and the Native American Graves Protection and 
Repatriation Act of 1990) the BLM is mandated to protect cultural and 
historic resources and to consult with federally-recognized tribes 
regarding that protection. The BLM routinely consults with Tribes 
regarding the management of cultural resources of interest to them. The 
BLM and other Federal land-managing agencies have the authority to 
enter into cooperative agreements and partnerships with Tribes to 
enhance our government to government relationship. For example, the BLM 
has a cooperative agreement with the Pueblo de Cochiti to co-manage the 
Kasha Katuwe Tent Rocks National Monument in New Mexico. However, in 
the end, the BLM maintains responsibility for the enforcement of 
Federal law. We look forward to working with the Committee toward 
clarifying the roles and responsibilities of all stakeholders under 
this title.

                               CONCLUSION

    We have great respect for the hard work and commitment shown by the 
participants in the Owyhee Initiative process, and offer to work with 
the sponsors and the Committee to clarify the bill and advance this 
effort. Mr. Chairman, this concludes my statement. I will be happy to 
answer any questions that you or other Members of the Committee may 
have.

                               H.R. 3603

    Thank you for the opportunity to testify on H.R. 3603, the Central 
Idaho Economic Development and Recreation Act (CIEDRA) as passed by the 
House of Representatives on July 24. We support the goals of the bill 
and the collaborative approach taken by Congressman Simpson in crafting 
it. While generally supportive of the legislation, as discussed in more 
detail below the Administration continues to oppose the provisions 
relating to the transfer of Federal lands without compensation, the 
buyout of patented mining claims, and the acquisition of unpatented 
mining claims.
    We recognize that H.R. 3603 is the result of a lengthy and very 
thorough collaborative process led by Congressman Mike Simpson of 
Idaho. Congressman Simpson and his staff have spent a substantial 
amount of time and energy on this legislation. We look forward to 
continuing to work with the Congressman and the Committee to address 
our concerns with the bill.
    My comments today will only address issues of interest to the DOI 
and the BLM. We defer to the Department of Agriculture and the Forest 
Service on those matters that lie strictly within their jurisdiction.
    We would also note that the BLM has been working with Congressman 
Simpson on accurate maps for Sections 102, 104, 105 and 106 as well as 
for the Jerry Peak Wilderness described in section 201(a)(3). Therefore 
our comments today will reflect the information on those maps dated 
September 13, 2006 for sections 102, 104, 105 and 106 and dated August 
30, 2006 for Jerry Peak Wilderness.
    In addition to the specific items we outline below, we would like 
the opportunity to work on a number of minor technical issues including 
timeframes and resolution of any mapping inconsistencies.
Title I--Land Transfers and Recreation Promotion
    Title I of the legislation proposes a number of land transfers by 
the BLM to local governments, including Blaine County, the cities of 
Clayton, Mackay, and Challis, as well as to the State of Idaho. In 
addition, this title authorizes the BLM to undertake additional trail 
construction and maintenance and campground improvements as well as to 
extend outfitter and guide permits. Finally Title I proposes a series 
of land exchanges with the State of Idaho.
    The land conveyances to local communities in sections 102, 104, 
105, and 106 all require conveyance at no cost to the benefiting entity 
while requiring that the Secretary of the Interior bear the cost of the 
survey; other costs related to the transfer are not addressed. The 
legislation does not clarify the purposes for these transfers. If the 
transfers are for public purposes, we ask the Congress to consider 
whether these transfers should be done under the auspices of, or at 
least consistent with, the Recreation and Public Purposes Act (R&PP). 
If the transfers are intended for subsequent sale or development for 
nongovernmental purposes, we would instead recommend that the bill 
direct the BLM to sell the identified lands at auction or through a 
modified competitive sale to local governments for fair market value.
    The various transfers outlined in sections 102, 104, 105, and 106 
comprise 21 parcels totaling approximately 4,500 acres. It should be 
noted that we have neither undertaken surveys of these lands, nor can 
provide estimates of values without substantial additional work. Some 
of the lands have been identified for disposal by the BLM through its 
land use planning process, and others have not. Most of the parcels 
have current uses, including grazing, recreation, and hunting. In 
addition, there are a number of encumbrances, including roads, power 
lines, and pipelines. The BLM could support disposal of some of these 
parcels if they were transferred consistent with the suggestions we 
have outlined.
    In addition, all costs related to the transfers, including surveys, 
National Environmental Policy Act (NEPA) compliance, and related 
clearances should be borne by the benefiting entity, not by the Federal 
government. Furthermore, it should be made clear that these transfers 
are subject to valid existing rights.
    Section 107 directs the transfer, without consideration, of 960 
acres of public land near Boise to the State of Idaho for a motorized 
recreation park to be administered by the State. At this time, the 960 
acres to be transferred have not been specifically identified. Until we 
know which acres are proposed for transfer, we cannot fully analyze any 
possible conflicts, or identify current uses or encumbrances. As noted 
above, all costs associated with this transfer should be borne by the 
benefiting entity. Furthermore, we note that the various conditions of 
the transfer should be included as deed restrictions to provide for the 
currently authorized uses and to avoid the necessity of the Federal 
government retaining the responsibility for monitoring.
    Sections 109 and 110 authorize $550,000 for the construction and 
maintenance of bike and snowmobile trails in Idaho by the Secretaries 
of Agriculture and the Interior. While we support bike trails and 
outdoor recreation, we believe these are expenses more appropriately 
borne by State and local governments, especially when they are not on 
Federal lands.
    Section 111 provides for a 10-year extension of permits for each 
guide or outfitter currently operating within the areas designated by 
the bill as wilderness or within the Boulder-White Cloud Management 
Area established by the bill. The BLM currently allows for the granting 
of 10-year permits. We would prefer to renew or issue new permits in 
accordance with established policies and the existing public process.
    Section 114 calls for the expansion and improvement of the Herd 
Lake Campground facilities and authorizes $500,000 for this purpose. 
Currently, that campground consists of a single campsite. We note that 
this is simply an authorization and this project would need to compete 
with other similar projects, and the needs of the public lands in 
general, for actual funding.
    Finally, section 115 authorizes land exchanges between the State of 
Idaho and the Departments of the Interior and Agriculture in order to 
eliminate State inholdings within the wilderness areas designated by 
the bill and in the Sawtooth National Recreation Area. It is our 
understanding that neither the map of the State inholdings nor the 
lands proposed for exchange by the Federal government have been 
finalized. Until that information is available we are unable to comment 
on this section of the bill.
Title II--Central Idaho Wilderness
    The bill would establish three wilderness areas, the Ernest 
Hemingway-Boulder Wilderness, White Clouds Wilderness, and Jerry Peak 
Wilderness. Only the Jerry Peak Wilderness includes lands managed by 
the BLM. Under the bill, Jerry Peak Wilderness would total 
approximately 131,700 acres including approximately 31,700 acres of 
BLM-managed lands. This wilderness area would include portions of the 
Jerry Peak Wilderness Study Area (WSA), the Jerry Peak West WSA, and 
the Boulder Creek WSA. The portions of those WSAs not designated as 
wilderness as well as the Corral Horse Basin WSA (approximately 79,384 
acres) are released under the legislation from WSA status and are 
incorporated into the Boulder-White Cloud Management Area established 
by Title III of the bill. We support the designation of this Wilderness 
Area and believe that the BLM lands included could be managed as 
wilderness. We would like the opportunity to work with the sponsor and 
the committee on minor boundary modifications to ensure manageability. 
Additionally, we would like to work on standardizing the management 
language to be consistent with other wilderness designations. By making 
minor adjustments to the language of the bill, we believe we can both 
protect the wilderness character and allow important uses in a manner 
consistent with wilderness management.
    We oppose section 203 of this title, which provides for the 
purchase of all patented mining claims within the designated wilderness 
at $20,000 a claim. Any proposal to buy out private inholdings or 
property interests should be based on the appraised fair market value 
and subject to the availability of funds.
Title III--Boulder White Cloud Management Area
    Title III of the bill creates a new and unique entity, the Boulder-
White Clouds Management Area. Both Forest Service lands and BLM-managed 
lands released from WSA status would be managed for multiple use, 
including recreation, grazing, conservation, and resource protection. 
We support the establishment of this area. Title III includes an 
authorization of appropriations for this title totaling nearly $7 
million. We are concerned that the local community may have heightened 
expectations that the BLM may not be able to fulfill. Congress and the 
local community must be aware that competing budget priorities may 
prevent full funding of these initiatives. In addition, we would like 
to work with the sponsor and committee to ensure that the language on 
trails is workable and consistent with both BLM regulations and 
practicalities on the ground.
    A new subsection 302(b) has been added to the legislation since we 
testified during House Resources consideration in October of 2005. This 
subsection requires the Secretaries of Interior and Agriculture to 
accept charitable contributions of unpatented mining claims within the 
boundary of the Boulder-White Management Area. As we understand it, the 
donor of that claim would then be allowed a tax deduction for that 
contribution. Furthermore, the bill appears to allow a business entity 
to value itself for donation purposes if the assets of that business 
are substantially based upon the ownership of the mining claim. We 
oppose these provisions, because it is inappropriate to attribute value 
to claims without a demonstration of validity under the mining laws, 
and the Department defers to the Department of Treasury regarding 
additional information on the tax implications of the charitable 
donation element of this section. There are currently over 1300 
unpatented mining claims within the proposed Boulder-White Cloud 
Management Area.

                               CONCLUSION

    We appreciate the hard work and collaborative spirit that has 
brought the bill to this point and we applaud Congressman Simpson for 
his leadership and dedication. We would be happy to work with the 
sponsor and the Committee to further improve the bill to. a point where 
the Administration could fully support it.

    Senator Craig. Chad, thank you very much. Now Mark, we'll 
turn to you. Please proceed.

 STATEMENT OF MARK REY, UNDERSECRETARY, NATIONAL RESOURCES AND 
             ENVIRONMENT, DEPARTMENT OF AGRICULTURE

    Mr. Rey. Thank you, Mr. Chairman. I will reserve my 
comments on the two Mount Hood bills and on the central Idaho 
bill.
    On the Mount Hood bills, the administration can support 
55,000 acres of wilderness. The balance of the wilderness 
parcels either do not enjoy wilderness characteristics or are 
of a size and location to create management conflicts with 
adjacent uses. We can support all but two of the Wild and 
Scenic River designations.
    Additionally, however, the bill contains a number of 
management prescriptions that the administration objects to. 
There are relatively more of those in the Senate than in the 
House bill but the administration would support neither bill as 
they are currently written.
    Nevertheless, we look forward to continuing to work with 
the sponsors and the committees to work through to a mutually 
acceptable conclusion on the Mount Hood Wilderness bill.
    With respect to the central Idaho bill, we support all of 
the wilderness acres but have concerns with a number of 
management restrictions as well as with the conveyance of 
Federal land for no consideration. These lands should be sold 
for fair market value if they are sold at all.
    At the risk of being the only witness today that will be 
criticized for not being long winded, that concludes my 
remarks. I'd be happy to answer any questions the committee 
has.
    [The prepared statement of Mr. Rey follows:]

Prepared Statement of Mark Rey, Under Secretary, Natural Resources and 
                 Environment, Department of Agriculture

    Mr. Chairman and members of the Subcommittee, I appreciate the 
opportunity to appear before you to today to provide the Department's 
views on the bills which are on the agenda today.

                         H.R. 5025 and S. 3854

    The Mount Hood bills have many similarities in providing management 
direction that emphasizes the importance of wilderness, recreation, and 
forest health, as well as, cultural, historical, environmental and 
scenic values of Mount Hood and the surrounding landscapes.
    Both H.R. 5025 and S. 3854 would expand the National Wilderness 
Preservation System and the National Wild and Scenic Rivers System, and 
designate a special resources management unit. They would provide for 
the retention of fees from recreation and other special uses and 
establish a recreational working group. In addition, both bills would 
direct the Secretary to work with the State of Oregon to develop an 
integrated transportation plan, and study the feasibility of 
establishing a gondola connection and a multi-modal transportation 
center.
    Both H.R. 5025 and S. 3854 would require the Secretary of 
Agriculture to conduct a Forest Stewardship Assessment to address 
forest health, to establish Memoranda of Understanding for watershed 
management between the Forest Service and irrigation districts or 
municipalities and to study long-term biomass available on the national 
forest. The bills would direct the Secretary to establish priority-use 
areas and provide exclusive rights for the gathering of first foods by 
members of Indian tribes with treaty-reserved gathering rights. The 
bills would require the Secretary to enter into specified land 
exchanges with private landowners. S. 3854 would designate a Mount Hood 
National Recreation Area.
    The Administration recognizes that the bill's sponsors have 
conducted a considerable amount of outreach and worked with a number of 
communities of interest including local and state governmental 
entities, tribes, profit and non-profit organizations and individuals 
in the development of S. 3854 and H.R. 5025.
    However, we have concerns regarding those facets of the bills that 
appear to be highly prescriptive and limiting, and we believe, could 
benefit from additional collaboration among all stakeholders. While we 
strongly support public involvement and community collaboration, the 
concept of legislating management direction is problematic. We would 
like to work with this committee and the sponsors to ensure that 
existing legal and cooperative frameworks for decision-making continue 
to be honored as we seek to meet the goals of the legislation.

                                ANALYSIS

    I will address each resource in order; but in summary the 
Administration supports many of the concepts and provisions of the 
bills including some wilderness and wild and scenic river designations, 
and the attention focused on recreation, watershed and forest health 
and transportation issues on and around Mount Hood.
    We would like to work with the committee and sponsors to resolve 
concerns, as well as a number of technical issues in the legislation, 
including a definition of old growth, effects of some of the wilderness 
proposals, the special use fee retention, the establishment of a 
recreation working group, the restrictive management requirements of 
the Crystal Springs Watershed Management Unit, and the requirement to 
enter into a below market land exchange. In addition, S. 3854 
authorizes approximately $16 million in appropriations and H.R. 5025 
authorizes approximately $2 million in appropriations without 
identifying any source for these funds or proposed offsets.

                               WILDERNESS

    S. 3854 proposes to add about 128,400 acres and H.R. 5025 proposes 
to add about 77,200 acres of Wilderness on the Mount Hood National 
Forest. The Administration would support the designation of wilderness 
for areas that are consistent with the hallmarks of wilderness 
described in the Wilderness Act of 1964--areas dominated by the forces 
of nature, with primeval character and natural conditions that contrast 
with developed lands and offering outstanding opportunities for 
solitude or primitive and unconfined recreation. It appears from the 
maps we have received from the sponsors that H.R. 5025 provides the 
best opportunities for achieving these conditions within those proposed 
areas that are contiguous to existing wilderness areas. The additions 
that, in our opinion, could enhance existing wilderness areas include 
approximately 55,000 acres consisting of the following: Bull of the 
Woods (4,000 acres), Mount Hood (2,800 acres), Salmon-Huckleberry 
(3,100 acres), and Gorge Ridgeline (12,000 acres). We would also 
support inclusion of a new area recommended in both bills, Roaring 
River (33,000 acres). We would like to work with the sponsors to seek 
agreement on mapping changes that would provide manageable boundary 
locations and enhance the overall wilderness character of the proposed 
wildernesses.
    We have specific concerns with other proposed wilderness 
designation including many of the smaller, isolated areas. This is much 
more problematic with the Senate bill. Many of these areas are 
currently managed for values and uses that are inconsistent with 
wilderness designation, including motorized access. Examples of 
proposed wilderness with limited or impaired wilderness character would 
include areas close to I-84 and Highways 35 and 26, and small 
extrusions and peninsulas extending from existing wilderness. We 
believe these proposed areas would be adversely impacted from external, 
adjacent activities or from activities associated with the exercise of 
existing uses. We would like to work with the Committee to explore 
alternatives that could meet the intent of protecting these areas for 
future generations short of wilderness designation.
    Both H.R. 5025 and S. 3854 propose new wilderness within the 
boundary of the Columbia River Gorge National Scenic Area (CRGNSA) 
designated by Congress in 1986. The CRGNSA designation has been highly 
successful in protecting and enhancing the scenic, cultural, and 
natural and recreation resources of the area while accommodating 
economic development consistent with these purposes. Most of the area 
within the CRGNSA covered under the bills is adjacent to urbanized 
areas and significant infrastructure (i.e., the cities of Hood River, 
Bonneville, and Cascade Locks, the unincorporated communities of Dodson 
and Warrendale, Bonneville Power Administration's high voltage power 
lines that traverse and transect the Gorge, Interstate 84, and the 
Union Pacific Rail Line). We believe that adjacent land uses, in 
conjunction with special provisions for existing rights such as the 
Army Corps of Engineers permit related to Bonneville Dam, could 
potentially conflict with and compromise the wilderness character of 
the proposed Gorge Ridgeline Wilderness.
    Section 106 in S. 3854 would require the Secretary to establish 
fire safe community zones. The Committee should be aware that 
significant community involvement has already resulted in the 
development of the City of Cascade Locks Community Wildfire Protection 
Plan, which was completed in January 2005. A core team acting as an 
advisory committee during the plan's development by a contractor 
consisted of representatives from the City of Cascade Locks, Hood River 
County, Oregon Department of Forestry, the Forest Service, Cascade 
Locks Fire Department, Hood River County Fire Chief's Association, Port 
of Cascade Locks, and interested citizens. In addition, the Clackamas 
County Community Wildfire Protection Plan was completed in October 2005 
with partners including Clackamas County, Oregon Department of 
Forestry, and the Clackamas District Fire Defense Board. They involved 
the County's Fire Protection Districts as an avenue to reach citizens 
in the County, and held workshops in six communities, including 
Government Camp. This bill should better reflect this ongoing effort.
    The Administration does not support Section 107 which would 
authorize grants to gateway communities. We oppose this authorization 
since other rural and economic development funds are suitable to this 
purpose.

                    WILD & SCENIC RIVER DESIGNATIONS

    The Department supports the wild and scenic river designations 
proposed by H.R. 5025 and S. 3854, with the exception of the Fifteen 
Mile Creek and the East Fork Hood River as proposed in S. 3854. The 
former did not rise to the level of suitability for study during the 
Land and Resource Management Planning process and we believe it still 
does not merit consideration. The East Fork Hood River was determined 
not a suitable addition to the National Wild and Scenic Rivers System 
in the Mount Hood Land and Resource Management Plan. The language 
amending Section 3(a) of the Wild and Scenic Rivers Act is incorrectly 
formatted and contains a number of errors in describing the termini, 
segment divisions and/or classification of proposed rivers. We look 
forward to working with the Committee to address these concerns.
    The Forest Service is also concerned about its ability to protect 
wild and scenic river values with the language relative to water rights 
and flow requirements; culverts; and treatment of State highways. We 
prefer to use our existing authority under the Wild and Scenic Rivers 
Act to protect the values associated with these special resources. We 
would like to work with Committee staff on amendments to address these 
concerns.

                               RECREATION

    We recognize the importance of outdoor recreation to the social and 
economic well-being of the Mount Hood region today and into the future. 
While we share the sponsors' concerns with the challenges of managing 
complex and often conflicting recreation values and uses, the new fee 
retention authority for the Mount Hood National Forest as specified in 
the legislation is unnecessary. Currently, the Secretary has the 
authority to offset concession fees for Federally-owned concessions 
under the Granger-Thye Act. The Federal Lands Recreation Enhancement 
Act (FLREA) of 2004 provides authority to retain fees for outfitting 
and guiding, recreation events, recreation use. Additional authorities 
are provided for retention of commercial filming fees and 
organizational camp permits. The inclusion of new authority for 
retention and expenditure of land use fees would result in a loss of 
Treasury receipts which are used to fund ongoing programs.
    The proposed legislation would provide for the establishment of a 
Mount Hood National Forest Recreational Working Group that would be 
exempt from the Federal Advisory Committee Act (FACA). The FLREA 
already requires the creation of a Recreational Advisory Committee, 
with similar membership. We believe creation of any additional advisory 
council would be administratively burdensome and costly and would like 
to work with the Committee to develop a means to address the objectives 
of this provision.
    S. 3854 would designate a Mount Hood National Recreation Area. The 
Administration could support this designation, which recognizes the 
variety of recreational activities that visitors currently enjoy in the 
proposed area. However, some of the management prescriptions in the 
bill are too restrictive. We suggest that some of the smaller isolated 
tracts now proposed for wilderness would be excellent candidates for 
National Recreation Area designation as an alternative to wilderness. 
We would like to further explore these ideas with the sponsors. The 
Administration could support the recreation provisions of these bills 
if they are amended to address our concerns.

                             TRANSPORTATION

    The Administration supports collaboratively participating with the 
State of Oregon, local governments, and Federal departments in the 
development of a comprehensive, multi-modal transportation strategy for 
the Mount Hood region. We do not support language contained in Section 
402(e) of S. 3854, which assigns responsibility for the transportation 
plan to the Secretary, or Section 402(f) which authorizes the 
appropriation of $2 million to carry out the section. We also oppose 
H.R. 5025, Section 403(f) which authorizes $2 million for the Secretary 
to be passed to the State of Oregon for this purpose. Existing funding 
mechanisms under section 1117 of the Safe, Accountable, Flexible, 
Efficient Transportation Equity Act: A Legacy for Users (SAFETEA-LU) 
(P.L. 109-59) are already available to the Oregon Department of 
Transportation to address transportation planning. Indeed, the Mount 
Hood National Forest has recently received notice that $100,000 of 
funding under section 3021 of SAFETEA-LU has been secured and will be 
transferred to the State to begin work on this collaborative planning 
effort.
    In addition to the transportation plan, the bills would require the 
Secretary to conduct a study of the feasibility of establishing a 
gondola connecting Timberline Lodge to Government Camp and an inter-
modal transportation center in close proximity to Government Camp. 
Given the complexity of conducting this study, we suggest that the 
Department of Transportation has the appropriate expertise to carry it 
out.
    A 2001 gondola feasibility study conducted with funding from the 
Federal Highway Administration estimated the cost to construct a 
gondola from Government Camp to Timberline Lodge ranged from $21 to $26 
million, and estimated the cost of the gondola from Government Camp to 
Mount Hood Meadows ranged from $37 to $56 million. We do not believe 
another study of this issue would be needed and we would recommend 
including the completed study as part of the regional transportation 
planning process.

                     FOREST & WATERSHED STEWARDSHIP

    We support the objectives of the Forest Stewardship Assessment in 
both bills to determine forest health needs. The Forest Service is 
currently developing an integrated vegetation management approach 
similar to the approach provided for in the legislation. The ability to 
use existing information and processes would expedite developing a 
forest stewardship assessment consistent with other agency efforts. 
However, the legislation requires compulsory implementation of the 
stewardship assessment projects within a limited time frame, and the 
Department is concerned this requirement will redirect other available 
funds allocated to meet priority need determined at the national scale 
to conduct ongoing activities within the National Forest System. The 
bill, if enacted, therefore would require the Forest Service to utilize 
existing funds and displace other, more critical, ongoing work. Again, 
we would like to work with the Committee to address this concern.
    We support the concept of assessing the amount of long-term 
sustainable biomass available in the Mount Hood National Forest. We 
have already begun a study as part of a recent memorandum of 
understanding signed by the Confederated Tribes of Warm Springs, the 
Forest Service, and others to analyze the supply of biomass for a 
tribal co-generation plant.

               CRYSTAL SPRINGS WATERSHED MANAGEMENT UNIT

    We have concerns over the establishment of Crystal Spring Watershed 
Special Resources Management Unit as proposed in both H.R. 5025 and S. 
3854. The boundaries of the Crystal Watershed Special Resources 
management Unit are based on the zone of contribution which crosses 
hydrologic divides. We would like to work with the sponsors to resolve 
issues associated with this boundary. We believe existing regulations, 
direction and policies are already in place to ensure protection of the 
quality and quantity of the watershed. These authorities and direction 
include the Mount Hood National Forest Land and Resource Management 
Plan; the East Fork Hood River and Middle Fork Hood River Watershed 
Analysis, and surface and ground water protection areas delineated by 
Oregon Department of Environmental Quality and the Clean Water Act.
    The prescriptive listing of authorized and prohibited activities is 
too restrictive for future management that could benefit resource 
protection and enhancement for purposes of the proposed legislation. 
Hazardous fuels are a major issue in the Crystal Springs Watershed. 
This bill restricts the ability to efficiently address this issue. If 
enacted the legislation would establish an exclusive priority for a 
small municipal watershed area that is similar to thousands of other 
municipal watersheds on National Forest System lands across the country 
which are adequately managed without such an exclusive priority. In 
addition, this system is not a surface water system but is a ground 
water or spring fed system which may require less protective measures. 
The Secretary would be required to develop a management plan separate 
from the Land and Resource Management Plan, a duplicative and 
inefficient use of limited resources. The bill also limits the 
Secretary's ability to deal with changing circumstances and perpetuates 
these restrictions by proscribing the Department's conveyance of lands 
within the unit. We would like to work with the sponsors to resolve our 
objections.

                       LOCAL AND TRIBAL RELATIONS

    The bills would encourage the Secretary of Agriculture to cooperate 
with the Tribes, Federal and State entities, and local communities. We 
support this general direction although we have concerns about 
authorizing exclusive use of National Forest System lands for 
traditional cultural and religious activities (as provided in section 
103(i)(2) of H.R. 5025) and exclusive rights for gathering ``first 
foods'' in priority use areas for tribes with treaty reserved rights 
(as provided in section 801(b) of S. 3854 and in section 702(b) of H.R. 
5025). We believe that the current treaty rights and memorandum of 
understanding cited in the bills are sufficient to accommodate these 
needs and would like to work with the Committee on language to afford 
the Forest discretion to work with the relevant Tribes on identified 
specific uses.

                            LAND CONVEYANCES

    We appreciate the sponsors' efforts to resolve long-standing 
conflicts on Mount Hood with the proposed Cooper Spur-Government Camp 
land exchange proposal.
    While we support the direction in S. 3854 to use nationally 
recognized appraisal standards, the Administration is compelled to 
object to the requirement to obtain an existing appraisal for review. 
To date the Forest Service has been unable to obtain permission from 
the owner of the current appraisal to carry out a review of the 
existing appraisal. In at least two locations in the appraisal reports, 
the appraiser imposes limiting conditions on the use of the reports and 
explicitly retains ownership and control of the reports.
    However, we have a number of suggestions for improving the land 
exchange proposal. First, we recommend an assessment of the requirement 
that the Forest Service would take possession of an aging 
infrastructure and solicit a new concessionaire, both of which could be 
problematic. Second, we recommend an evaluation of the unique resource 
implications of privatizing the two parcels of land at Government Camp. 
We have other concerns regarding the appraisal process and would like 
to work with the Committee on amendments to address these concerns.
    The Administration supports the proposed exchange with the Port of 
Cascade Locks to improve the Pacific Crest National Scenic Trail. The 
administration does not object to the Hunchback Mountain exchange with 
Clackamas County. We note that this exchange would require a legislated 
adjustment to the Mt. Hood National Forest Boundary and we would work 
with the Committee to address this.
    In addition, we recommend the deletion of language authorizing 
retention of Mount Hood National Forest land use fees from special use 
authorizations since it would result in a loss of Treasury receipts 
which are used to fund ongoing programs.
    The Administration could support relevant conveyances if bill 
language is amended to address these concerns.

                                SUMMARY

    In summary Mr. Chairman while we are encouraged by the sponsor's 
efforts on behalf of the Mount Hood National Forest, the Administration 
cannot support either S. 3852 or H.R. 5025 as they are presently 
written. Nevertheless, we see a great potential, working with the many 
stakeholders of the region and beyond, to meet the objectives of S. 
3854 and H.R. 5025 to protect for future generations the recreation 
opportunities and resource values of the Mount Hood National Forest. We 
believe we can accomplish these objectives using existing authorities 
as well as some of the provisions of the bills, especially those 
embodied in H.R. 5025. We strongly support negotiated agreements on 
land management and we are committed to perfecting this one by 
continuing to work on the sections where we have concerns.

                               H.R. 3603

    H.R. 3603 is intended to promote economic development and 
recreational use of National Forest System lands and other public lands 
in central Idaho Sawtooth National Recreation Area (SNRA) and the 
Salmon--Challis National Forest. We support the intent of the 
legislation to balance long-term conservation, expressed in the 
wilderness designation, with the needs to provide rural economic 
development opportunities and assistance in central Idaho.
    Our comments today are based in part on the preliminary maps that 
we have been provided, and the Department would like the opportunity to 
review final maps cited in the legislation to ensure that they 
accurately identify the National Forest System lands designated for 
wilderness, parcels identified for conveyance, motorized roads and 
trails, and the management area boundary. In addition to the specific 
bill sections outlined below, we would like the opportunity to address 
a number of technical changes as well.
    We recognize the bill sponsor has conducted a considerable amount 
of outreach and has worked collaboratively with an array of communities 
of interest in the development of H.R. 3603. We also appreciate that 
since we last testified on the bill, it was amended by the House 
Resources Committee to address some, but not all, of our concerns.
    In general, we are concerned about the extent of appropriation 
authorizations throughout the bill (sections 109, 112, 114, 301, 302, 
304, and 403), and the conveyance of National Forest System lands 
without compensation to the taxpayer. The bill authorizes approximately 
$20 million in appropriations without identifying any source for these 
funds or proposed offsets. We are concerned about our ability to absorb 
the costs to implement the bill within our current programs and are 
concerned about how these costs may affect the ability to carry out 
other planned priorities of these affected programs now and into the 
future. We are also concerned the proposed land conveyances will 
establish a disadvantageous precedent. The Administration also has 
concerns with several provisions that are inconsistent with the 
President's budget.
    I will limit my remarks to the provisions of the bill related to 
the lands and activities managed by the Forest Service and will defer 
to the Department of the Interior on provisions relating to the lands 
managed by the Bureau of Land Management.
Title I--Central Idaho Economic Development and Recreation Promotion
    This title would direct the Forest Service to convey certain lands 
without consideration within the Sawtooth National Recreation Area 
(SNRA). The Administration does not support the conveyance of Federal 
lands without consideration at market value. For 31 years, the Federal 
government has made a strategic investment of almost $65 million in the 
SNRA for land and scenic easement acquisition to protect its resource 
values. Conveyance of these lands within the SNRA is at odds with our 
investment, the public interest, and the purposes for which the SNRA 
was established under P.L. 92-400. In fact, at least one area that the 
bill would convey is a parcel that was acquired to protect the SNRA.
    Section 101 would direct the conveyance of 86 acres, including a 
road encompassing about 15 acres, to Custer County. The Department does 
not support this conveyance. This conveyance could disrupt the 
continuity of recreation access and use for which the SNRA was 
established and could compromise areas acquired to protect natural, 
scenic, historic, and fish and wildlife values. Lands conveyed in this 
area would also affect the Stanley Basin Allotment by reducing suitable 
grazing acres.
    Section 102 would direct the conveyance of three parcels totaling 
3.47 acres to Blaine County. The Department does not support this 
conveyance. The 2-acre Smiley Creek parcel and the 0.47 acre parcel are 
in the immediate foreground of the Sawtooth Scenic Byway and were 
purchased with Land and Water Conservation Fund appropriations in 1977. 
The conveyance of these parcels would have visual impacts for the SNRA 
and create administrative and management burdens on the agency. In 
addition, a bus turnaround intended for the Eagle Creek Road parcel, 
located on the Ketchum Ranger District, could be authorized without the 
need to convey the parcel.
    Section 103 would direct the conveyance of approximately 8 acres in 
parcel A and approximately 68 acres in parcel C to the City of Stanley. 
The Department would not oppose conveyance of parcel A with 
consideration equal to market value established through an appraisal 
that conforms to Federal standards. Although parcel A was purchased 
with Land and Water Conservation Fund appropriations, its location--
adjacent to the City of Stanley--warrants conveyance at market value.
    The Department does not support the conveyance of parcel C as 
described. Parcel C is adjacent to the Ponderosa Scenic Byway and is 
important habitat for elk and other wildlife. The conveyance of this 
land, as currently described, would disrupt the continuity of 
recreation access and use for which the SNRA was established and could 
compromise areas necessary to protect natural, scenic, historic, and 
fish and wildlife values.
    It should also be noted the bill requires the Secretary to bear the 
cost to survey and develop legal descriptions for the parcels conveyed 
under sections 101, 102, and 103. The Department does not support these 
provisions. All costs related to the transfers, including land surveys, 
analysis and disclosure required by the National Environmental Policy 
Act (NEPA), and compliance with other applicable environmental laws, 
should be borne by the benefiting entity rather than the federal 
government.
    Along with each conveyance, there are extensive restrictions and 
limitations on the use of conveyed parcels in the legislation, many of 
which coincide with current limitations within SNRA. However, this 
title sets up future conflict amongst the local government, the Forest 
Service and the private landowners who acquire the conveyed property. 
The bill rightly positions the county or City to enforce the land use 
restrictions, but places the Secretary in a position of determining 
that the deed restrictions are not being met. We recommend dropping the 
reversionary interest provision.
    Section 109 would direct the Secretary of Agriculture to design, 
construct, and maintain a surfaced trail between the City of Stanley, 
Idaho and Red Fish Lake. The Department is not opposed to this section 
if an offset is provided, but would recommend several modifications to 
improve its implementation including the use of the existing Forest 
Service 30-foot easement across private lands to accommodate this 
direction.
    Section 111 would direct the Secretaries of Agriculture and the 
Interior to grant 10-year permit extensions for guides and outfitters 
within the wilderness area and the Boulder-White Cloud Management Area 
established by the bill. The agency already has authority to issue 10-
year permits. We would prefer to renew or issue new permits under our 
established authority.
    As was stated previously in our testimony, the Department has 
concerns with the amount of appropriations authorized by the bill. In 
addition, section 112 would authorize funds to make direct grants to 
Custer County, Idaho, to support sustainable economic development and 
to the State of Idaho and for acquisition of Bayhorse Campground. The 
Department does not support this section. We believe other rural and 
economic development funds are suitable to this purpose.
    Section 113 would direct the Secretary of Agriculture to construct 
a new road and bridge on National Forest System land to ensure the 
continuation of public access to the Sawtooth National Recreation 
Area's Bowery Guard Station. The estimated construction costs are 
approximately $950,000. The Department opposes this section and would 
prefer to continue to provide access to the Bowery site by the current 
means.
Title II--Central Idaho Wilderness Areas
    Title II would add additional areas in central Idaho to the 
National Wilderness Preservation System--105,000 acres in the Sawtooth 
and Challis National Forests to be known as the ``Hemingway--Boulder 
Wilderness,'' 73,100 acres in the Sawtooth and Challis National Forests 
to be known as the ``White Clouds Wilderness,'' and approximately 
131,700 acres in the Challis National Forest and Challis District of 
the Bureau of Land Management to be known as ``Jerry Peak Wilderness.'' 
The Secretaries of Agriculture and the Interior would collaborate to 
develop a Comprehensive Wilderness Management Plan for the designated 
wilderness areas.
    The Department supports the wilderness designations as proposed 
with very minor modifications. We would like to work with the committee 
and bill sponsor to modify the boundaries to better align with natural 
landscape features and to reduce the potential for conflicts between 
motorized and non-motorized users.
    Section 202(e)(1) would require the construction of two trailheads. 
The construction of new trailhead facilities is not desirable given 
current public use and cost. The existing Big Boulder trailhead is 
currently shared between motorized and non-motorized forest visitors 
with little or no conflict and is appropriately sized given its current 
use.
    Section 202(e)(2) would direct the upgrade of the first mile of the 
Murdock Creek Trail into a primitive, non-paved wheelchair accessible 
trail into the Hemingway-Boulders wilderness. The new Forest Service 
Trail Accessibility Guidelines provide direction to make new or altered 
trails accessible while maintaining the natural setting. We think this 
direction is adequate to maximize accessibility while protecting 
wilderness values.
    Section 206 is intended to protect the wilderness values of the 
proposed wilderness areas by means other than a federally reserved 
water right. While the Department does not oppose the definitions 
regarding water rights, we would like to work with the Committee and 
bill sponsors to clarify the relationship between subsections 206(c) 
pertaining to statutory construction and 206(d) requiring the Secretary 
to adhere to procedural and substantive requirements of described Idaho 
Water Law. Also, the Forest Service has recently concluded a settlement 
with the State of Idaho and other parties over Federal reserved water 
rights for the Salmon Wild and Scenic River (SW&SR). The SW&SR is 
located downstream of most of the conveyances proposed in title I. As 
part of the SW&SR settlement, the parties agreed to certain 
subordinations to water rights for future uses. The proposed land 
conveyances may have the potential to create water withdrawals from the 
Salmon River in amounts greater than those anticipated during 
negotiations. The land conveyances may result, over time, in reduced 
instream flows and degraded water quality, with the potential to 
adversely affect the protections afforded fish and recreation reached 
through this agreement. We would like to work with the Committee and 
bill sponsors to insure the subordinations for future waters rights are 
maintained.
    The Administration does not support section 207(c) regarding use of 
aircraft in wilderness. This provision could authorize potentially non-
conforming uses. The current approach to wilderness management that 
subjects proposed aircraft landings to review and approval on a case-
by-case basis, allowing the Department to work cooperatively with 
partners to balance use in compliance with the Wilderness Act of 1964. 
This approach provides for an efficient and consistent administration 
of the Wilderness Preservation System and is consistent with the 
recently revised Policies and Guidelines for Fish and Wildlife 
Management in National Forest and Bureau of Land Management Wilderness, 
approved by the Forest Service, Bureau of Land Management, and the 
Association of Fish and Wildlife Agencies.
    The Administration objects to section 207(e), which would remove 
the President's discretion to approve water resource development in 
wilderness in a national emergency, as provided in the Wilderness Act 
of 1964.
Title III--Boulder-White Cloud Management Area
    This title would establish a ``Boulder-White Cloud Management 
Area'' for certain lands not designated as wilderness under title II, 
and provides for management for roads, timber harvest, trails, and land 
acquisition and designation of motorized trail access. The Department 
supports the designation of the management area since the area would 
continue to be managed in accordance with existing management plans of 
the individual units that it overlays--the SNRA, the Sawtooth, and the 
Salmon-Challis National Forests.
    Section 302(b) is an addition since the Department last testified 
on this bill. It would require the Secretary to either purchase or 
accept as a charitable contribution, any unpatented mining claim 
located within the boundary of the Boulder-White Mountain Management 
Area, in return for a tax deduction to the donor. However, the 
Administration opposes this provision, and the Department defers to the 
Department of Treasury regarding additional information on the tax 
implications of the charitable donation element of this section. The 
Forest Service already has authority to purchase unpatented mining 
claims and to accept donations of mineral interests, with some 
restrictions. Furthermore, it would not be appropriate to purchase 
mining claims that have little evidence of discovery.
    The Department is concerned about the extent of specific direction 
regarding road and trail use, closure, and management, such as section 
303 which authorize specific roads and trails to be closed to both 
motorized and non-motorized uses with limited options for future 
modifications. We would prefer to manage motorized and non-motorized 
opportunities through the existing April 14, 2003 Travel Management 
Plan as amended, making adjustments based on user demand and resource 
conditions as needed.
    Thank you for the opportunity to discuss this bill. I look forward 
to working with you in the future on enactment of H.R. 3603 and am 
happy to answer any questions that you have at this time.

    Senator Craig. Gentlemen, thank you very much. Mark, 
silence is golden but we'll try to un-silence you with some 
questions and I know that there are some concerns being 
expressed as it relates to this legislation by the 
administration. Would you give me, on each one of the bills, 
your three largest concerns?
    Mr. Rey. I think the three largest concerns on the Mount 
Hood bill are the designation of areas as wilderness, that have 
potential management conflicts with adjacent uses. We have, in 
the past, been less than pure about wilderness designations and 
have supported wilderness designations, as the case in the Wild 
Sky bill, where they included areas that didn't meet wilderness 
characteristics but in the Mount Hood bill, we have not only 
that but some potentials for conflict with adjacent uses, 
including the administration of the Bonneville Power 
facilities. So that would be No. 1.
    The second biggest problem with Mount Hood would be some of 
the management prescriptions in some of the areas other than 
wilderness. There is a real potential to restrict fuel 
management activities, fuels reduction activities, in some of 
the non-wilderness areas.
    The third largest problem with Mount Hood would be the 
required land exchange and requirement for the Forest Service 
to assume the responsibility to manage infrastructure that 
would come into Federal ownership, that is perhaps of a certain 
age such that substantial repairs would be needed. So I guess I 
would rate those three to be the largest problems with the 
Mount Hood bill.
    With the central Idaho bill, I think the largest problems 
are the conveyances for no consideration. As you know, the 
administration is not adverse to selling isolated parcels of 
Federal land to achieve other worthy purposes but in this case, 
there is no reason, in our judgment, that these lands couldn't 
be sold for fair market value, which would be substantial in 
the case of some of the tracts.
    Our second problem with the central Idaho Wilderness is 
that there needs to be some adjustments to a few of the 
wilderness boundaries and that could be resolved.
    The third problem is that the bill appears to authorize 
some non-conforming uses in wilderness, which will complicate 
the management of these areas, as wilderness areas, should the 
legislation so designate them.
    Senator Craig. Thank you. Go right ahead.
    Mr. Calvert. I'd be happy to field a couple questions.
    Senator Craig. Chad, I was going to turn to you but let me 
lead off with a question that relates to the Owyhee Initiative 
and confusion that appears to be--or at least a contradiction 
in practice and in law, and that is an attempt to recognize and 
buy out certain grazing interests within the area. Do you wish 
to make comment on that?
    Mr. Calvert. I was going to actually raise that as probably 
the principle issue that we see, that we'd like to work with 
the sponsors on in this bill. The administration, in particular 
the BLM, has generally opposed the purchase of the Taylor 
Grazing Act, of grazing permits. That said, this bill 
represents a fairly profound local agreement among various 
interests, whose general intent is to preserve sustainable 
yield of the lands. So it is difficult to oppose the provisions 
in this bill outright but we'd like to continue to have this 
conversation with interested members on this committee who may 
feel differently than the sponsors.
    That said, I would raise that as the principle concern with 
the Owyhee bill.
    Second, we would like to see some clarity in the language 
on the exchanges and the acquisitions of the land interests. It 
appears that there is discretion given to the Department in how 
we proceed with that, meaning that we would use and look to 
FLPMA for the standards that we use, including public interests 
and valuation. However, there is also specific language in that 
section that directs us to accept offers of conveyance. So it 
is unclear whether we would proceed according to FLPMA 
discretion or according to congressional direction, for 
specific values.
    With regard to central Idaho, I'd second Mark's comments 
about the conveyances for no value and add to that, the section 
that directs the purchase of patented mining claims at one very 
specific, single value. We think that the better way to 
approach that would be to have appraised values for those 
patented mining claims that reflected their actual value 
because it will be extremely limiting as to who comes forward, 
if you are only able to offer $20,000 per claim.
    With regard to Copper Valley, no real specific concerns 
other than to codify other easements not relating to the 
payment for the easements that were offered over the rights of 
the allottees.
    With regard to Mount Hood, I'd defer to the Department of 
Agriculture and on the trackways; we really generally support 
this. It was raised by the New Mexico BLM that they may want to 
have a discussion with Ranking Member Senator Bingaman, about 
possible ways to improve it. So that's it.
    Senator Craig. Thank you very much. Now let me turn to my 
colleagues. Senator Bingaman, questions?
    Senator Bingaman. Yes, thank you very much. Thank you both 
for being here. In my few opening comments, I referred to the 
concern that I have about the trend of these wilderness-related 
bills to contain a lot of provisions other than wilderness 
designation. In particular, I referenced directed Federal land 
sales, requirements that those sales occur at inflated land 
valuations, mandatory motorized use areas, and requirements for 
land management agencies to fund local development projects. 
This strikes me as a trend toward the Congress getting much 
more into the micro-management of our Federal lands, whereas 
the general laws governing the management of Federal lands, 
give us substantial discretion to Federal land management 
agencies.
    What we are doing with these pieces of legislation that we 
are considering is taking away that discretion and directing 
very specific actions be taken with regard to many areas that 
are not being proposed for wilderness designation. I'd be 
interested in any comments you have, Under Secretary Rey or Mr. 
Calvert, either one.
    Mr. Rey. Senator, I think you are correctly identifying a 
trend that seems to be accelerating. I'm not here to say that 
it is a good trend or a bad trend. I think most of the 
motivation behind it is to try to use different kinds of 
management changes to do the back and forth and compromising 
necessary to put together a wilderness bill.
    Our general philosophy has been to, when we can and to the 
extent that we can, be deferential to a State delegation that 
is trying to put together one of these bills. That having been 
said, however, when some of these prescriptions raise larger 
issues, we have an obligation to point that out and to the 
extent that the issue is one that has the potential to do some 
real harm, both individually or generically, express our 
opposition to it and that's what you have throughout our 
testimony with regard to a number of these management 
prescriptions.
    I'll use one example. In the Owyhee bill, we have 
consistently opposed buying out Federal grazing leases because 
whatever solution is being presented by that particular action, 
it's raising a larger problem that will then thereafter have to 
address and that is, once we buy out a Federal grazing lease, 
we can know with reasonable certainty, that unless the base 
property is under public control, it will be developed. And 
what we'll end up with then, is a subdivided new development in 
the middle of Federal land, so that the cure is worse than the 
problem that was being sought to fix in the first place and 
that's been the consistent point of our opposition to that as a 
general policy or specific legislation. I am grateful that the 
sponsors of the central Idaho bill decided to remove that 
position in response to our previous testimony in the other 
body.
    Senator Bingaman. Mr. Calvert, do you have any thoughts?
    Mr. Calvert. No, I agree with the statements of Mr. Rey.
    Senator Bingaman. OK. Let me just ask one question of Mr. 
Calvert with regard to this Prehistoric Trackways legislation. 
One of the witnesses testifying later this morning has 
expressed concern that if a monument is established as we 
propose, to establish recreational opportunities. We've 
included language in the bill, including a solution as a 
designated purpose of the monument, recognizing a race that has 
traditionally occurred there called the Chili Challenge, as a 
specific current use and I think we've made it clear that those 
current uses would be intended to continue. I guess that my 
question to you is, if the monument is established, would the 
BLM seek to preclude existing motorized recreational uses, 
except to the extent that it had to, to protect the fossil 
resource?
    Mr. Calvert. Well, Senator, I think the BLM's first duty 
would be to come up with a management plan consistent with the 
statute. In interpreting the statute, clearly where you 
expressly retained a use, like the Chili Challenge, of course, 
BLM would not attempt to override that through a management 
plan. Where there is discretion though, or interpretation 
problems about the intent, I can't promise you that there 
wouldn't be, through the public planning process, some effort 
to limit recreation or motorized travel in other areas, as long 
as it wasn't contrary to the intent of the legislation.
    Senator Bingaman. But if the legislation made it clear that 
restrictions on that motorized use would only be appropriate 
where required to protect the fossil resource, then that would 
be something you would abide by?
    Mr. Calvert. Well, certainly. That provides an affirmative 
duty to protect that and that duty--it doesn't say that the 
recreation wouldn't be allowed elsewhere. Again, that comes 
down to the public lands planning processing and the interested 
parties who participate in that.
    Senator Bingaman. I thank you very much, Mr. Chairman.
    Senator Craig. Senator, thank you very much. Now let me 
turn to Senator Wyden. Ron?
    Senator Wyden. Thank you very much, Mr. Chairman. I want to 
thank both of you, Under Secretary Rey and Mr. Calvert, both of 
you.
    Let me start, if I might, with your thoughts on land 
exchanges. Secretary Rey, we woke up at home to this front-page 
story, ``Land Swap for Mount Hood Sales, U.S. Tests.'' 
Essentially what the General Accounting Office says--General 
Accountability Office says is that an appraisal for one of the 
exchanges doesn't meet Federal standards. Now, Senator Smith 
and I have been very interested in working cooperatively with 
this kind of grass roots coalition to facilitate this exchange 
so in the name of trying to figure out a way to make sure that 
the exchange can go forward and address these concerns, the 
Senate bill doesn't require the use of the deficient appraisal. 
It doesn't legislate land values and it basically stipulates 
that the Secretary of Agricultural would have the last word, to 
try to make sure that all of the issues with respect to what 
GAO and legal requirements to satisfy. Tell me your thoughts, 
kind of looking at some of those principles, about how you 
would go about trying to structure this kind of land exchange, 
to make it acceptable to the Forest Service and the Federal 
requirements. You have an awful lot of experience on this over 
the years and I'd just like to hear your thoughts about how our 
delegation--the Senate and the House--might go about it at this 
point.
    Mr. Rey. I think generally speaking, this is an exchange we 
wouldn't make because we don't think the resources that we are 
receiving in the exchange are resources that the Federal 
Government could or should manage well for the American people. 
That having been said, if the exchange is legislated, as many 
are, then what we would do is to appraise both sets of lands 
involved, using standard Yellow Book standards. In our 
testimony, we indicate that we prefer the Senate language in 
that regard, over the House language.
    Senator Wyden. I would very much like to have you 
specifically instruct your folks at home, in Oregon, to work 
with the community members that we have been talking to. These 
are folks, Secretary Rey, who have spent an unbelievable amount 
of time trying to get to common ground and Senator Smith and I 
want to honor that kind of work and if you could get your folks 
on the phone, your Oregon folks, Oregon Forest Service folks, 
on the phone to them immediately, to try to have them start 
looking at various ways that address this land exchange. I 
think that would be one way that we could move forward. Would 
that be something that you could do right away?
    Mr. Rey. Sure. We can start that today.
    Senator Wyden. Good. I think that will be very helpful. The 
only other area that I wanted to ask you about, Under Secretary 
Rey, was this question of small and isolated parcels. I think--
I don't know whether you were here for my opening statement, 
but one of the things that I've come to feel in this debate--
and this could be an area, I think also, of common ground, is 
that wilderness legislation is not like a contest over who has 
just got the most acres. I think that some of this sort of just 
becomes a contest, you know--mine's bigger than yours and so we 
have a poll and that's why everybody should be for ours. I 
think that it is going to be more and more important to protect 
the really special places. The real treasures for folks and 
that's why I mentioned, Memaloose Lake and some of the areas, 
the Badger Creek Wilderness Area, the Richard Kohnstamm 
Memorial Area, some of the areas that might be smaller and my 
sense is that the Forest Service does manage a lot of parcels 
of wilderness and similar treatment today and I'd like your 
thoughts on this question of how we can get to some thing that 
is very much on the mind of Oregonians today, which is 
protecting the really special places, even if they are small 
and isolated and probably don't sit into somebody's cookie 
cutter of just the old debate about how much and the like. Your 
thoughts?
    Mr. Rey. I think what we suggested in our testimony is that 
some of those areas could be given the protection that most 
people believe they deserve under the National Recreation Area 
status as opposed to wilderness status. Now, as I said earlier, 
we've not been purists about agreeing to inclusion of land in 
the National Wilderness system that either had non-conforming 
uses in or immediately adjacent to them or lacked wilderness 
character. I mean, there are lands that we manage as part of 
the National Wilderness system that fit that designation.
    The problems that creates, in some cases, is that it is 
some years downstream, after the legislation is enacted and 
after everybody has had time to enjoy and forget the 
compromises that were made, those non-conforming uses become a 
point of contention. And then our field managers are cast with 
the responsibility of figuring out how rectify that contention, 
how to explain why a non-conforming use remains in a wilderness 
area, to the satisfaction of people who believe, hey, this is 
wilderness. It shouldn't be here. And we've discussed 
legislative changes, two bills, that have previously passed 
Congress, to try to sort out those non-conforming uses, like 
the cabins in one Idaho wilderness area, a piece of legislation 
that we dealt with for the better part of three Congresses. So 
we would like to try to avoid, if we can, at the outset, is 
creating those kind of situations where we have a pretty good 
bet, a pretty good idea that those future conflicts are going 
to create management challenges. So the short answer, I think, 
is make them National Recreation Area designations.
    Senator Wyden. My time is up and I think this is helpful. 
My only point is, I think you know that Senator Smith and I are 
very interested in this notion of a National Recreation Area. 
I'd also hope though, that we can look at some of these small, 
isolated areas for wilderness protection. My understanding is 
that you all have some models for how that might be done. We'd 
like to follow that up. Thank you, Mr. Chairman.
    Senator Craig. Ron, thank you for conforming to the time 
and I'm going to ask all of my colleagues to do that. But what 
that means for both you, Mark and Chad, is that you're going to 
be getting a myriad of questions from us on these issues as we 
work to shape these pieces of legislation and a quick 
turnaround during the month of October is going to be very 
important, as you work with our staff to make that happen. With 
that, let me turn to Senator Gordon Smith. Gordon?
    Senator Smith. Thank you, Mr. Chairman. Mark, as you know, 
Senator Wyden and I have went to great lengths in the Senate 
version of Mount Hood Wilderness to minimize the acres of land 
available, that would in any way harm statutory law in the 
Northwest Forest Plan to encroach upon matrix land. We didn't 
want to do that. The only matrix land affected is the land that 
was included in the House bill, roughly 4,500 acres. Do you 
believe that either bill will have an appreciable effect on 
timber harvest?
    Mr. Rey. I'd have to say timber harvest isn't the primary 
concern we have with either bill. So I don't put that as in my 
top three. With regard to the removal of fiber, the bigger 
concern is that some of the areas that are being proposed as 
wilderness areas, that do have a substantial fuel load and/or a 
current and likely future likelihood of insect and disease 
infestation. And the wilderness designation will reduce our 
flexibility to some degree, to treat those areas.
    Senator Smith. So these are--I happened to fly over the 
area this summer and certainly saw a lot of forest fires up 
around that. Your point is just that some of the areas we have 
designated ought to be treated, then? If we are to save them 
from the kinds of fires that I witnessed there this summer?
    Mr. Rey. That's correct.
    Senator Smith. What are the real obstacles to keeping the 
forest from meeting its objectives or the stated objectives in 
the Northwest Forest Plan? What is really holding you back?
    Mr. Rey. I think there are three in number. First, the 
complexity of the Forest Plan as originally drafted, which 
we've been trying to fix albeit with some objections from the 
corners you'd expect objections to come from. But on its face, 
the Northwest Forest Plan was not designed to achieve its 
objectives because some of the requirements that were imposed 
in the development of the plan quite clearly made that 
impossible. That is one of the things we've been trying to 
change.
    The second is, as we've been trying to make those changes, 
we've obviously been subject to a fairly vigorous amount of 
appellate and legal action. So appeals and litigation are an 
issue as we go forward and third, in part, because of the 
complexity of the plan, achieving the targets, if that is what 
you are referring to specifically, are a more expensive 
proposition than say, putting up a timber sale in other parts 
of the country. So those, I think, are the three major issues 
that we face today. Add to that, ongoing endangered species 
reviews, so we've got more T&E species now than we did when the 
plan was first developed. Every time there is a new listing or 
a new critical habitat designation, we have to go back and re-
consult both projects and plans that have already gone forward 
so we go back and start over again, in a sense. And that's a 
fourth problem.
    Senator Smith. But the Senate bill and the House bill, by 
themselves, don't represent a significant impairment to forest 
management?
    Mr. Rey. I would say they don't represent a significant 
impairment to achieving the timber objectives of the Northwest 
Forest Plan. There are provisions that we do believe will 
infringe on management decisions associated with other 
resources.
    Senator Smith. And through your lights, you can readily 
find 55,000 acres that you would include in wilderness?
    Mr. Rey. That's correct.
    Senator Smith. As we go forward as a delegation, obviously 
we invite your recommendations so that we can get closer to the 
number that Senator Wyden and I have proposed, of 125,000 acres 
and I, for one, invite your thoughts and ideas as to how we can 
do that because I think that is certainly a desire of a vast 
majority of citizens of Oregon and we're trying to meet their 
desires in this.
    Mr. Rey. We'd be happy to participate and to make staff 
available to participate in any discussions they delegation 
wants to have us involved in.
    Senator Smith. For the record, your comment about the 
administration's opposition--it's not a veto threat?
    Mr. Rey. We don't give veto threats at this stage of the 
process.
    Senator Smith. OK. I just wanted to clarify that and so 
we're anxious to work with you because we want an Oregon bill, 
one that can pass the House and the Senate and win the 
President's signature. Thanks, Mr. Chairman.
    Senator Craig. Gordon, thank you. Now let me turn to my 
colleague, Senator Crapo. Mike?
    Senator Crapo. Thank you, Senator Craig. I don't have any 
questions of this panel. Thank you.
    Senator Craig. OK. Gentlemen, thank you very much. And as I 
did mention, it is important that we stay in close contact with 
you over the month of October as we try to work our way through 
a variety of issues that you've brought up, others are bringing 
up, as it relates to these key pieces of legislation and we 
thank you for your presence here. I appreciate it.
    Mr. Rey. Thank you.
    Senator Craig. We will now call our second panel forward. 
We're going to include in the second panel, Russ Heughins. Russ 
is an Issue Coordinator for the Idaho Wildlife Federation in 
Boise. Russ has a transportation conflict today and we're going 
to try to accommodate that so that he cannot be held up at an 
airport. So Russ, if you would come forward, we would 
appreciate your testimony in this panel instead of panel four.
    With that, Senator Bingaman, I see that these other two 
gentlemen are from New Mexico. Would you like to introduce them 
before the committee?
    Senator Bingaman. Well, thank you very much, Mr. Chairman. 
I did already allude to both Dr. Hunt and Mr. Huff, as I think 
it is clear to everyone, Dr. Hunt is expert in this subject and 
was involved with the initial study that was done back in the 
mid-1990's. It is very good to have him here to give his views 
on the importance of this legislation. Mr. Huff is the Land Use 
Coordinator for the Las Cruces Four-Wheel Drive Club, which has 
an interest in this area as well. We welcome them both.
    Senator Craig. Gentlemen, thank you very much. Doctor, 
please proceed.

  STATEMENT OF ADRIAN P. HUNT, Ph.D., EXECUTIVE DIRECTOR, NEW 
 MEXICO MUSEUM OF NATURAL HISTORY AND SCIENCE, ALBURQUERQUE, NM

    Dr. Hunt. My name is Adrian Hunt. I am the executive 
director of New Mexico Museum of Natural History and Science in 
Albuquerque. I am really here in two capacities. The first is, 
that I'm a paleontologist. I've got a Bachelor's, a Master's 
and a PhD. in Paleontology. I've study fossil footprints for 
over 20 years. I've written more than 75 papers and 3 books on 
footprints from all over the world. And as Senator Bingaman 
mentioned, I worked on the congressional study in 1994, on the 
Robledo footprints and I visited all the localities in the 
mountains and I go there regularly. I've been there four times 
this year.
    The Robledo Mountain footprints are the most important pre-
dinosaur Paleozoic footprints in the world, in terms of 
quantity, quality and range of variation of preservation. 
Tracks of this age have been known since 1828 and they're known 
from five continents but the Robledo Mountain footprints are 
recognized around the world as a Rosetta stone for 
understanding footprints of these age. They represent unique 
conditions. As many of you might think, you've made many 
footprints in your life. You've walked around and none of those 
footprints are preserved. It takes very, very special 
conditions to preserve footprints and those are met in the 
Robledo Mountains. The Robledo Mountain footprints are thus of 
international importance. They are a national treasure and they 
should be preserved and protected and I think that is done as a 
national monument. I would suggest that the entire proposed 
area should be protected.
    Second, I am the Executive Director of the New Mexico 
Museum of Natural History, which is a division of the 
Department of Cultural Affairs of the State of New Mexico. We 
are the only Federal fossil repository recognized by the Bureau 
of Land Management in New Mexico. We've worked very closely 
with the BLM since the museum's inception. We have many 
avenues, areas of collaboration, including preservation, 
exhibits, interpretations, and education. Some of these 
collaborations with the BLM include Emmy-nominated 
documentaries with the local public television station and a 
presentation of our data base of fossils on our website so that 
citizens can look up all about the fossils from New Mexico. We 
are a statewide museum with an ongoing relationship with the 
Las Cruces Museum of Natural History and so in conclusion, we 
are committed to work with the BLM on the preservation and 
interpretation of the Robledo Mountain footprints. Thank you.
    [The prepared statement of Dr. Hunt follows:]

   Prepared Statement of Adrian Hunt, Ph.D., Executive Director, New 
     Mexico Museum of Natural History and Science, Albuquerque, NM

    I have been familiar with the trackways in the Robledo Mountains 
since 1992. In 1993, I wrote a short scientific article on these 
fossils with Jerry MacDonald (discoverer of the tracks), Spencer Lucas 
(curator of paleontology at our museum) and others and in 1994, I was 
one of the principals on the Congressionally-funded study of the 
tracksites. Subsequently, I have written several scientific articles on 
these particular fossils. In total I have authored over 550 scientific 
publications and books on geology and paleontology and my principal 
specialty is fossil footprints (over 75 scientific articles), 
particularly pre-dinosaurian Permian tracks. I am currently the 
Executive Director of the New Mexico Museum of Natural History and 
Science which houses about 2000 specimens from the Robledo Mountains 
and hundreds of other Permian tracks. I have studied Permian tracks 
throughout the United States, Canada and Europe. Therefore, I have a 
broad perspective on the importance of the tracksites in the Robledo 
Mountains.
    The fossil footprint localities in the Robledo Mountains of Dona 
Ana County, New Mexico are the most important Permian (pre-dinosaurian) 
tracksites in the world. Scientists around the world recognize their 
importance. The quantity and quality of the tracks of animals of all 
kinds, from large reptiles to small arthropods, is unmatched. The 
Robledo footprints provide a unique combination of very large sample 
size and a great large range of preservational variants. Permian tracks 
were first discovered over 175 years ago in Scotland and subsequently 
they have been found on four other continents. Despite the fact that 
hundreds of specimens of this age are known from all over the world, 
they were never fully understood until the Robledo tracks were 
discovered and studied. The quantity, quality and range of preservation 
of the Robledo tracks makes them a ``Rosetta Stone'' which allows 
Permian tracks worldwide to be correctly interpreted.
    People are impressed by fossil bones from the bodies of ancient 
animals, but these represent ancient carcasses. Footprints were made by 
living, breathing animals and they can provide information about 
behavior of living animals that could never be gleaned from dry bones. 
Thus, the Robledo Mountains tracks provide a unique opportunity to 
study an early land ecosystem which is unparalleled in the world.
    Footprints are a tremendously important resource for education 
because they are so evocative to the public. Even small children are 
fascinated by footprints and the stories that they tell. Fossil 
footprints have provided a wonderful medium for education, for example 
at Dinosaur Ridge, west of Denver.
    New Mexico has a wealth of cultural and natural resources. However, 
the Robledo Mountains tracksites are the most significant fossil 
resources in the state. Indeed, they are one of the most significant 
fossil resources in the nation. The tracks have tremendous potential, 
not only for educational purposes, but also for economic development in 
southern New Mexico. A National Monument would undoubtedly become a 
national draw for tourists.
    I am pleased to support Senate Bill 3599 which seeks to preserve 
the tracksites of the Robledo Mountains as Prehistoric Trackways 
National Monument. This would be the first National Monument in the 
country dedicated to the preservation of fossil footprints and it 
preserves a resource worthy of that honor. The tracksites need to be 
preserved because they are international treasures that are endangered 
by diverse factors ranging from increased recreational usage of the 
mountains to rock quarrying. I wholeheartedly support Senate Bill 3599 
and the concept of preserving the Robledo Mountains tracksites as a 
National Monument.

    Senator Craig. Doctor, thank you very much. Now Fred, we'll 
turn to you. Please proceed.

 STATEMENT OF FRED HUFF, LAND USE COORDINATOR, THE LAS CRUCES 
                   FOUR-WHEEL DRIVE CLUB, NM

    Mr. Huff. Thank you very much. My name is Fred Huff and I 
wish to thank the Subcommittee for the invitation to discuss 
the proposed Prehistoric Trackways National Monument today.
    I was born, raised and still live in Las Cruces. I received 
my geology degree from New Mexico State University and I 
currently serve as Land Use Coordinator for the Las Cruces 
Four-Wheel Drive Club.
    What does the phrase, ``prehistoric trackway'' really mean? 
To me, it implies that there are trackways within the 
boundaries of the proposed National Monument. A trackway is 
defined as a repeated pattern of tracks. A track is defined as 
a single footprint or feature. The trackway was discovered in 
1987 are gone. This fact was even acknowledged when the bill 
was introduced, with the statement, ``The trackways he hauled 
out on his back, some over 20 feet long.'' As just mentioned, 
over 2,000 specimens are stored at the New Mexico Museum of 
Natural History in Albuquerque. Yet no other major trackways 
have been discovered in the last 15 years. Even the monument 
proponents acknowledge this issue, with statements such as, 
``the tracks are not very visible'' or ``they are buried 
treasures.''
    Our question is also, why is such a large area needed? The 
1994 Smithsonian report stated that it mainly studied the area 
where the trackways had been--had been--when it said. The most 
extensively studied and scientifically significant Robledo 
track site occurs in red beds, now known as AF-2, on which this 
report is primarily based. This was the only trackway site 
discovered. This means that the other statement in the report 
that says, ``this site is the most scientifically significant, 
early premium track site in the world,'' is only talking about 
an area that is from this table to that wall, less than 500 
square feet. Yet this bill calls for over 200,000 million 
square feet. Congress had also mandated, when it authorized 
that bill that the report was specifically to address a 
national park or the national monument issues. The report did 
recommend protection but it did not recommend it to be a 
national park or a national monument.
    We also ask, are the tracks in this area really unique? As 
mentioned a moment ago, for over 150 years ago, identical 
tracks have been collected throughout this same Abo red bed 
that extends 300 miles, from Santa Fe, New Mexico to the U.S./
Mexican border. So the tracks in this area are not unique. The 
trackway was unique. But they went adios. The bill also calls 
this area a mega-trackway. The generally accepted definition of 
a mega-trackway is that it covers hundreds or thousands of 
square kilometers. Monument proponents downsize the mega-
trackway definition so they could apply the term to the Robledo 
Mountains. Since the only known Robledo trackways have been 
removed, there is only speculation that additional trackways, 
let alone a mega-trackway, exists.
    Are the threats real or imagined? Is theft or vandalism 
that the bill describes, really a big enough problem to justify 
such a drastic measure as a national monument? Even the 
monument proponents state that lay people walking around the 
Robledo Mountains should not expect to see or stumble across a 
set of trackways. So my question is, if they can't find them, 
how can they steal them? They're already protected by nature.
    Or maybe this is a bill designed to close the nearby 
quarry. The buffer zone described in section 5(a)(3) is clearly 
written to close the quarry that has been in operation for over 
50 years and provides the rock that gives the Las Cruces walk 
walls their special character. The quarry does not threaten 
other speculated track sites within the proposed national 
monument.
    In conclusion, Las Cruces is currently facing many 
important land use issues dealing with growth, water and 
illegal immigration. Providing appropriate protection and 
management for the Paleozoic tracks is but one of the many 
critical issues my community faces. I strongly oppose this bill 
and prefer Senator Domenici's suggestion that we approach these 
issues in a better, well-reasoned, comprehensive land bill. 
Thank you for your time.
    [The prepared statement of Mr. Huff follows:]

Prepared Statement of Fred Huff, Land Use Coordinator, Las Cruces Four 
                          Wheel Drive Club, NM

    My name is Fred Huff. I appreciate the invitation to appear before 
the Subcommittee to discuss S. 3599, a bill to establish the 
Prehistoric Trackways National Monument in the State of New Mexico, 
near the city of Las Cruces. I was born and raised in Las Cruces and 
grew up exploring the area proposed for the Prehistoric Trackways 
Monument. I have a degree in Geology from New Mexico State University. 
I have been interested in the unique geologic features, as well as in 
the varied recreational opportunities, the region offers for most of my 
life. I currently serve as Land Use Coordinator for the Las Cruces Four 
Wheel Drive Club.
    Based on my personal knowledge of the geologic and recreational 
resources existing in the region, the designation of a National 
Monument is not appropriate nor is it needed for the protection and 
management of the natural, cultural and recreational resources existing 
in the area. The paleontological resources lack the scientific 
significance to warrant a National Monument. Existing management 
provides sufficient and appropriate protection. In addition, S. 3599 
contains language that would arbitrarily impact the recreational uses 
of the area and establish arbitrary buffer zones.

        SIGNIFICANCE, PROTECTION AND STUDY OF THE FOSSIL TRACKS:

    Since the discovery of the Trackways in 1987, there have been many 
scientific studies of the Abo red beds (the rock formation where the 
fossils are found) that extend about 300 miles, from Santa Fe, New 
Mexico, to the U.S./Mexican border, and these tracks are found in all 
of them. The Trackways are neither unique to the Robledo Mountains nor 
significant to more than a few paleontologists.
    The term ``megatracksite'' is misapplied in the literature 
describing the significance of the Robledo Trackways. Megatracksites 
are typically described as ``footprint-bearing layers of strata that 
cover large geographic areas on the order of hundreds, even thousands 
of square kilometers'' \1\ One such megatracksite is the Morrison 
Formation that covers about 1 million square kilometers in the western 
United States. Indeed, the term ``megatrackway'' was redefined by 
promoters of this Monument to fit their need to classify the Robledo 
Mountain find as a ``megatrackway.'' \2\
---------------------------------------------------------------------------
    \1\ Lockley, M.G., 1991, Tracking Dinosaurs. Cambridge, Cambridge 
University Press, 238 p.
    \2\ In the New Mexico Museum of Natural History and Science, 
Bulletin 6, article titled Geology of Early Permian Tracksites, Robledo 
Mountains, South-Central New Mexico, By S.G. Lucas, O.J. Anderson, A.B. 
Heckert, and A.P. Hunt, page 24, the authors redefine megatrackway down 
to 20 square kilometers, to fit their need to classify the Robledo 
Mountain find as a megatrackway.
---------------------------------------------------------------------------
    A National Monument is not an appropriate designation for the 
protection and study of the Trackways. The Smithsonian Institute 
performed a comprehensive study pursuant to Public Law 101-578 and 
recommended a locally-based private foundation, not a National Park or 
other federal designation for appropriate protection. It should be 
noted that most of the recommendations made by the Smithsonian study 
have been implemented, including the designation of a 736 acre Research 
Natural Area (RNA). The RNA provides significant civil and criminal 
penalties for any human disturbance of the Trackways.
    It is noteworthy that the Smithsonian reports that thousands of 
specimens have been removed and stored at the New Mexico Museum of 
Natural History and Science in Albuquerque, New Mexico. The site that 
most of this material came from was an area about 120 feet long and 
went about 16 feet into the hill side. Bureau of Land Management (BLM) 
officials, as well as folks from the Paleozoic Trackways Foundation, 
have all been quoted repeatedly in newspapers as saying that ``the 
trackways are not very visible'' or refer to them as buried treasure. 
This means that all of the exposed Trackways of note were removed from 
this area. There are no more exposed Trackways left. It is only 
speculation that more lie buried under hundreds of feet of overburden. 
It will require extensive and costly operation to attempt to expose any 
Trackways, if they exist.
    The most significant site is still there, but all the exposed 
Trackways are gone. The overlying rock has protected the Trackways for 
280 million years and still protects any that might be there. If the 
purpose of the proposed Monument is to protect speculated Trackways, 
what better way than to just leave them buried in place under all that 
rock?

                          ADJACENT ROCK QUARRY

    It is my understanding that many people want to shut down an active 
rock quarry in this area. I agree we should not let any prehistoric 
sites be destroyed, but it is unclear if the current mine has any 
potential to impact.
    It should also be noted that the rock quarry has been in existence 
for at least 50 years. In fact, it is the numerous finds of tracks from 
this quarry that led to the discovery of the Trackways. Although this 
quarry is out of the proposed Monument boundaries, it is a common 
assumption that one of the purposes of this bill is to shut down the 
quarry. Language in the legislation would certainly do that:

          SEC. 5(a)(3) is clearly written to accomplish this:
                  (3) PROTECTION OF RESOURCES AND VALUES.--The 
                Secretary shall manage public land adjacent to the 
                Monument in a manner that is consistent with the 
                protection of the resources and values of the Monument.

    Proponents claim that the quarry has covered up some of the other 
localities identified by the Smithsonian report. However, the quarry 
does not extend into the Research Natural Area established by the BLM. 
Interestingly, three or four of the localities identified by the 
Smithsonian report are within the quarry area and outside the RNA 
boundary. Also, keep in mind that until recently, the BLM had refused 
to identify the boundaries of the RNA or provide maps.\3\
---------------------------------------------------------------------------
    \3\ I had to do a Freedom of Information Act request to get a map 
of the RNA. Only recently has the BLM driven metal fence posts into the 
ground every several hundred feet, marking the boundary of the RNA. If 
the quarry has destroyed any of the identified localities, it is the 
ones that are outside the RNA. The sites that we found outside the RNA 
appear to have just been covered up with tailings, rather than 
destroyed through material removal. They are now just better protected 
from exploitation.
---------------------------------------------------------------------------
    There is also a lawsuit against the quarry in Federal District 
Court right now. It was filed by a ``grassroots'' group called Friends 
of The Robledos. This group is led by a board member of the local 
Sierra Club in charge of mining and grazing. She is also the mother of 
the chairman of The Paleozoic Trackways Foundation that is pushing for 
this monument. No grassroots here, but a massive environmental group 
pushing for land closure by any means.
Size of the proposed Monument:
    The Smithsonian Report starts out on page one by stating: ``The 
most extensively studied and scientifically significant Robledo 
tracksite occurs in redbeds of tidal flat origin at UTM 3584120N, 
323070E, zone 13.'' At the bottom of that page, the report states that 
``. . . with the discovery of the deposit now known as AF2 (NMMNH 
locality 846), on which this report is primarily based.'' The report is 
clearly stating that only one small area was studied.\4\
---------------------------------------------------------------------------
    \4\ These areas now have large ugly scars with erosion from the 
hillside above starting to fill in the gash.
---------------------------------------------------------------------------
    Although the Smithsonian report originally identified 34 
paleontological sites, it is now widely acknowledged that at least one 
third of those sites do not contain Trackways. Even the Paleozoic 
Trackways Foundation acknowledges that the Smithsonian report was 
misleading in the number of sites that it reported.
    During field research, I investigated most of the 34 sites 
identified in the Smithsonian report. At about a third of the sites, 
when the GPS unit indicated we were at the spot, we were standing where 
someone had done some strip mining or were within less than fifty feet 
of a noticeable dig. Another third of the coordinates placed us near a 
red bed outcrop, but no clear signs of mining were visible. Several 
were also in the same outcrop just a few feet from each other, so they 
should have been considered as just one site. The remaining coordinates 
were nowhere near a dig or even a red bed. We called these sites 
``phantom sites.''
    The significant site is where Senator Bingaman was taken to in the 
late 1980s and is where everyone else is taken to in an attempt to sell 
the idea of the National Monument--one tiny area less than 500 square 
feet, and yet monument proponents want 5,367 acres of speculated 
Trackways ``protected'' via this National Monument.
Concern about administrative cost of a National Monument:
    As members of the Subcommittee are well aware, federal budgets for 
public lands are insufficient. We cannot even keep our current National 
Monuments and Parks functioning. Look at the, Yucca House National 
Monument in Colorado, since 1919 it has waited for funding to do 
something with it. It has just been fenced in and locked up.
    The Fossil Cycad National Monument was created in October 21, 1922, 
because scientists recognized that the fossil locality preserved a 
significant exposure of a Cretaceous cycadeoid forest. Hundreds of 
fossilized cycad specimens, one of the world's greatest concentrations, 
were exposed at the surface of the 320 acre site during the early 
1920s. Lack of funds and miss management at the Monument resulted in 
adverse impacts on the fossil resource. The fossils on the surface 
disappeared faster than erosion could expose other specimens from 
beneath. The loss of the exposed petrified plant remains eventually 
left the site devoid of fossils and, ultimately, without a purpose to 
justify its existence as a unit of the National Park Service. On 
September 1, 1957, the United States Congress voted to deauthorize 
Fossil Cycad National Monument. Fossil Cycad National Monument was 
never officially open to the public and has never had a visitor center 
or public programs.
    An article in the May 25, 2006, Las Cruces Sun News talked about 
the sad plight of the Dinosaur National Monument near Vernal, Utah. 
Then on July 12, 2006, the Dinosaur National Monument had to close its 
visitor center for lack of funding for needed repairs. The Monument web 
site had this message:

          THE DINOSAUR QUARRY VISITOR CENTER IS CLOSED UNTIL FURTHER 
        NOTICE. This is the Dinosaur Fossil Bone Quarry Near Vernal & 
        Jensen Utah. The Quarry Visitor Center in Dinosaur National 
        Monument will close beginning Wednesday, July 12 for structural 
        repairs according to Superintendent Mary Risser. The building 
        will remain closed indefinitely until significant life, health, 
        and safety issues are addressed.

    Dinosaur National Monument receives over 300,000 visitors a year 
and still cannot afford to repair the visitor center. When is money 
going to be allocated for that?
    A January 22, 2004, story on EFENews.com looked at the plight of 
the Organ Pipe Cactus National Monument:

          Tucson, Arizona, Jan 21 (EFE).--Organ Pipe Cactus National 
        Monument in Arizona, just north of the Mexican border, is on 
        the short list for possible ``decommissioning,'' a status some 
        blame on massive illegal immigration.
          The scores of plastic bags, water bottles, empty food cans, 
        old shoes, clothes and toothbrushes discarded by the migrants, 
        besides being an eyesore, are threatening the park's ecosystem, 
        according to the National Parks Conservation Association 
        (NPCA), which placed Organ Pipe on its list of 10 most 
        endangered national parks.
          ``The monument shares a 30-mile border with Mexico that has 
        become an entryway into the United States for thousands of 
        undocumented immigrants, ``said Ron Tipton, the NPCA's senior 
        vice president of programs . . .
          ``This park is under siege and must get immediate attention 
        or we run the risk of losing forever the resources that earned 
        this national treasure a world class designation as a biosphere 
        reserve,'' [Ron Tipton, National Parks Conservation Association 
        (NPCA)].

    This proposed Monument has already earned a coveted spot on the 
Porkbusters.org website. Why add another Monument to the system when 
the current Monuments are being neglected?
Concern regarding administration and management:
    Monument proponents say this Monument will not affect recreational 
uses. Indeed, they often point to section 5(0 and state the existing 
motorized trails currently permitted by the Bureau of Land Management 
will remain open.
    However, the legislation defines ``authorized uses'' as those that 
``would further the purposes, for which the Monument has been 
established.'' It would be impossible to show that grazing, OHV riding, 
bike riding, hunting, gravel mining or just about any other use would 
``further'' the purpose even though they may have no impact on the 
resource. This needs to be changed to ``not inconsistent with the 
purposes.''
    Section 4(d) allows for minor boundary adjustments to the Monument 
if additional paleontological resources are discovered on adjacent 
public lands. Since the Abo red beds extend from Santa Fe, New Mexico, 
to the U.S./Mexico border, we could end up with a Monument two thirds 
the length of the state. This paragraph should better define the term 
``minor'' or limit the Secretary's authority to adjust the boundary to 
a certain acreage figure. Only Congress or the President should be able 
to enlarge a National Monument.
    Section 5(f) should include a paragraph stating: ``Continued 
motorized and mechanized access along currently designated routes shall 
be deemed a valid use of the public lands, and further administrative 
decisions regulating access along these routes shall not have the 
effect of prohibiting or unduly restricting travel by any presently-
authorized vehicle type.''
    Section 5(a)(3) Any other provision that allows for ``buffer zone'' 
management must be removed. As has been done in many recent Wilderness 
bills, a provision should be included clarifying that ``buffers'' will 
not limit management discretion over multiple-use lands outside the 
Monument.

                               CONCLUSION

    This bill is not about protection, it is about exploitation.
    The 1990 law designating the Prehistoric Trackways Study Area asked 
for a study, and it was done. That same law specified that the study 
was to recommend whether or not this area was worthy of being 
designated as a part of the National Park System. That study DID NOT 
recommend that this area be designated as a National Park or Monument. 
It only called for protection and further study of the Trackways, but 
not as a National Monument.
    It is true that this is an important area to the scientific 
community, however most of the visiting public just will not understand 
or appreciate the significance without the WOW factor that we have come 
to expect from our National Monuments.
    Why not just build a visitor center that is run by the Las Cruces 
Museum of Natural History and place the best finds in this center with 
dioramas of the creatures in their environment of 280 million years 
ago. The scattered sites are still protected, and every visitor gets to 
see the best of the best specimens that have been recovered. They will 
also have someone there that can point out all the evidence of 
prehistoric life hidden within the rock.
    I really feel that the current RNA is adequate to provide the 
protection desired for this area without the burden of National 
Monument designation, especially since there is really nothing left 
that anyone would want. I agree that this is interesting scientific 
discovery, but that alone does not merit the implied grandeur or 
significance of a National Monument. If anything, this location would 
cheapen the greatness of our National Monument system. However, I would 
like to be able to work with the committee to make improvements to the 
bill if you still feel that a national monument is absolutely 
necessary.
    I agree with Senator Domenici's comments when this bill was 
introduced that this issue should really be a part of a comprehensive 
land management bill for Dona Ana County. But, that bill needs to at 
least follow the BLM recommendations concerning wilderness and release 
the areas that were found not suitable for wilderness designation.

    Senator Craig. Fred, thank you very much for that 
testimony. Now let me turn to Russ Heughins, Issue Coordinator, 
Idaho Wildlife Federation of Boise. Russ, please pull that mic 
as close as possible. There you go, thank you very much. Please 
proceed.

 STATEMENT OF RUSS HEUGHINS, ISSUE COORDINATOR, IDAHO WILDLIFE 
                 FEDERATION OF BOISE, BOISE, ID

    Mr. Heughins. Thank you, Mr. Chairman, Ranking Member 
Bingaman and committee members. I especially appreciate you 
considering my request to testify early because of my travel 
plans.
    My name is Russ Heughins. I am the Issues Coordinator for 
the Idaho Wildlife Federation. I have hunted for 30 years in 
Owyhee County, hunting mainly choppers and sage grouse. I have 
served on the Boise District BLM Resources Advisory Council, 
been involved in a number of workshops and committees that 
address resource issues in Owyhee County.
    We are opposed to S. 3794 for several reasons. First of 
all, to clarify something I think is that this applies to all 
of Owyhee County, not just to the designated wilderness, not to 
buyouts or the other provisions in the bill but applies to all 
the public lands in Owyhee County.
    We don't see this collaborative process of really being 
truly collaborative. We feel that it is very narrow in its 
interests that hunters were not represented nor were anglers or 
trappers in the crafting of this proposal. It was said that the 
Idaho Outfitters and Guide Association would represent hunters 
but those of us who have spent a lot of time in Idaho and 
attended Fish and Game meetings, you can understand a trade 
association representative does not represent the general 
hunting public in the State of Idaho.
    We were concerned about the exclusion of some major users 
holding differing opinions. We see that as being problematic 
down the road, that if you are going to implement a really 
grass roots initiative, you need broad public support and we 
feel this will not happen. It may or may not but we feel it 
will create problems down the road.
    The science review process is another one of our concerns. 
We feel that it is unneeded, provides an extra layer of 
bureaucracy and will only serve to further discourage BLM to 
make decisions based on the needs of the resources rather than 
based on the needs of the users.
    This process will not resolve the conflicts that are 
addressed in the opening statements in the legislation. The 
current laws and regulations that stay in place will be 
followed by BLM. The science review process is solely advisory 
and for that, is why we feel that this will not resolve the 
conflicts. Only willing people sitting down at the table 
together can really, truly resolve these perceived conflicts 
and managing the resources in the public lands in Owyhee 
County.
    We have problems with the compensation package. We, like 
others, feel that if this is going to take place, it needs to 
be based on a fairer market value.
    Basically the same condition applying to exchange lands, 
where you have the seller setting the price of property and 
then trying to have the land management agency come up with 
matching land--it poses a problem. We note that there are a 
number of parcels of public land that have been placed in the 
pool for consideration for exchange and there have been varying 
figures bandied around but somewhere near 75,000 acres from 
which a potential in-holder in one of these designated 
wilderness areas could exchange their in-holding for an 
appropriate deal and for this land. We see a great disparity 
there.
    We are also concerned about the funding. S. 3794 will cost 
the American taxpayer a lot of money in a time of frugal 
budgets. There are a lot of unspecified costs that are 
mentioned in the bill. One of them is the fencing of the non-
grazing wilderness, which BLM will do that and they would 
maintain it. A conservative estimate is that fencing costs 
$5,000 a mile and the cost escalates as the difficulty of 
constructing the fence occurs and you've got a lot of lever rot 
dead out there. It's going to be expensive.
    Senator Craig. Sir, your time is----
    Mr. Heughins. We know we have a tight budget.
    Senator Craig. Russ your time has expired. Would you wrap 
up as quickly as you can, please?
    Mr. Heughins. We are really concerned about a trend that is 
going on here on public lands. Back in the seventies, we 
changed our national policy on public land from disposal to re-
pension and now we see this trend to begin disposing of public 
lands without an open national debate. Thank you for the 
opportunity to speak.
    [The prepared statement of Mr. Heughins follows:]

Prepared Statement of Russ Heughins, Issue Coordinator, Idaho Wildlife 
                        Federation of Boise, ID

                                S. 3794

    The Idaho Wildlife Federation (IWF) is a non-profit conservation 
and education organization that advocates for wildlife and wildlife 
habitat. IWF informs the public on the state of wildlife populations, 
wildlife habitat, management of fish and wildlife resources on public 
lands managed by the Bureau of Land Management, the U.S. Forest Service 
and other federal agencies with management responsibilities for the 
perpetuation of Idaho and the nation's wildlife resources, and the 
State of Idaho agencies responsible for wildlife and wildlife habitat. 
We have statewide membership and our members represent wildlife 
interests such as fishing, hunting and wildlife watching and 
photography. We ask that this testimony be made part of the record on 
S. 3794.
    One of our affiliate organizations briefed us on the Owyhee 
Initiative (OI). The IWF then formed a committee to first review the 
proposal and then held a series of meetings with the environmental 
representatives on the OI Working Group. We presented our concerns that 
were:

  <bullet> Access to traditional and popular hunting areas within the 
        proposed wilderness boundaries.
  <bullet> The creation of a Science Review Process managed by the OI 
        Board of Directors.
  <bullet> The release of Wilderness Study Areas to multiple use.
  <bullet> Grazing management language in the proposed wilderness 
        areas.

    These were our major concerns we presented at the meetings and 
throughout the course of the meetings. We never received much of a 
response to our concerns from the Working Group representatives. After 
the fifth meeting, we discontinued meeting with the Working Group 
representatives. We attribute the lack of progress and feedback to the 
pre-conditions set down by Owyhee County.
    In July, 2001, Owyhee County announced in a press release that 
stated, ``COMMISSION CHAIRMAN HAL TOLMIE SAID THAT THREE ISSUES ARE NOT 
OPEN TO NEGOTIATION''. The three issues are:

  <bullet> ``. . . the protection of livestock grazing as an economic 
        use is not negotiable''.
  <bullet> ``. . . the full protection of water of water rights''.
  <bullet> ``. . . that we won't include Jon Marvel and his supporters 
        who oppose grazing federal lands in the discussion''.

    Commissioner Salove stated in the press release that ``The economic 
stability of our ranchers and farmers depends upon certainty in grazing 
and water uses. Those who oppose that concept have no place in 
discussing resolution of issues.''
    We believe the position of Owyhee County is far off the mark. Our 
position is that members of the public must have a place at the table 
in any discussion regarding the administration of public lands, 
irrespective of the views they hold. This is assured by the Federal 
Land Planning and Management Act (FLPMA), as are public land permittees 
assured grazing privileges by the Taylor Grazing Act and FLPMA.
    IWF also believes the concept of ``economic viability'' originated 
with the County press release and the stated goal, in part, found in 
the Owyhee Initiative Agreement;

        ``. . . that provides for economic stability by preserving 
        livestock grazing as an economically viable use . . .''.

    We also understand that this concept has more factors, such as 
management acumen, the market place, the costs of doing business, 
weather (for example drought) and other conditions that may exist that 
periodically affect ranching operations.
    When inviting selected publics to become members of the Owyhee 
Initiative, the County selected the Idaho Outfitters and Guides 
Association (TOGA) which is represented by their executive director. 
The County then extended his representation to include hunters in 
general. It is fair to say that Idaho hunters do not consider a 
representative of the IOGA as representing the general hunting public 
in Idaho. The IWF certainly does not consider a business association as 
a suitable representative of Idaho anglers, hunters and wildlife 
enthusiasts.
    Given these conditions, it was very difficult to make any progress 
with our concerns with the OI Working Group. There were side meetings 
addressing access which were equally unsuccessful. From the time we 
disengaged from these meetings, until the present time, acquiring up-
to-date information on the OI and its progress has been difficult. It 
has not been an open process as its supporters have <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bbc8cfdacfdedf95fb">[email&#160;protected]</a>
    We have grave concerns with the potential consequences of the 
Science Review Process provision of the OI and the implementing 
legislation. IWF recognizes a potential for this provision to dissuade 
BLM from making decisions based on the needs of public land resources 
and their ability to sustain these uses without further damage. Our 
position is that all users of the public lands open to livestock 
grazing have sufficient opportunity to recommend management practices 
to the BLM on a continuing basis. In the case of Owyhee County, we 
believe they have more access to BLM than any other segment in 
southwest Idaho. They hold monthly meetings with BLM to discuss topics 
of mutual interest. IWF and its affiliate organizations have followed 
their example, and we now meet periodically with the local BLM office.
    We further believe that current law and regulations assure adequate 
input into the decision making process for all members of the public 
interested in doing so. Adding a provision for additional science 
review is unnecessary, and it can only complicate the.resolution of 
resource conflicts. A willingness on the part of all parties to work 
with each other to find practical and workable solutions to resource 
conflicts is a much more acceptable solution. We support this type of 
conflict resolution that has been missing from public land management 
for quite some time.
    The release of approximately 200,000 acres of Wilderness Study 
Areas is of great concern to IWF. Much of this acreage is lightly used 
and is in near pristine condition, making good to excellent wildlife 
habitat. Our recent experience and our involvement in public land 
management in Owyhee County leads us to be cautious of local solutions, 
as they often ignore other resource values. Without some safeguards, 
these lands could well be subject to maximum livestock development. 
Such an occurrence would be detrimental to wildlife and their habitat.
    The language in the wilderness management portion of the Owyhee 
Initiative and proposed to be implemented with S. 3794 undermines 
current wilderness requirements found in the Wilderness Act and House 
Report No. 101-405. For example, in the OI under Grazing Management the 
term ``current and customary'' is used. The Wilderness Act has a more 
restrictive requirement based on actual need and impact on wilderness. 
``Current and customary'' suggests more frequent access to facilities 
in wilderness areas. We do not support a broadening of grazing 
management language in wilderness management.
    Another of our concerns is the provisions for the purchase of 
inholdings and public land exchange option if the land owner opts for 
exchange rather than sale. IBH believes these provisions are open to 
potential abuse. That the land owner gets to set the price without an 
appraisal is highly questionable. The equitable way is to require 
appraisals for the lands offered for sale or exchange.
    We are also having grave concerns that a pool some estimate at 
75,000 acres of public lands suddenly becomes available for disposal by 
exchange without public review and input. Some of these identified 
public lands support valuable wildlife habitat. The correct procedure 
is to amend the current land use plan where it will receive public 
scrutiny and input. If the decision is to dispose of these lands then 
the existing law and regulation for disposal for exchange must be 
followed. Consider that should wilderness be designated an exchange can 
take place for inholdings following current law and regulation. 
Additional legislation is not needed.
    The IWF believes the funds needed to implement this legislation are 
not justified in a time of frugal budgets. There are several 
unspecified funds to be authorized if this legislation passes. One 
mandated cost is the fencing on the proposed non-grazing wilderness. We 
understand that the cost of fencing in the Boise District of BLM is, 
conservatively speaking, $5,000.00 per mile. The cost escalates as the 
degree of difficulty in installation increases. For example, if the 
fence contractor encounters bedrock the price will correspondingly 
increase. In the proposed non-grazed wilderness areas there is a lot of 
basalt rock underlying the soil, and the soil does not have great 
depth. The OI will require the amendment of three land use plans. What 
will be the cost of amending them, plus other changes that will be 
necessitated?
    The IWF believes that some of the OI proposals can be addressed 
through current law and regulation, and that this particular 
legislation is ,not needed, and this bill should be set aside. 
Wilderness and Wild and Scenic River designation requires statutory 
authorization; most other OI proposals could be accomplished if some of 
the contending parties were more cooperative.
    The impetus behind this bill is not in the public interest, it is 
in the interests of Owyhee County, a few public land ranchers, the 
Idaho Outfitters and Guides and a few environmental groups. It is 
important that there is an in-depth analysis, disclosure, and 
deliberation of this legislation that has not occurred at this point.
    The IWF asks that this legislation not be passed, but that it be 
returned to the sponsor and the Owyhee Initiative Board of Directors 
with the recommendation that the Board of Directors be more inclusive 
and sincerely consider ways to resolve their perceived problems with 
members of the public that take an active interest in the management of 
public lands. Anglers, hunters and wildlife enthusiasts would likely 
join such an effort so long as they get to choose their 
representatives, and they are fairly heard. It is a process that will 
take time and a willingness to give some. The end result should be a 
proposal a majority of the public can accept and support, rather than 
decisions made by elites, county officials and some public land 
ranchers to satisfy themselves to the exclusion of the majority of 
public land users and the public land resources.
    The opposition of 30 organizations of sportsmen and 
environmentalists suggests broad support by the public that enjoy and 
use the public lands does not exist for the OI and its provisions. 
Everyone should work diligently to help make the current public land 
management work, or they should work towards improving management that 
is acceptable to a broad sector of the public whose lands are held in 
trust.
    Thank you for your consideration of these comments and the 
opportunity to comment.

                               H.R. 3603

    The Idaho Wildlife Federation (IWF) is a non-profit conservation 
and education organization that advocates for wildlife and wildlife 
habitat. IWF informs the public on the state of wildlife populations, 
wildlife habitat, management of fish and wildlife resources on public 
lands managed by the Bureau of Land Management, the U.S. Forest Service 
and other federal agencies with management responsibilities for the 
perpetuation of Idaho and the nation's wildlife resources, and the 
State of Idaho agencies responsible for wildlife and wildlife habitat. 
We have statewide membership and our members represent wildlife 
interests such as fishing, hunting and wildlife watching and 
photography. We ask that this testimony be made part of the record on 
H.R. 3603.
    Much has been said about the difficulty Representative Simpson 
encountered in bringing some groups together and the hard work in 
piecing together an agreement and then legislation. But legislation 
that so broadly effects public lands cannot be deemed a success because 
it makes other interest groups in Idaho unhappy.
    Then there is the question of what is right for public land, and 
whether or not we are protecting it for the benefit of all citizens for 
whom it is held in trust. This is perhaps why 47 conservation 
organizations, 15 based in Idaho, oppose CIEDRA; not even the prospect 
of wilderness can hide the deficiencies of this legislation.
    IWF objects to many components of H.R. 3603, namely, that is does 
nothing for wildlife and disposes of 5,100 acres of public lands. This 
bill reduces wildlife habitat and reduces the opportunity for anglers, 
hunters, and wildlife enthusiasts to enjoy the use of the resources 
found on these lands.
    CIEDRA gives away 5100 acres of public land with the avowed purpose 
of aiding local governments. Some of the land giveaways could be 
acquired under longstanding laws such as the Public Purposes Act, Small 
Tracts Act, the Federal Land Transaction Facilitation Act and other 
means like leases, sales or exchange.
    The land giveaways under CIEDRA will not undergo environmental or 
alternative analysis under the National Environmental Protection Act 
(NEPA), and CIEDRA allows no discretion for the government not to 
transfer the lands. NEPA and the long established public land disposal 
laws provided for analysis and critical public input. These statutes 
provided for disposal only for lands specifically identified in land 
use plans, plans that underwent public participation.
    In the late 1960s the Public Land Review Commission undertook a 
thorough review of public land policy, and in 1976 with the passage of 
the Federal Land Planning and Management Act, public policy went from 
disposal of public lands to retention. With CIEDRA, other proposed 
bills featuring land giveaways and sale and local control, we may be 
witnessing the undoing of the hard and dedicated work the Public Land 
Review Commission accomplished thirty years ago. All this is taking 
place without open public debate.
    The Current Sawtooth National Recreation Area (SNRA) management 
effectively regulates uses, such as motorized recreation, livestock 
grazing, outfitting and guiding and a wide variety of outdoor 
activities. The current management also efficiently manages the natural 
resources, such as fish and wildlife. Where motorized use has damaged 
trails, the U.S. Forest Service (USFS) has closed damaged trails like 
the Big Boulder Basin Trail through Quicksand Meadows and the Boulder 
Chain Lake Trail. Under CIEDRA there is no net loss of trails. This 
severely hampers the efficient management of these resources. The IWF 
finds this provision particularly onerous.
    Without a federal water right the future recovery of salmon and 
steelhead in Idaho is jeopardized. Sufficient and non-polluted water is 
essential to salmon recovery. The exclusion of a federal water right 
further hampers the efforts of all in achieving respectable populations 
of these fish.
    The IWF strongly objects to grandfathering in any further uses than 
already exist in the Wilderness Act. We feel the inclusion of uses such 
as outfitting and guiding and horseback riding must not be included in 
any legislation that includes wilderness or in any stand-alone 
wilderness bill.
    Our organization disapproves of the provision in CIEDRA that 
loosens protection of resources through which mining claimants have 
access. Additionally, we oppose any weakening of regulation of 
livestock grazing, particularly in the White Clouds Peak area. Whenever 
damage occurs, it takes several decades to recover from the damage, and 
sometimes full or near complete recovery takes much longer.
    We oppose the proposed wilderness management in CIEDRA as 
inconsistent with the Wilderness Act. The proposed changes were 
objected to by the USFS in their testimony at the U.S. House of 
Representatives Resource Committee on October 27, 2005. IWF also 
opposes the release of more than 130,000 acres of Wilderness Study 
Areas to new and more intensive land uses or development.
    The Idaho Wildlife Federation recommends that this legislation be 
returned to the sponsor and the collaborative group that authored this 
legislation, with the recommendation that the collaborative expand, 
especially include a representative(s) from recognized and active 
wildlife conservation groups in the area, and that all the add items 
like grandfathering certain uses and no net loss of trails be 
discarded. Further, that the public land giveaways also be removed from 
further consideration. What we do believe is that if a wilderness bill 
arises from the ashes of CIEDRA and is inclusive of the parties that 
could draft such legislation; a bill that a majority of Idahoans could 
support would emerge.
    Thank you for your consideration of our testimony.

    Senator Craig. Russ, thank you very much. Russ, let me ask 
a question of you or maybe a couple here, before I turn to 
Senator Bingaman. I noted your arguments against H.R. 3603. If 
this bill is killed or does not become law and that means that 
the amount of lands conveyed to the communities in the county 
has to increase to find an acceptable compromise, is that an 
outcome that your organization is willing to accept?
    Mr. Heughins. I believe we may be able to accept that, 
Senator Craig.
    Senator Craig. Or if no wilderness bill of this area is 
passed, let's say in the next 20 or 30 years, as a result of a 
failure of this attempt, is that an outcome your organization 
is willing to accept?
    Mr. Heughins. Yes. I would just like to add that a lot of 
the wilderness in Owyhee County is now protected under 
Wilderness Study Area Management and the roads to access these 
areas are very primitive. I was out there last week with my 
hunting partners. It took us seven and a half hours to get to 
our campsite and most of that was after we left an improved 
gravel road.
    Senator Craig. Thank you.
    Senator Bingaman.
    Senator Bingaman. Thank you very much. Thanks to all the 
witnesses. Dr. Hunt, let me just ask your view on a couple of 
the points that Mr. Huff made in his testimony. He made several 
points but two of them, I think, are particularly significant. 
He says the paleontological resources involved at this proposed 
trackways monument lacks the scientific significance to warrant 
a national monument. That was one of his statements. What is 
your thought on that?
    Dr. Hunt. I have seen studies, footprints of this age, from 
all over the world and I can categorically state that these are 
the most important Paleozoic track sites in the world. They are 
a national treasure.
    Senator Bingaman. He also gave the opinion that there are 
no more exposed trackways left. The exposed trackways of note 
were removed from the area. It is only speculation that more 
lie buried under the hundreds of feet of overburden. What is 
your view on that? I mean, is there a danger that we would be 
setting aside for protection an area that did not really 
contain these trackways at this point?
    Dr. Hunt. No, sir. There are many localities with 
trackways, multiple tracks, throughout the Robledo Mountains. 
What is significant, Gerry MacDonald, who found these tracks, 
excavated one-track site and that is why there are 2,000 
specimens plus in Albuquerque. There are many, many other 
localities that were not excavated. The way you find those is 
you find a bluff and they are just a few footprints on the 
surface and you can tell by their quality and preservation that 
they represent a similar track site but they have not been 
excavated. So we know that there are many other sites that 
yield significant trackways but they have yet to be excavated.
    Senator Bingaman. I gather from your testimony, you believe 
it would further the goal of protecting these sites, to go 
ahead and enact this legislation and give some special 
designation to this area, is that correct?
    Dr. Hunt. I believe that they need special designation. 
This area that is covered by the legislation, has unique 
preservation of tracks. As Mr. Huff said, there are similar 
aged tracks all over New Mexico, from Tierra Armarilla in the 
north, down through Saguaro, all over New Mexico but none of 
them have the same quality and none of them were able to have 
such an international significance when they were described to 
revolutionize our understanding of Paleozoic tracks, as did the 
Robledo Mountain tracks.
    Senator Bingaman. Thank you. That's all that I have, Mr. 
Chairman.
    Senator Craig. Jeff, thank you very much. Now let me turn 
to my colleague, Mike Crapo. Mike? And let me also say--I had 
said at the outset, we would be recessing at about 11:45. We 
are in the final week before recess of the Congress and so 
things are phenomenally fluid. That recess is not materializing 
so we will move on. There will be no votes cast in the near 
future but I now anticipate that we will recess at 12:30, for a 
period of 45 minutes to an hour before we reconvene. That's at 
least the schedule that is moving as we speak. Now let me turn 
to my colleague, Mike Crapo. Mike?
    Senator Crapo. Thank you very much, Senator Craig. Mr. 
Heughins, I want to go over some of the concerns that you 
raised for just a moment and then I will be brief, Senator 
Craig.
    Senator Craig. Go right ahead.
    Senator Crapo. First of all, with regard to your concern 
that hunting interests were not represented in the process, 
didn't the conservation representatives involved in the Owyhee 
Initiative negotiations seek out your group and seek to obtain 
maps and solicit information for important counter-access 
issues and weren't you involved in negotiating on those issues?
    Mr. Heughins. Senator Crapo, that is partially true. The 
first meeting was sort of a joint effort by Mr. McCarthy and 
myself. Someone said that he was looking, he was wanting to 
speak to me and so we sort of sought each other out. Then once 
the proposal became--the first initial draft of the proposal 
was made public, we approached the environmental 
representatives on the Working Group, to open discussions. We 
met, I believe, about five times, which we found were non-
productive. You never really got any feedback from the group of 
environmentalists as to whether they were taking our concerns 
to the Working Group or not and we ended up, in the last couple 
of meetings, having basically the same conversation over and 
over again. That was that but we did participate, some of us 
did participate in looking at the roads and we had some 
participation there, yes.
    Senator Crapo. Yes, that was my understanding, that there 
was--I thought there was quite the extensive participation in 
evaluating the roads at issue and that ultimately, you didn't 
agree with the negotiations but that to say you weren't sought 
out isn't accurate.
    Mr. Heughins. Yes, to some, Senator Crapo.
    Senator Crapo. Let me also talk with you for a minute about 
your objection to the science review process, because as I 
heard you state your objection, I want to be sure I understood 
it correctly. If I understand it correctly, your point is that 
the existing law will all still be applicable and the Science 
Review Board is only advisory.
    Mr. Heughins. Right.
    Senator Crapo. Although you state that the real solution, 
you thought, would be to get people around the table and try to 
work out these local issues. Isn't that exactly what the 
Science Review process is intended to do, is to bring people 
from many different perspectives together at a table and 
although it doesn't give them the authority of law to impose to 
their decisionmaking, it does give them the ability to have 
input with the Federal managing agencies.
    Mr. Heughins. Senator Crapo, my understanding of that part 
of the Science Review process is that one of the public land 
permitees, the decision that he feels, BLM didn't use good 
science or analyzing it correctly. In some way, he does not 
agree with the decision or a group of them do not or a member 
of the public, like myself, feel that maybe wildlife was 
getting short tripped on a decision, then we would approach the 
Board of Directors and ask for a science review. If they 
approve it, now--if they approve it and then they will ask the 
University of Idaho to empanel a three-member Science Review 
Panel, made up of professional scientists. There is no sitting 
down at the table by the parties concerned, to work it out.
    Senator Crapo. But it does enable a process for science 
review to take place, to assist with those who disagree with 
the management decisions or the direction in which management 
decisions are going so we can avoid litigation and move more to 
collaboration. Wouldn't you agree?
    Mr. Heughins. Perhaps in part. My understanding of it is 
that the opinion is given, then to BLM and the Board of 
Directors and BLM can either accept the findings of the panel 
or reject them.
    Senator Crapo. Well, I can tell you--you and I may agree on 
this. I would be glad to have a local collaborative group 
empowered to make the decision. I doubt we could get that past 
Congress and take the authority away from the BLM at this 
point. But either way, let me move on because I know my time is 
short. Just one other point and that is, section 2(b)(2) of the 
Wilderness Act provides for economic stability by preserving 
livestock grazing as an essential, viable--as an economically 
viable use. Is the group you represent able to support that as 
one of the main purposes or that objective, the achievement of 
protecting and preserving the public livestock grazing?
    Mr. Heughins. We recognize that grazing is authorized by 
statute in the Taylor Grazing Act, the Federal Land Management 
Act. We view economic stability or viability, is the term that 
is sometimes used, rests upon the management acumen of the 
rancher, market conditions, weather conditions, all these 
various things play into, we believe, the economic stability 
and viability of ranching operations anywhere--no matter if it 
is Owyhee County, Custer County--wherever it is at--reliance on 
this statement, we think--well, just skeptical.
    Senator Crapo. So you're skeptical of continued grazing 
activities?
    Mr. Heughins. No, we feel that it's going to continue, is 
all. The Wilderness Act authorizes it. It is authorized under 
the Taylor Grazing Act. I don't see where the danger lies of 
being not stable.
    Senator Crapo. All right, thank you. I see my time is up so 
I won't go further. Thank you, Senator Craig.
    Senator Craig. Mike, thank you very much. Gentlemen, we 
thank you for being before the committee this morning and 
helping us build a very valuable record as we attempt to move 
forward on these pieces of legislation. Thank you very much.
    We are now going to ask panel three to come forward and I 
think we can gain this panel's information before noon. Let me 
ask them to come forward. Rick Johnson, Fred Grant, Cliff 
Hansen and Grant Simonds.
    Gentlemen, thank you very much for traveling from Idaho to 
be with us today, to as I said, build what I think will be an 
extremely valuable record as we move forward on this 
legislation. Let me introduce first, Rick Johnson, Executive 
Director of the Idaho Conservation League in Boise, for your 
testimony. Please proceed, Rick.

  STATEMENT OF RICK JOHNSON, EXECUTIVE DIRECTOR OF THE IDAHO 
                 CONSERVATION LEAGUE, BOISE, ID

    Mr. Johnson. Mr. Chairman and members of the committee, I 
am Rick Johnson, Executive Director of the Idaho Conservation 
League. Thank you for the opportunity to appear today and for 
including my written comments in the hearing record.
    I know that Custer and Owyhee Counties are two of the most 
conservative counties in the United States. So Mr. Chairman, 
did you ever expect to see these counties and the Idaho 
Conservation League together in support of two bills to 
designate new wilderness?
    [Laughter.]
    For decades, Idaho's congressional delegation has 
challenged us to create bottom-up, locally supported solutions 
for wilderness rather than depend on top-down policy from 
Washington, D.C. Both the Boulder White Cloud and Owyhee bills 
do that. There are critics, to be sure, on both extremes and 
while critics are never hard to find, many do raise legitimate 
points. But what is hard to find is legislation that plows the 
rocky middle ground, where historic adversaries work to create 
America's common ground.
    The Owyhee Canyon lands are the largest expanse of the 
lower 48 without a paved road and a rolling sagebrush sea 
covers land incised by deep and remote river canyons and sheer 
rock walls. This is one of the nation's most biologically rich 
and diverse landscapes, extraordinary in its beauty and its 
solitude and its solitude is increasingly at risk by the 
proximity to Boise, the nation's third fastest growing city. 
The Owyhee legislation is controversial because of the release 
of WSAs, Wilderness Study Areas, the Science Review Panel and 
narrows wild and scenic river corridors. The legislation has 
arrangements for a rancher compensation package we currently do 
not support as drafted.
    While some view these provisions as deal breakers, the 
Owyhee must be viewed as a whole, for the overall protection it 
provides, to the half million acres of new wilderness. We 
expect the bill to evolve in Congress and we support moving 
forward.
    On the other bill, the Boulder White Cloud mountain ranges 
are the largest block of unprotected national forest roadless 
areas outside of Alaska. This area is threatened by rapidly 
growing off-road vehicle use and Idaho has now over 100,000 
registered off-road motorized vehicles, an increase of over 
33,000 in just the last 3 years. The Boulder White Clouds are 
in Custer and Blaine Counties and these counties could not be 
more different yet both county commissions support this 
legislation. It is also supported by former Idaho Governor and 
Interior Secretary Cecil Andrus and Bethine Church and former 
Senator Jim McClure, who once chaired this committee.
    The land conveyances to Custer County are one of the 
greatest concerns we have with the bill, particularly the 162 
acres in the Sawtooth NRA. We are also troubled about the 
Special Management area where, on certain trails, motorized use 
would become permanent, limiting the management discretion of 
the Sawtooth NRA. As introduced, both bills included purchase 
of grazing permits within the wilderness, where grazing would 
be permanently retired. Voluntary grazing buy-outs are an 
important advance in public land law in the West and we 
strongly support reinstating this title for the Boulder White 
Clouds.
    It has been a generation since we have resolved a difficult 
wilderness issue together in Idaho, leaving a generation who 
has never learned how to work together to get something done. 
Rather than talk to their neighbors, they often talk to 
themselves. Voices on both sides fear precedence in these 
bills. I share concerns and appreciate the national interest 
Congress must consider. But the continuing precedent I fear is 
failure, 26 years of failure to move place-based legislation in 
Idaho.
    Both of these bills are supported by a majority of those 
who must live with them. They deliver the local support the 
Idaho Delegation has long sought. Failure to move them 
squanders opportunities not seen before in Idaho. Failure 
rewards those who condemn collaboration and compromise in favor 
of politics and polarization.
    Mr. Chairman, we are talking about real places in Idaho. 
This is a sprig of sagebrush, the scent of the West, the scent 
of our home. It is the scent of a land where real people who 
love our country work and live, who recognizes our achievements 
in being here and hope for our success. We are not perfect and 
we didn't create perfect legislation but don't let the perfect 
be the enemy of the good. We have plowed the rocky ground 
between the extremes and now we come to you to finish the job, 
to create law that is good for Idaho and good for America.
    The Boulder White Cloud and Owyhee bills should move 
forward and for that, Mr. Chairman and members of the 
committee, we need your help. Thank you.
    [The prepared statement of Mr. Johnson follows:]

  Prepared Statement of Rick Johnson, Executive Director of the Idaho 
                     Conservation League, Boise, ID

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to appear today to discuss H.R. 3603, the Central Idaho 
Economic Development and Recreation Act of 2005 (CIEDRA) and S. 3794, 
which would implement the Owyhee Initiative. My name is Rick Johnson 
and I have been the executive director of the Idaho Conservation League 
for over a decade. For over 30 years we have worked to protect the 
clean water, wilderness, and quality of life of Idaho.
    These written comments supplement my short oral testimony delivered 
on September 27, 2006. Also, while these written comments address both 
S. 3794 and H.R. 3603 we have additional comments on S. 3794 for this 
hearing that are being submitted separately and jointly by The 
Wilderness Society and the Idaho Conservation League.
    These comments address the context for collaboration, public 
support for these packages, and particular points related to each bill.

                       CONTEXT FOR COLLABORATION

    No wilderness bill has passed for Idaho in twenty-six years, over a 
generation, and not since Frank Church was one of our senators. One 
reason for this is that each time a wilderness proposal came from the 
Idaho delegation, the conservation movement was unable to 
collaboratively engage so we rallied to fight. I know this because I 
have had a leadership role in every serious attempt to protect 
wilderness in Idaho for over 20 years.
    And each time we stopped a bill, afterward we'd come together and 
put forth a new proposal: bigger, better, bolder, and more protective 
of wilderness. Unfortunately, each new proposal of ours was even more 
disconnected from the realities of the politics of the state where we 
live. Don't get me wrong: Our organization supports and has long 
articulated a bold vision for wilderness in Idaho, but as we look to 
that distant horizon, we also look where our feet can go, one step at a 
time, in a state with very challenging politics.
    Also, as we worked to protect the wildlands we care about, our 
tactics were viewed on a local level as increasingly confrontational. 
In some cases, this approach increased an already significant divide 
between people working to protect a landscape and those who live and 
work on it.
    I appear today to speak for two pieces of legislation I would not 
have written myself. We do not support some of the provisions these 
bills contain. But I speak for two bills that are connected to the 
politics of Idaho, and that while far from perfect, reflect years of 
unprecedented work to create a solid middle ground.
    I believe both these bills--different as they are--can serve as a 
model for others, and by that I do not mean copying the public land 
disposal provisions so troubling to so many, me included. I would also 
point out that while many see a trend in wilderness bill containing 
public land disposal, I see our situation as unique, framed around our 
challenging politics and the fact that no bill has passed here in 26 
years. It is my hope that future Idaho bills are configured 
differently.
    Also, there are places, such as in Washington County, Utah, where 
bills pretend to offer what we have here; that bill has land 
conveyances, but not the years of work to create ownership and true 
collaboration, and there is no support from wilderness advocacy 
organizations.
    By our work being a model, I refer to successfully bringing diverse 
interests together, creating bills from the ground up that accommodate 
a variety of interests, building the deep political support these bills 
have.
    It is said that it takes a craftsman to build a barn, yet any fool 
can tear one down. We have a long track record of stopping Idaho bills. 
It is now, however, time to recognize the effort to create these two 
and pass what is certainly the best opportunity we've had to do so in 
26 years.

              PUBLIC SUPPORT FOR COLLABORATIVE WILDERNESS

    Before I address elements of the Owyhee and Boulder-White Cloud 
bills, I would like to discuss public support. In Idaho wilderness has 
long been controversial and public support is a key element to this 
endeavor. As Abraham Lincoln said, ``With public sentiment, nothing can 
fail; without it, nothing can succeed.''
    In the past decades of work to protect Idaho wilderness, over and 
over, Idaho's congressional leaders have repeatedly challenged us to 
create wilderness packages with real local support, with local elected 
leader support, with business support. We have been challenged to 
create bottom-up, locally based proposals rather then strictly advocate 
top-down, DC-based policy.
    We have done that.
    Idaho is a conservative state. Like this Congress, Idaho is more 
conservative today.than it used to be, but Idaho still cares deeply for 
special places like the Boulder-White Clouds and Owyhee Canyonlands. 
And while we are working on issues impacting national interest lands, 
wilderness has always required support from the home state.
    As I hope this panel makes clear, these two bills--crafted from the 
bottom up in Idaho by Idahoans--have extraordinary support, and unlike 
past wilderness initiatives that, to some, appear as an attempt to 
overwhelm Idaho's conservative values, these bills complement them, yet 
also retain the values of conservation that are core to our mission as 
conservationists.
    Both bills contain compromises to be sure, and some of the 
compromises we do not support, and both bills have vocal opponents on 
both political extremes, but let's consider the support they have 
earned.
    First, there is significant support from the Idaho congressional 
delegation. The Boulder-White Clouds bill, written and introduced by 
Rep. Mike Simpson, and the Owyhee Canyonlands bill, written and 
introduced by Sen. Mike Crapo, are 50% of our congressional delegation. 
Further, both bills are strongly supported by Idaho's Governor Jim 
Risch. Wilderness bills don't generally arise from Idaho's Republican 
leadership. To state the obvious, Idaho is a conservative Republican 
state and these elected officials are of the majority party. A broad 
number of noted Democrats, have also expressed support for one or both 
of these bills including former Governor and Interior Secretary Cecil 
Andrus, Bethine Church, and a number of current candidates for office. 
The reason for this broad bi-partisan support is a foundation of 
collaboration and the good prospects for ultimate passage.
    These bills impact lands found in Owyhee, Custer, and Blaine 
Counties. The County Commissions of all three counties are in support 
of the respective bills. Blaine County is home to Sun Valley, and has 
long supported wilderness protection, so support there is not 
surprising, but Custer County--and Owyhee, as well--is rural, 
conservative, and anti-regulatory in perspective. Support for 
wilderness from Owyhee and Custer County is unprecedented. Again, this 
comes from collaboration, local engagement, and ownership.
    Editorial boards across the state have expressed support for these 
bills.
    While much has been made of the split within the conservation 
community over these bills, support from the conservation community is 
strong. In addition to the Idaho Conservation League--the state's 
largest conservation advocacy organization--both bills are supported by 
The Wilderness Society and the Campaign for America's Wilderness. The 
Owyhee bill has support from the Nature Conservancy, conditional 
support from the Sierra Club, and Idaho Rivers United. The Boulder-
White Clouds bill has the support ranging from the very large National 
Wildlife Federation, to the local Sawtooth Society and Boulder-White 
Clouds Council. The Boulder-White Clouds bill also is supported by the 
Outdoor Industry Association, which represents outdoor business 
enterprise generating billions of dollars.
    Why this breadth of conservation support? It is because these bills 
protect large and important tracts of wilderness, and they have real 
political viability in a place where gaining political viability is 
very hard.
    Over the last few years the Idaho Conservation League has 
commissioned public opinion research on these bills three times, each 
conducted by Bob Moore and the respected firm Moore Information. Each 
poll has consistently demonstrated the breadth of public support for 
wilderness protection in Idaho and particularly for packages developed 
with a diversity of Idaho interests.
    Our most recent polling on the Owyhee Canyonlands shows 70% public 
support. For the Boulder-White Clouds, public support is 68%. This is 
very strong statewide public support.
    One of the criticisms of both bills is that they contain too many 
provisions but that is where much of the political strength of these 
bills resides. Developed from the ground up, these bills were 
intentionally developed with direct engagement of the interests with 
the power to stop them.
    These bills have ownership from a broad and powerful constellation 
of players. These bills bridge divides between historic opponents to an 
unprecedented degree. By intent these bills engage a diversity of 
interests in hope of redefining the middle for Idaho's contentious 
public land disputes.
    Finally, and entirely anecdotally, I talk to Idahoans daily in my 
work, and by that I refer not only to members of the Idaho Conservation 
League, but members of Idaho communities, neighbors, business owners, 
people in the grocery store, on the street, in the airports, who stop 
me wanting to talk about these bills. Let me state clearly: People the 
regular people who live, work, and love our state--are hungry for 
progress. They are tired of the same old rhetoric. They are tired of 
gridlock. They find the shrill statements from both extremes tiresome. 
People in Idaho want to see us succeed.
    There are very legitimate and important criticisms to be made about 
both bills, but it is time to focus on the big picture. It is time to 
move forward.

              S. 3794--IMPLEMENTING THE OWYHEE INITIATIVE

    In July 2001, I first met Fred Grant, representing the. Owyhee 
County Commission, in a Boise bagel shop to discuss the possibility of 
a collaborative discussion regarding lasting protection of the Owyhee 
Canyonlands and economic viability of the community he was empowered to 
represent. Coming soon after a conservation campaign where we were 
trying to create a national monument in Owyhee County, this meeting was 
remarkable for its candor and openness. I would like to point out that 
throughout this endeavor, Fred Grant has remained a remarkable 
individual, and no one deserves more credit than he for keeping this 
process together.
    What followed that first meeting are literally hundreds of 
meetings, thousands of hours, visits on the ground and in offices, 
around kitchen tables and the negotiating table, all leading to this 
day where an unprecedented array of Idahoans sit before the U.S. 
Congress in support of legislation to implement the Owyhee Initiative.
    The Owyhee Canyonlands are the largest expanse in the lower 48 
without a paved road. The area is twice the scale of Yellowstone 
National Park. It contains some of the best examples of arid sagebrush 
lands that once characterized the American West. Grassland plateaus and 
a ``sagebrush sea'' continue to cover the land, through which run deep 
and remote river canyons with sheer rock walls. Scientists have called 
this landscape one of the most biologically rich and diverse in the 
nation.
    While this is an incredibly remote and fragile landscape, it is 
adjacent to Boise and Idaho's Treasure Valley. This is the third-
fastest growing urban area in the nation. This growth threatens both a 
landscape and culture that lives on it.
    There are several key points I'd like to make about the Owyhee 
Initiative:
    The proposed Wilderness lands protect a full range of critical 
wildlife habitats, with 20 percent canyons and riparian areas, 40 
percent juniper uplands and 40 percent rolling sagebrush plateaus. 
Among the indicator species gaining stronghold protection are sage 
grouse, redband trout, pronghorn, and bighorn sheep.
    The Wilderness boundaries and public access system on 4WD dirt 
roads was negotiated in detail with conservation, recreation, outfitter 
and ranching representatives. Representatives of the BLM also 
participated in numerous mapping field trips. Each of the six 
Wilderness units have specific boundary and access features to address 
future grazing management potential, public rights-of-way for expanded 
and assured access, wildlife security, Wilderness values and Wilderness 
management. No one was excluded from the negotiations; some groups 
would not negotiate under the goal framework.
    The private lands proposed for sale or trade, about 2,600 acres, 
all have perennial springs or flowing water with critical riparian and 
wildlife habitats. These lands were original homesteads because water 
flowed there and were kept in private hands because ranchers wanted a 
foothold to assure access to public lands. These lands also all have 
near term development potential, as recreation and vacation sites, or 
hunting camps, or subdivisions. The prices will only go up. Putting 
these lands in public hands, as pivotal public access points to 
Wilderness, makes sense today and will benefit the public interest for 
generations.
    The Wilderness boundaries, the land exchanges or purchases and the 
grazing preference retirements were all customized for both ecological 
values on the land and economic values for the ranchers. 
Conservationists are satisfied the legislation secures Wilderness, 
water and wildlife values. Conservationists are also in support of 
continued ranch viability, with no one driven out of business, where 
private lands retain all rights but are not under pressure for 
development.
    Needless to say, the Owyhee Initiative has been a challenging 
process for all involved, and it is a testimony to the dedication of 
the members of the Owyhee Working Group that we have come as far as we 
have. With legislation introduced, we have completed a remarkable 
process that brought diverse stakeholders together, kept them together, 
and created the work product captured in the legislation we consider 
today.
    While the work creating the Owyhee Initiative was difficult, we 
recognize we have now engaged a no less challenging process: passing a 
bill in the U.S. Congress.
    The Owyhee Initiative legislation contains elements that have been 
controversial within our organization and the rest of the conservation 
community, such as the release of Wilderness Study Areas, the Science 
Review Panel, and narrowed Wild and Scenic River Corridors. The 
legislation also has elements we do not support such as the 
compensation package and arrangements. We expect these provisions to 
draw considerable scrutiny in Congress.
    While some view these provisions as ``deal breakers,'' we recognize 
that the Owyhee Initiative must be viewed as a whole, and for the good 
of the Owyhee Canyonlands and the future generations who will enjoy 
this part of Idaho as we do, we support moving this legislation 
forward, again recognizing the reality of the legislative process: as 
national interests are considered the bill will likely evolve and this 
will require continued work on the part of all involved in the process 
thus far.
    As we have learned in our work with Rep. Simpson and the Central 
Idaho Economic Development and Recreation Act, a bill that has advanced 
through the U.S. House, packages created on the ground in Idaho have 
considerable political strength drawn from the diversity of 
stakeholders involved. That said, our years of discussions are about 
national lands and diverse national interests will and should be 
considered as the bill moves forward in Congress. We look forward to 
being an active participant in Washington yet recognize, as we have 
seen with CIEDRA, that the legislative process will require a lot more 
work and that the bill is likely to evolve further as national 
interests are considered.
    That said, this bill should advance forward, and we ask all who 
represent the national interests this body is rightfully empowered to 
represent to remember the fragility of the coalition and the remarkable 
diversity of players who have made this possible.

    H.R. 3603--CENTRAL IDAHO ECONOMIC DEVELOPMENT AND RECREATION ACT

    The Boulder and White Cloud Mountain ranges comprise the largest 
contiguous block of unprotected National Forest roadless land outside 
of Alaska. The rugged, vast landscape contains more than 150 peaks 
rising above 10,000 feet. Hunting and fishing are extremely popular 
here, as the absence of roads creates large contiguous tracts of land 
that support salmon spawning and big game such as elk, moose, mountain 
goat, bighorn sheep, black bear, and cougar.
    The variety of roads provide excellent access, tremendous 
recreation opportunities and spectacular scenery; the Boulder-White 
Clouds are popular with Idahoans as well as thousands of people from 
out-of-state who come to enjoy these lands and generate millions of 
dollars for the local tourism industry.
    While the boundaries of this wilderness proposal are a compromise, 
this is by far the most comprehensive proposal for the Boulder-White 
Clouds every proposed by an Idaho Member of Congress, Republican or 
Democrat. It is not perfect. Special places have been left out, but it 
is a good proposal. This wilderness provision of this bill totals over 
300,000 acres of the Boulder and White Cloud Mountain Ranges in Central 
Idaho. This is the primary reason the Idaho Conservation League has 
been and continues to be a stakeholder in this process.
    Since its inception over 30 years ago, the Idaho Conservation 
League has worked diligently to protect this landscape as wilderness. 
If this legislation sold the Boulder-White Clouds area short, I would 
not be here today urging you to move this bill forward. From the 
beginning of our work with Congressman Simpson, the League decided that 
a palatable wilderness bill will ultimately have to protect the high 
peaks and valleys of the White Cloud and Boulder Mountains, and protect 
the open ridges, peaks and valleys of the east side of the area. We 
would still like to see improvements to the wilderness title--an 
increase in the 300,000 acreage wilderness acreage figure by adding 
part of the North Fork of the Big Wood River which constitutes the 
backdrop for world-famous Sun Valley. We would also strongly support 
elimination of the remaining motorized corridor separating two 
wilderness units.
    I know this country well, and have traveled its valleys and ridges 
for over 25 years. I've skied across the entire White Cloud range in 
winter, and I have walked it in summer. In our advocacy for this area, 
we have consulted with the people who know this country best, and 
imperfect as the boundaries are, they are wholly worthy of support. I 
should also point out that the part of the bill with the greatest 
public support is the wilderness designation, which is supported by 70% 
of the Idaho public.
    We would like to comment on a few of the more troubling provisions:
    Economic development provisions in the bill include the land 
conveyances to Custer County. While this measure has evolved since the 
framework for this bill was released in 2003, and the acreage of the 
conveyances has decreased, these provisions remain one of the bills 
foremost liabilities.
    We understand Custer County's desire to increase their tax base and 
economic opportunities. That said, conveyance of non-surplus public 
lands for private purpose is a difficult compromise to ask of the 
American public.
    And while troubled by the land conveyances generally, we are 
particularly concerned about the conveyances around the City of Stanley 
in the Sawtooth National Recreation Area. We do not support 
conveyances, particularly those in the Sawtooth NRA. I would also point 
out that in the poll I cited, this provision of the bill is the ONLY 
provision that does not have majority support from the Idaho public, 
and if there is something most needing change in this bill, this is it.
    There are provisions in the bill that place restrictions on the 
land included in the bill that will be conveyed. These include stream 
setbacks, restrictions on what can be developed, etc. Some have called 
these provisions ``federal zoning'' and are critical of them. It is 
very important to recognize that these are conceptually drawn from the 
original Sawtooth NRA enabling legislation, and important to the 
overall success of this endeavor.
    There is a lot in this bill for the motorized recreation 
constituency.
    Concerns have been raised from both the motorized and conservation 
community regarding the Boulder-White Clouds Management Area 
established under the bill. Like other provisions, this one-is a mixed 
bag.
    The special management area created in legislation makes permanent 
the summer motorized use on selected trails and snowmobile use in 
certain areas. We do not support this or other provisions that limit 
the management authority and discretion of the Sawtooth National 
Recreation Area.
    We also do not support retention of the motorized trails in 
Germania Creek, to Frog Lake, or the others that bisect, yet are 
separate from, the wilderness designation. We do not support the loss 
of wilderness recommended by the Forest Service because of snowmobile 
use there.
    It is important to note, however, that this designation would cap 
the number of motorized trails at current levels and provide more 
resources for enforcement. The Idaho Conservation League views this as 
a positive provision. Illegally used trails would not be legitimized by 
this bill, and no new trails will be created in the future. Likewise, 
the special management designation would ensure that existing non-
motorized trails would remain non-motorized and that the area will not 
be further damaged by unregulated motorized recreational pursuits in 
years to come. In short, while we do not like making the status quo 
permanent, we do recognize that these trails are open today, and that 
the Boulder-White Cloud Special Management Area would provide 
limitations not currently in place.
    I appeared in my first congressional Idaho wilderness hearing in 
1984. At the time, motorized recreation issues were not particularly 
significant. Since then, particularly in the last several years, 
motorized off road vehicle use has exploded, impacting the land, 
solitude, and the politics of wilderness. Rampant cross-country 
motorized use on public lands has been identified by U.S. Forest 
Service Chief Dale Bosworth as one of the greatest issues facing his 
agency. There are now over 100,000 registered off road motorized 
vehicles in Idaho with 33,000 new registrations in the last three years 
alone.
    Despite efforts by conservationists to advocate stronger 
restrictions on motorized use through two previous forest management 
planning processes, regulation of motorized recreation in the Boulder-
White Clouds region has failed. While I respect that certain Sawtooth 
NRA managers oppose this portion of the bill, they have done nothing to 
reduce the impacts of this rapidly growing sector. Moreover, the land 
managing agencies have enabled motorized recreationists to become and 
more and more entrenched in wilderness Study Areas (WSAs) and proposed 
wilderness areas. The motorized community in Idaho has millions of 
acres of federal public lands in Idaho already available for motorized 
recreation.
    The water provision in CIEDRA is commonly referred to as 
``headwaters'' language, which means that proposed wilderness lands are 
located at the headwaters of streams and rivers. The waters in the 
Boulder and White Cloud Mountains are all headwaters. The language 
recognizes that lands designated as wilderness would be properly 
managed to protect wilderness values and would not be suitable for the 
development of new or expansion of existing water facilities. No water 
developments have occurred in wilderness areas where headwaters 
language has been applied in the past. The bill would also specifically 
prohibit future development of any new water resource facility 
(including dams, reservoirs, and wells) or water right application 
within the designated wilderness. Consequently, the wilderness areas 
established under CIEDRA would have an extra degree of protection that 
Idaho's existing wilderness areas do not have.
    CIEDRA authorizes creation of first-ever wheel-chair accessible 
trails in wilderness. Because the Wilderness Act prohibits the use of 
motorized and mechanized vehicles in designated areas (with exceptions 
for emergencies), there has been some concern that this bill provision 
will weaken the intent of the original Act. The Americans with 
Disabilities Act of 1990 reconciled this issue by stating that 
wilderness shall not prohibit use by individuals with disabilities who 
use wheelchairs for everyday mobility. It also stated that managing 
agencies are not required to.make special accommodations for such 
users, but there is no prohibition on making accommodations.
    The trails would be ``primitive access,'' which means that they 
would be compacted and slightly leveled, but not paved, allowing a 
wheelchair user to navigate them unassisted. These short trails 
(approximately 1.5 miles) would also provide recreation opportunities 
for elderly users.
    Before House mark-up, this bill allowed for donation or purchase of 
current grazing permits within the wilderness area, and grazing in 
these areas would be permanently retired. This provision was extremely 
important because many existing grazing allotments are within the upper 
East Fork watershed of the Salmon River and are considered critical to 
the recovery of fish species listed under the Endangered Species Act.
    The Boulder-White Clouds are dry, steep, erosive and not suitable 
for grazing. Valley bottoms contain habitat for salmon and other 
species listed under the Endangered Species Act. This is a very 
important provision to CIEDRA and we strongly advocate reinstating this 
title.

                               CONCLUSION

    For the past several years the Idaho Conservation League has been 
talking to the people of Idaho, from all walks of life, from all 
political perspectives, at Rotary Clubs and county fairs, around 
kitchen tables, and hearing rooms as well as campfires. Yes, we've been 
talking about the Boulder-White Clouds and Owyhee Canyonlands, but in 
doing so, we've also been listening a lot, too. In listening, we've 
learned that Idahoans, be they Republican or Democrat, rural or urban, 
rich in wealth or just rich in spirit, all love the outdoors, yet are 
also frustrated by politics of polarization on the issues that impact 
the outdoors, and in Idaho, everyone's lives touch the outdoors.
    While I am troubled that conservationists are divided about this 
legislation, the Idaho Conservation League believes that if 
conservation is to be relevant, beneficial, and important to the lives 
of our fellow citizens, we have to do more than fight what is bad, we 
also have to achieve something that is lasting and good, and talking 
about it is different than doing it.
    These are not perfect bills, but let us not allow the perfect to be 
the enemy of the good. These have significant support of Idahoans and 
reflect the particular challenges of our state. They contain 
compromises, but so does every bill that passes Congress, and they 
recognize that if we are going to protect wilderness in Idaho for the 
first time in a quarter century, we have to engage the other 
constituencies who live there, work there, play there, and call it home 
and join them at the table.
    There are those who speak against what they see as precedents in 
this bill; the precedent I am most troubled by is that of failure. And 
let me also offer the hope that on this issue, we move forward, because 
failing to do so again squanders this opportunity, proves the naysayers 
right, and returns us to politics of polarization.
    Wild landscapes define Idaho. It makes us different than every 
other state. And the Creator is not making any more of it. Idahoans 
wants to protect this special place, yet we cannot do that without the 
support of the U.S. Congress.
    In closing, I would like to express my thanks to Rep. Mike Simpson 
and Senator Mike Crapo: You two have forced many of us to look beyond 
the concerns of the moment, to step out of default positions of the 
past, and have challenged us to look into the future. You have created 
the best opportunity in decades to protect special parts of Idaho.
    Good work by good people brings the two Idaho bills we consider 
today. We are not perfect and we didn't create perfect legislation. But 
we have plowed the rocky ground between the extremes, and now we come 
to you to finish the job. The Boulder-White Clouds and Owyhee bills 
need to advance in the legislative process, and for that, Mr. Chairman 
and members of the committee, we need your help.
    Thank you.
                                 ______
                                 
                  Additional Statement of Rick Johnson

    Calli and Mike:
    Immediately following my panel at the September 27 hearing Calli 
suggested I might expect follow-up questions from the committee to 
follow up on points just raised and for questions there was not time to 
ask of me. I have not received this, so first I want to make sure I 
didn't miss something.
    Regardless of the hearing record, I believe there are issues for us 
to discuss. These include differences in process and legislative 
``ripeness'' between the two Idaho bills considered September 27. 
Another discussion could be what was referred to on the recent Idaho 
Public TV's ``Dialogue'' segment on Boulder-White Clouds as the 
``trigger'' language. And another could simply be how we look to the 
myriad of issues facing Idaho in the future, be it places like the 
Clearwater or Panhandle, or clean air and transit in the Treasure 
Valley, or energy development. I am certain there can be times where 
there is common ground between common-sense conservation and our 
leading voice for Idaho's conservative majority.
    We all heard Senator Craig's closing remarks after the Idaho panels 
regarding a linkage between authorization and appropriations bills. 
There are a number of reasons why your office might raise this issue. 
One, obviously, is the desire to ensure all parties get what they 
signed up for. Were I in your shoes I, would be concerned about the 
Owyhee and the fact that Sen. Crapo is not an appropriator. I would 
assume this is less an issue for Rep. Simpson because he is. (There are 
other differences between the two bills clouded a bit by hearing both 
at once, but I'll not get into that here).
    Another consideration of authorization and appropriations may be 
this: you might think we (as in the conservation community or maybe 
even the Idaho Conservation League) will screw up the appropriation 
once authorization takes place. In hindsight, this was indirectly 
conveyed by Sen. Craig's question to me regarding our challenge of BLM 
regs. Or, if not screwing up approps process, we will simply not go 
away and there will not be, in the words of my timber friends, peace in 
the woods after the deal is made.
    I cannot speak for other groups but I can speak for the Idaho 
Conservation League. If we're engaged in making a deal work on a 
particular landscape we're engaged long-term, and that means in good 
faith, and for the long-haul. It takes a lot of work to create trust 
and credibility, literally years, and I will not let that be cast aside 
in careless moments.
    Obviously, we all work on many things. It is my sincere hope that 
success in the Boulder-White Clouds or elsewhere helps creates 
relationships where collaboration is possible on other issues beyond 
these localities or even on issues beyond public lands.
    I have taken real risk engaging these wilderness initiatives. We 
have angered some conservationists and we have been pounded by our left 
flank. We have gained other things, tangible and less so, that far 
exceed the loss, from ``plowing the rocky ground in the middle.'' We 
better represent conservation interests than we used to and do so in 
ways that better complement Idaho's conservative values for the good of 
a majority of the citizens of Idaho.
    Our work in reshaping conservation in Idaho is something I believe 
we should talk about further; a candid conversation about the Idaho 
Conservation League. I don't pretend to represent all conservationists. 
I am a leading voice, however, and I am serious about making 
conservation work for Idaho. In the future there will certainly be 
issues on which we cannot collaborate or even agree, but we can move 
beyond black and white politics of polarization which, in the end, 
serves few and leaves little that endures for anyone.
    I hope to visit with you again soon.

    Senator Craig. Rick, thank you very much. Now let me 
introduce to the committee. You're a long way from home, Cliff. 
Hon. Cliff Hansen, commissioner of Custer County, Stanley, 
Idaho.

    STATEMENT OF CLIFF HANSEN, COMMISSIONER, CUSTER COUNTY, 
                          STANLEY, ID

    Mr. Hansen. Yes, I am and thank you, Mr. Chairman and 
committee members, for letting me come here and speak a little 
bit on Custer County's behalf. Let me first say that I'm Cliff 
Hansen. I'm a rancher. I've continued, my whole life, to live 
in Custer County. I have been a commissioner for 16 years and 
my district is the area in question that is in Custer County.
    I first want to say that when this was brought to our 
attention as commissioners some 6 years ago, the commissioners 
felt that with some 3,152,000 acres of land in Custer County, 
there was already 1.1 million acres either in the Frank Church 
Wilderness for the SNRA. So we didn't feel we needed any more 
wilderness but after several years of discussion with 
Congressman Simpson on this issue, we felt it was worth taking 
a look at.
    We have direct opposite sides on this. We have some people 
who would certainly like to have a great majority of the area 
put into wilderness and we certainly have a group that doesn't 
want any wilderness at all. And that has been covered quite a 
bit by the number of acres that are there.
    What I would like to address a little bit that seems to be 
one of the big controversial issues, is Federal lands being 
turned over either to the county or the cities.
    No. 1, I'll address the issue of the land in the Sawtooth 
Valley. When the SNRA was created, it was not supposed to take 
out as much private land fee title as it did. It was supposed 
to be purchased by easements. However, the people that were 
making the decisions opted to buy several thousand acres. I 
think there is about 7,000 acres totally that have been 
purchased, so about 6,000 acres in Custer County. The lands 
that are in question are around Stanley--there is a 6-acre 
piece that would go to the city that will be used for either 
seasonal housing or low-income housing. The reason why we 
emphasize this as being very important, as of right now, in the 
SNRA with the limited number of acres there are and the big 
demand for the acres that are there, the increase in value has 
increased so much that the Federal Government, through the 
Forest Service, the State, through its employees and the 
county, through our law enforcement, have to furnish housing 
for all our employees, which naturally puts these people in a 
position where they won't stay very long because of the big 
turnover of our representation, our employees up there. We also 
have a problem--according to the Federal Government, now we're 
putting almost two million people through the SNRA and Custer 
County in the summertime and the people that are young people 
that cook the hamburgers and pump the gas and make the beds, 
they are volunteers for the EMTs, the fire department, search 
and rescue--these young people don't have any place to live. So 
naturally, they move on pretty fast so it's pretty hard for 
Custer County to keep this going. Our search and rescue has 
gone on tremendously.
    There is an 80-acre piece that has really been in question 
that will go to the city of Stanley. It is an 80-acre piece 
that the Federal Government, in my estimation, never should 
have bought. It's right in the middle of private land and it's 
impossible for them to administer. The 68 acres I just 
mentioned will go to the city for the various reasons that I've 
said. There is a 100-acre corridor--or a 100-acre strip of land 
on each side of the stream that will not be built on, that 
nothing can be done there so I think it is pretty well 
protected. There is an 86-acre piece of ground up on top of the 
hill that is not visible the highway, that would go to the 
county, that eventually--hopefully could be sold and possibly 
regain some of the tax revenue that we've lost. Other pieces of 
ground, most all the rest of the ground, is not Forest Service 
ground, it's the BLM. There is a piece of ground by the little 
town of Clayton that is their cemetery that belongs to BLM. 
There is another little piece of ground that they would have 
their water tower on. There is another little piece of ground 
where they could maybe put in a sewage system eventually, 
seeing as how the ground is getting pretty contaminated from 
septic tanks. So we feel this is viable to take out Federal 
ownership. There is also a track of land in Challis, that the 
Rod and Gun Club uses, that is basically a trespass on BLM. 
There are some other grounds that we've put a wind generation 
plant on, that may some day be able to provide revenue for 
Custer County. So taking all these things into consideration, 
even though the commissioners are not totally happy with the 
bill, we feel that it is in the best interests to Custer 
County, if this bill passes, to give us some of the resources 
that we may need to keep this county operating in the future. I 
would be willing to answer any questions that you may have.
    [The prepared statement of Mr. Hansen follows:]

   Prepared Statement of Cliff Hansen, Commissioner, Custer County, 
                              Stanley, ID

    My name is Cliff Hansen, I am a rancher and I have lived the last 
63 years in the Stanley area. I have seen the bands of sheep and the 
herds of cattle diminish. Logging as we used to know it is gone. Today 
our small community of 100 lives on tourism; 2.1 million people come to 
float our rivers, hike into our high-mountain lakes, or maybe just take 
pictures of the rugged, majestic mountains called the Sawtooths.
    I have been a Custer County Commissioner for 15 years. Our county 
has 3.1 million acres but only 158,000 acres of that are private, less 
than 5 percent. Today we have approximately 1,093,000 acres in 
wilderness between the Frank Church Wilderness and the Sawtooth 
National Recreation Area.
    We are not in favor of any more wilderness. But, with that said, we 
certainly appreciate what Representative Simpson has done by reaching 
out to all the agencies and entities.
    He has seen the economic needs in our county, he has tried to 
eliminate trespass issues, and he has worked with the ranchers on their 
grazing permits. He has spoken with the snowmobilers, the 
motorcyclists, the mountain-bikers, the outfitters, the Idaho 
Conservation League, and the Wilderness Society.
    Representative Simpson held public hearings across the state. Out 
of the hearings came the information to put this bill together. We know 
for a fact that all sides made compromises.
    The hard release of 138,000 acres now in wilderness study areas 
will be put back into multiple-use, which will allow federal agencies 
to better administer these lands for diversified uses.
    The Sawtooth National Recreation Area approximate statistics tell 
their own story. It is comprised of 756,000 acres of 733,537 are 
federal lands, 20,322 private ownership and 2,200 acres of state 
ownership. The federal government has purchased 5,933 acres consisting 
of 504 parcels of $21,200,000. That property was removed from the tax 
rolls.
    In closing, I would like to say that Custer County can only provide 
minimal services to our citizens and visitors because only 5 percent of 
the land base can be taxed. This is inadequate. We do receive PILT 
money, but because it is based on population, it is also inadequate to 
provide the services the public needs.
    Appropriated funds would be invested and the accrued interest would 
be disbursed for economic development and the maintenance and 
operations of Custer County.
    Custer County supports Representative Simpson's H.R. 3603, which is 
before you today and we would respectively ask you to support this bill 
too.

    Senator Craig. Cliff, thank you very much for that 
testimony. Now let me turn to Fred Grant, chair of the Owyhee 
Initiative Working Group, from Nampa. Fred, you have labored 
mightily in the trenches over the last several years to produce 
this initiative. Thank you for your effort. Please proceed.

    STATEMENT OF FRED KELLY GRANT, CHAIRMAN, OWYHEE COUNTY 
             INITIATIVE IMPLANATION ACT, NAMPA, ID

    Mr. Grant. Thank you, Mr. Chairman, Senator Craig, and 
Senator Crapo. It is a privilege for me to be here, Senator. As 
I said in Governor Rich's office a few weeks ago, when he 
announced his support for this bill, it was not always a 
pleasure to be doing what I was doing but I don't feel that I 
led this group, I feel that I stayed behind them and tried to 
keep them focused on issue and I believe, Senator, that the 
collaborative issue resolution that has come forward is about 
the best that we can do, from a local standpoint, to preserve 
the beauty and integrity of the Owyhee County landscape, which 
is an interest of all--the ranchers as well as the conservation 
groups and of all the responsible recreation users of the 
country.
    I wanted to testify today about three elements of the bill, 
Senator. All the elements of the bill have been thoroughly 
discussed in written documents that will be presented to the 
committee but I want to talk first about the science review.
    Senator, we have been bogged down in Owyhee County for over 
10 years in getting speedy decisions from the BLM because of 
the administrative appeal process and the court litigation 
process. There are cases of allotments in Owyhee County, where 
the appeal process has been going on for 7 years without 
resolution. One of the reasons that we came up with the science 
review was not to delay the process but to speed it up. We 
fully believed that if there is an objective peer review report 
prepared in decisions for the BLM, for the BLM to look at in 
advance, not after an appeal process. If there is a flaw in the 
science of the BLM decision, it lets them see that at least 
from an objective standpoint and if there is a flaw and they 
agree there is a flaw, it allows them to change it before we go 
into that lengthy seven, 8 year administrative process. Prior 
directors of the BLM--we've vetted this process with them. 
Delmar Vale, who preceded Martha Hahn. Kaylin Bennett, who just 
recently retired--both told me that this does nothing more than 
return to what the BLM used to do and that is, seek peer review 
of their decisions.
    Right now, Senator, one of the Range Cons told me in an 
email message, just the other day, he cannot spend time working 
on one of the allotments under which we are in a timeline with 
the administrative judge because he has to work on 68 reports 
to Judge Winmill by December 2006. We see them rendered--linked 
to their desks and not being able to do the management work on 
the ground and we believe that this peer review will help in 
that process. It is advisory. It is not binding. The BLM has 
been at the table throughout in that process and the people who 
have represented the BLM with the Work Group have not found 
objection to the science review.
    The second thing that I want to mention just real quickly, 
is the Cultural Site Protection Plan that the tribes that 
participated with the Initiative to succeed in finally getting 
funded and prepared. In 1999, they had an agreement with the 
BLM that brought to you, Senator Craig and you, Senator Crapo, 
an attempt to fund that but funding wasn't available at that 
time. Now this is part of the entire Recreation and 
Transportation Plan, which we provided in here.
    Senator, we now have the support of many of the 
organizations of motorized vehicles who operate every day in 
Owyhee County. The Treasure Valley Trail-Mobile Association is 
serving on the Recreation Task Force in Owyhee County, helping 
to make plans, now, that will be pre-implementation of some of 
the things called for by the Initiative and Senator Crapo's 
office has just learned that the 4x4 Association, Mr. Bill 
Taylor, as the spokesman, is now in support of the Initiative.
    We know that there are people in the motorized industry who 
oppose this but we believe that having talked to experts in 
recreation planning, which were provided to our Work Group by 
the Snowmobile Association and Motorized Vehicles. We believe 
that the language of this Act provides for establishing 
challenging recreational opportunities in the county and yet, 
also offers protection through law enforcement, of those areas 
of resource that are being destroyed by the irresponsible, 
unorganized users who come from that 750,000 population that is 
right across the river from us.
    The third point and I'm sure that I'll be able to answer 
this in questions, is the compensation package and with that, 
Senator, I would submit.
    [The prepared statement of Mr. Grant follows:]

    Prepared Statement of Fred Kelly Grant, Chairman, Owyhee County 
                 Initiative Implantation Act, Nampa, ID

    In order to produce a locally driven, broad interest-base plan to 
resolve the land use conflicts which have plagued the citizens and 
ranchers of Owyhee County, Idaho for decades, Owyhee County's Board of 
Commissioners, the governing body of the County, issued an invitation 
to participate in developing the Owyhee Initiative. They did this as a 
joint Initiative between the County government and that of the 
Shoshone-Paiute Tribes who reside in southern Owyhee County and 
northern Nevada.
    The condition for participation in the Initiative process was that 
the participating organization commit to the goal stated for the 
Initiative:

          To develop and implement a landscape-scale program in Owyhee 
        County that preserves the natural processes that create and 
        maintain a functioning, unfragmented landscape supporting and 
        sustaining a flourishing community of human, plant and animal 
        life, that provides for economic stability by preserving 
        livestock grazing as an economically viable use, and that 
        provides for protection of cultural resources.

    As you can see, and as your Chair, Senator Larry Craig, and Senator 
Mike Crapo can tell you, the viability of livestock grazing is key to 
the County because it forms the backbone of the tax base which supports 
the County's economy and County government's services which are 
mandated but not fully paid for by Congress and the State of Idaho. 
Owyhee County is a high desert rangeland county in Southwestern Idaho, 
adjoined by Nevada to the South, Oregon to the West, and the burgeoning 
750,000 population of the Boise Valley to the north. Over 7 tenths of 
the County's nearly five million acres are owned by the federal 
government and managed by the BLM for the Congress. A meager 17 percent 
of the land base is privately owned and provides the ad valorem tax 
base for all County services.
    Invitations were extended to the Owyhee Cattleman's Association, 
the Owyhee Borderlands Trust (a group of ranchers organized to seek 
alternative means of grazing for ranchers who needed to rest a portion 
of an allotment to facilitate range improvements such as prescribed 
fire), the Owyhee County Soil Conservation Districts, The Wilderness 
Society, the Idaho Conservation League, the Nature Conservancy, the 
Idaho Outfitters and Guides, People for the Owyhees (an organization of 
ranchers and motorized recreation users, formed originally as a group 
for fundraising events and for participating in efforts to oppose 
designation of over half of the geographical area of Owyhee County as a 
national monument), and the United States Air Force which operates the 
Mountain Home Air Base in neighboring Elmore County and has vital stake 
in land use resolutions on the Training Range which directly involves 
Owyhee County.
    The Bureau of Land Management and the Idaho Department of Lands 
were asked to participate in an ex officio liaison capacity. The 
Commissioners also named a representative to represent the County in 
the Initiative process, and the Tribes chose to coordinate their 
efforts directly with the County Commissioners and Senator Crapo on a 
government to government basis. As time progressed, the Air Force 
determined that it could not serve in a voting capacity but served in 
the process in an advisory and contributive role, providing the actual 
language in the Initiative designed to protect the long range interests 
of the Air Force in the integrity of their defense role from the 
Elmore-Owyhee base.
    The Bureau of Land Management and the Idaho Department of Lands 
agreed to serve in an advisory and contributing role. From the 
inception, from the very first meeting of the work Group, a BLM officer 
at the district management level was at the table, listening, speaking 
and contributing information so that the Initiative resolution would be 
consistent with the mission of the BLM, with the rules and regulations 
which provide the mechanism under which BLM functions, and the statutes 
which govern the BLM's management of federal range lands which lie 
under the constitutional jurisdiction of the Congress of the United 
States. Idaho Department of Lands personnel served the same capacity in 
behalf of the State which has a constitutional duty to manage the state 
public school sections of land in the best interests of school support.
    All organizations invited accepted the invitation and named a 
representative to participate in the work of resolution. Each of the 
conservation organizations were selected for invitation because of 
their prior experience in working on Owyhee County issues with no 
evidence of a bias against grazing which would prevent them from 
committing to the portion of the goal which called for continuing 
economic viability of livestock grazing.
    There are some extreme interest groups who were not invited to 
participate because they actively seek to restrict and eliminate 
grazing on the public lands and oppose livestock ranching in general. 
It would have been utterly futile to seek their participation in 
resolution of issues when in fact their goal is exactly opposite that 
stated for the Initiative.
    The Owyhee Initiative Work Group which was formed over five and a 
half years ago, has struggled with policy, philosophy, practicalities, 
processes and realities in those long years to produce the Owyhee 
Initiative Agreement, a copy of which is attached to this testimony as 
Attachment 1. The Agreement contains the framework within which these 
organizations, the County Commissioners, the citizens of the County and 
an overwhelming list of supporters including Governor James Risch, 
Attorney General Lawrence Wasden and the entire Land Board of Idaho 
believe land use issues can be resolved without resort to expensive, 
futile litigation which does nothing for betterment of the resources in 
the public lands for which you hold constitutional responsibility in 
Owyhee County. The Owyhee Initiative Act is proposed as your 
implementation for these resolutions through your constitutional 
authority.
    First, neither the Commissioners nor the Initiative Work Group asks 
that the Agreement become law in and of itself. The Agreement is a 
commitment from the participating parties to implement its contents in 
pursuit of the stated goal. The Agreement, signed by the members of the 
Work Group, was submitted to the County Commissioners who then 
submitted it to the Tribes. Both sovereigns approved the Agreement and 
executed an historic Memorandum of Agreement through which the Tribes 
and the County committed to governmental coordination efforts as to 
issues of mutual concern.
    The Owyhee Initiative Implementation Act has been drafted to 
provide the processes under which various provisions of the Agreement 
that need federal legislative action can be implemented, and has been 
carefully drafted in a manner which assures that the authority of the 
BLM for management of public lands is not threatened in any way. It has 
also been carefully drafted to assure that the timelines which govern 
BLM decisions are not affected or delayed.
    There are opponents to the Agreement and to the Act. They will seek 
to persuade you that the Act should not be passed for several reasons, 
but all reasons are directly attributable to self interest of the 
opponents, not to concern for the protection of the resource for which 
you are responsible.
    The Act calls for implementation of the Science Review process. 
This is one of the processes which opponents will portray in a false 
and misleading manner. It is not designed to, and in fact does not, 
usurp the authority of the BLM, and it is not designed to, and in fact 
does not, delay any BLM process. Rather, its purpose is to provide non-
binding independent peer review of BLM decisions, and to speed the BLM 
process. Its terms specifically adhere to those purposes. First, it 
provides for peer review by a team of experts in various areas of 
resource technical skills, selected in each case by the University of 
Idaho after review of the particular skills required for review of that 
case. Peer Review is an element lacking in the decision making process 
currently in use by the BLM. It is not unknown to the BLM, because it 
was used by various prior directors of the Idaho BLM. Two former 
directors of the Idaho BLM, Delmar Vail and K. Lynn Bennett have shown 
no surprise at this attempt to reinstate peer review because, as they 
have advised the group's Chairman, as they came up through the BLM 
ranks they used peer review to great advantage.
    Peer Review also is consistent with the purpose of this Congress in 
passing the Data Quality Act several years ago. In fact, you directed 
each agency to provide for various types of review of its decisions in 
order to assure that sound science is being used for agency decisions. 
The very idea for suggestion of creation of the Science Review process 
stemmed from the provisions of the Data Quality Act. To this end, the 
science review will be of great assistance to BLM in assuring that 
their policy of basing management decisions on the best available 
science will be followed.
    It is clear in the Agreement that the BLM decision making process 
will not be slowed down in any way by the Science Review. The report of 
the reviewing team must be completed within the time set for appeals of 
decisions by the BLM's own rules, so the Science Review cannot delay 
the BLM. The only obligation placed on the BLM by the provisions of the 
Science Review is that its personnel receive the peer review report and 
read it, and then make sure that it gets placed in the administrative 
record of the BLM. There is no requirement that the BLM accept the 
report or its contents or change even a word of its decision based upon 
that report. So why conduct the peer review? It is the belief of the 
Initiative Work Group that it is in everyone's best interests, 
including the BLM, to assure that the best available science is 
appropriately applied in a timely manner prior to the administrative 
review of BLM's decisions in the appellate are of the Department. If 
such occurs, and the BLM can avoid problems which lead to lengthy 
appeals, then the resource can more quickly become the object of the 
decision which should be crafted to properly manage the resource and 
its condition. If the peer review results in a report which states that 
the BLM has in fact used sound science, that should provide the base 
upon which a rancher accepts the decision without going through the 
lengthy and delaying administrative process. On the other hand, if the 
peer review results in a report which states that the BLM has not used 
sound science, and the BLM makes no change in its decision, then the 
report gives the administrative judge a base upon which to review the 
case's merits much more quickly than is now the case. Owyhee County has 
experienced administrative appeals which have taken more than a decade 
to resolve--and many are still hanging over ranchers and the BLM a 
decade later.
    The compensation package which is part of the Initiative will also 
come under serious attack, particularly by those who would like to 
drive ranching families off the public lands. In order to make the 
Initiative project viable, quality wilderness areas needed to be 
designated. The conservation groups sought such status because of the 
unique beauty of certain of the areas of Owyhee County's vast land 
base. Some of the highest quality of those areas are represented by 
private lands owned by 15 rancher families in the County. These are 
highly scenic private lands which have water sources, which have unique 
wildlife resources, and which provide habitat for sensitive species. 
The lands are valuable, far more valuable in terms of high value 
resource richness and from a sale price standpoint than any of the 
federal grazing lands in the County. The ranchers know this because 
they are already being pressed by developers and realtors who desire to 
acquire these private lands for one of several purposes, all of which 
will be exclusive of the public and the public's use. These private 
buyers want the lands for development of high upper scale estate 
subdivisions, single estates, private hunting and fishing clubs, and/or 
lodge facilities for private and public tourist services. All these 
uses are in demand right now because Owyhee County is the last outpost 
of solitude in this fast growing area of the northwest--its vast 
openness lies just 15miles from the most southern development of the 
Boise Valley, the population of which is estimated now at 750,000, with 
projections of another 50 percent increase within the next 20 years.
    The 15 ranch families represented in the compensation package are 
facing an end to their current livestock grazing business and tradition 
if the exchanges called for by the Bill are not provided. Because of a 
variety of BLM decisions and a federal district judge's decisions, they 
face terms and conditions which are making continuation of their 
current operation virtually impossible. One of the ranchers is now 
allowed to graze for one month in a portion of an allotment where once 
he grazed for four months. Because of the terrain and other physical 
elements of the allotment, it takes him a month to gather the herd 
after it is put on the allotment. So, he must put the herd on the 
allotment, hold them all at one end of it and then get them off in 
order to avoid trespass. As a result, the concepts for timing, 
intensity and duration of grazing use are not properly applied--the 
rancher knows it, but can do nothing about it because of the BLM 
restrictions. His portion of the compensation package will allow him to 
continue his ranching business but avoid the failed grazing system 
imposed by BLM and avoid use of a portion of this federal allotment 
altogether.
    None of the 15 ranchers are asking to be bought out of the business 
of grazing. They may be retiring their grazing preference as to certain 
allotments and portions of allotments, but they will be able to 
continue their grazing through remaining grazing preference(s) and/or 
on private lands once the proposed exchange is made of the highly 
valued private lands for federal grazing lands. So, this package does 
not in any way constitute the so-called ``buy-outs'' of grazing which 
livestock organizations throughout the west almost unanimously oppose. 
No one goes out of business, but rather enters into a grazing program 
which reorganizes and stabilizes the rancher's economic base of 
operations. Rather than a buy-out, the plan represents a reorganization 
of ranching operations to the economic value of the ranchers, and 
therefore to the economic value of the whole grazing industry and of 
the County which supports and is supported by the ranchers.
    Included in the prices which the ranchers have placed on their 
compensation package, which includes the valued private lands which 
would be exchanged into wilderness designation, are portions of their 
grazing preferences including all elements of the preference such as 
improvements. The Idaho legislature has determined as a matter of state 
property law that there is a private property interest in the grazing 
preference. The legislature has not spelled out the nature or extent of 
that interest, but has in fact acknowledged that property interest. As 
the Congress knows, the Federal Claims Court and the United States 
Supreme Court have traditionally and continually ruled that property 
value is determined by reference to property interests as determined 
under state law. The ranchers of Owyhee County, and all ranchers of 
Idaho know that, and they know the significance of the Idaho statute as 
to the grazing preference.
    The ranches included in the compensation package did not have their 
ranches on the market for sale in whole or in part for any purpose. So, 
a traditional appraisal of the lands which they are offering in the 
package would have been of no use. They responded to the Initiative by 
offering the private lands which will provide a high quality ecological 
wilderness base at the price they know they can get for those lands 
from developers and/or conservation buyers. These lands are their fall 
backs if they have to go out of the livestock business. These lands 
will bring prices equivalent to comparables of other ranches which have 
sold for conservation purposes, or for development--not for continued 
range grazing use. But, it is not the ranchers' interest in seeing the 
unique landscape of Owyhee County become fragmented and dysfunctional 
by private development which closes off the lands to all of the public, 
and closes off access to some of the most beautiful of the western 
landscapes. They believe in the ranching tradition, they want to see 
Owyhee County remain in its traditional and customary state--they want 
to preserve the beauty and availability of this unique landscape to the 
people.
    So, they set their prices, and the intention of most of them is 
that the price be paid in exchange of lands, high value private lands 
for federal grazing lands. In order to assure that the land exchanges 
and/or sales remained a viable option, private land inholdings were 
conservatively valued from $800 to $2,500 per acre while comparable 
sales for identical lands ranged from $1,000 to $3,000 per acre.
    One of the most important elements in the Owyhee Inititiave Bill is 
the Recreation Transportation Plan, linked as it is with the Tribal 
Cultural Resource Protection Plan. -The bill authorizes the elements of 
funding which have been needed for at least the last decade: funding 
for local law enforcement and funding-to the Shoshone Piaute Tribes to 
provide the essential personnel needed to protect the resources against 
irreparable recreational devastation and protect the Tribal sacred 
cultural sites from the same source of destruction as well as 
intentional vandalism and theft.
    The land in Owyhee County is hallowed ground for the Tribes. It 
contains sacred cultural and religious sites which need to be protected 
to preserve their sanctity, their important holy place in the Tribe's 
historic and current traditions. Many late comers to Southwestern 
Idaho, and particularly to the ever growing population of Boise and its 
surrounding expanding, metropolitan area do not understand or 
appreciate the importance of their sites, sacred ground, artifacts and 
culture.
    As already pointed out, the population of the spreading 
metropolitan area is now estimated at 750,000. Annual new arrivals in 
the Boise area, equal the total citizen population of Owyhee County and 
the Tribal Reservation. Growth of the Boise area is projected to 
increase 85% over the next 25 years. Many of these newcomers seek 
refuge from even larger urban areas. As the urban density of Boise 
increases, these folks look for the openness of Owyhee County which is 
less than an hour's drive away. Access to the openness is easy through 
use of their 4-wheelers, dirt bikes, motorcycles and other versions of 
4 wheel drives as well as off road vehicles.
    Most do not understand the cultural and religious importance of the 
Tribal sites. When they find and visit them, they experience the 
excitement of discovery, a moment to be retold many times over along 
with showing an arrowhead, a shard of a vessel, or their relic which 
they take away from the site. The Tribes have seen more and more 
discretion of their cultural sites during the last decade of 
mushrooming urban growth. *They do not have the personnel needed to 
protect the sites. And the BLM normally has at most, one ranger for the 
entire County and the Boise Valley. Protection of the Tribal sites are 
not a high priority on their list.
    The Tribes developed a Cultural Site Protection Plan to which the 
BLM agreed in 1999. BLM District Manager Kate Kitchell went to Idaho's 
Senator's with the Tribal Chairman to seek funding to implement the 
plan. Funding was not available at that time, so the Plan has been 
stalled and desecrations have continued and increased.
    Five years ago the Tribes came together with the Owyhee County 
Commissioners to join in the Owyhee Initiative. The Bill will authorize 
funds for the Tribes to implement their Plan which provide for Tribal 
rangers who will also work cooperatively with the Owyhee County Sheriff 
to help protect the uniqueness of this vast County from destruction by 
urban recreation folks. The Plan agreed to by the BLM in 1999 has been 
changed only by inclusion of the concept of cooperative law 
enforcement. The Owyhee County Sheriff has agreed that he will deputize 
Tribal Rangers who complete the Idaho Peace Officers Standard Training 
Course. The Tribes and County will enter a unique cooperative law 
enforcement plan which will present a model for County law enforcement 
throughout the West.
    As the cultural sites are being desecrated, so are natural 
resources and private property throughout the County. And as motorized 
vehicle use increases, the challenge of use presented by trail 
designation by the BLM is gone. Vehicle operations send new trails, 
cutting through and destroying natural shrubs and growth which provide 
sanctuary and food for wildlife and forage for livestock. The 
destruction not only.impacts current growth, but also adversely impacts 
soil surfaces, preventing re-growth and causing destructive erosion. 
The ecological damage now can be seen in every part of the County. A 
motorcycle organization, South Western Idaho Desert Racing Association, 
has photos showing huge rocks 16 feet high which have been reduced to a 
bed of gravel by rock crushing 4 wheel drive pick-ups. The destruction 
of centuries old rock structures takes only a few days of crushing by 
the vehicles.
    The numbers of motorized vehicles in Owyhee County, massed as they 
are in favorite riding sites, result in serious personal injury 
accidents. The Sheriff who is responsible for law enforcement duties in 
all of Owyhee County's, nearly 5 million acres, does not have personnel 
sufficient to patrol the ever increasing danger spots for recreation 
uses. The increasing number of off-road vehicles causes conflicts with 
lawful on-road vehicles, with non-motorized recreation users such as 
hikers, equestrian and traditional bicycles, and with lawful livestock 
grazing in areas too vast for the Sheriff to adequately patrol. Damage 
report of have to private property such as fences, pipelines, 
buildings, roadways and vehicles increases by the month. In the winter 
and early spring months, in particular, calls for search and rescue 
duty adversely impacts the Sheriff's personnel and budget. All problems 
and demands for service related to recreation vehicles, including 
trespassers or destruction of private property related to unlawful 
outside use of the federal lands. Seldom are problems caused by 
operation of motorized vehicles on lawfully designated roads or trails. 
But the BLM has 1 Ranger assigned to the entire County. And the Sheriff 
can manage on one back country deputy on his budget.
    The Bill authorizes funding for the BLM to specifically contract 
with the Sheriff for law enforcement as to unlawful use of the federal 
lands in the County.
    The witness certifies that he is a consultant to Owyhee County 
Idaho and has no financial interest in the ownership of the county or 
any party connected to this bill.

    Senator Craig. Fred, thank you very much for that 
testimony. We are pleased you are with us. Now let me turn to 
Grant Simonds, the Executive Director of the Idaho Outfitters 
and Guides Association. Grant, welcome before the committee.

     STATEMENT OF GRANT SIMONDS, EXECUTIVE DIRECTOR, IDAHO 
               OUTFITTERS AND GUIDES ASSOCIATION

    Mr. Simonds. Thank you, Senator Craig and Subcommittee 
members for the opportunity to provide testimony. My name is 
Grant Simonds. I am the Executive Director of the Idaho 
Outfitters and Guides Association. I am most familiar with the 
Owyhee Implementation Initiative, the Owyhee Implementation 
Act, having served as an Owyhee Initiative Work Group member 
since its inception in August 2001. I have been exploring, 
camping, hiking, boating and hunting in Owyhee County for 35 
years and have enjoyed the opportunity to learn more about the 
county landscape as a result of this collaborative process. I 
believe the commissioners chose folks for this collaborative 
process in part, because of their can-do attitude toward 
resolving future management of most Federal lands in Owyhee 
County. The commissioners recognize a window of opportunity and 
carefully crafted their Goal Statement for the Working Group. 
IOGA supports the goal that is found in this legislation.
    In my capacity as a Work Group member, I have represented 
the outfitter and guide industry as well as non-guided hunters. 
My focus as a Work Group member has been on appropriate access 
and related detailed mapping. The Owyhee Initiative agreement 
and this legislation reflect the necessities of outfitting and 
guiding, namely clean, free-flowing streams, quality fish and 
wildlife habitat and populations, along with the tenets of 
reasonable regulation.
    For the outfitting industry, rivers such as Jar Bridge 
Brunno or the South East Fork Owyhee, along with the associated 
high desert lands, add to the diversity of outfitted 
opportunity that Idaho is known for. Language in this 
legislation to specifically address outfitting and guiding in a 
wilderness area, it is necessary to assure the continuation of 
the present working system that allows public use and enjoyment 
of the wilderness. The language is a clear signal to those who 
would dismantle the system and remove outfitter operations from 
wilderness. It is not intended in any way to impede the 
responsible management of outfitter operations to assure a 
minimum impact upon the wilderness resource or to impede a 
agency authority to set numbers of allocated launches and 
reserve camps or how they run.
    This system, in balance with other camps and launches used 
by the self-guided public allows responsible shared use of 
wilderness lands for recreation and other purposes. These are 
tools recognized by the land management agency that are 
necessary to allow for planned dispersion and control of use of 
wilderness area. The system allows the public to use outfitter 
services to plan and schedule their visits. Let me emphasize--
this legislation does not amend the Wilderness Act or lock in 
outfitters use.
    We feel there is a necessity for specific outfitter 
language in the bill. The tendency in the past was to 
generalize in legislation and then add detail and committed 
reports to the legislative record. Our experience has been that 
people seem to forget the background of the general language. 
The outfitter lodges on the Main Sam River are a good example. 
It took over 20 years of administrative, legal and legislative 
work to clarify that the three camps on the river were what 
Congress was talking about when they referenced, ``existing 
users'' in the Central Idaho Wilderness Act of 1980.
    Let me address access. After 5 years of negotiation at the 
table and during field trips, which included hunters, motorized 
recreation interests, ranchers and conservationists, about 30 
miles of road map by hunters are proposed to be closed. More 
than 500 miles requested by hunters will remain open to all. 
Access is recognized in this legislation through a number of 
cherry-stem, wilderness corridor and wilderness boundary 4-
wheel drive roads that have and will continue to be utilized by 
all public land users. Ninety percent of the 517,000 acres of 
wilderness areas will be within one to two miles of a road, an 
appropriate amount of access to wilderness areas, some of which 
are 90 minutes from one of the fastest growing metropolitan 
areas in the West.
    Importantly, an additional eight rights-of-way across 
private lands plus 12 new public access points across lands 
will be purchased or traded to become public lands, were also 
negotiated by the Work Group. Keep in mind that there is over 
10,000 miles of roads or routes that crisscross Owyhee County. 
This legislation will assist both the county and the agency to 
get a grip on the growing problem of indiscriminate use of off-
highway vehicles.
    In conclusion, the Owyhee Initiative provides the framework 
for preserving the best of Owyhee County, including the 
existing economy and cultural resources through a locally 
devised, collaborative plan that includes wilderness, wild and 
scenic river designations, wilderness study area release, a 
continuing Board of Directors, establishment of a conservation 
center and science review process, along with on-road and off-
road transportation plan. This is a much better way to manage 
our Federal lands than through the courtrooms. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Simonds follows:]

    Prepared Statement of Grant Simonds, Executive Director, Idaho 
                   Outfitters and Guides Association

    Thank you Senator Craig and Subcommittee members for the 
opportunity to provide testimony on S. 3793 and H.R. 3603.
    My name is Grant Simonds and I am the Executive Director of the 
Idaho Outfitters and Guides Association, a statewide non-profit 
business trade organization. I am most familiar with S. 3793, the 
Owyhee Initiative Implementation Act, having served as an Owyhee 
Initiative work group member since its inception in August of 2001. I 
have been exploring, camping, hiking, boating and hunting in Owyhee 
County for 35 years and have enjoyed the opportunity to learn more 
about the county landscape as a result of this collaborative process. I 
believe the Owyhee County commissioners chose folks for this 
collaborative process in part because of their ``can-do'' attitude 
toward resolving future management of most federal lands in Owyhee 
County. The commissioners recognized a window of opportunity and 
carefully crafted a goal statement for the working group. IOGA supports 
the goal that is found in this legislation.
    In my capacity as a Work Group member, I have represented the 
outfitting and guiding industry as well as non-guided hunters. My focus 
as a work group member has been on appropriate access and related 
detailed mapping. The process has been a very open one with numerous 
opportunities for any and all to provide input.
    The Owyhee Initiative agreement and this legislation reflect the 
necessities of outfitting and guiding namely clean, free flowing 
streams, quality fish and wildlife habitat and populations, along with 
the tenets of reasonable regulation. For the outfitting industry, 
rivers such as the Jarbidge/Bruneau, South and East Fork Owyhee along 
with associated high desert lands add to the diversity of outfitted 
opportunity that Idaho is known for. The 386 miles of potentially 
designated rivers and streams in Owyhee County will be a selling point 
for my industry, complementing the existing wild and scenic rivers in 
the state and the larger network of 32,000 Idaho river miles, the most 
in the lower 48. There is nothing more exciting than sighting bighorn 
sheep, whether it is on a river trip or being one of the lucky ones who 
draws a tag to hunt. The Initiative will be good for wild sheep.
    Language in this legislation to specifically address outfitting and 
guiding in wilderness areas is necessary to assure the continuation of 
the present working system that allows public use and enjoyment of the 
wilderness. The language is a clear signal to those who would dismantle 
the system and remove outfitter operations from wilderness. It is not 
intended in any way to impede the responsible management of outfitter 
operations to assure their minimum impact upon the wilderness resource 
or to impede agency authority to set numbers of allocated launches and 
reserved camps or how they are run. This system, in balance with other 
camps and launches used by the self-guided public, allows responsible, 
shared use of wilderness lands for recreation and other purposes. These 
are tools recognized by the land managing agencies as necessary to 
allow planned dispersion and control of use in wilderness areas. The 
system allows the public who use outfitter services to plan and 
schedule their visit. These camps and launches are designated in 
operating plans, established between the individual outfitter and the 
resource manager. The manner, location and time of their operations are 
agreed to in the operating plan of each individual outfitter. This 
legislation does not amend the Wilderness Act or lock in outfitters' 
use.
    We feel there is necessity for specific outfitter language in the 
bill. The tendency in the past was to generalize in the legislation, 
then add detail in committee reports and the legislative record. Our 
experience has been that people seem to forget the background of the 
general language. The outfitter lodges on the Main Salmon River are a 
good example. It took over 20 years of administrative, legal and 
legislative work to clarify that the three camps on the river were what 
Congress was talking about when they referenced ``existing uses'' in 
the Central Idaho Wilderness Act of 1980.
    Outfitter operations have undergone considerable change to adapt to 
modifications brought on by wilderness designation. The trade 
association representing outfitters in Idaho has made a strong 
commitment to be role models and educators in minimum impact practices.
    After five-plus years of negotiations at the table and during field 
trips, which included hunters, motorized recreation interests, ranchers 
and conservationists, about 30 miles of road mapped by hunters are 
proposed to be closed. More than 500 miles requested by hunters will 
remain open to all, by law. Access is recognized in this legislation 
through 'a number of cherry stem, wilderness corridor and wilderness 
boundary four-wheel drive roads that have and will continue to be 
utilized by all public land users. Ninety percent of the 517,000 acre 
wilderness areas will be within one to two miles of a road, an 
appropriate amount of access for wilderness areas, some of which are 
ninety minutes from one of the fastest growing metropolitan areas in 
the West. An additional eight rights-of-way across private lands plus 
twelve new public access points across lands that will be purchased or 
traded to become public lands were also negotiated by the Owyhee 
Initiative work group. Keep in mind that over 10,000 miles of road or 
routes criss-crossing Owyhee County. This legislation will assist both 
the county and the agency to get a grip on the growing problem of 
indiscriminate use of off highway vehicles.
    In conclusion, the Owyhee Initiative provides a framework for 
preserving the best of Owyhee County including the existing economy and 
cultural resources through a locally devised collaborative plan that 
includes wilderness and wild and scenic river designations, wilderness 
study area release, a continuing board of directors, the establishment 
of a conservation center and science review process along with an on 
and off road transportation plan. This is a much better way to manage 
our federal lands that through the court rooms.

    Senator Craig. Grant, thank you very much. Now let us turn 
to questions. Rick, again, I appreciate your group coming to 
the table and working toward public land compromises. It is 
nice to see opposing interests finally working together on 
legislation that will almost otherwise rest in controversy. 
However, as I see it, some folks walk away with a guarantee, 
meaning that when this becomes law, a wilderness or a wild and 
scenic designation will occur while others are subject to a 
promise, appropriations, completion of a travel plan or other 
uncertainties of the administrative processes.
    Would you agree that in order for one hand to get what it 
wants, the other hand must get the same assurances?
    Mr. Johnson. I think the intent of this legislative process 
and in this sense, I believe you are referring to both bills.
    Senator Craig. Yes, they both that have characteristic, 
right.
    Mr. Johnson. The relationships that have developed on the 
ground, both with the appropriate Members of Congress, that 
represent the area and with the folks that are sitting around 
the table, is that we will work together to continue to support 
each other's mutual interests. I think it is an impossibility 
to have everything fall into perfect lock step, in the perfects 
watches of a gear turning. I think that is unrealistic to 
suggest. But I think there is a commitment on all the players 
to make sure that all the pieces fall together and 
understanding, for instance, in the Owyhee, that this is a long 
process. The agreement to sit down with a Board of Directors 
and things like that, is a permanent commitment to be invested 
in the landscape, both for the land and the people who live 
there.
    Senator Craig. If language were added that defers the 
designation of these lands to wilderness until other provisions 
are accomplished, is that an acceptable compromise to you and 
the members of the ICL?
    Mr. Simonds. It seems unlikely that we would be able to--
I'd have to consult with other players that are involved in the 
package. This just isn't up to me. But it seems unlikely that 
would be something we would agree to. That said, you know, 
we're open to conversation.
    Senator Craig. I understand that the conservation 
environmentalists are split on both of these compromises and 
several environmental groups are unhappy with the stance the 
ICL has taken. Observing this and the fact that your 
organization filed suit against the BLM grazing regulations, 
can we expect that ICL and other environmental organizations 
who do favor these legislations, will not file suit against 
cattle grazing or recreation use, if these are part of the 
agreement?
    Mr. Simonds. To the places where they are part of the 
agreement, yes, we hold to the agreements that we make. Things 
like that particular case you reference is dealing with public 
process and the engagement of the American public with 
decisions that are currently are public. So it is retaining 
that and we feel that we are a conservation organization that 
is involved in a wide portfolio of issues and we will continue 
to remain involved in a wide portfolio of issues using a wide 
portfolio of tactics and I think that everyone involved in both 
of these initiatives is full aware that we all walk in. We sit 
down at the table but we retain the interests that--we do what 
we do. But at the same time, when we sit down at the table and 
negotiate in good faith, we're not joking. This is the real 
deal.
    Senator Craig. Thank you much. Commissioner, can you 
describe the current zoning rules in Custer County and the 
communities of Stanley, Challis and Mackey?
    Mr. Johnson. Well, at the present time, we are working on a 
new zoning regulation in Custer County. We have a Zoning Board 
appointed and we really haven't approved anything. However, in 
the SNRA, it's under strict rules of the Federal Government 
what can be done. So any lands that would go into private 
ownership in the Stanley area and the SNRA are very well 
restricted, more so probably than a local zoning would do.
    Senator Craig. If the land conveyances called for an H.R. 
3603, we require zoning rules more restrictive than those found 
in, let's say, Blaine County--Ketchum, Idaho, why is the Custer 
County Commission supporting this legislation?
    Mr. Johnson. Well, we are supporting it, in a lot of cases 
because we think it is going to put a lot of controversial 
lawsuits and things to bed and hopefully, it will certainly 
direct the future of what can and can't happen in certain 
areas. As far as restrictions, the county will have some 
restrictions, but like I say, a majority of this land is either 
going to go cities or the county and not all of it will be 
built on, which would require some kind of zoning restrictions. 
Except like I say, the SRNA, it is already done.
    Senator Craig. Are the zoning restrictions proposed in the 
legislation inside the SNRA more restrictive than homes that 
currently exist inside the SNRA or were grandfathered in at the 
time of the legislation?
    Mr. Johnson. To my knowledge, there are restrictions in the 
bill that are more restrictive than a lot of houses that are 
already there and certainly some that were there, in reference 
to window size and square footage, yes, there are some 
restrictions that are stronger that I feel--however, in 92400 
(137:46), I don't believe restrictions were ever directly 
written out in the legislation. It was up to the administrative 
branch to come up with those decisions.
    Senator Craig. That is true.
    Mr. Johnson. I don't totally agree with them.
    Senator Craig. Yes, well Commissioner, thank you very much. 
Fred, I understand that this bill was done through careful 
negotiations and you did a great job of keeping folks at the 
table. I've been at a few of those tables over the years and 
know how difficult that task can be, but certainly I agree with 
Rick. Everything was done in good faith here, in an attempt to 
bring about a compromise. Since Congress generally makes 
changes in legislation and here in the Senate, we really have 
to build a consensus. Do you believe this group can maintain a 
consensus if some changes are made and if not, should the bill 
be moved forward without consensus?
    Mr. Grant. Senator, I believe that depending on the changes 
and I think we all expect that changes will be made. I believe 
that depending on the changes, we will have consensus. I think 
this Work Group has worked together long enough. We have 
support enough, sufficient support politically as well as from 
the citizens, that if the changes are not disastrous to each of 
the element's interests and the public interest, which is what 
we've all been after, to try to solve these problems without 
court, I believe we will move on the consensus. However, one of 
the things that are critical to us is that if a change affects 
one portion of the agreement, to the disadvantage, the adverse 
impact on that representative organization, then it is possible 
that the whole agreement would come apart. But we know there 
will be changes and we hope to work very closely with the 
committee staff and with the senators' staffs in trying to keep 
those changes from destroying the agreement that has been put 
together.
    Senator Craig. Thank you, Fred Grant. I'll get to you in 
the next round. Let me turn to my colleague, Mike Crapo. I'm 
taking a little leeway with time here because we will recess at 
the end of this panel, break for a lunch meeting that both Mike 
and I need to attend and then return. So, Mike let me turn to 
you for your questions. I have some for you, Grant, when we 
return.
    Senator Crapo. Thank you very much, Larry. I truly 
appreciate again, the hearing that we are holding here and your 
willingness to give us a little flexibility on the time. I just 
have--I have a lot of issues I'd love to go through with the 
panel. I have four that I want to try to get to. The first one 
that I'd like to ask Rick and Fred to respond to is water. One 
of the big issues that hasn't yet come up here but one that is 
an issue, is whether the way that we've handled water rights in 
the legislation is adequate and I know, for example, that the 
legislation that has been introduced provides that although 
there is a federally reserved water right in the Wild and 
Scenic Rivers portion of the bill and not in the wilderness 
portion of the bill, that the federally reserved water right 
that is in the legislation is subordinated to all existing 
water rights and to future water right development. The way 
that it is set up, it preserves the State sovereignty over 
water management and allocation decisions. I just want to be 
sure that we get that on the record and make it clear that is 
the case. Would both of you agree with that?
    Mr. Grant. I certainly agree with it, Senator Crapo and we 
worked very closely with the State and the attorney general's 
office in making sure that occurred.
    Senator Crapo. OK. And Rick, do you agree with that as 
well?
    Mr. Johnson. I would and since I am here representing both 
bills, I would also say that it is important that we recognize 
that in the Boulder White Clouds, we're dealing with headwater 
areas, which does not have existing uses above the headwaters. 
So that uses headwaters language, which has been used in this 
Congress before. And in the Owyhee situation, it is much more 
complex because it is downstream. I believe that the players 
who were involved were engaging with State folks and Federal 
folks and have reached a consensus.
    Senator Crapo. Well, thank you and again, as we're making a 
record here, I'd like to indicate that the Idaho Water Users 
Association has endorsed the legislation after having reviewed 
these issues from a careful consideration of these types of 
matters.
    The second issue that I wanted to talk about is the 
compensation package and Fred, you indicated you thought you 
might get asked a question about this and this is the question. 
It's kind of a twofold question, although I think they are both 
tied together. Mark Rey, when he was testifying, indicated that 
there was a concern that the buy-out of Federal AUNs would 
leave the base property in a position where it is only really 
useful to be developed. That specific issue, I know, was an 
issue that the collaborators in this case very carefully and 
very extensively grappled with and that the actual outcome of 
the way that this legislation has been put together is to 
address that specific issue and make sure that doesn't happen. 
Could you explain that and maybe at the same time, explain the 
argument that I think has at least implicitly been made here, 
that inflated values are being utilized in the approach.
    Mr. Grant. Senator, before I answer that question, I would 
like to add one other thing and that is as to the water. The 
entire Land Board of the State of Idaho also supports the bill 
and the language.
    Senator Crapo. That's appropriate and again, let me just 
interrupt to make it clear for the record. The Idaho Land Board 
has, by resolution, endorsed the legislation after reviewing 
these matters. Thank you.
    Mr. Grant. That's correct. Yes, Senator, we set out to try 
to avoid development of these lands in Owyhee County. The 
ranchers who have completely participated in this program don't 
want Owyhee County to be split up into subdivisions. They don't 
want it to be bought by Californians who want to put in big 
estates along these protected areas, such as the picture that 
was revealed earlier. One of the ways that we've gone about 
this, right now, with that 750,000 population in the Boise 
Valley, which is now expected, our sheriff tells us, to be 85 
percent more in 25 years--right now, we have over 26 either 
pending applications for conditional use permits or known 
applications to be coming in to Owyhee County, to change 
private land from agriculture to development. Some of the 
ranchers who have participated in this compensation program 
have been offered money by people to buy these private lands 
that are being exchanged, for private hunting clubs, which 
would shut down access to all of these beautiful areas that are 
to be preserved. They've been offered money by realtors, a 
well-known realtor in the Boise Valley, to buy easements in 
private property--easements that currently are going into the 
public use through this bill. And our ranchers have held off 
from that because they would prefer to stay in ranching. They'd 
prefer to have the traditions of Owyhee County and the beauties 
that are there, to be preserved from this kind of development. 
So what we did, was craft with each of the ranchers who came 
forward to participate, a plan where these private lands, which 
they are offering to sell or exchange, they are the highest 
quality and value lands of their private lands, from the 
standpoint of preserving the wilderness. They adjoin the 
prospective wilderness.
    In those lands, they would make public access available. 
Now, as to the price of that being inflated, these aren't lands 
that were on sale for grazing. These ranchers have not offered 
to go out of business. They don't want to go out of business. 
What they are trying to do is realign their allotments so that 
they can stay in business under the terms and conditions that 
have been opposed upon them and the value of these lands--they 
have carefully based upon comparable sales for conservation use 
and for development use because that's the nature of all of 
these private lands, these 2,500 acres of private land, that 
are being offered. We don't believe--I personally don't believe 
they have been inflated and I believe that through the public 
process of this committee and the work, we'll be able to 
demonstrate that each of these ranchers has a very specific 
comparable base for the value they've put on their lands.
    Senator Crapo. And each of the ranchers that are of issue 
here will continue, if the bill were enacted and to become law, 
will continue to be involved in the business of ranching?
    Mr. Grant. Absolutely and that's why they sat down at the 
table to work with this process, so that they can stay in 
business.
    Senator Crapo. All right, thank you. I do have two more 
questions, Senator, if I might. The next issue that I wanted to 
address deals with the testimony of Mr. Heughins, when he 
discussed the issue of whether hunters and anglers and trappers 
were represented adequately or whether it was truly 
collaborative and Mr. Simonds, you addressed this to a certain 
extent in your testimony but I'd like to ask any of the Owyhee 
Initiative collaborative partners here if they would like to 
respond to that question.
    Mr. Simonds. Senator, I have here two maps of the Owyhee 
County, the triangle and Riddle area maps in which were marked 
up by the Idaho Bird Hunters, Mr. Heughins, relative to access, 
his group's preferred access. We came to agreement, as I 
mentioned, on all but 30 miles of access.
    Senator Crapo. That's 30 out of 500 miles?
    Mr. Simonds. Well, over 500 miles of road were left open. 
Wilderness and Wild and Scenic must have access. We have 
appropriate access to the canyon lands, to the put-ins, take-
outs for boating and like I said, over 90 percent of the 
wilderness is within one or two miles of a road. Did everybody 
get what they want? No. But we came darn close.
    Senator Crapo. Are you aware of whether they are any 
hunting, fishing and sports groups that are supportive of the 
compromise?
    Mr. Simonds. Senator, the Foundation for North American 
Wild Sheep, the Idaho Chapter is in support. These are folks 
that are generally very well acquainted with Owyhee County and 
regarding the 17 miles of road that is to be closed on the Dick 
Shooter Plateau, the Foundation is in support of providing 
additional habitat protection between Battle Creek and Deep 
Creek for sheep.
    Senator Crapo. All right, thank you. And if I may, just one 
last issue, Senator Craig. I expect that in the future panel, 
there will be objections raised on the issue of off-road 
vehicle use and whether the right compromise was reached. I 
would just like to ask any of the--again, the Owyhee 
collaborative team members who are here, whether they would 
like to address that. I know you won't be able to address it 
after the fact so, knowing what the issues are, would you like 
to clarify or explain the circumstance and the way that we did 
reach the ultimate resolution in the legislation with regard to 
off-road vehicle usage?
    Mr. Grant. Senator, I'll be glad to try to do that if I 
may, Senator Craig, Senator Crapo. We had a representative of 
off-road vehicles on the Work Group and even though she was 
unable to vote in favor of the agreement, she abstained. There 
were groups within her group who have now told us that they 
were the ones--or that they encouraged her to abstain rather 
than vote against the project and I mentioned one--the 4x4 
group of several organizations, which are now actively working 
with your staff in Boise as we are here, to come into support 
of the Initiative and also to ask to be on the County Task 
Force, the Recreation Task Force that has been set up. As I 
said, the Treasure Valley Trail Machines Association has been 
on that task force. We have bicyclers on that task force. We've 
worked with every element that would work with us, of the 
motorized vehicle societies and the part of our community. We 
know that--and what we've done in this bill is encourage or 
rather, mandate a recreation plan by the BLM that guarantees 
creative and full use but at the same time, regulated use to 
the point where the over-country destruction that is going on 
out there can be stopped and can be enforced. We believe that 
we have in this package, a broad enough base for providing 
recreation for that huge community around Boise but at the same 
time, protect that resource out there.
    Senator Crapo. Thank you and just the last question, which 
you can answer very quickly, is to kind of get a picture of the 
kind of win-win that was able to be negotiated here and worked 
out among the collaborators, could you just explain the number 
of roads and trails that exist in Owyhee County that were at 
issue and the number that have been preserved for off-road 
vehicle use?
    Mr. Grant. Well, Senator Craig and Senator Crapo, I'll 
first say that our sheriff pointed out yesterday, that on the 
Owyhee front, which both of you senators are familiar with--
there are over 17,000 miles of trails today that are evidenced 
on a map, many of them unlawful, many of them cross-country. I 
would defer to Mr. Simonds again because I know that on the 
basis of the roads and trails that have been opened, he's 
already testified and I know this for a fact--that over 500 of 
the ones wanted for access remain open. We, in addition, have 
gotten rights-of-way or easements across some of these private 
properties that have been offered that will be available for 
proper use. Only 30 miles of those roads were closed. As to the 
trails, the requirement of the bill is simply what the law 
already requires, except that we provide--we ask for an 
appropriation of funds for law enforcement. Right now, some of 
the users are using the wilderness study areas when they should 
not be. They are creating new trails there. To say how many 
miles of trails there are that have been created unlawfully, 
since the BLM plans went into place is virtually impossible. 
There are thousands of miles of trails in Owyhee County right 
now. And when you look at the overhead maps, it is very 
disconcerting to see what is happening on a daily basis as to 
cross-country trails that are not only affecting the resource, 
which is--but the habitat. It is dangerous to the species, it's 
dangerous to the resource, it's destructive to private property 
and all of the costs of all of those things currently are going 
onto Owyhee County.
    Senator Crapo. Thank you and thank you, Senator Craig, for 
allowing us to go a little longer here.
    Senator Craig. Well, thank you, Mike. Grant, I was going to 
ask the question that Mike had just asked, about hunter 
representation and the frustration expressed by the National 
Wildlife Federation so I will not ask that question.
    It is now nearly 12:40. The committee will recess until 
1:30. We'll be back to deal with the two remaining panels at 
that time and so we do appreciate all of your patience as you 
stay with us on this. I understand this is simply a short 
interlude in relation to the time all of you have spent on 
these issues over the last few years. So thank you for your 
participation. The committee will stand in recess.
    [Recess.]
    Senator Craig. Good afternoon, ladies and gentlemen. The 
subcommittee will reconvene for the purpose of concluding this 
hearing and hearing panels four and five. With that, let me ask 
panel four to please come forward. Brett Madron, Carole King, 
Mike Webster and Amanda Matthews.
    Again, thank you all very much. Brett Madron, president of 
the Idaho Trail Machine Association from Boise. We'll let you 
start. Please proceed.

   STATEMENT OF BRETT WILLIAM MADRON, PRESIDENT, IDAHO TRAIL 
                 MACHINE ASSOCIATION, BOISE, ID

    Mr. Madron. Thank you, Mr. Chairman. Mr. Chairman and 
members of the committee, my name is Brett William Madron and I 
reside in Boise, Idaho. I appreciate the opportunity to provide 
testimony on the Central Idaho Economic Development and 
Recreation Act as well as the Owyhee Initiative Agreement. I 
would like to ask that my written testimony become a part of 
the record.
    Senator Craig. Without objection, all of your full 
statements will be a part of our record.
    Mr. Madron. I am currently the President of the Idaho Trail 
Machine Association. I am also the State Representative for the 
National Off-Highway Vehicle Conservation Council, as well as a 
member of the Idaho Department of Parks and Recreation Off-
Highway Vehicle Advisory Board, which represents over 100,000 
off-highway vehicles in Idaho. My testimony on these bills is 
on behalf of the Idaho Trail Machine Association, the Idaho 
Recreation Council and other recreation organizations in Idaho.
    I was lucky enough to be born and raised in Idaho. My 
parents had our family camping and trail biking in the public 
lands of southern Idaho almost every weekend starting in the 
early 1970's. This gave me a genuine appreciation and love of 
the diversity of Idaho's landscapes. One of our favorite 
summertime camping locations was around Galena Summit, known as 
the Boulder White Clouds. I considered these areas my backyard. 
I knew every bend in the streams, every fishing hole. I snuck 
my first beer out of my parent's cooler at Pole Creek. We would 
travel up the Washington Basin, collect snow and make homemade 
ice cream for my birthdays. I saw my first elk in the wild at 
Pole Creek. We affectionately named the mountain behind our 
favorite campsite as Mount Ben, after my father. To this day, I 
still make numerous trips to the area.
    I have been involved in an ongoing basis with CIEDRA for 
over 5 years now and almost at the same time, our organization 
was involved as a member of the people of the Owyhee's in the 
Owyhee Initiative in Owyhee County.
    My comments specific to CIEDRA--I applaud Congressman 
Simpson's efforts to solve the ongoing dispute over wilderness 
designation in the Boulder White Cloud mountains of Idaho. I 
appreciate the opportunity to have our opinions heard. Many of 
the motorized recreation portions of the bill are unique and 
precedence setting and we hope they will be considered in 
future wilderness bills.
    However, our organizations cannot support CIEDRA as it is 
currently drafted for the following reasons. We feel the 
current proposed acreage in wilderness is too high, since 
nearly one-third of the proposed acreage was deemed as 
unsuitable. The Idaho Recreation Council, which is a 
collaboration of Idaho recreation groups, submitted a 
compromise proposal of wilderness boundaries that would help 
preserve recreation while allowing wilderness designation for 
some of the deserving areas.
    We feel the reduction of recreation access imposed by 
wilderness designation may actually have a negative economic 
effect on the surrounding communities. We feel the bill should 
contain language that states the wilderness portions of the 
bill should not be enacted until the remaining portions are 
funded.
    My comments specific to the Owyhee Initiative--I understand 
the struggles of the cattlemen and women trying to make a 
living and maintain their way of life in the desert landscape. 
My grandfather was also a rancher and farmer in southern Idaho. 
Due to some poor financial decisions and a little bad luck, he 
lost the family farm and was forced to move into the city. I 
witnessed the way this crushed him and would not wish this on 
any of the ranchers in Owyhee County. Although this bill, at 
face value, may seem to provide some relief to the struggling 
ranchers, our organizations cannot support this bill as it is 
drafted for the following reasons.
    First, the recreation users were not adequately represented 
during the collaborative process. On the Owyhee Initiative 
Working Group, ranchers had four seats, conservation groups had 
four seats and the Idaho Outfitters and Guides had a seat and 
the recreation groups were all lumped together in one seat. 
After the recommendations of the Working Group were submitted 
to Senator Crapo, I was interviewed for a recreation position 
by a member of the Working Group. This invitation was revoked 
once she found out I had sent a letter to Senator Crapo 
opposing the Owyhee Initiative. At this time, as the President 
of the Idaho Trail Machine Association and a Board Member of 
the Treasure Valley Trail Machine Association, I am not aware 
of our involvement on the task force.
    Second, this bill provides wilderness designation for 
126,000 acres that the BLM found unsuitable as wilderness. We 
feel this bill should provide hard release of any lands found 
not suitable by the BLM. The Owyhee Initiative attempts to 
postpone travel and access issues by deferring to the BLM or 
whatever comes out of the legislative process in Congress. 
There have been no cost figures of what this proposal will cost 
taxpayers. Many important recreation access locations are 
included in the wilderness boundary.
    In summary, although I consider these bills a step in the 
right direction, they are still not the correct answer to 
resolve land access issues in our great State. Most recreation 
activists will tell you they are glad there is some wilderness. 
They will also tell you four million acres in Idaho is enough.
    While these bills claim to be true collaborative efforts, 
they are not. Once the reality of the difficulty of consensus 
was realized, the bills were crafted simply by the parties 
remaining at the table. In particular, the Owyhee Initiative 
virtually excluded recreation interests. Until the time when 
all parties feel a need to be involved, active management based 
on science and public input is our best avenue to protect the 
land while allowing access. In addition, we feel these bills 
are only the start to this process. Please send these bills 
back to the Working Groups to be fine tuned and revised. You 
have our promise, as a recreation community, to be engaged in a 
positive manner to find the best solution to allow sustainable 
enjoyment of our public lands while still protecting it. I 
appreciate the opportunity to provide my testimony.
    [The prepared statement of Mr. Madron follows:]

  Prepared Statement of Brett William Madron, President, Idaho Trail 
                     Machine Association, Boise, ID

    Mr. Chairman and Members of the Committee, my name is Brett William 
Madron and I reside in Boise, Idaho. I appreciate the opportunity to 
provide testimony on H.R. 3603, the Central Idaho Economic Development 
and Recreation Act (CIEDRA) and S. 3794, the Owyhee Initiative 
Agreement.
    I am currently the President of the Idaho Trail Machine 
Association, which is a statewide organization representing over 1000 
member trail biking families and over 30,0000 registered trail bike 
users. In addition, I am a State Representative for the National Off 
Highway Vehicle Conservation council, which is a National organization 
chartered to educate and organize off highway vehicle users. I am also 
a member of the Idaho Department of Parks and Recreation Off Highway 
Vehicle Advisory Board representing over 100,000 off highway vehicle 
users. In the past, I have also been the President of a bicycle 
organization and have hiked, skied, snowshoed, and snowmobiled in 
Idaho.
    I was lucky enough to be born and raised in the lovely state of 
Idaho. My parents had our family camping and trail biking almost every 
weekend starting in the early 1970's. We would camp and ride in the 
high desert areas in the fall, winter and spring and head to the 
mountains in the summer. This gave me a genuine appreciation and love 
of the diversity of Idaho's landscapes. One of our favorite summertime 
camping locations was the area around Galena Summit. This included the 
Boulder Mountains to the south and an area called Pole Creek which is 
on the western side of the Whiteclouds. I considered these areas my 
backyard and knew every bend in the streams and every trail and fishing 
pond around. I snuck my first beer out of my parent's cooler at Pole 
Creek. I learned that a wire in a campfire is not something you want to 
touch at Baker Creek. I had a dozen of my birthday parties around 
campfires at Pole Creek. We traveled up towards Washington Basin to get 
snow to make ice cream. Williams Creek was where I first rode a trail 
bike on a technical single track trail. Grand Prize trail was where my 
wife and my daughter rode their first trail. I saw my first Elk in the 
wild at Pole Creek. We have affectionately named the mountain behind 
the campsite, Mount Ben after my father. Needless to say, I have many 
strong fond memories of the Boulders and Whiteclouds. Through these 
many years, I have grown to love this area like no other. To this day, 
I still make numerous trips to Baker Creek, Pole Creek, Smiley Creek, 
Stanley, and Frog Lake.
    Almost five years ago, I heard rumor that Congressman Simpson was 
considering Wilderness Designation for this beautiful area. I 
immediately contacted his staff and stated my opposition to any land 
use designation that would limit recreation access to this-area. 
Shortly after, I was invited to meet with Congressman Simpson's Staff 
to discuss resolving the WSA dilemma in the Boulder Whiteclouds I have 
been involved on an on-going basis since that time. At almost the same 
time, our organization was involved in the Owyhee Initiative in Owyhee 
County.
    My testimony on these two bills is on behalf of the Idaho Trail 
Machine Association, the Idaho Recreation Council and other recreation 
organizations in Idaho.

                           COMMENTS ON CIEDRA

    I applaud Congressman Simpson's efforts to solve the on-going 
dispute over Wilderness Designation in the Boulder Whitecloud Mountains 
of Idaho. I appreciate the opportunity to have our opinions heard. Many 
of the motorized recreation portions of the Bill are unique and 
precedent setting and we hope they will be considered in any future 
Wilderness Bills.
    However, our organizations cannot support H.R. 3603 as it is 
currently drafted for the following reasons:
    1. We feel the current designation as Sawtooth National Recreation 
Area (SNRA) provides protection, yet allows for active management of 
the area. To our knowledge, there are no threats to this area. Grazing, 
logging, mining and multiple use recreation are managed by the SNRA. We 
feel the addition of BLM lands and other Forest Service Lands to the 
SNRA would allow good management decisions based on science and public 
input. Wilderness is the most restrictive land use designation and to 
this point has never been reversed. If these lands have endured over 35 
years of mans impact and still can be considered for Wilderness 
Designation, the current management scenario is working.
    2. We feel the current proposed acreage of Wilderness is too high. 
Of the 300,000 acres of proposed Wilderness, the United States Forest 
Service found 100,000 acres, nearly 1/3, as unsuitable. For instance, 
Grand Prize Trail was originally cut in with a bulldozer. This trail 
links the west and east sides of the area and provides one leg of a 
very popular loop opportunity. Loop trail systems are more safe and 
reduce impacts on the resource by dispersing users. We agree this is a 
beautiful and scenic trail, but in our opinion it does not meet the 
definition of Wilderness and provides an important recreation 
opportunity for many user groups. The inclusion of this trail will 
reduce motorcycle and mountain bike recreation opportunities and dilute 
the true definition of Wilderness. In addition, many of the areas 
included inside the Wilderness Boundary are some of the most scenic and 
enjoyable high country snowmobiling areas in the nation. In over 35 
years of summer recreation in the Boulder Whitecloud mountains, I have 
never witnessed a negative impact that I could attribute to snowmobile 
use. Many of the areas deemed unsuitable by the USFS have a very high 
value to the recreation community. The Idaho Recreation Council, which 
is a collaboration of Idaho Recreation groups, including horseback 
riders, motorcyclists, ATV riders, snowmobilers, back-country pilots 
and mountain bikers, submitted a proposal of Wilderness Boundaries that 
would help preserve recreation while allowing Wilderness designation 
for some of the areas that truly meet the definition of Wilderness. 
There should be no loss of access or recreating opportunities. There is 
no data to support excessive use today. The Idaho Recreation Council 
proposal could be made available upon request.
    3. We feel the reduction of recreation access imposed by Wilderness 
designation will actually have a negative economic effect on the 
surrounding communities. Wilderness visitors do not provide the 
positive economic impact as that of the motorized or mechanized 
recreationists. Communities like Valley County rated as one of the best 
snowmobiling communities in the nation are experiencing record growth 
and economic vitality while communities adjacent to current Wilderness 
areas are struggling.
    4. We feel the bill should contain language that states the 
Wilderness portions of the bill should not be enacted until the 
remaining portions are funded. The grazing, recreation and economic 
development portions of this bill all require appropriation of funding 
prior to providing any benefit. The revision of boundaries and 
management philosophy should not change until the remainder of the bill 
is funded.

                   COMMENTS ON THE OWYHEE INITIATIVE

    I understand the struggles of the cattlemen and women trying to 
make a living and maintain their way of life in the desert landscape. 
My grandfather was also a rancher and farmer in Southern Idaho. Due to 
some poor financial decisions and a little bad luck, he lost the family 
farm and was forced to move into the city. I witnessed the way this 
crushed him and would not wish this on any of the ranchers in Owyhee 
County.
    Although this bill at face value may seem to provide some relief to 
the struggling ranchers, our organizations cannot support this bill as 
it is drafted for the following reasons:
    1. The recreation users were not adequately represented during the 
collaborative process. On the Owyhee Initiative Working group, ranchers 
had four seats, conservation groups had four seats and all of the 
recreation groups were lumped together with only one seat. During the 
collaboration and voting, most of the votes were eight to one with 
recreation being the only dissenting vote. The recreation 
representative asked for additional seats, but the requests were 
denied. This is not a true collaborative effort and does not represent 
the true desires and feelings of all interested parties. After the 
recommendations of the working group were already submitted to Senator 
Crapo, it was agreed to add additional recreation representatives to 
the working group. I was interviewed for a position by a member of the 
working group. She asked if I had sent a letter to Senator Crapo 
opposing the Owyhee Initiative, because the County Commissioners did 
not want anyone in the working group that opposed the Owyhee 
Initiative. Again, this is not a true collaboration.
    2. This bill provides Wilderness Designation for 517,000 acres of 
Wilderness in 6 separate units. This is 126,000 acres more than the BLM 
found suitable as Wilderness during their study. We strongly oppose 
Wilderness designation for any lands found unsuitable by the BLM.
    3. This bill should provide ``Hard Release'' of any lands found not 
suitable by the BLM. Without hard release, many of the lands could 
simply be thrown back into the paralyzed state of Wilderness Study 
Area. One of the stated purposes of this bill is to provide certainty. 
All lands under current WSA status should be proposed for Wilderness 
designation or released back to the public domain. Let's do this once.
    4. The ranchers get a guarantee of continued grazing, the 
environmental groups get wilderness, and the motorized recreation 
community gets nothing.
    5. Hunting and fishing interests were not invited to participate in 
the Owyhee Initiative talks. These popular activities take place in 
Owyhee County, and by excluding these interests, many Idahoans were 
left out.
    6. The OI attempts to postpone travel/access issues by deferring to 
the BLM or whatever comes out of the legislative process in Congress. 
It seems as though the OI workgroup did not want to tackle these 
issues. This leaves the bill ambiguous and incomplete. In order to 
attain the goal of ``certainty'', a comprehensive bill that defines 
boundaries and access routes must be developed.
    7. There have been no cost figures of what this proposal will cost 
the taxpayers. Plans for a Conservation and Research Center, Owyhee 
Initiative Board of Directors, Peer Science Review, buyouts of private 
land and AUM's (Animal Unit Months) and list goes on and on. It would 
be irresponsible to approve such a potentially expensive plan without 
knowing what the cost will be.
    8. The loop road through Dickshooter Ridge should not be included 
in wilderness. This road provides access to the canyons for hunting.
    9. Garat crossing and the road should be open for vehicles.
    10. Lookout Butte WSA on the Oregon border should not be designated 
wilderness. It does not have wilderness characteristics, and was deemed 
unsuitable for wilderness by the BLM in 1991. This is part of the 
Sierra Club's plan for a ``Tri-state wilderness'' as described on their 
website.
    11. Existing routes in WSAs that provide access to view the canyons 
need to stay open. Not all people want to or are capable of walking 1-2 
miles to see, hunt or fish the canyons.
    12. The need to ``protect'' the canyons from unauthorized use is 
exaggerated. There are only a few access points to the canyons, and OHV 
use or grazing within the canyons is practically impossible.
    13. If the need for a designation were desired for the canyons, the 
best option would be to call it Backcountry. Under the Owyhee 
Initiative, rangeland improvements and motorized vehicles for livestock 
management would be allowed in Wilderness. This use would degrade the 
definition of wilderness and the current wilderness system.

                                SUMMARY

    Although I consider these bills a step in the right direction, they 
are still not the correct answer to resolve land access issues in our 
great state. Most recreation activists will tell you they are glad 
there is some Wilderness. They will also tell you . . . four million 
acres in Idaho is enough! We all enjoy the beauty and diversity 
provided on public lands and we do not want to contribute in any way to 
its demise. We love and cherish the land as much or more than others 
who claim to want to protect it. In our opinion, active management 
using sound science and public input will provide the most protection 
while still allowing enjoyment by the tax paying public. Driving an SUV 
10 miles up an improved road to access a Wilderness trailhead should 
not be given preferential treatment over a motorized user who wants to 
ride a maintained trail to a scenic vista 20 miles away from an 
improved road. If we drive a vehicle to a trailhead or if we ride an 
off-highway vehicle on a maintained trail, we are all motorized 
recreationists . . . our trailheads are simply in different locations.
    While these bills claim to be true collaborative efforts, they are 
not. Once the reality of the difficulty of consensus was realized, the 
bills were crafted by the parties remaining at the table. In 
particular, the Owyhee Initiative virtually excluded all parties other 
than the ranchers, the County Commissioners and the environmental 
organizations. I understand the Congressman and the Senator have made 
their best attempt at consensus and I applaud them for that. The 
imbalance of political power between the environmental organizations 
and the recreation organizations is slowly diminishing. The public is 
seeing that access and protection are not exclusive. Once this balance 
has equalized, there may be more of a chance of a true collaboration to 
determine land access issues by categorical designations. Collaboration 
is not possible when one or more of the effected parties feels they 
hold the power to walk away and still get what they desire. Until the 
time when all parties feel the need to be involved, active management 
based on science and public input is our best avenue to protect the 
land while allowing access.
    In addition, these bills are only the start to this process. We 
have already heard of additional Wilderness Bills being generated and 
proposed. The Wilderness advocates are a large machine with a huge 
infrastructure and a lot of momentum. Passing marginal bills will only 
allow these groups to claim victory and continue to pump out future 
marginal bills. The recreation public is not ready to roll over once 
again only to fight the same fight over a different mountain with a 
different name. Please send these bills back to the working groups to 
be fine tuned and revised. You have our promise as a recreation 
community to be engaged in a positive manner to find the best solution 
to allow sustainable enjoyment of our public lands.
    Once again, I appreciate the opportunity to present my testimony,

    Senator Craig. Brett, thank you very much. Now let me turn 
to Mike Webster, who is President of the Idaho Cattlemen's--I 
know we had a name change at the national level and I sometimes 
wonder if that reflected through. Anyway, Mike, welcome to the 
committee.

    STATEMENT OF MIKE WEBSTER, PRESIDENT, IDAHO CATTLEMEN'S 
                    ASSOCIATION, ROBERTS, ID

    Mr. Webster. Thank you, Chairman Craig and members of the 
Subcommittee. I thank you for giving us the opportunity to 
discuss the cattlemen's perspective on wilderness issues, 
particularly CIEDRA and the Owyhee Initiative.
    As you've stated, my name is Mike Webster. I am a fourth-
generation cattle rancher from Roberts, Idaho and President of 
the Idaho Cattle Association, a statewide organization 
representing the interests of Idaho ranchers. Before I discuss 
any specifics about this bill, I would like to state some of 
our general philosophical views regarding wilderness.
    When uses are taken off the land, so are management and 
stewardship. Therein lies our concern with wilderness. It is 
difficult for us to encourage any action that removes multiple 
use--of course, particularly grazing--from Federal lands, 
especially on a permanent basis. Livestock grazing is a wise 
and sustainable use of the land and is a sound management tool 
that should never be removed from consideration.
    In addition to sustaining the local economies of Idaho, 
public lands grazing fosters a good ecological balance as it 
promotes good grass growth, prevents or lessons the threats of 
wildfires, which we have quite a few this year and controls the 
spread of weeds. As such, grazing is in harmony with the pure 
intent of wilderness. Therefore, the existing grazing language 
should be specifically protected within the legislative 
language, if wilderness is created.
    Unfortunately, history has shown that ultimately and 
despite the wilderness act language citing grazing as an 
appropriate use, livestock are entirely removed from wilderness 
areas. Furthermore, legislation should not explicitly call for 
the permanent retirement of AUMs. The option to use grazing as 
a management tool must always remain open.
    If despite all this, livestock grazing is reduced as a 
result of the wilderness or other land-use designations, 
permittees must be compensated in a manner that will allow them 
to stay in business and maintain viable ranching operations. 
Simply paying ranchers to get off the land is no solution. 
Rather, we would like to see a pro-active approach, identified 
in legislation that will allow the ranchers to continue grazing 
under their permitted numbers. It is our belief that grazing 
permit is a private property that cannot be separated from base 
property without loss of value. When these permits are reduced 
or removed by the government, this action should be called a 
taking. Ideally, legislation that removes or reduces AUMs 
should treat these ranchers with a fair hand by stating what is 
truthfully happening and set a positive precedent. These 
permits are being taken from the ranchers.
    Last, it is our belief that any wilderness proposal should 
have the input and approval of the stakeholders. While many 
groups engage in wilderness dialog because they simply have an 
interest in the recreation or enjoyment of the land, ranchers 
have their entire livelihood on the table. You now have 
legislation before you that carries the support of some 
ranchers. Given the above concern, why drives ranchers to 
accept wilderness designations? Well, as you well know, Federal 
laws, regulations and such as ESA, have been used as a hammer 
on the ranchers' heads, forcing them to reduce their permits, 
year by year, to the point where the ranching operations are no 
longer viable. Radical environmental organizations have used 
such laws in the court system to turn activist judges into land 
managers, to the point where I have to wonder why we have the 
agencies or why we have Congress at all. As has been the case 
in Idaho, activist judges are apparently free to choose to 
completely ignore or misinterpret language approved by 
Congress.
    To illustrate this point further, I would like to share 
some of the realities of ranching in the West. In an average 
year, ranchers net about $50 per head of cattle. In a typical 
scenario, a rancher owns a 100 acres of private ground and has 
permits to graze on 1,000 acres of Federal land because the 
Federal land ownership in the State of Idaho, in some counties, 
93 percent of the county is Federal land. The ranchers depend 
on this. If Federal grazing permits are taken away, the rancher 
would only be able to raise probably 100 cows on his 100 acres. 
As we all know, that is $5,000 a year. It's dang tough to make 
a living on $5,000.
    What happens at that point, when you can only make $5,000 a 
year? He takes his 100 acres and sells it off in small parcels 
and these small parcels are taken to put up condos and 
subdivisions and I don't think anybody would disagree with the 
fact that that is devastating to the land and the habitat for 
the wildlife that depend on it. A strong cattle industry 
guarantees unfragmented landscapes and a solid economic base 
for the rural West.
    Now turning to the merits of the legislation before you, 
I'll share with you the ICA's current position on both of 
Idaho's bills. Regarding CIEDRA, our membership has voted not 
to support, primarily because it contains no insurance of the 
continuation of grazing in the area. In short, as currently 
written, it fails to adequately protect and promote grazing 
with the SNRA and the Boulder White Clouds management area.
    The Owyhee Initiative--I must state up front that our 
membership has not yet had the opportunity to form direct 
policy on this legislation. Up to this point, ICA has been 
generally supportive of the process under which this agreement 
was developed. The collaborative effort is an inclusive with 
the locally affected ranchers and the issues they deem 
necessary in order to maintain viable ranching operations. 
Although we do not have a clear position, we have some points 
to discuss.
    First of all, the bill should be amended to include 
language that both prevent implementation of a bill until it is 
funded entirely through mandatory appropriations. If the bill 
is implemented without the associated appropriations, the 
ranching industry of the Owyhee County would be devastated. 
Also, the bill must include stronger language protecting the 
continuance of grazing in wilderness. Finally, the bill should 
not explicitly state that the transfer of AUMs would be 
permanently retired. Rather than eliminating livestock, this 
bill should seek for a way to creatively leave the door open to 
enable Federal agencies to utilize grazing as a management tool 
in the future.
    In closing, I would like to commend Congressman Simpson and 
Senator Crapo for taking on these issues and working with the 
ranching community. I know they have been diligent working with 
various groups in an effort to find solutions on these 
difficult and decisive issues. Yet I believe that work still 
remains on these bills to strengthen and preserve the ranching 
heritage in these areas and assure that it will remain 
sustainable, viable and part of the economy. Thank you for 
providing the Idaho Cattle Association with the opportunity to 
provide prospective on these important issues. Mr. Chairman, 
I'll stand for any questions.
    [The prepared statement of Mr. Webster follows:]

   Prepared Statement of Mike Webster, President, Idaho Cattlemen's 
                        Association, Roberts, ID

    Chairman Craig and members of the Subcommittee, thank you for 
giving me this opportunity to discuss the cattlemen's perspective on 
wilderness issues, particularly as it relates to H.R. 3603, the Central 
Idaho Economic Development and Recreation Act (CIEDRA) and S. 3794, the 
Owyhee Initiative. My name is Mike Webster, a 4th generation cattle 
rancher from Roberts, Idaho and President of the Idaho Cattle 
Association, a statewide organization representing the interests of 
Idaho's ranchers.
    As you would imagine, this legislation has generated much 
discussion in Idaho. This is particularly true amongst members of the 
cattle industry. On one hand, due to the stringent standards and 
reductions that have been placed on their grazing permits, the locally-
affected ranchers feel that without some sort of regulatory or 
legislative relief, their ability to remain in business is precarious, 
at best. On the other hand, we are concerned with any proposal that 
will, or is likely to remove grazing from the land.

                      GENERAL VIEWS ON WILDERNESS

    Before I discuss any specifics about either bill, I would like to 
state some of our general philosophical views regarding wilderness. 
When uses are taken off the land, so are management and stewardship. 
Therein lays our concern with wilderness. It is difficult for us to 
encourage any action that removes multiple-use (particularly grazing) 
from the federal lands, especially on a permanent basis. Livestock 
grazing is a wise and sustainable use of the land and, as a sound 
management tool, should never be removed from consideration. In 
addition to its role in sustaining the local economies of Idaho, public 
lands grazing fosters a good ecological balance as it promotes good 
grass growth, prevents or lessens the threat of wildfires, and controls 
the spread of weeds. As such, grazing is in harmony with the pure 
intent of wilderness. Therefore, the existing grazing leases should be 
specifically protected within the legislative language if wilderness is 
created.
    It is imperative that when wilderness legislation is drafted, it is 
not crafted in such a way as to be used as the vehicle to put ranchers 
out of business. Unfortunately, history has shown that ultimately, and 
despite the Wilderness Act language citing grazing as an appropriate 
use, livestock are entirely removed from wilderness areas.
    Furthermore, legislation should not explicitly call for the 
permanent retirement of AUMs. The option to use grazing as a management 
tool must always remain open. In the event that reductions in AUMs are 
called for, they should not be allowed without the justification of 
trend monitoring.
    If, despite all of this, livestock grazing is reduced as a result 
of a wilderness or other land use designation, permittees must be 
compensated in a manner that will allow them to stay in business and 
maintain viable ranching operations. Simply paying ranchers to get off 
the land is no solution. Rather, we would like to see a proactive 
approach identified in legislation that will allow the ranchers to 
continue grazing under their permitted numbers. It is our concern that 
legislation which includes a grazing permit buyout will embolden the 
extremist groups' efforts to establish a programmatic permanent permit 
retirement program and will set a precedent that will make such an 
effort more easily attainable.
    It is our belief that a grazing permit is private property that 
cannot be separated from base property without loss of value. When 
these permits are reduced or removed by the government, this action 
should be called a takings. Ideally, legislation which removes or 
reduces AUMs should treat these ranchers with a fair hand by stating 
what is truthfully happening and set a positive precedent; these 
permits are being taken from the ranchers.
    Lastly, it is our belief that any wilderness proposal should have 
the input and approval of the stakeholders. Several groups weigh into 
wilderness issues. However, it is important to remember that ranchers 
are the only ones who have everything at stake (with the possible 
exception of a limited number of outfitters). While other groups engage 
in wilderness dialogue because they simply have an interest in 
recreation or enjoyment of the land, ranchers have their entire 
livelihoods on the table.

              WHY RANCHERS CONSIDER WILDERNESS LEGISLATION

    You now have legislation before you that carries the support of 
some ranchers. Given the above concerns, what drives ranchers to accept 
wilderness designations? These ranchers have virtually been 
extinguished by over-reaching federal regulations and laws and by the 
court's misinterpretation of those laws. They have been trampled on 
time and again by government action. They have had unachievable grazing 
standards applied on their permits as a result of the presence of one 
species or another, without the benefit of sound rangeland science. 
Federal laws and regulations, such as the ESA, have been used as a 
hammer over the ranchers' heads, forcing them to reduce their permits 
year by year to the point where the ranching operations are no longer 
viable. Radical environmental organizations have used such laws in the 
court system to turn activist judges into land managers--to the point 
where I have to wonder why we have the agencies, or even Congress, at 
all. As has been the case in Idaho, an activist judge is apparently 
free to choose to completely ignore or misinterpret language approved 
by Congress. I'm sure that from the agencies' standpoint, they would 
like to be able to do their job and be out on the ground rather than 
behind piles of paperwork created by the current system. Due to the 
application of the laws and regulations, we're bleeding to death from 
10,000 paper cuts.
    To illustrate this point further, I would like to explain to you 
some of the realities of ranching in the West. In an average year, 
ranchers net about $50 per head of cattle. In a typical scenario, a 
rancher owns 100 acres of private ground but has permits to graze on 
thousands of acres of federal land. Because federal land ownership in 
an Idaho county may be as high as 93%, Idaho's ranchers are dependent 
upon the use of these lands in order to maintain viable businesses. If 
the federal grazing permit is taken away, that rancher would only be 
able to raise about 100 cows. We all know that it is impossible to make 
a living on $5,000 a year. The only viable alternative left to the 
rancher would be to sell off his land in such a manner as to obtain 
maximum return. The resulting conclusion is subdivisions and condos on 
small acreage lots. I don't think anyone would disagree with the fact 
that this is devastating to the land and to the habitat on which 
wildlife depend. Once this happens, the true character of the land can 
never be reclaimed. It is in the best interest of everybody, to 
encourage the viability of ranching operations. A strong cattle 
industry guarantees unfragmented landscapes and a solid economic base 
for the rural West.
    The promise of release of wilderness study areas, which can provide 
a small measure of relief and certainty to ranchers, is a strong 
incentive for many ranchers to go along with wilderness legislation. 
Such is the case with both of Idaho's wilderness bills before you 
today. Current law states that these areas will be studied for a period 
of 10 years and then the managing agency will make a recommendation as 
whether or not the land should be designated as wilderness. However, 
westwide, this has not been the case. Once a wilderness study area is 
created, the land is managed as defacto wilderness in perpetuity. 
Legislative language which either specifically designates WSAs as 
wilderness or releases the land will allow the ranchers to know what 
playing field they are on and will restore sound stewardship and wise 
use of the land.

                           H.R. 3603, CIEDRA

    Now turning to the merits of the legislation before you, I'll share 
with you ICA's current position on both Idaho wilderness proposals. 
Regarding H.R. 3603, our membership voted to not support CIEDRA, 
primarily because it contains no assurances for the continuation of 
grazing in the area. In short, as currently written, it fails to 
adequately protect and promote grazing within the SNRA and the proposed 
Boulder White Clouds Management Area or provide local ranchers with an 
acceptable alternative that would enable them to continue in the 
ranching heritage of the area. If the bill were to more adequately 
address some of the above stated concerns, we would revisit our 
position related to it.

                       S. 3794, OWYHEE INITIATIVE

    Regarding S. 3794, the Owyhee Initiative, I must state up front 
that our membership has not yet had the opportunity to form direct 
policy on this legislation. This will occur at our annual meeting in 
November. Up to this point, ICA has been generally supportive of the 
process under which this agreement was developed. The collaborative 
effort has been inclusive of the locally-affected ranchers and the 
issues they deem necessary in order to maintain viable ranching 
operations.
    Although we do not yet have a clear position on S. 3794, we have 
developed some interim discussion points related to some of the 
specifics of the bill.
    First, it is important that the bill be amended to include language 
that would prevent implementation of the bill until it is funded in its 
entirety through mandatory appropriations. If the bill was implemented 
without the associated appropriations, the ranching industry of Owyhee 
County would be devastated. It is also important that the funds used 
for this bill should not be used as an excuse to reduce the BLM's 
annual appropriations in this and other areas.
    Also, the bill must include stronger language protecting the 
continuance of grazing in wilderness. As stated above, reductions in 
AUMs should not be allowed without the justification of trend 
monitoring.
    Finally, the option to use grazing as a management tool should 
always be available. The bill should not explicitly state that the 
transferred AUMs will be permanently retired. Rather than eliminating 
livestock, this bill should seek for a way to creatively leave the door 
open to enable federal agencies to utilize grazing as a management tool 
in the future.

                               CONCLUSION

    In closing, I would like to commend Congressman Simpson and Senator 
Crapo for taking on these issues and working with the ranching 
community. I know that they have been diligent in working with various 
groups in an effort to find solutions to this difficult and divisive 
issue. Yet, I believe that work remains on these bills to strengthen 
and preserve the ranching heritage of these areas and to ensure that it 
will remain a sustainable, viable part of the economies of Central 
Idaho and Owyhee County. Thank you for providing the Idaho Cattle 
Association with the opportunity to provide our perspective on these 
important issues.

    Senator Craig. Mike, thank you very much for that 
testimony. Now let us turn to Amanda Matthews, citizen of 
Custer County. So you don't represent an organization?
    Ms. Matthews. No.
    Senator Craig. You represent a person?
    Ms. Matthews. I just represent me.
    Senator Craig. Yourself? Wonderful! All right, State of 
Idaho, Stanley, Idaho. Welcome before the committee, Amanda.

           STATEMENT OF AMANDA MATTHEWS, STANLEY, ID

    Ms. Matthews. Thank you, Mr. Chairman, Senators. Thank you 
for the opportunity to talk with you about Stanley, Idaho. Most 
of you have probably never heard of Stanley but those of us who 
live, work and play can tell you that we do everything in our 
power to sustain it and protect it.
    Twelve years ago, I visited Redfish Lake. I went up there 
to work for a summer. I knew immediately that this was my home, 
where I was meant to be. Now, I own a small contracting 
business and have two other part-time jobs, working at the 
largest motel/restaurant in town, the Mountain Village Resort. 
Every day I see who visits, who stays and who spends their 
money in our community. Tourism is the life and blood of 
Stanley. Without it, only a few could afford to stay.
    The majority of visitors come to recreate and they do it in 
every imaginable way. They ride horses, dirt bikes, mountain 
bikes, ATVs and snow machines. They raft rivers, hike, fish, 
hunt--all contribute to the economy of the community but 
without question, those that prefer motorized vehicles, both 
summer and winter, stay longer and spend more money. The number 
of motorized recreationists increases each year and each year 
we see more families with motorized vehicles. In the past, 
Stanley closed down for the winter but today, thanks to the 
popularity of snowmobiling, Stanley has a thriving winter 
economy. Every year, the popularity of snowmobiling riding in 
the White Cloud Mountains increase because it provides a unique 
outdoor experience. These mountains are also incredibly popular 
with the summer crowd. Year after year, whether on foot, 
horseback, mountain bike or motorized vehicle, they come to 
enjoy the Boulder White Clouds as they are today.
    Originally, our previous city council passed a resolution 
that enthusiastically supported the Central Idaho Economic and 
Recreation Act but on Sunday, September 15 after considerable 
public input, the Council changed its position and passed a new 
resolution that supports only the land parcel transfers to 
Stanley.
    The issue was reconsidered by the Council because of 11 
Stanley businesses, another 7 from the Sawtooth Valley, 57 
residents signed letters and a petition opposing CIEDRA. Now, 
57 signatures may not sound like much to you but in the last 
City Council election, there were just over 70 votes.
    I would be glad to supply copies of the letters and the 
petitions to anyone interested.
    We might be a small community of only about 100 people but 
we have over 1.5 million visitors through the Sawtooth Valley 
every year. CIEDRA is a bad piece of legislation and will be 
especially bad for the communities like Stanley. We don't want 
or need a Boulder White Cloud Wilderness under any name. Those 
opposing CIEDRA do so because of the give-away of public lands, 
limitation on access for recreation and the locking up of more 
than 3,000 acres of land in the Boulder White Cloud Mountains 
for wilderness that isn't needed. We already have wilderness 
all around us. The Sawtooth and the Frank Church Wilderness are 
just outside of our doors. If wilderness were good for the 
economy, we wouldn't need more because our economy would be 
thriving. More wilderness won't make that happen. What we need 
is what we have--access to the Boulder White Cloud, where 
people can come and play and stay in Stanley. Please don't take 
that away from us. Thank you.
    [The prepared statement of Ms. Matthews follows:]

           Prepared Statement of Amanda Matthews, Stanely, ID

    Thank you for the opportunity to talk with you about Stanley, 
Idaho. Most have probably never heard of it and few will ever visit it, 
but to those of us who live, work or play there, I can tell you we will 
never forget it and we will do everything in our power to sustain and 
protect it.
    Twelve years ago I visited Red Fish Lake and knew immediately that 
this was my home, where I was meant to be. I am building a contracting 
business and I have two part-time jobs. One of them is working at the 
largest motel/restaurant in town, the Mountain Village Inn. Everyday I 
see who visits, who stays and who spends their money in our community. 
Tourism is the life blood of Stanley--without it, only a few could 
afford to stay.
    The majority of visitors come to recreate and they do it in every 
imaginable way; they ride horses, dirt motorcycles, mountain bikes, 
ATV5 and snowmobiles. They raft rivers, hike, fish and hunt. All 
contribute to the economy of the community but without question, those 
that prefer motorized vehicles both summer and winter stay longer and 
spend more. The number of motorized recreationists increases each year 
and each year we see more families with motorized vehicles.
    In the past, Stanley closed down for the winter. But today, thanks 
to the popularity of snowmobiling, Stanley has a thriving winter 
economy. Every year the popularity of snowmobile riding in the White 
Cloud Mountains increases because it provides a unique outdoor 
experience. These mountains are also incredibly popular with the summer 
crowd. Year after year, whether on foot, horseback, mountain bike or 
motorized vehicle they come to enjoy the Boulder White Clouds as they 
are today.
    You can well imagine that Congressman Mike Simpson's proposed 
wilderness bill for the Boulder White Cloud Mountains has caused quite 
a stir in our community. It has been debated and discussed from one end 
of the town to the other.
    Originally our City Council passed a resolution that 
``enthusiastically supported'' the Central Idaho Economic and 
Recreation Act (CIEDRA), but on Sunday, September 15 after considerable 
public input, the Council changed it's position and passed a new 
resolution that supports only the land parcel transfers to Stanley. 
They no longer support CIEDRA's other components, including the 
wilderness in the present bill. The issue was reconsidered by the City 
Council because 11 Stanley businesses, another 7 from the Sawtooth 
Valley, and 57 residents signed letters and a petition opposing CIEDRA. 
Now 57 signatures may not sound like much to you but in the last city 
council election there were just over 70 votes. I would be glad to 
supply copies of the letters and the petition to anyone interested. We 
might be a small community of only 100 people but we have over 1\1/2\ 
million visitors a year to the Sawtooth Valley.
    CIEDRA is a bad piece of legislation and will be especially bad for 
communities like Stanley. We don't want or need a Boulder White Cloud 
wilderness under any name.
    Those opposing CIEDRA do so because of the give away of public 
lands, limitation on access for recreation, and the locking up of more 
than 300,000 acres of land in the Boulder White Cloud Mountains for 
wilderness that isn't needed. We already have wilderness all around us, 
the Sawtooth and the Frank Church Wilderness are just outside our 
doors. If wilderness were good for the economy, we wouldn't need more 
because our economy would be booming. It isn't and more wilderness 
won't make it happen. What we need is what we have, access to the 
Boulder White Clouds where people can come and play and stay in 
Stanley.
    I certainly don't want to sound ungrateful to Congressman Simpson, 
the economic benefits promised to Stanley are definitely needed. We 
need affordable housing, and city facilities and a trail between Red 
Fish Lake and Stanley would be wonderful but the trade-offs are too 
great. What we would lose is our long term economic survival. Changing 
the management of the Boulder White Clouds has little or no benefit for 
Stanley. We cannot afford that. It isn't easy making a living in a 
small rural mountain community that is surrounded by public land but it 
is possible, if we have access to the land for a variety of users 
including motorized. That is what we need for long-term economic 
survival.
    Please don't pass CIEDRA. I work three jobs now and if CIEDRA 
passes I would lose those jobs and most likely have to leave Stanley. 
But as important as that is, what is most important is the survival of 
our community and our way of life. We have built an economy on 
recreation that includes both summer and winter motorized and 
mechanized uses. Don't take that away from us!

    Senator Craig. Amanda, thank you very much for your 
testimony. Now let me turn to Ms. Carole King, again, another 
citizen of Custer County, State of Idaho, Stanley. Carole, 
welcome once again before the committee.

          STATEMENT OF CAROLE KING, CUSTER COUNTY, ID

    Ms. King. Thank you very much. Technically, I do not live 
within Stanley. I live in Custer County, between Stanley and 
Clayton.
    Senator Craig. That is correct.
    Ms. King. Chairman, thank you very much for inviting me to 
testify. I appreciate it.
    There is a national trend of privatizing public land in 
State-based bills that some call wilderness bills because they 
designate some wilderness. We ought to call them privatization 
bills. H.R. 3603 is one such bill.
    Some people call it CIEDRA. I call it a bill of broken 
promises. For example, Americans invested $65 million dollars 
in a promise by Congress 34 years ago, to preserve the Sawtooth 
National Recreation Area and I thank you, Mr. Chairman, for 
your long time support of keeping that promise. CIEDRA breaks 
that promise by giving away part of that investment for private 
development. The deed restrictions in Title I are just paper. 
There is a picture of a McMansion that violates current 
regulations but if the Forest service can't afford to enforce 
them now, how are they going to be able to enforce deed 
restrictions in the future?
    These elk are on their winter range near Stanley. There are 
many more elk than you see. They are majestic and beautiful and 
they cover the hillsides. Development on Valley Creek, one of 
the conveyances, to be privatized, will displace this herd. A 
reduced elk population reduces income from hunters. Proponents 
say that the conveyances will bring new tax revenue to Custer 
County. Eighty-three studies agree that for every dollar of 
revenue, counties pay up to $1.43 for community services. That 
is a loss of $.43 on the dollar. I actually gave these studies 
to my commissioners and discussed other options with them but 
they only see the shiny new car. They don't want to look under 
the hood.
    Another broken promise--counties get less than half their 
payment in lieu of taxes. How are we going to fund CIEDRA if we 
can't fund PILT? Had an economist been at the table, Mr. 
Simpson would have known that Section 302, which he removed 
today or has asked to be removed, had no place in his bill, 
which still costs taxpayers more than $31 million, assuming 
that there is appropriation of the authorizations, plus a few 
million more that is an appropriation, to cover the cost of 
conveying the land. So we're not only giving away public land, 
we're paying millions to do it.
    Mr. Simpson called CIEDRA a collaborative effort over 6 
years. It was no such thing. True collaboration brings people 
with different views together at the same table. Going to 
carefully selected members of each interest, separately and 
promising each what was needed to obtain their support, is the 
illusion of collaboration. It is not collaboration. Among those 
excluded were the Forest Service, who would have expressed 
objections to many of the things they spoke about today.
    The table lacked two important legs, as I said before. One 
was the economist and the other was a scientist. Local support, 
as you heard from Amanda, is eroding. Last week, the city of 
Stanley withdrew their support from the entire bill, except for 
the conveyances. Butch Otter wasn't at the table, either. He 
says he would have voted against the bill but we'll never know 
because it was rammed through the House so quickly that it 
contains inaccuracies, omissions, legal descriptions and maps 
that were a moving target right up to the morning of passage. 
Just before markup, the grazing buy-outs that were key to the 
support of many groups and some ranchers who wanted the buy-
outs. I think the ranching community is divided about that, but 
that is another broken promise.
    At the House hearing, Mr. Simpson said, ``we are kind of on 
a razor's edge right here. Any significant changes and the plan 
falls into that abyss called Former Wilderness Proposals.'' 
Removal of the grazing buy-outs is a pretty significant change. 
I believe Mr. Simpson should keep his promise and withdraw his 
bill.
    Idahoans opposing CIEDRA are an unusual gathering of 
bedfellows--I think you would agree with that--who haven't 
agreed on much over the years but what we do agree on is that 
CIEDRA is a bad bill. This is a commonality that we could build 
on but CIEDRA will foreclose that option if it passes.
    Wilderness is a proven economic engine. The so-called 
wilderness in CIEDRA is not that economic engine. Now, I'm a 
wilderness advocate, I'm also a motorized user. Earlier this 
year, I met with Lance Giles at Former Governor Kempthorne's 
and asked that they put Bayhorse back on the list of State 
parks, which they did, although I don't think it was me--I 
think a lot of other people asked but I added my voice to that 
because I believe that Bayhorse State Park could be an 
important and desirable world-class recreation destination in 
Custer County. I believe CIEDRA deserves to die in committee, 
but given its legislative history, it could show up as a rider 
or an amendment or lumped in with other bills. That would be a 
shameful way to force this bad bill on the American people. 
Please--say no to CIEDRA. Idahoans and Americans deserve 
better.
    [The prepared statement of Ms. King follows:]

          Prepared Statement of Carole King, Custer County, ID

    As a 25-year resident of Custer County, I want to thank Chairman 
Craig and Senator Crapo for their longtime support of the Sawtooth 
National Recreation Area. Ironically, the harm that H.R. 3603 would do 
to the Sawtooth NRA is just one of many reasons why the Central Idaho 
Economic Development and Recreation Act is a Bill of Broken Promises.
    Since the Sawtooth NRA was established in 1972, Americans have 
invested $65 million ``to preserve the natural, scenic, historic, 
pastoral, wildlife and recreational values of the region.'' \1\
---------------------------------------------------------------------------
    \1\ Public Law 92-400.
---------------------------------------------------------------------------
    CIEDRA breaks a promise made to the American people by Congress 34 
years ago by asking Americans to give away--outright, for free!--part 
of that $65 million investment to support private development.
    Section 103 hopes to mitigate damage to scenic values on the 
privatized land by including a list of deed restrictions for new 
homeowners that reads more like a list of CC&Rs for a homeowners' 
association than a section of public land legislation.\2\
---------------------------------------------------------------------------
    \2\ Covenants, conditions and restrictions controlling the use, 
requirements and restrictions of a property, usually enforced by a 
homeowners' association.
---------------------------------------------------------------------------
    The fact is, those with inholdings within the Sawtooth NRA are 
already required to comply with existing restrictions.
    Exhibit 1 is a photo of a mansion-sized home built in the Sawtooth 
NRA over the past two years.\3\ The photo shows that this home is 
clearly in violation of size and landscaping restrictions, yet no one 
did a thing to stop it from being built. The Forest Service doesn't 
have enough staff or funding for enforcement. If we can't enforce such 
violations now, who will take CIEDRA's new deed restrictions seriously? 
Who will enforce them?
---------------------------------------------------------------------------
    \3\ Photos may be viewed online at www.caroleking.com.
---------------------------------------------------------------------------
    The Interior budget has been cut by over a billion dollars in the 
past two years. Today, some of my neighbors who work for the Forest 
Service are worried that there won't be funding for their jobs next 
year. Where do proponents think the money for enforcement of CIEDRA's 
deed restrictions is going to come from?
    Exhibit 2 is a photo of part of a large herd of elk in their winter 
habitat in Stanley. The Valley Creek conveyances and subsequent 
development of homes on that land would interfere with the existing use 
and breeding habits of many more elk than can be seen in the photo. 
Wildlife biologists who have studied this herd believe that reduction 
of winter range and breeding habitat will result in reduction of the 
elk population, which would likely be followed by a reduction of the 
millions of dollars hunters spend in Custer County every year.
    Proponents denigrate the quality of some of the land conveyances by 
calling them desert land, or an old sewage dump, or wetlands that no 
one could possibly want to build on, implying that the land has little 
public value. If that's true, why change the status of any of that 
land?
    The giveaway of public land is purportedly to increase Custer 
County's tax base, but that's just another promise waiting to be 
broken.
    Exhibit 3 Studies by the Sonoran Institute, the University of 
Wyoming and the American Farmland Trust show that the cost of providing 
services to new homes in rural communities is greater than the revenue 
from new taxes.\4\ This is especially true in the West.
---------------------------------------------------------------------------
    \4\ See list of URLs following testimony.
---------------------------------------------------------------------------
    ``. . . 83 [eighty-three] studies of the cost of community services 
. . . found that residential use cost the counties an average of $1.15 
in community services for every $1.00 in revenue created by that use.'' 
\5\ The $1.15 cost for every dollar of revenue is just an average. The 
range is from $1.05 to $1.43.
---------------------------------------------------------------------------
    \5\ From a December 2002 University of Wyoming study entitled The 
Cost of Community Services for Rural Residential Development in 
Wyoming.
---------------------------------------------------------------------------
    Someone's going to get rich selling those homes, and it's not going 
to be Custer County. The residents of Custer County are going to get 
stuck providing the essential community services.
    Since 2000, counties throughout the West have been appropriated 
less than half of their authorized Payments in Lieu of Taxes or PILT. 
There's another broken promise.
    If we can't fully fund PILT, how can we fund CIEDRA?
    A Congressional Budget Office report shows that H.R. 3603 
authorizes more than $31 million over the next two years.\6\ With the 
agency budget cuts, where's the money going to come from to keep this 
new promise of millions of dollars to my county? From the sale of 
public land? Not in America. Americans--including Idahoans--have come 
out overwhelmingly against privatizing public land.
---------------------------------------------------------------------------
    \6\ http://www.cbo.gov/showdoc.cfm?index=7473&sequence=0
---------------------------------------------------------------------------
    Recently, the entire Idaho Congressional delegation appropriately 
said that public land should remain in public hands--including Mike 
Simpson!
    Why is backdoor privatization okay in his bill? Congressman Simpson 
says it's apples and oranges.
    I don't see a difference. It's all apples, and they're all rotten.
    We keep hearing that CIEDRA was a carefully balanced collaborative 
effort that took 6 years. A true collaboration invites dissenters to 
the table and brings differing interests together. To the best of my 
knowledge, those conditions were not met. For example:
    Had the Forest Service been consulted, they would likely have 
communicated their objections to the provisions in Title II allowing 
uses in CIEDRA's wilderness that are inconsistent with the 1964 
Wilderness Act.
    Exhibit 4 is the relevant portion of the Forest Service's testimony 
before the House subcommittee hearing on October 27, 2005.\7\
---------------------------------------------------------------------------
    \7\ http://resourcescommittee.house.gov/archives/109/testimony/
2005/joelholtrop 102705.htm
---------------------------------------------------------------------------
    The supposedly collaborative table lacked two important legs from 
the beginning: no scientist; no economist.
    Last week, the City of Stanley withdrew its support from the entire 
bill, except for the land conveyances.
    A key player, Congressman Butch Otter, wasn't at the table. Mr. 
Otter opposes CIEDRA. He says that he would have voted against it, but 
we'll never know, because he didn't get the chance to cast a vote. H.R. 
3603 was rushed through the House under suspension of the rules with 
zero business days' notice. its passage linked to the popular Northern 
California Coastal Wild Heritage Act (H.R. 1501 and S. 738).
    Though a House member rose to speak on the floor against the 
inappropriate placement of this highly controversial bill on the 
suspension calendar, H.R. 3603 was allowed to pass through the House on 
a voice vote with audible nays.
    This is not the ``unanimous consent'' reported on Congressman 
Simpson's website in a press release dated July 24, 2006.\8\
---------------------------------------------------------------------------
    \8\ http://www.house.gov/list/press/id02_simpson/ciedra_passes.html
---------------------------------------------------------------------------
    Exhibit 5 Three years ago, Idaho Conservation League's executive 
director Rick Johnson wrote a 10-page letter to Representative Simpson 
\9\ dated July 22, 2003 expressing the Board of Directors' strong 
opposition, from a conservation perspective, to provisions that today 
are part of Mr. Simpson's bill.
---------------------------------------------------------------------------
    \9\ See text of July 22, 2003 letter from ICL to Simpson following 
testimony.
---------------------------------------------------------------------------
    ICL's 180 turnaround and the tenacity of Mr. Johnson and other 
proponents in support of various incarnations of CIEDRA since 2003 are 
remarkable when you consider how little resemblance the bill under 
discussion today bears to ICL's 2003 recommendations.
    What changed? What outside influence caused ICL's determination to 
uphold long-held sound science and economic-based conservation policy 
to melt away.like spring snow?
    One important thing did change in June, 2006. In order to get the 
bill on the House markup schedule, Mr. Simpson removed the voluntary 
grazing buyouts. Given ICL's position in 2003, removal of the grazing 
buyouts was a change in the wrong direction.
    Their letter says: ``We support the purchase of grazing allotments 
in the East Fork of the Salmon River area and development of 
conservation easements. We do not support land trades or transfers to 
accomplish this goal, and we are confident they are not necessary.'' 
\10\
---------------------------------------------------------------------------
    \10\ Excerpt from the aforementioned letter.
---------------------------------------------------------------------------
    Today ICL continues to promote passage of H.R. 3603 even though, 
prior to markup, grazing buyouts were a cornerstone of the group's 
support. The buyouts were also important to other groups and 
individuals, including the many Idaho cattlemen and women for whom 
removal of the buyouts were just one more broken promise.
    Congressman Simpson said at the House Subcommittee hearing on 
October 27, 2005: ``We are kind of on a razor's edge right here. Any 
significant changes, and the plan falls off into that abyss called 
former wilderness proposals.''
    No one can dispute that removal of the grazing buyouts is a 
significant change. When can we look for Mr. Simpson to withdraw his 
bill?
    Nothing grows well in a field of broken promises.
    CIEDRA fails to reserve federal water rights, opening the way for 
the State of Idaho to allocate federal water to private users. If 
CIEDRA passes, the salmon and steelhead and the $28 million they 
generated for Custer County last spring from anglers could dry up. This 
doesn't make biological sense, and it doesn't make economic sense.
    Exhibit 6 is a non-partisan Congressional Budget Office report on 
H.R. 3603 showing a cost to taxpayers of over $187 million: more than 
$31 million in authorizations and more than $155 million in lost 
revenue from Section 302 alone. This doesn't include the sprinkling of 
an extra half million dollars here and there, or the $4 million 
appropriation ``to cover costs to complete the proposed land 
conveyances, establish and manage the proposed wilderness and 
management areas, and purchase certain patented mining claims.'' \11\
---------------------------------------------------------------------------
    \11\ http://www.cbo.gov/showdoc.cfm?index=7473&sequence=0.
---------------------------------------------------------------------------
    So we're not only giving this land away; we're paying millions of 
dollars to do it. With a soaring national debt, where is this money 
supposed to come from?
    Section 302 not only attempts to rewrite the tax code to benefit 
owners of unpatented (i.e., unproven) mining claims; it characterizes 
the United States as a charity. I had no idea that the United States of 
America was a charity. This section clearly warrants review by the 
Finance Committee.
    Congressman Simpson says CIEDRA resolves conflicts. The high level 
of controversy and significant opposition to this bill belies that 
claim. The truth is, CIEDRA creates conflicts. For example:
    Title III creates a new bureaucracy, the Boulder-White Clouds 
Management Area, which overlays much of the Sawtooth National 
Recreation Area. Even a lay person can see that Section 301's language 
about the new designation being ``supplemental to, but not in 
derogation of' the Sawtooth NRA is an open invitation for lawsuits.
    Expert legal opinions support my concern. Erica Rosenberg, the 
Director of Program on Public Policy for Arizona State University 
College of Law, writes:
    ``The issue at hand is whether the language of Title III of CIEDRA 
establishing the Boulder-White Clouds Management Area (BWCMA) changes 
the management of those lands with the Sawtooth National Recreation 
Area (SNRA). The answer is yes.'' \12\
---------------------------------------------------------------------------
    \12\ November 8, 2005 letter to Western Lands Project from Erica 
Rosenberg. This letter may be viewed at www.westernlands.org or 
www.caroleking.com.
---------------------------------------------------------------------------
    Title III also takes management authority away from Forest Service 
and BLM land managers and gives it to the new bureaucracy. Exhibit 7 is 
an Op-Ed by 10 retired managers of the Sawtooth NRA with an aggregate 
of over 83 years of ``on the ground'' experience managing the land in 
question. Their coalition is one of 47 national and local conservation 
groups (15 based in Idaho) and numerous individuals (from whom I'm told 
Senators Craig and Crapo are hearing in force) in opposing CIEDRA.
    Idahoans and other Americans oppose CIEDRA for a variety of 
reasons, which has resulted in an unusual alignment of bedfellows who 
haven't agreed on much for years. What opponents do agree on is that 
CIEDRA is bad for the land, bad for wildlife, and bad for people. This 
commonality could be something to build on, but not if CIEDRA passes.
    Local support is rapidly being outpaced by local opposition that 
continues to grow. The most recent highly visible example of this is 
the City of Stanley's withdrawal of their support (except for the land 
conveyances.)
    I've heard Congressman Simpson say on several occasions that if no 
one's happy with his bill, he must be doing something right. This is a 
sad commentary on the process, and surely not a measure of good law. 
After a collegial chuckle, we still have a bill with which no one is 
happy.
    Granting that CIEDRA was conceived with the best of intentions, 
Congressman Simpson's effort to resolve so many issues in a one-size-
fits-all bill has turned out to be overly ambitious and misguided. 
Bottom line: the bill creates more problems than it solves.
    Proponents try to downplay my residential and conservation 
credentials, but I have great affection for the many friends and 
neighbors in Custer County whom I've come to know and respect during 
the 25 years I've lived there. My neighbors understand that I'm an 
advocate for wilderness not only because of its intrinsic value, but 
because of its potential value as an economic engine for communities 
like ours.
    Research increasingly shows that economic growth in such 
communities is roughly proportionate to the amount of protected 
wilderness nearby. Marketed widely as the largest intact protected 
wilderness in the lower 48, a greater Boulder-White Clouds Wilderness 
would be an irresistible draw for visitors from around the world, while 
businesses such as schools, field study centers and an observatory 
(which is already under way) would achieve economic success precisely 
because of their proximity to this unique, large, intact protected 
wilderness. The Teton Science Schools in Kelly, Wyoming have helped 
Teton County achieve economic success with only 3% private land.
    If CIEDRA's wilderness were good, clean Wilderness Act-quality 
wilderness and not tied to overlays, giveaways and fiscal 
irresponsibility, with science, planning and economics thoughtfully 
considered, there would be enormous public support, including mine. 
Instead, CIEDRA gives us substandard wilderness, rendering the 1964 
Wilderness Act meaningless and setting a precedent that legal experts 
consider a poor model for future wilderness bills.
    I'm also a motorized vehicle user and an advocate for Bayhorse 
State Park in Custer County. Earlier this year I met with Lance Giles 
on Governor Kempthorne's public lands staff to ask that Bayhorse be put 
back on the Governor's list of state parks. I believe that Custer 
County and motorized users would benefit greatly from having a facility 
at Bayhorse with enough trails, campgrounds and other amenities to make 
it a world class motorized recreation destination.
    CIEDRA takes a finite piece of pie and tries to divide it among too 
many people. I submit that the pie is bigger than the frame to which 
this bill is limited. If passed, CIEDRA will foreclose other options.
    Why the haste in the House? Why the avoidance of scrutiny and a 
recorded vote? H.R. 3603 was jockeyed through markup and rushed through 
the House so quickly that the bill before you contains inaccuracies, 
omissions, and legal descriptions and maps that remained a moving 
target right up to the morning of passage.
    Judging from CIEDRA's legislative history thus far, if no action is 
taken by this committee, I wouldn't be surprised to see H.R. 3603 turn 
up as a rider or an amendment to an omnibus bill later this session. 
That would be a shameful way to force a bill on the American people 
that does so much harm and ignores all the opposition I've documented.
    Please join opponents in saying NO to CIEDRA. Idahoans and 
Americans deserve better.

    Senator Craig. Ms. King, thank you very much for that 
testimony. Now let me turn to the panel for questions that 
Senator Crapo may have. Brett, I heard you mention in your 
testimony that the recreation groups came up with a compromise 
for CIEDRA. Can you tell me a little more about this proposal 
and is this something you feel comfortable working with the 
committee on?
    Mr. Madron. Yes, Mr. Chairman. The proposal had a revised 
wilderness area boundary. It is still a significant amount but 
less acreage, less impact to the current recreation. It did 
include wilderness, motorized communities willing to buy on to 
a certain amount of wilderness that doesn't, we feel, impact 
recreation. Like I said, we would like the trigger language to 
make sure that all the promises are held prior to the 
wilderness boundaries going up. Specifically in my case, as a 
two-wheeled motorized user, the amount of traffic due to 
potentially increased on Germania Creek Trail with the closure 
of Grand Prize without the money to maintain that, could be the 
kiss of death to that trail.
    Senator Craig. From your testimony, I see that you were 
excluded by your own expression, from the Owyhee Working Group 
after the compromise was reached, simply because you wouldn't 
agree to support the initiative. Do you believe that is a right 
way to get to a consensus or was there a way, from your point 
of view, where a consensus could have been arrived at?
    Mr. Madron. I think consensus could have been arrived at 
and I think it could be in the future. From the start, our 
representative had requested a balance of power on the Owyhee 
Initiative Working Group and those requests were denied. The 
votes were typically 9 to 1, with 1 being the person 
representing recreation. In the future, if there was a balance 
of power, we would certainly be interested in revisiting the 
subject and taking a harder look at things.
    Senator Craig. Thank you. Mike, I'm pleased to have you 
before the committee today. I think that to most Idahoans--my 
bias toward ranching has always been pretty obvious. I grew up 
in a ranching environment and a ranching family, 
generationally, like you did. Thirty years ago, I started to 
argue that if you took the rancher from Idaho, you would change 
the very character of the State--its openness and its wildlife 
habitats. Tragically enough, that I argued for 30 years ago was 
not listened to and today we see ranch after ranch closing, 
those base properties being sold to the McMansions that Ms. 
King talked about, because there is no other way to sustain 
that livelihood in many instances. I think we're all beginning 
to recognize that ranchers and their presence on the land 
really did mean an open landscape. It really did mean a 
properly-handled, viable watershed and clearly a vibrant 
wildlife habitat. That's an Idaho that will only be a piece of 
history, I'm fearful. So I can understand your frustration and 
the expressions you've made. I noted in your testimony that you 
do not think that H.R. 3603 includes sufficient language to 
protect future grazing in the SNRA and the Boulder White Clouds 
management area. If such language were included in the bill, 
would the Idaho Cattlemen support H.R. 3603?
    Mr. Webster. Senator Craig, you know, I'm speaking for an 
association now. I can answer that question as Mike Webster and 
what we've talked about. I think that we would revisit it, if 
we could come up with some language that would make sure that 
we add grazing there. As you probably well know, there are 
other problems. Those ranchers, the East Forkers up there, have 
been slowly driven from the land because of ESA and NEEPA. So 
the wilderness issue and keeping the cattle on the ground is a 
little deeper than just CIEDRA. It's ESA and NEEPA--it's got 
them on the brink of extinction now and that's why it is so 
critical that if CIEDRA doesn't go forward, that we make sure 
that these people are not bought out. What we want is to make 
sure that they are viable--they have a viable operation. 
Whatever that takes--I have several ideas that could be used to 
keep these ranchers viable and I can say the word viable about 
ten times through my testimony. That's what we want. We don't 
want a lot of ranchers bought out or forced out. What we want 
to do is keep ranchers viable. Like you said, it is open spaces 
and in reality, if everybody would stop and take a good, hard 
look at it, they may not like their neighbor that's a rancher. 
I don't know one way or the other but they ought to be danged 
thankful that the rancher is there or those condos will go up 
and there will not be open spaces and there will not be 
recreation and there will not be hunting. They need us whether 
they believe it or not.
    Senator Craig. Well, I think history is going to bear us 
out for that to be a very profound statement and I appreciate 
you being open and honest about where the cattlemen stand as it 
relates to the Owyhee Initiative. It is my understanding in 
visiting with Senator Crapo that a position had not been taken 
on that. While it is my understanding that the Owyhee County 
cattlemen have active participants in the Initiative effort. 
What do you think they expect to get from it? Better decisions? 
And I look at the bill. Better decisions out of the BLM? Fewer 
lawsuits? Cash payments and exchanges?
    Mr. Webster. You know, yes I do. I think there will be 
better decisions made by the BLM. The simple reason is I think 
if it goes forward the way they have proposed it, with land 
exchanges and such matters, that the lawsuits will go down 
because the differing sides will get kind of what they want--
not all, but they will get a portion of what they want and the 
rancher will stay viable, the way it is written right now. So I 
think the lawsuits will go down. I think the agencies will be 
able to make better decisions because they won't be spending 
all their time wondering about which sentence they're going to 
be sued over, as they write up an ESA or whatever, or an EIS. 
You know, they can go out and actually get on the land and do a 
better job of fostering good management on BLM acreage. You 
know, cash payments and exchanges--that's a two-pronged deal. 
What these people are looking for, one in particular that I've 
talked to several times, he is losing some AUMs and he knows 
it. But what he wants, is he wants to take some cash and 
improve the other lands he has by water developments, by 
interior fencing, and he feels like if he could give up some 
AUMs, if he could get land exchanges and some cash so he could 
improve what he would have, so he would end up virtually within 
several years--it wouldn't happen overnight, but within a few 
years, he would be back to the same AUMs as he has now and the 
people at the wilderness, they can go ahead and have their 
wilderness. But they need the whole package to come to fruition 
because if only part of it does, then he doesn't have the 
money. If he gets the acquisitions, the land exchanges but he 
doesn't have the money to go along with it, then he has lost 
that and he doesn't have the money to develop--put the water 
developments in on his other acreages to get his AUMs back up 
to where they are at now.
    Senator Craig. Surely. Thank you. Amanda and Carole, I'll 
come back to you on the second round. Let me turn to my 
colleague, Mike Crapo, for his questioning.
    Senator Crapo. Thank you very much, Larry. Let me go to you 
first, Mike, since we'll just continue with that line of 
questioning. First of all, you've already, both you and Senator 
Craig have already talked about this but I want to make it very 
clear on the record. Do I understand correctly that the Owyhee 
Cattlemen Association has taken a vote on this matter and does 
strongly support the Owyhee Initiative?
    Mr. Webster. Yes, that's the way I understand it also, 
Senator.
    Senator Crapo. And just to pursue that a little bit with 
you, what is the process that will now be followed with the 
Idaho Cattle Association in terms of making a final decision on 
this legislation?
    Mr. Webster. At our November meeting, full membership 
meeting, and this is a decision I made. I'll give you just a 
short background. When CIEDRA came before us, in all due 
respect to Representative Simpson, we didn't handle it very 
well. We went to the Executive Committee and asked for their 
opinion and we went to the Board of Directors and asked their 
opinion and the waters got awfully muddy. So I told them with 
the Owyhee Initiative, we were not going to take an executive 
position as Executive Committee, nor was the Board going to 
take a position. This was a big enough issue and we should have 
handled CIEDRA the same way that the full membership gets 
educated in what is in these bills and then the full membership 
vote on them. So that's why we have not come up with a solid, 
dig our heels in, yes or no, up or down, vote type of a deal. 
We're going to wait until our full membership vote in November.
    Senator Crapo. Thank you. Then, I know that this is 
certainly not a binding thing by any way or nature but is 
there--does the general membership generally give quite a bit 
of deference or consideration to the position of the local 
county association?
    Mr. Webster. Yes, we do. We do but we also have to 
understand that--and you gentlemen can appreciate this, I'm 
sure members of the panel here, that it would be nice if you 
only had to look out for the State of Idaho. And it would be 
nice if you only had to look out for Owyhee County or the 7 
East Forkers in CIEDRA but this is a bigger issue than that. 
This affects the State of Idaho and I think these wilderness 
bills affect--has nationwide effects. As you've probably 
already heard, there are wilderness bills--I think three or 
four of them, before this panel for this committee today. So we 
have to look at it as--what does it do? Does it set any 
precedence that we don't want set? We don't like buy-outs. No 
question about it. Now, when it is a consensus deal and it is 
good and it keeps these people viable--there again, I used that 
word--then buy-outs aren't all that bad, if it keeps them 
viable.
    Senator Crapo. That's a point I did want to pursue with you 
because I understand the objection that the Cattle Association 
nationally and in Idaho and frankly, in Owyhee County, has 
against buy-outs in their traditional sense, in the context of 
removing ranchers from ranching. That issue was very, as you 
know, it was very much in the forefront in the collaborative 
process over the Owyhee and in fact, the cash payments and the 
exchanges in the Owyhee legislation, in each case, achieved the 
objective that you discussed earlier with the one individual 
you had talked about, which is namely to provide an avenue for 
that particular rancher and ranching family to continue their 
operations rather than to be moved off of ranching and have to 
develop or otherwise and so I understand that you've just said 
this but I want to make it even more clearly a part of the 
record that when buyouts or cash payments and exchanges are 
utilized in the right way, to enable ranching operations to 
remain viable in the context of legislation that otherwise 
establishes wilderness and other designations. It doesn't 
become so bad in that circumstance. It can be supportive. Is 
that correct?
    Mr. Webster. I think that is correct and if I can add one 
thing on CIEDRA and I would like to put this on the record, 
that if, in working with Congressman Simpson, if we could come 
to that sort of mentality, that cash payments, other land 
acquisitions, land exchanges--I know the Idaho Cattle 
Association, we'd re-visit CIEDRA in a heartbeat and be glad to 
do it because there are people up there that are living and 
breathing human beings that have generation upon generation of 
cattle ranches up there and we'd dang sure like to see them 
still there in future generations.
    Senator Crapo. Well and I appreciate you saying that 
because as I think you probably know, one of the first groups 
that came to me, asking for this opportunity to work out these 
solutions, the Owyhee Cattlemen were among that group. And the 
reason they were, as I understand it, is the same reason that 
some of the cattlemen in Custer County and others, are facing 
concerns, and that is, under the status quo, under the law that 
they are now living with, there are real threats to their 
ranching operations and for the potential for the adequate 
viability of their ranching operations. So, would you agree 
with me that it's not as though we have a situation where there 
is no issue and the legislation raises an issue but instead, we 
have a situation where under current law, ranching operations 
have a threat to their viability and that there is an 
opportunity here, if done properly, to find a win-win solution 
where we can provide for the continued assurance that ranching 
operations will proceed and continue in the future, while at 
the same time, trying to help others who have objectives in 
other context of land management, achieve those objectives as 
well.
    Mr. Webster. Yes and I would agree with that. That's--to 
me, that's what brought everybody to the table to start with. 
They could see going down the road, that we are going down, 
like you said, with the current laws that are on the books, 
unjust as they may be and judges making decisions that are 
completely out of context of what was brought forth through 
Congress and signed into law. They are forced to come to the 
table with something. They are threatened and that's what 
brought them to the table, there is no question about it. Now 
we need to figure out and be creative in keeping the ranchers 
on the land.
    Senator Crapo. Well, I appreciate that. That was definitely 
one of the objectives of those who were trying to achieve this 
collaboration, was to assure that we did not retire or remove 
grazing or ranching but instead, found a solution, as you 
suggested was the right objective, to keep these operations 
viable. You know, we'll let the legislation stand for itself as 
to whether it achieves that. I think it does. And I think that 
the reason we have such strong support in the Owyhee Cattlemen 
is that they think it does. So anyway, thank you very much and 
I look forward to working with you and the Idaho Cattlemen as 
we go forward on this and CIEDRA and on the other issues of 
managing with regard to cattle ranching in Idaho. Thank you 
very much.
    Mr. Webster. Well, thank you, Senator and I would like to 
say one other thing and I think we need to be very, very 
cognizant of the funding of both of these bills. It can't be 
discretionary spending, it has to be mandatory spending and 
it's got to be--I bring up Steens Mountain as one. In the past, 
everybody was saying halleluiah. I think that was done in the 
year 2000, with the $25 million paychecks supposed to be 
written. The bill passed and that check was never written. So 
we need to be very cognizant as these bills go forward, that 
this is mandatory spending not discretionary spending.
    Senator Crapo. I am very aware of that issue and I would 
just say, again, the collaborative group was very aware of that 
issue as well. Although I'm not sure that the mandatory 
spending solution is one that politically can be achieved. I 
don't know how that will play out. I can assure you that I, 
personally, am committed to making certain that both the 
designations in the law that we have before us as well as the 
funding for the compensation package, is accomplished. I 
believe that--in fact, I think we probably will be able to do 
this. I believe that if you had each member of the 
collaborative group, from whatever perspective they were at, at 
the witness table today, that they would each say that they are 
personally committed to their promise to make sure that this 
happens. So, one way or the other, I look forward to working 
with you on achieving the objective that you just identified 
there. I do have some further questions, if you'd like me to do 
them right now, for Brett. Or should I let you have----
    Senator Craig. Why don't you proceed for a couple more 
minutes and then we'll attempt to wrap up this panel with a few 
more questions I have.
    Senator Crapo. All right. I'll be very brief. Brett, I know 
you indicated--I'll just go to one issue with you, Brett and 
that is the question that you've raised about whether there was 
adequate balance or if there was adequate representation of the 
motorized community in terms of off-road use in the 
collaboration. I realize that there was one representative who 
did represent many different off-road groups. I understand the 
point that you make there, however I don't want to leave the 
perception that the multiple groups that were represented were 
simply left out of the process or were not consulted or 
involved. I just wanted to clarify with you, isn't it correct 
that your organization and a number of other off-road vehicle 
organizations were consulted, that you have visited with the 
members of the collaborative team, that they've taken into 
consideration the requests that you have made, whether they 
agreed or disagreed with the request. It's not as though you 
were not heard but that you were, in fact, involved in terms of 
having the opportunity to give your input to the team that was 
working on this.
    Mr. Madron. Yes, we were members of the People for the 
Owyhees, on the one seat that was represented in the Working 
Group.
    Senator Crapo. All right, thank you. And I just want to 
make one last point, Senator Craig and just clarify this, to 
give a little bit of a perspective. It's my understanding 
that--and I think this is on BLM land, which is the vast 
majority of the land--that there were approximately 10,000 
total miles of roads and trails that were under consideration 
and that of those, only 200 were closed, keeping 9,800 of those 
roads and trails open, is that correct?
    Mr. Madron. My understanding is that--that will be left up 
to the travel management process, that currently there are no 
designated trail systems on most BLM lands.
    Senator Crapo. OK, well, we'll have to go back and see. 
That wasn't my understanding but I'll have to go back and 
double-check that. I'll just state for the record that my 
understanding was that there were--and again, these are not 
precise numbers, but approximately 10,000 miles of roads and 
trails, 200 of those were closed and of those 200 that were 
closed, about 60 of those were illegal trails that would have 
been closed anyway and that there were actually only 30 miles 
of actual roads closed versus trails. Again, until you are out 
on the land, you don't know exactly what that means. But my 
point in giving those statistics is simply to show that there 
was a very, very strong representation of off-road vehicle uses 
and I know, because of the involvement that I had with the 
issues that were being brought forward and I knew they were 
being brought forward by you and many others in the off-road 
vehicle group, that those issues were very heavily and 
seriously considered and frankly, I thought that most of them 
were resolved in favor of the off-road vehicle community, with 
the exception of just that small number. So anyway, that was my 
perspective and I just wanted to get that on the record. Thank 
you, Senator Craig.
    Senator Craig. Mike, thank you very much. Amanda, let me 
come back to you, if I can. Obviously the vote by the City 
Council of Stanley and a change of position as it relates to 
CIEDRA is noteworthy. I understand the difficulties Stanley is 
having. When you chair a public land subcommittee that is 
dominantly a western interest committee, one of the things that 
we deal with constantly are communities that are locked within 
public lands and their ability to grow or to provide the normal 
and natural amenities that communities do for their citizens. 
Good sewage. Solid waste disposal. All of those kinds of things 
that when you are landlocked and many of our communities in the 
west are landlocked, they simply cannot grow beyond a certain 
limit or if they do, their growth becomes very costly because 
some of these kinds of things have to be done in substantially 
different ways. I appreciate that problem and I was in Stanley 
recently, sat down with your Mayor, visited with her and tried 
to understand some of these difficulties. Do you think the 
restrictions on development of those lands will help a long-
term economic growth for Stanley, if the bill is signed into 
law? The current restrictions would be placed on the exchanges 
themselves.
    Ms. Matthews. Which parcels were you talking about?
    Senator Craig. The Stanley parcels which are embodied 
within CIEDRA, if all of them were included in law under the 
restrictions that are written within the law, do they serve for 
the economic well-being of Stanley or do they not?
    Ms. Matthews. I think that the parcel, the 80 acres off of 
Benner Street that is subject for housing or something having 
to do with the city, I think there is actual no stipulation 
that that is for low-income or affordable housing so anybody 
who got that piece of land could go in, build condos within the 
ramifications of what's in the bill and it would do nothing for 
the citizens of Stanley and the other parcels are pretty much 
the same way. The parcel up on top of the hill that the county 
gets and then will give to the city, those kinds of houses and 
those wealthy people that buy into them, they don't help with 
the economic development of Stanley. They spend their 2 weeks 
there and they go back home.
    Senator Craig. OK. Well, thank you. Carole, again, welcome 
to the committee. We are pleased that you are here and 
testifying and you have, obviously, over the years, been a very 
outspoken advocate on certain issues and some of those relate 
to public lands and public land resources. I think all of us, 
whether it would be you or me, are often times frustrated by 
what we can or cannot achieve in striking balance. I think if 
we look at the 1964 Wilderness Act in its purest form, there 
are still, without question, parcels of land throughout the 
public domain of this country that would qualify for that 
designation and I don't think that is in dispute. What is in 
dispute today is how you get there and satisfy all of the other 
interests. As I've said, I've worked on wilderness issues over 
a good number of years, not to be able to find that balance 
because parties were not willing to give. At this juncture, 
obviously, we have two proposals before us where there has been 
some give, that steps outside another 1964 Wilderness Act, to 
some extent and whether the Congress itself can reconcile that, 
I'm not yet sure--whether I can, in working with this committee 
and my colleagues reconcile that, I am not sure. But I do 
understand the need to make some accommodations for small 
communities and their growth within certain restrictions and 
confines. You showed a picture of a--by your term--McMansion. 
That was built within the Sawtooth National Recreation Area 
under the current restrictions placed by the rules and 
regulations of the SNRA and the Forest Service?
    Ms. King. That is correct. It's on an inholding within the 
Sawtooth National Recreation Area.
    Senator Craig. So even though there are standards and 
restrictions today, they in effect, can be violated and you 
believe that home was well beyond the current standards and /or 
regulations?
    Ms. King. It definitely does, yes.
    Senator Craig. Did the Forest Service file suit?
    Ms. King. The Forest Service does not have the money to do 
what it should do. It needs to police them, it needs to have 
money to file the suit. There is a whole other problem because 
of the lack of funding that extends to other areas as well. So 
no, they did not.
    Senator Craig. One of my frustrations with CIEDRA and I've 
been open about that, is that I find within some very 
restrictive zoning provisions, so written by the Sawtooth 
society, that heretofore have never existed in Federal law, 
ever. The SNRA, as it is and as you know, by the restrictions 
that are within it, were never written in the law. They were by 
regulations to attempt to achieve a standard and a quality of 
existence, environment, vista for the Sawtooth National 
Recreation Area. So I and others have trouble with this and yet 
we're told, well, this is a deal breaker. It isn't just me, 
it's my colleagues who are saying, we've never seen this done 
before and why should it be done? And I have that question and 
if is done, can it be enforced?
    Ms. King. Well, I--I'm sorry.
    Senator Craig. Go ahead.
    Ms. King. I think--I mean, it appears clear that given the 
circumstances that they can't enforce it today, they probably 
can't enforce in the future. How are they going to do it but I 
would like to answer a broader question, sort of implied, by 
what you asked, which is one of the biggest problems that I see 
with CIEDRA and other bills. I spoke about a whole trend 
nationally, is that a finite piece of pie is being discussed 
and how do you divide the pie among all the interests and 
everybody is competing for funding and for different interests? 
I submit that these discussions don't--don't need to begin 
about a finite piece of pie. Just for an example, in Idaho, I 
believe there are 28 million acres of public land that are open 
for many, many different uses, including off-road vehicle use. 
And it's always been, oh this is mine, this is mine and there 
isn't give except in terms of acreage or money but the whole 
concept of being able to discuss, for example, with other 
interests and I'll say the recreation community. How can we, 
who as you know, I'm a wilderness advocate. That's been my 
history with public lands. But I also would like to open 
discussions with the recreation community--how can we help you 
achieve your goals better in places where we can agree use is 
appropriate and how can you help us achieve our goals in places 
where we might agree that wilderness is appropriate? I don't 
have--this is just a vision and just a concept. But I think my 
main problem with CIEDRA on the whole vision, is that it 
forecloses any options of that kind of discussion and they did 
do something like that. Sarah Michael, one of the commissioners 
in Blaine County, was involved and takes great pride in her 
involvement in resolution between motorized and snow machine 
users and skiers, because that approach was taken, an approach 
of, yes, we're talking about a finite piece of land but what 
else can we do and I would like to take that to the next level 
and have a different kind of discussion and I think CIEDRA 
forecloses that and for that reason alone, it should be 
stopped.
    Senator Craig. Ms. King, you are an inholder in the 
Sawtooth National Recreation Area, is that not correct?
    Ms. King. Yes, I am.
    Senator Craig. And I noticed by an AP story, that inholding 
you have, you have up for sale at the moment.
    Ms. King. I do. I'm 64 years old and I've lived there for 
25 years and I do want to--it's a lot of responsibility.
    Senator Craig. I know the property you have and how you've 
treated it and you are to be recognized for that. At the same 
time, as you sell it, unless you yourself, have put specific 
restrictions in the sale of that, is it not true that by the 
sale of it, a mansion could be built on that property?
    Ms. King. At this time, that's true but I have been in 
discussions with land trust as well the Sawtooth National 
Recreation Area people and we have not come to any conclusion 
yet but I have had those discussions and they are ongoing.
    Senator Craig. OK. Well, I understand those are the 
difficulties, especially when rule and regulation is not 
enforced and precedents are set within a certain area. At the 
same time, I think you're going to find a Congress most 
resistant to writing into public law the kinds of rules and 
regulations that are usually left to communities as it relates 
to zoning ordinances or if you will, by rule and regulation 
that would follow.
    I have no further questions of this panel. Mike, do you? 
This is the last panel pertaining to CIEDRA or the Owyhee 
Initiative. We will now turn to our fifth panel and my 
colleague from Oregon is here and in looking at the make up of 
that panel, it is somewhat specific to Mount Hood. So let me do 
this if I can, because I want to make a final statement as it 
relates to where we will take these two critical pieces of 
Idaho legislation. As promised, I have stayed consistent with 
my commitment to my colleagues, Senator Crapo and Congressman 
Simpson and per our agreement, I've given these bills what I 
hope you will believe to be a fair and open hearing and the 
input process will continue with all of you and with my staff 
and the committee's staff and I'm sure with Senator Crapo's 
staff and himself, along with Congressman Simpson. The result 
being that the public, I hope, has had a chance to vent such 
important land use policies and it was done as timely as we 
could possibly make it here in the Senate, from the time of 
introduction or the movement of the legislation from the House. 
So we will continue that process through the month of October. 
First, I can tell these bills have been very carefully crafted 
and have achieved a very delicate balance amongst the 
negotiating parties who range from the obvious of public land 
users to conservationists and a wide variety of communities of 
interests. My colleagues and those who have been part of these 
carefully crafted agreements and the collaborative process 
deserve considerable respect and they have mine.
    Second, as with any compromise, there are always groups 
that will oppose either on philosophical grounds or because of 
a lack of inclusion. It is very important to me that all have 
had their voice and we've tried to do that today. We have heard 
a myriad of concerns and I will approach the sponsors to see if 
we cannot work out additional compromises that deal with some 
of these sensitive areas.
    Third, taking note that these carefully negotiated 
agreements changed adversaries into allies and I would like to 
ensure those relationships remain because I think it is 
positive for our State that they do remain. We will continue to 
work to try to honor those compromises if we can move this 
legislation forward. Sure, I can agree that these agreements 
have strong local support but they also have strong local 
opposition. For Custer County, it is land and for Owyhee 
County, it's a science center and for the Cattlemen, it's land 
purchases and grazing buyouts and I have never been bashful 
about buyouts. I don't like them, I don't believe in them and I 
believe they will ultimately change the character of the 
western landscape and I would chose, based on my heritage, not 
to have it change that much. Having said that, I do recognize 
change.
    Let me say this to all of you though, before you leave. I 
trust you understand the difference between an authorizing bill 
and an appropriating bill. You have before you today two 
authorizing bills that both will become fact upon signature by 
our President and will become promises of future things to be 
delivered. The great tragedy of those promises is that there 
are hundreds of bills that became public laws on the shelves of 
the American law libraries and billions of dollars promised 
that have never been delivered. Mike, you mentioned the Steens 
Mountains. That's a very good example that left parties in 
agreement with promises made that were not delivered. That is 
of tremendous frustration to me because I see the tool of 
promise and that promise coming from the largess of the public 
treasury and the pockets of our taxpayers as a most effective 
negotiating tool to bring adversaries into allies. There is no 
question--if CIEDRA becomes law and if the Owyhee Initiative 
becomes law, there will be wilderness. There will be clear 
designations within the law. There will be Wild and Scenic 
rivers. But the buyouts are yet to come. It will be the 
struggle of this Congress to produce from the Treasury, the 
necessary resources to honor that. I'd like to keep things in 
balance. If adversaries are to remain allies, then all must 
arrive at the finish line in a relatively equal way and I'm not 
sure this Congress can deliver that. The history of its ability 
is replete in that it failed in almost every instance, to get 
there. I am not questioning the commitments of my colleagues. I 
am not questioning the commitment of Mike Crapo. That is not 
the issue there. The issue is performance and reality and the 
ability to deliver that and that is something that I will take 
a very serious look at. Is there a way to keep our parties 
together and to establish a trigger so that when the finish 
line is crossed, all arrive there in equal fashion? That's 
going to be a challenge that I will address to my colleagues as 
we look at these pieces of legislation because I think it is 
important. I think it is very important. Because what I like 
here is what I've heard, in the sense that adversaries have 
become allies. It will make for a better Idaho if that can be 
accomplished. It will not make for a better Idaho if promises 
made cannot be promises delivered.
    So thank you all very much for coming, for taking the time, 
for the tremendous commitment that has been represented by 
these two pieces of legislation that are before us. I view them 
as work in progress and both Congressman Simpson and Senator 
Crapo have my commitment to see if we can't bring some 
resolution and conclusion to these efforts that they've been 
such a big part of. Mike, thank you for being with us today.
    Now, we'll ask panel four to stand down, if they will, 
please.
    Mr. Webster. Hell, we like it too well. Can't we stay?
    Senator Crapo. No, Mike, you got to go home and herd cows.
    That's the first time we had a witness that wanted to stay. 
I think my questions were too easy.
    Senator Craig. We would ask panel five to come before us, 
please.
    Jay, don't we have a--oh, here it comes. We have Brian 
Maguire, member of the Board of Directors of Back Country 
Hunters and Anglers from Portland. Jay Ward, Conservation 
Director, Oregon Natural Resources Council Fund, Portland, 
Oregon and Jill Van Winkle, of Trail Specialist International 
Mountain Biking Association of Hood River. I have been before 
the committee and on this dais for a considerable length of 
time. I'm going to turn this over to my colleague, Gordon 
Smith, to chair and my Ranking Member to ride shotgun and I'm 
going to stand down. Is that acceptable? All right. Here's the 
gavel. You're in charge. Thank you all for coming before us 
today. We appreciate it.
    Senator Smith [presiding]. OK, Brian, we'll start with you 
and we'll work our way to Jill.

 STATEMENT OF BRIAN MAGUIRE, MEMBER OF THE BOARD OF DIRECTORS, 
         BACK COUNTRY HUNTERS AND ANGLERS, PORTLAND, OR

    Mr. Maguire. Good afternoon, Senators and thank you. I'm 
truly excited to be here today. From the bottom of my heart, 
I'd like to thank you, Senator Wyden and Senator Smith, for the 
proposal of S. 3854. I specifically want to thank you for 
protecting my most cherished place on earth, the Upper Big 
Bottom on the Clackamas River, a place that is truly one of the 
most amazing aged forests left in Oregon and worthy of any and 
all protections. I want to thank you both for showing very 
uncommon wisdom in recognizing that wilderness is more than 
rock and ice. These are places to be protected regardless of 
elevation and size, both Upper and Lower Big Bottom are places 
so amazing, they easily rival the great cathedrals of Europe. 
Clackamas Canyon, one of the most beautiful places in the 
country, would be a national park if it was located in the 
eastern United States yet it remains unprotected. I would also 
like to thank you, Senators, for protecting Sisi Butte, the 
Lower Right River and Salmon River Meadows. I've hunted each of 
these areas for decades.
    My name is Brian Maguire. My organization, Back Country 
Hunters and Anglers, was formed by myself and six others to 
promote hunting and fishing while advocating for the 
conservation of public lands where people hunt and fish, land 
that our children and grandchildren will hunt and fish. Hunting 
is a core American heritage that promotes the family by 
providing the time for deep relationships to be built within 
the family. It is far more than killing game for food. It 
provides a father the time to pass along knowledge, teach 
ethics, biology, patience, observation, planning, preparations 
and the circle of life. Hunting is spiritual. It reveals like 
no other activity can, the power, wisdom and grace of God by 
letting God show you His amazing works of landscape and life. 
These are critical pieces that provide a strong bed of core 
American values and it needs to be passed on from generation to 
generation. My family has hunted Upper Big Bottom since the 
early 1960's. I killed my first deer and elk in Upper Big 
Bottom and caught my first trout here. Back in the 1960's when 
my father first started going to Upper Big Bottom, there was 
little concern that next time he would show up, that it would 
be destroyed. That changed during my lifetime. While I was 
learning to hunt these woods, we began to be alarmed that the 
next deer or elk season would come and our hunting grounds 
would have been reduced to slash and ash. Our fears were met 
and every year, more and more of it morphed into a wasteland. 
This reality shaped me and has led me to have a deep concern 
that if we do not act to protect these places people hunt, 
hunting will disappear. No one can say for sure why a hunting 
is decreasing in America but I suspect that many have given it 
up because the places they hunted are now gone. To them, there 
is no knowledge of the land to pass down. That land is forever 
changed. We can ill afford to let activities that keep the 
bound from vanishing. This bill proposes to protect areas that 
are key to hunters in Oregon and recognizes many lower 
elevation areas that provide key wintering areas for wildlife 
instead of focusing on rock that have far less ecological 
importance than lower elevation areas such as Upper Big Bottom 
and Lower White River. Upper Big Bottom and Lower White River 
are vital year-round habitats but more importantly, are rare 
public land wintering grounds. Big Bottom and Upper Big Bottom 
are so crucial that if they were lost to logging, the entire 
upper Clackamas Basin could lose its deer and elk populations. 
These are true ancient forests with trees that quite literally 
over a thousand years old. Because these are ancient forests, 
the forests are a mix of the young and the old and it provides 
cover but allows in light for a true multi-story forest that 
animals require. The Clackamas provides a shelter against the 
deep snow by intercepting much of it and shedding it in piles, 
leaving areas nearly free of snow cover. Clackamas Basin gets 
quite a bit of snow in the winter. This is wet snow that often 
freezes into a virtual glazier and penetrable block of ice to 
elk and deer in logged-over sections. If elk could cover the 
forest, there would be few, if any, areas to provide winter 
forage for big game.
    Sisi Butte is a very prominent landmark of the Upper 
Clackamas Basin. It is an ultra-rare, intact, unprotected 
wilderness with a mix of elevations and habitat, from sub-
Alpine to temperate rain forest. Sisi Butte, with its vast 
amount of berries, intact world this expanse is a prime time 
bear country. It is common to encounter bears here and it is a 
bear hunters dream.
    Lower White River is one of the only true wild rivers left 
in Oregon. I've been hunting the rim since I was a kid and for 
the first time this year, I went to the bottom. To understand 
why it took so long, you have to understand it is a five 
hundred foot elevation drop in 150 yards. It is a series of 
terraces and rock faces to the river below. I found a route to 
the bottom this year and tried to recover a turkey I'd shot on 
the rim. In that truck, I found the skull of a monster 6x6 bull 
elk with antlers and saw four bears, a sow and three cubs. 
River bottom is old growth Ponderosa Pine and Doug fir with a 
well-used game trail that has not the fainted hint that any 
humans ever stood these grounds. I truly felt that I was the 
only person to have ever been there, a feeling I've only had a 
few times in Oregon. The river was such prime time trout 
habitat that when I got back to town, I called Bill Monroe, the 
outdoor writer for the Oregonian and asked him if he wanted to 
fish a river in Oregon that had never been fished before. He 
said that no such place existed. I explained about White River 
and he acknowledged such a place may actually exist.
    Salmon River Meadows has not been protected and for the 
life of me, I can't figure out why. Regardless of the reasons, 
it is the most prime summer elk range in the Northern Cascades. 
It is so prime that 10 years ago, it was believed to have the 
world's largest Rocky Mountain bull elk alive.
    There have been some very large bulls taken from the 
Cascades and it is not due to the fact of 4,300 miles of roads. 
It's due to the fact that areas like Salmon River Meadows that 
remains intact, vast amounts of roadless area.
    Thank you for having the wisdom to protect these areas and 
creating a fair bill for the protection of land, for the Volvo 
walking stick crowd and the hunters and anglers. Thank you.
    [The prepared statement of Mr. Maguire follows:]

Prepared Statement of Brian Maguire, Member of the Board of Directors, 
             Back Country Hunters and Anglers, Portland, OR

    Good afternoon Senators, I am truly excited to be here today. From 
the bottom of my heart I would like to thank you Senator Wyden and 
Senator Smith for the proposal of Senate bill 3854. I specifically want 
to thank you for protecting my most cherished place on earth, Upper Big 
Bottom on the Clackamas River, a place that is truly one of the most 
amazing ancient forests left in Oregon and worthy of any and all 
protections. I want to thank you both for showing very uncommon wisdom 
in recognizing that Wilderness is more than rock and ice. These are 
places to be protected regardless of elevation or size. Both Upper and 
Lower big bottom are places so amazing that they easily rival the great 
cathedrals of Europe. Clackamas Canyon, one of the most beautiful 
places in the country, would be a national park if it was located in 
the eastern United States yet it remains unprotected. I would also like 
to thank the Senators for protecting SiSi Butte, Lower White River and 
Salmon River Meadows. I have hunted each of these areas for decades and 
already this year.
    My name is Brian Maguire, my organization, Back Country Hunters and 
Anglers was formed by myself and 6 others to promote hunting and 
fishing by advocating for the conservation of public places that people 
hunt and fish, land that our children and grand children will hunt and 
fish. We have members in all western states and many eastern states; we 
have active chapters in most western states including Alaska. Our Board 
of Directors hail from Oregon, Idaho, Montana, Wyoming and Colorado.
    Hunting is a core American heritage, hunting promotes the family. 
Hunting is an activity that provides the time for deep relationships to 
be built within the family. Hunting is far more than killing of game 
for food, it provides a father the time to pass along knowledge, to 
teach ethics, biology, patience, observation, planning, preparation and 
the circle of life. Hunting is spiritual, it reveals like no other 
activity can, the power, wisdom and grace of God by letting God show 
you his amazing works of landscape and life. These are critical pieces 
that provide a strong bed for core American values, values to be passed 
on from generation to generation.
    My family has hunted Upper Big bottom since the early 1960's. I 
killed my first deer and elk in Upper Big Bottom and caught my first 
trout here. Back in the 1960's when my father first started to go to 
Upper Big Bottom there was little concern that the next time he would 
show up that it would be destroyed. That changed during my life time. 
While I was learning to hunt in these woods, we began to be alarmed 
that the next deer or elk season would come and our hunting grounds 
would have be reduced to slash and ash. Our fears were met and every 
year more and more of it morphed into a waste land.
    This reality shaped me and has led me to have a deep concern that 
if we do not act to protect the places people hunt, hunting will 
disappear. Hunting is an activity that keeps the family together but it 
is shrinking. No one can say for sure why hunting is decreasing in 
America but I suspect that many have given it up because the places 
they hunted are now gone. To them there is no knowledge of the land to 
pass down, that land has forever changed. I am afraid that hunting will 
continue to erode away and become history. We can ill afford to let 
activities that keep the family bound from vanishing.
    This bill proposes to protect, areas that are key to hunters in 
Oregon. Your bill recognizes many lower elevation areas that provide 
key wintering areas for wildlife, instead of focusing on rock and ice 
that have far less ecological importance than lower elevation areas 
such as Upper Big Bottom and the Lower White River. I honestly had 
hoped that the senate would protect more of these lower elevation 
hunting areas but I am still ecstatic with your wisdom to protect the 
areas that are in the bill.
    Upper Big Bottom and Lower White River are vital year round 
habitat, but more importantly are rare public land wintering grounds 
for big game. Big Bottom and Upper Big Bottom are so crucial that if 
they were to be lost to logging the entire upper Clackamas basin could 
lose its deer and elk populations. These are true ancient forests, with 
trees that are quite literally over a thousand years old. Because these 
are ancient forests, the forest is a mix of the young and the old and 
provide cover that allows in light for the true multi story forests 
that animals require. The canopy provides a shelter against the deep 
snow by intercepting much of it and shedding it in piles, leaving areas 
nearly free of snow cover. The Clackamas basin gets quite a bit of snow 
in the winter; this is wet snow that often freezes into a virtual 
glacier, an impenetrable block of ice to elk and deer in a logged over 
section. Without the cover of the native forests there would be few if 
any areas to provide winter forage for big game. Even today, these 
forests are vanishing. I just found another area 2 weeks ago that I was 
going to hunt that was clear cut. It was an area that I often found 
shed antlers in, a wintering ground.
    Sisi Butte is a very prominent landmark in the upper Clackamas 
basin. It is an ultra rare, intact, unprotected wilderness with a mix 
of elevations and habitat, from sub alpine to temperate rain forest. To 
be honest I am quite shocked that it has not been roaded and clear cut, 
I guess the Forest Service just has not gotten around to it yet. Sisi 
Butte, with its vast amount of berries, intact roadless expanse, is 
prime time bear country. It is common to encounter bears here and is a 
bear hunters dream.
    Lower White River is one of the only true wild rivers left in the 
Oregon. I have been hunting the rim since I was a kid and for the first 
time this year went to the bottom. To understand why it took so long 
you have to understand that it is a 500 foot elevation drop in 150 
yards. It is a series of terraces, and rock faces to the river below. I 
found a route to the bottom this year to try to recover a turkey I had 
shot on the rim. In that trek I found the skull of a monster 6x6 bull 
elk with the antlers and saw 4 bears, a sow and 3 cubs. The river 
bottom is old growth Ponderosa pine and Douglas fir with a well used 
game trail and not the faintest hint that any human has ever stood on 
these grounds. I truly felt that I was the only person to have ever 
been here, a feeling I have only felt a few times in Oregon and I have 
been to most places. The river is such prime time trout habitat that 
when I got back to town I called Bill Monroe, the sports writer for the 
Oregonian, and asked him if he wanted to fish a river, in Oregon, that 
had never been fished. He said no such place existed, I said it did and 
explained, he agreed, such a place may actually exist, Lower White 
River. Lower White River is surrounded by a state wildlife area. This 
area was acquired by the state because it is a wintering area for deer, 
elk and bears. I have only on a handful of occasions gone in here and 
not found a shed antler. I have on occasion found recently vacated bear 
dens during spring turkey season on the rim. The entire area is 
critical to big game on the east slope of Mt. Hood during the winter 
and fall breeding season.
    Salmon River Meadows appears to have been omitted from the house 
bill and for the life of me I can't figure out why. Perhaps it's the 
fact that its isolation provides the USFS with the ability to log with 
few being able to see the result? Regardless of the reason this is the 
most prime summer Elk range in the northern cascades. It is so prime 
that about 10 years ago the area was, believed to hold the next 
potential world record Rocky Mountain Elk. There have been some crazy 
bulls taken from the cascades and it is not due to the fact there are 
over 4300 miles of road on the Mt. Hood, it because there are still a 
few hold out areas like Salmon River Meadows that provide the forage 
and protection of miles of unroaded country.
    Thank you for having the wisdom to protect these areas and creating 
a fair bill that provides for the protection of land for the Volvo 
walking stick crowd and the hunters and fisherman. I urge you slough 
off the rhetoric from the timber industry, guised as fire concerns and 
Matrix lands, this is speak for we have not taken all of what we want 
for ourselves yet. You can not rationalize or bargain with greed, you 
can either cave in to it or ignore it, there are no other options. Tell 
the critics that will try to stop protecting the land for nefarious 
reasons that the few wounds that they inflicted to keep the land from 
being protected will not matter in 100, 200 or 500 years from now. In 
that time any wound already inflicted will be something only an 
archeologist may find. God will heal the land but in a time scale that 
supersedes our lives. The timber industry has had far more than its 
fair share; it is only fair that those of us who use the land for 
generations can have our own places that we need not worry about.

    Senator Smith. Thank you, Brian.
    Jay.

 STATEMENT OF JAY WARD, CONSERVATION DIRECTOR, OREGON NATURAL 
                RESOURCES COUNCIL, PORTLAND, OR

    Mr. Ward. Mr. Chairman and Senator Wyden, on behalf of 
Oregon Natural Resources Council and the thousands of 
Oregonians who make up our membership, I'd like to express my 
appreciation for the opportunity to testify on Lewis and Clark 
Mountain Wilderness Act of 2006. For the record, my name is Jay 
Ward and I'm Conservation Director of ONRC.
    Mr. Chairman, S. 3854 is a culmination of years of hard 
work by yourself and Senator Wyden, conservationists, 
recreation interests, business owners, community leaders and 
your own dedicated staff members, to name but a few. As such, 
it represents the best in bipartisan legislation and when 
passed into law, it will be a credit to Oregon's entire 
congressional delegation. Indeed, we in the conservation 
community owe a debt of gratitude to your colleagues in the 
House of Representatives who really started the ball rolling in 
2003, when they called their first Mount Hood summit. I was at 
that summit and each of their subsequent public meetings 
convened by Congressman Walden and Blunenauer and I don't think 
we'd be here without them.
    During those forums, hundreds of Oregonians took time off 
from their jobs and family obligations to passionately testify 
in support of protecting Oregon's scenic icon, Mount Hood. To 
both of your credit, Mr. Chairman and Senator Wyden, you took 
notice. Two and a half years ago, Senator Wyden initiated his 
own listening sessions in Hood River and then in Portland. Over 
a thousand Oregonians turned up to give input, including many 
of the same stakeholders present at the House summits. Building 
upon the oft-heard calls for more wilderness in July 2004, 
Senator Wyden introduced Senate Bill 2723, which proposed to 
protect 177,000 acres. Thankfully, Senator Smith, 2 years ago--
almost exactly 2 years, you chaired a similar hearing on that 
but regrettably, the clock ran out on that effort. Thankfully, 
we're back today in a much better position to make new 
wilderness on Mount Hood a reality. As you know, 
Representatives Walden and Blunenauer have used their 
legislative skills to pass their related bill, H.R. 5025, 
through the House of Representatives. We commend the 
Congressmen for their efforts and while we appreciate and 
support the wilderness and wild and scenic river portions of 
the House bill, it's probably not a surprise that we prefer the 
expanded acreage in S. 3854.
    That's because S. 3854 includes an additional 50,000 acres 
of Mount Hood's spectacular landscapes, including scenic Bonney 
Butte and the wildly popular Large Mountain and protects 
another 55 miles of scenic rivers. By protecting the Calabash, 
the South Fork of the Clackamas and Fish Creek, to name but a 
few, you and Senator Wyden will help to ensure that my son, 
Connor, will know the excitement of landing wild sea-run 
cutthroat trout, just as I did when I was growing up in 
Corvallis. It has, however, come to our attention that several 
of the proposed wilderness units have stimulated some 
discussion because of their supposedly isolated locations and 
asymmetrical silhouettes. For context, I offer the counsel of 
Aldo Leopold, one of the father's of management and 
conservation. He was a forester, supervisor of New Mexico's 
Carson National Forest and Chair of the Game Management 
Department at the University of Wisconsin, first in the nation. 
And this was writing in 1949 and Leopold said, ``Many of the 
diverse wildernesses out of which we have already hammered 
America are gone. Hence, in any practical program, the unit 
areas to be preserved must vary greatly in size and in 
wildness.''
    In conclusion, such areas are not in conflict with the 
Wilderness Act, which states, ``Wilderness is Federal land 
retaining its primeval character and influence without 
permanent improvements or human habitation.'' Mr. Chairman, 
Senator Wyden, I challenge anyone to hike through the amazing 
noble firs that grace the Memaloose Lake Trail and tell me the 
area doesn't retain its primeval character. Furthermore, small 
wilderness units like Memaloose and Upper Big Bottom that Mr. 
Maguire referred to, are already being managed across the 
country. The Leaf Wilderness in Mississippi is only a 99-acre 
unit. The Panther Dan Wilderness in Illinois is only 774. In 
our analysis, 1 out of every 11 wilderness areas Congress has 
seen fit to designate has been smaller than 5,000 acres. 
Therefore, Mr. Chairman, it is reasonable for you and Senator 
Wyden to identify and proposal similar wilderness areas for 
designation because wilderness is such a fundamentally American 
concept. While Moses wandered in the wilderness for 
purification, in the New World, wilderness has been the 
yardstick by which America has measured herself. To the 
pilgrims, it was something to be defeated and overcome. To the 
settlers, it was the raw material out of which they wove our 
current country and culture. But as with most commodities, it 
has become scarcer and as it became scarcer, it became more 
valuable. Whether consciously or not, it is for future 
generations that you have crafted this legislation and in 
return, those generations will well remember those who protect 
it, like Senators Frank Church and Mark Hatfield that I 
remember.
    The Oregon Natural Resources Council is proud to express 
our support for S. 3854, the Lewis and Clark Mount Hood 
Wilderness Act of 2006 and we urge the committee to seize upon 
the goodwill and flexibility exhibited by your congressional 
colleagues on the other side of the Hill and to redouble your 
efforts to come together and protect more of Mount Hood for 
Oregonians this session. Thank you.
    [The prepared statement of Mr. Ward follows:]

 Prepared Statement of Jay Ward, Conservation Director, Oregon Natural 
                    Resources Council, Portland, OR

    Mr. Chairman, esteemed members of the subcommittee, on behalf of 
Oregon Natural Resources Council, and the thousands of Oregonians who 
make up our membership, I appreciate the opportunity to testify before 
the committee regarding Senate Bill 3854, the Lewis and Clark Mount 
Hood Wilderness Act of 2006. My name is Jay Ward, and I am privileged 
to serve as the Conservation Director of ONRC, which has, for over 30 
years worked to protect those natural assets that make Oregon such a 
great place to live, work and raise a family.
    Senate Bill 3854, authored by Senators Wyden and Smith is the 
culmination of years of hard work by conservationists, recreation 
interests, business owners, community leaders and your.own dedicated 
staff members, to name just a few. As such, it represents the best in 
bi-partisan legislation, and when passed into law, will be a credit to 
Oregon's entire congressional delegation.
    In fact, we might not be here today if your colleagues in the House 
of Representatives had not started the legislative ball rolling with 
the first of their ``Mount Hood Summits'' in the Summer of 2003. I was 
at that summit, and every one of the subsequent public meetings on 
Mount Hood convened by Congressmen Walden and Blumenauer.
    During those forums, at which Senatorial staff members were also 
present, hundreds of Oregonians took time off from their jobs and 
family obligations, to testify in support of protecting more of 
Oregon's scenic icon--Mount Hood. Reflective of the diverse opinions 
held by Oregonians, that support was neither unqualified nor unanimous, 
but after attending the forums, one could not help but leave with an 
appreciation of the passion Oregonians hold for the mountain and its 
surrounding forests and rivers.
    Indeed, Oregon Natural Resources Council members and staff have 
spent thousands of hours working to protect these irreplaceable lands. 
In order to catalog those forests deserving of wilderness designation, 
ONRC's Wilderness Coordinator Erik Fernandez, has walked and, using 
Geographic Positioning System technology, inventoried almost every acre 
of the Mount Hood National Forest's remaining roadless areas. Through 
that work, ONRC has identified over 260,000 acres of wilderness quality 
forest on the Mount Hood that we believe should be protected. Working 
with local residents, sportsmen, anglers and the Forest Service, we 
began to advocate for those protections and to take interested citizens 
and decision-makers out to examine the amazing wildlands. We are 
especially grateful to Senators Wyden and Smith, and to the House 
delegation for making their staffs available for some of those trips.
    To their credit, the Senators were listening. More than two years 
ago, Senator Wyden initiated listening sessions of his own. In Hood 
River, and then in Portland, Senator Wyden took input from over 1000 
Oregonians on how best to insure that future generations will be able 
to experience a mountain as wild and free as that which we know today. 
Many of the same stakeholders present at the summits held by 
Congressmen Walden and Blumenauer attended these sessions as well. 
County Commissioners, Native American Tribes, skiers, mountain bike 
enthusiasts and others weighed in with their positions and opinions.
    Building upon the near universal calls for more wilderness, Senator 
Wyden introduced S. 2723, the Lewis and Clark Mount Hood Wilderness Act 
of 2004, which proposed to protect 177,000 acres of the Mount Hood 
National Forest as wilderness. Almost two years ago this week, Senator 
Smith chaired a hearing on that legislation, and voiced his interest in 
such an initiative, but regrettably, the clock ran out on the 2004 
effort.
    Thankfully, we are back today, and in a much better position to 
make new wilderness on Mount Hood a reality. As you know, 
Representatives Walden and Blumenauer have used their legislative 
acumen to pass a related bill, H.R. 5025, through the House of 
Representatives. We applaud and support the Wilderness and Wild and 
Scenic portions of H.R. 5025, but it probably comes as no surprise that 
we prefer the expanded acreage included in Senate Bill 3854. While S. 
3854 doesn't protect every acre ONRC believes should be protected, we 
are pleased Senators Smith and Wyden were able to reach a compromise 
which proposes to protect many of the same lands ONRC has long been 
advocating for.
    For example, the Mount Hood Wilderness Act of 2006 seeks to 
permanently protect 128,000 acres of Oregon's spectacular landscapes, 
including Bonney Butte, where this month thousands of hawks and eagles 
are passing through on their annual migration; and the forests of Larch 
Mountain which tower over the headwaters of Multnomah Falls, Oregon's 
2nd most popular tourist attraction.
    It has come to our attention that several of those proposed 
wilderness units have stimulated some discussion because of their 
seemingly isolated locations and unorthodox silhouettes.
    Size and shape discussions are apparently not only the subject of 
congressional redistricting debates. Nor are they new to the wilderness 
conversation. But for some context we suggest we can consult one of the 
earlier proponents of wilderness and conservation.
    Aldo Leopold, known to many as the father of conservation and 
wildlife management, was a forester, educator and outdoor enthusiast. 
He was the Forest Supervisor of New Mexico's Carson National Forest 
before being appointed to the first-in-the-nation Game Management Chair 
at the University of Wisconsin.
    Of the size and shape discussion, Leopold was quite clear:
    ``Many of the diverse wildernesses out of which we have hammered 
America are already gone; hence in any practical program the unit areas 
to be preserved must vary greatly in size and in degree of wildness.''
    ``Wilderness'' from A Sand County Almanac and Sketches Here and 
There, Oxford University Press, 1949, Aldo Leopold.
    But these concerns, small wilderness and isolated wilderness units, 
are the result of a very proactive process by House and Senate staff to 
minimize objections to wilderness designations by adjusting boundaries 
to diminish or avoid user conflicts. They should be applauded as the 
problem solving effort they were, not criticized for not reaching some 
mythical purity standard.
    For instance, some have voiced concerns over the inclusion of 
``previously managed stands'' in the wilderness proposal. Given 
Oregon's extensive history of timber management, it was impossible for 
Senators Wyden and Smith to avoid every managed stand and overgrown 
logging road, but to their credit, they were able to delineate 
boundaries to minimize the overlap. And while the contrast between 
managed and unmanaged stands may seem acute today, natural processes 
will smooth out those contrasts over time, if we give them a chance.
    It should be noted that it is not unusual for wilderness areas to 
include features that reflect the presence of humans. Oregon's Grassy 
Knob Wilderness was designated in 1984 by Senators Hatfield and 
Packwood despite the existence of a 640 acre clearcut smack dab in the 
middle of it. Similarly, the Cummins Creek Wilderness contained an old 
logging road and several small clearcuts. Both are now popular 
wilderness areas which Oregonians rely upon for both solitude and 
recreation.
    Such inclusions are not in conflict with the Wilderness Act.
    Clause 2(c)(3) of the Wilderness Act provides that an area of 
wilderness--

        ``is further defined to mean in this Act an area of undeveloped 
        Federal land retaining its primeval character and influence, 
        without permanent improvements or human habitation, which is 
        protected and managed so as to preserve its natural conditions 
        and which . . . (3) has at least five thousand acres of land or 
        is of sufficient size as to make practicable its preservation 
        and use in an unimpaired condition; . . .''

    I challenge anyone to hike through the amazing noble firs that 
grace the Memaloose Lake trail, and tell me the area doesn't retain its 
primeval character. As to the practicality of managing an 1131 acre 
wilderness area, it's already being done throughout the country. The 
Leaf Wilderness in Mississippi has a 990 acre unit, the Panther Den 
wilderness in Illinois has one with only 774 acres. In fact, in our 
analysis, 1 out of every 11 wilderness areas Congress has seen fit to 
designate has been smaller than 5000 acres--including the Menagerie 
Wilderness in Oregon's Willamette National Forest and the 17-acre Three 
Arch Rocks Wilderness just offshore from the community of Oceanside.
    So Congress has both the authority and a history (see addendum) of 
protecting smaller wilderness areas, and those with minimal development 
footprint; therefore it is reasonable for S. 3854 to identify and 
propose similar areas for inclusion into the national wilderness 
preservation system.
    ONRC also supports the inclusion of additions to the National Wild 
and Scenic River system in S. 3854. By protecting the Collowash, S. 
Fork of the Clackamas and Fish Creek, to name just a few, Senators 
Wyden and Smith will help to insure that my son will be able to know 
the pleasure of landing wild, sea-run cutthroat trout, just as I did 
when I was growing up in Corvallis. Wild and Scenic River designations 
preserve intact existing water rights, as well as the outstanding 
recreational activities for which Oregon is nationally renowned.
    Mr. Chairman, two weeks ago, I had the pleasure of introducing 
Senate staff to a recent acquaintance, the Reverend Vern Grove. 
Reverend Grove, a retired Methodist minister, has spent most of his 
career leading congregations throughout Oregon; including ministries in 
Tigard, Eugene and Roseburg. During our conversations, he presented me 
with a somewhat different perspective on the need for more wilderness. 
Reverend Grove spoke passionately of our seemingly innate need to 
contact and experience the Creator, by interacting with some of the 
original creation.
    Senators, wilderness is that creation. It is, as President Johnson 
said, ``a glimpse of the world as it once was''.
    But what Reverend Grove sees as biblical, I see fundamentally 
American, for Wilderness has been, for better and for worse, the 
yardstick by which America measured herself.
    For the Pilgrim settlers, it was something to be defeated and 
overcome as they sought to establish a foothold on the continent.
    To the pioneer, wilderness was the raw material from which the 
fabric of our nation was woven. Wilderness, or more correctly the 
forests, minerals and rivers which are its subcomponents, fueled our 
expansion while acting as a check on our materialism.
    But as with most commodities, as it became scarcer, wilderness 
became more valuable.
    Today, when America's reach is literally to the stars, our 
remaining wilderness areas, be they congressionally designated or de 
facto, are being rediscovered. As Americans search for those quiet 
places where they can find peace and solace, wilderness is experiencing 
renewed popularity. In some cases, this popularity is impacting the 
resource in negative ways as traffic, trail erosion, and air and water 
pollution increase in our existing wilderness areas. But rather than 
rationing our existing wilderness areas, we can choose another course. 
That course--to identify and designate additional wilderness areas for 
Americans to use and enjoy--is one that holds promise, not just for the 
today's Americans, but for the generations yet to come.
    It is for them that the Senators crafted this legislation. And in 
return, they will well remember those who protected all that they 
could.
    Oregon Natural Resources Council is proud to express its support 
for the Lewis and Clark Mount Hood Wilderness Act of 2006 and urges the 
committee to pass it with all deliberate haste.
    Thank You for inviting ONRC to testify today. I look forward to 
answering any questions you may have.
    Below please review additional site-specific suggestions for 
improving S. 3854: (Note the additional material has been retained in 
subcommittee files.)

    Senator Smith. Thank you, Jay.
    Jill Van Winkle.

 STATEMENT OF JILL VAN WINKLE, TRAIL SPECIALIST, INTERNATIONAL 
          MOUNTAIN BICYCLING ASSOCIATION, BOULDER, CO

    Ms. Van Winkle. Mr. Chairman and members of the committee, 
thank you for the opportunity to speak with you today on the 
Lewis and Clark Mount Hood Wilderness Act of 2006 and on the 
Mount Hood Stewardship Legacy Act. My name is Jill Van Winkle. 
I am a native Oregonian, a trail building specialist with the 
International Mountain Bicycling Association and a member of 
the Oregon Mountain Bike Alliance.
    I want to first thank the Senators, the Representatives and 
staff for their tireless efforts to craft land protection 
language for Mount Hood. We applaud the collaboration that has 
resulted in this legislation, preserving natural resources and 
many mountain bicycling opportunities. My family has a long 
history of recreating on and around Mount Hood and of 
celebrating our public lands. The Van Winkles arrived actually 
on the third wagon train that traversed the Oregon Trail and my 
grandfather, Lewis Clark, was named in honor of the 100th 
anniversary of the expedition. Exploring Mount Hood and the 
Columbia River Gorge while growing up had a transformative 
effect on me, fostering my appreciation of wild places and an 
ethic of land protection. Like many outdoors people, pristine 
wild lands are what draw me the strongest, where I can get away 
from roads, crowds and the constructs of urban life. I have 
found my mountain bike to be the best way for me to reach it. 
For the past 3 years, I have worked for IMBA, traveling North 
America, consulting with communities on their trail systems. 
I've been surprised to find out how well Mount Hood is known 
across the country and around the world. My travels have helped 
me better appreciate the incredible network of trails and 
returning home to Hood River has strengthened my desire to 
protect them.
    Like hikers and equestrians, cyclists are quiet, muscle-
powered recreational users and we have a fundamental interest 
in protecting undeveloped public lands. The opportunity for 
solitude and a connection with nature on narrow trails is an 
extremely important component of bicycling and is a treasure 
experienced by extreme cyclists. Wild areas provide a riding 
experience equivalent to a powder day for skiers, mashing the 
hats for anglers, reaching the summit for a Mazama or playing 
Pebble Beach for a golfer. We reach the national and worldwide 
bicycling community through a network of 80,000 supporters and 
more than 650 affiliated clubs, including 19 in the State of 
Oregon. Our affiliated clubs, the Oregon Mountain Bike 
Alliance, is a network of Oregon-based organizations, clubs, 
individuals and companies that are interested in enhancing 
mountain bike opportunities while protecting State forests. 
Representatives from three major clubs in Oregon, the Portland 
United Mountain Peddlers, the Columbia Area Mountain Biking 
Advocates, and the Central Oregon Trails Alliance have been 
working on the bill in conjunction with the sponsors and 
others.
    For the Lewis and Clark Mount Hood Wilderness Act, we think 
that this Act bodes well for mountain bicycling and maintains 
many boundary adjustments that will accommodate access to 
significant trails. With a few key amendments to the 
legislation, we believe that it can protect land and allow our 
existing historical use to continue. Most promising for 
cyclists, as you guys recalled earlier, the bill creates a 
17,700 acre Mount Hood National Forest Recreation Area that 
will allow mountain biking to continue in areas such as 15 Mile 
Creek and Boulder Lake. We strongly endorse the NRA proposal 
and suggest expanding it in several key areas. We believe that 
the proposed recreation area is a positive solution in public 
land policy regarding wilderness as it protects the lands while 
allowing mountain bicycling. Recreation areas are a way to 
protect Mount Hood for our children to enjoy for generations 
and to engage the bike community in land protection.
    National recreation areas can be narrowly defined in 
legislation and we encourage the committee to specify potential 
recreational uses. Our best estimates indicate that this bill 
would close almost 100 miles of trails that are currently open 
to bicycles and the House version closed 60 miles. Both of 
these would preclude any future trail development in wilderness 
areas. In the spirit of compromise and affording land 
protection, we have prioritized the most important trail areas 
and we hope the committee will consider keeping open to 
bicycles. We ask the committee to protect Large Mountain, Twin 
Lakes and Bonney Butte for national recreation area status.
    For the Mount Hood Stewardship Legacy Act and actually, I 
think this is in both legislative proposals, we are pleased 
that they include allocations for trail maintenance and road to 
trail conversions on Mount Hood, adjustments of wilderness 
boundaries to protect trails popular with mountain bicyclists 
and a seat for a mountain bike representative on the Mount Hood 
National Forest Recreation Advisory Council. We support these 
provisions from the House bill and we submitted testimony on 
this bill suggesting non-wilderness trail corridors for our 
high priority trails but an accurate national recreation area 
may be another option to protect these areas. In closing, I 
want to note that mountain bicyclers are avid trail stewards 
and we contribute thousands of hours annually to volunteer 
trail work on Mount Hood. If more lands are designated 
wilderness and thus made off limits to us, an important 
constituency is shut out. Oregon is known to be solution minded 
and looking for new ways to tackle these problems. We believe 
that there are more appropriate land protections in wilderness 
that will allow for existing recreational groups and protect 
the lands we so highly value. Thank you for the opportunity to 
submit comments on this important legislation and I welcome any 
questions.
    [The prepared statement of Ms. Van Winkle follows:]

Prepared Statement of Jill Van Winkle, Trail Specialist, International 
                Mountain Biking Association, Boulder, CO

    Dear Chairman Craig and Ranking Member Wyden: On behalf of the 
International Mountain Bicycling Association (IMBA) and the Oregon 
Mountain Bike Alliance (ORMBA) I offer comments on S. 3854 the Lewis 
and Clark Mount Hood Wilderness Act of 2006 and H.R. 5025 the Mount 
Hood Stewardship Legacy Act.
    IMBA and ORMBA first thank the senators, representatives, and staff 
for their tireless efforts to craft land protection language for Mount 
Hood. We applaud the collaboration that has resulted in this 
legislation, preserving natural resources and many mountain bicycling 
opportunities.
    My family has a long history of recreating on and around Mount 
Hood, and of celebrating our public lands. The Van Winkles arrived on 
the third wagon train that traversed the Oregon Trail. My grandfather, 
Lewis Clark, was named on the 100-year anniversary of the expedition. 
Exploring Mount Hood and the Columbia River Gorge while growing up had 
a transformative effect on me, fostering my appreciation of wild places 
and an ethic of land protection. Like many outdoors people, pristine, 
wild lands are what draw me the strongest--where I can get away from 
roads, crowds, and other constructs of urban life. I have found my 
mountain bike to be the best way for me to reach it.
    For the past three years I have worked for IMBA, traveling North 
America and consulting with communities on their trail systems. I was 
surprised to find how well Mount Hood is known across the country, and 
around the world. Bike magazine describes the riding like this: ``some 
of the finest singletrack in the mountain bike universe lies within an 
80-mile radius of Hood River, Oregon.'' My travels have helped me 
better appreciate the incredible network of trails, and returning home 
to Hood River has strengthened my desire to protect them.
    Mountain biking is a very popular sport, with 39 million 
participants nationally and close to 400,000 participants in Oregon 
(according to a recent study by the Outdoor Industry Association). 
Outdoor recreation is a way of life for Oregon residents, and many 
tourists travel to the state to experience our trails via mountain 
bikes.
    Like hikers and equestrians, cyclists have a fundamental interest 
in protecting undeveloped public lands. The opportunity for solitude 
and a connection with nature on narrow trails is an extremely important 
component of mountain bicycling, and is treasured by experienced 
cyclists. Wild areas provide a riding experience equivalent to powder 
days for skiers, matching the hatch for anglers, reaching the summit 
for mountaineers, or playing Pebble Beach for golfers.

                          ABOUT IMBA AND ORMBA

    The International Mountain Bicycling Association (IMBA), founded in 
1988, leads the national and worldwide mountain bicycling communities 
through a network of 80,000 supporters and more than 650 affiliated 
clubs, including 19 in Oregon.
    IMBA teaches sustainable trailbuilding techniques and has become a 
leader in trail design, construction, and maintenance. We encourage 
responsible riding, perform volunteer trailwork, and foster cooperation 
between trail user groups and land managers. Nationwide, IMBA members 
and affiliated clubs conduct close to one million annual hours of 
volunteer trail and advocacy work, and our members are dedicated to 
assisting the efforts of federal, state, and local land managers.
    The IMBA-affiliated Oregon Mountain Bike Alliance (ORMBA) is a 
network of Oregon-based organizations, bicycle clubs, individuals, and 
companies interested in enhancing mountain biking opportunities while 
protecting state forests. ORMBA's mission is to preserve, protect, and 
promote mountain bike access for diverse riding experiences through 
education, communication, and unified action. Representatives from 
three major clubs in Oregon have been working on this bill in 
conjunction with the sponsors and others: the Portland United Mountain 
Pedalers (PUMP) represents cyclists around Portland, the Columbia Area 
Mountain Bike Advocates (CAMBA) represents cyclists around the Columbia 
Gorge, and the Central Oregon Trails Alliance (COTA) represents 
cyclists in the Bend area.
 wilderness designations--one of many congressional protection methods
    Bicyclists love to ride remote backcountry areas on narrow trails--
just like hikers and equestrians--and feel conflicted when Wilderness 
is proposed that affects significant biking trails. On the one hand, we 
want to protect the areas we ride. Yet we don't want to lose access to 
the trails we have ridden for almost two decades.
    To preserve the lands we care about, bicyclists support protection 
of many pristine areas and undeveloped public lands. The challenge is 
the agencies have defined Wilderness to ban bicycle access. Bicyclists 
therefore must seek modifications of Wilderness proposals that will 
allow our quiet, low-impact, muscle-powered form of recreation to 
continue.
    Nationally, our organization hopes to shift the land protection 
discourse from Wilderness only conversations to one that is more 
inclusive of other designations. Why is Wilderness seen as the only 
option for land protection? More and more it is being applied for 
political, rather than resource protection reasons. Instead, we need a 
toolkit of strong protections to apply the right designation to suit 
each area's distinct history and its future.

       S. 3854--LEWIS AND CLARK MOUNT HOOD WILDERNESS ACT OF 2006

    S. 3854 bodes well for mountain bicycling and maintains many 
boundary adjustments that will accommodate access to significant 
trails. With a few key amendments to the legislation, we believe it can 
protect the land and allow our existing, historical use to continue.
    Most promising for cyclists, the bill creates a 17,700-acre Mount 
Hood National Forest Recreation Area (NRA) that will allow mountain 
biking to continue in areas such as Fifteen Mile Creek, Boulder Lake, 
Shellrock Mountain and Hellroaring Creek. ORMBA and IMBA strongly 
endorse the NRA proposal and suggest expanding it to several other key 
areas.
    IMBA believes that the proposed NRA is a positive solution in 
public lands policy regarding Wilderness, as it protects the land while 
allowing bicycling. Instead of taking away trails our community has 
enjoyed for decades, National Recreation Areas are a way to protect 
Mount Hood for our children to enjoy, and also to engage more of the 
Oregon bike community in land protection.
    National Recreation Areas have been used in many places around the 
country and on National Park Service, Bureau of Land Management, and 
USDA Forest Service lands. NRAs can be narrowly defined in legislation 
and we encourage the committee to specify potential recreation uses. 
Further, we ask the committee to consider writing in language that 
would bolster the mountain's protection by prohibiting mining.

             TRAILS CLOSED TO MOUNTAIN BICYCLING BY S. 3854

    Some media outlets have written that mountain bike trails are not 
significantly affected by the proposed legislation, and that very few 
trail miles will be closed under both bills. In fact, S. 3854 would 
close 102 miles of trails currently open to bicycles, and H.R. 5025 
would close 43 miles around Roaring River. A list of the trail mileage 
closed is attached. Both bills would preclude future trail development 
in Wilderness areas.
    In the spirit of compromise and forwarding land protection, IMBA 
and ORMBA have prioritized the most important trail areas we hope the 
committee will consider keeping open to bicycles. We ask the committee 
to protect Larch Mountain, Twin Lakes, Bonney Butte, and Roaring River 
through National Recreation Area status. We believe protecting these 
areas by a NRA eliminates the unnecessary choice between Wilderness and 
our continued access. These areas need to be protected from 
development, road building, and resource extraction. They do not need 
to be protected from mountain bikes. Available trail resource science 
demonstrates that hikers and bicyclists have similar impacts on the 
land, and both do less damage than horse travel. Both hikers and 
equestrians are allowed in Wilderness.
    IMBA also asks the committee for a minor boundary adjustment to 
help re-open the Clackamas River Trail. IMBA advocates have started 
conversations with the Forest Service concerning this area and this 
narrow adjustment would help restore a trail that was open to our use 
for many years.
           positive provisions in both s. 3854 and h.r. 5025
    We are pleased both the Senate and the House bills include:

  <bullet> An investment of almost $800,000 in un-obligated special use 
        permit fees to be retained for trails and recreation on Mount 
        Hood.
  <bullet> Consideration for high-use recreation areas that are popular 
        within the mountain bike community; these trails were left 
        outside proposed Wilderness boundaries to allow for continued 
        bike access.
  <bullet> A seat on the Mount Hood National Forest Recreational 
        Advisory Council for a mountain bike representative.
  <bullet> The suggestion that the Forest Service consider creating 
        singletrack trails open to bicycles from decommissioned roads.
  <bullet> Recognition of recreation as a dynamic social and economic 
        component of Mount Hood.

              H.R. 5025--MOUNT HOOD STEWARDSHIP LEGACY ACT

    IMBA supports the House Bill as written but suggests the inclusion 
of National Recreation Area status for Roaring River. Forty-three miles 
of trails would be closed in this area, affecting 77 more miles, as 
critical connectors would be made effectively off-limits. IMBA 
submitted testimony on the H.R. 5025 suggesting non-wilderness trail 
corridors for 28 miles of the highest priority trails. A National 
Recreation Area may be another way to keep these trails open for the 
entire parcel.
    It is important to note many differences between the 16-year-old 
Forest Plan and what is happening on the trail. There are many, many 
miles of trails that, in the 16 years since the Forest Plan, have 
remained legally open to our use because the Forest Service has 
actively maintained these trails and chosen not to close them.
    Mountain biking is a healthy, human-powered outdoor activity with 
minimal environmental impact and a positive economic influence for 
Oregon. Mountain biking is an inherent use on Mount Hood and many 
accommodations have been made in the legislation for other historical 
and existing uses. We ask the committee to do the same for bicycles by 
expanding National Recreation Areas to other important trail systems: 
Larch Mountain, Twin Lakes, Bonney Butte, and Roaring River
    The Mount Hood National Forest Plan is more than 16 years old and 
IMBA and ORMBA look forward to helping the Forest Service develop new 
singletrack trail opportunities for mountain biking. Mountain 
bicyclists are avid trail stewards and contribute thousands of hours of 
volunteer trailwork across the state and on Mount Hood. If more lands 
are designated Wilderness, and thus made off-limits to cyclists, an 
important constituency will be shut out.
    In the future, IMBA and ORMBA hope to work with the committee and 
the bill's sponsors to introduce legislation that will protect more 
acres around Mount Hood and around Oregon. Oregon is known for being 
solutions-minded and looking for new ways to tackle old problems. We 
believe that there are more appropriate land protections than 
Wilderness that will allow for existing recreational user groups, but 
protect the land, and the trails we so highly value.
    Thank you for the opportunity to submit comments on this important 
legislation.
    Enclosure: List of trails closed by S. 3854

           TRAILS OPEN TO BIKES THAT WOULD CLOSE UNDER S. 3854
------------------------------------------------------------------------
                                                                Subtotal
                                                                for area
------------------------------------------------------------------------
Gorge Ridgeline..............................................      4.5
Larch Mountain...............................................      6.6
Mt. Hood Wilderness--Elk Cove/Mazama.........................      0
Tilly Jane...................................................      6
Sandy Additions..............................................      3.5
Lost Lake....................................................      1.8
Roaring River (note 1).......................................     43
Eagle Creek..................................................      6.2
Inch Creek...................................................      0
Memaloose Lake...............................................      1.5
Upper Big Bottom W area Missing from Map of Big Bottom.......      0
Big Bottom...................................................      0
Bull of the Woods............................................      0
Salmon-Huckleberry Wilderness-Hunchback Mountain.............      7.2
Mirror Lake..................................................      0
Sisi Butte...................................................      0
Richard L. Kohnstamm Memorial Area...........................      0
Badger Creek Additions.......................................      0
Bonnie Butte map.............................................      5.2
Twin Lakes Map...............................................     16.4
                                                              ----------
    Grand total..............................................    102
------------------------------------------------------------------------
Note 1: 70 miles would be directly affected by proposed Wilderness as it
  would cut off critical links to the rest of the trail system.
Note 2: It is important to note many differences between the 16-year-old
  Forest Plan and what is happening on the trail. There are many, many
  miles of trails that, in the 16 years since the Forest Plan, have
  remained legally open to our use because the Forest Service has
  actively maintained these trails and chosen not to close them.
Note 3: This draft list is the best IMBA/ORMBA could prepare for the
  committee. Due to the many discrepancies referenced in the previous
  note, this list is a working document in progress. We would be happy
  to provide the committee with much more detailed information about
  each trail and supporting background materials.

    Senator Smith. Thank you very much, Jill. I think--or at 
least I hope you know that one of my and Senator Wyden's 
objectives is to in fact preserve this not from you but for you 
and hence, the creation of a national recreation area. I 
believe there are some disagreements over which trails are 
currently open. We are trying to verify that information with 
the Forest Service to make sure that we in the House are on the 
same page with the Forest Service. So that is a work in 
progress and again, one of the points of this hearing is to 
make sure you are included in this. We want your input.
    Jay, one of the things I want to explore with you--I think, 
if I'm not mistaken, the ONRC is not yet convinced of national 
recreation areas being appropriate for wilderness areas but 
given what we heard from the administration this morning--were 
you there? OK, you heard. I wonder if it isn't actually a tool 
for ONRC to use in the future as a way to designate pockets of 
wilderness in these kinds of bills that make possible a whole 
lot more rather than less, in the future. I don't know if you 
want to comment any further on that.
    Mr. Ward. Mr. Chairman and Senator Wyden, our perspective 
is that these lands are worthy of wilderness protection as Big 
W wilderness. With all due respect to Secretary Rey this 
morning, places like the Clackamas Canyon, for instance, which 
are a deep valley canyon. One of the requirements of the 
Wilderness Act is that you can't experience solitude in such a 
place. Well, when you're about 700 feet down a canyon wall and 
you're surrounded by nothing but the canyon, you can feel 
pretty alone in there.
    As far as the appeal of national recreation areas, there 
are probably places where they are appropriate. I've been in 
the Sawtooth National Recreation Area and I find that it is a 
fine place to walk around and some beautiful scenery up there. 
But the management plans for national recreation areas tend to 
be sort of made up on the fly and one of the great things about 
wilderness is, you know what you're getting. It's a pretty much 
a package that has been done again and again and again and both 
the advocates and to be fair, the opponents kind of know what 
to expect. So there is, shall we say, a whole lot less head-
butting, as you work out management plans such as--I think the 
previous panel referred to in their shall we say, mixed 
experience with Steens.
    Senator Smith. Do you feel like Hell's Canyon National 
Recreation Area or Oregon Dunes National Recreation Area--do 
you get solitude there because of--are they sufficiently 
protected, I guess that's my question.
    Mr. Ward. Mr. Chairman and Senator Wyden, we actually think 
that there are places up and around Hell's Canyon that are 
wilderness worthy as well. I can't speak to Oregon Dunes since 
I haven't been there since I was a Boy Scout. I had a great 
time but it was kind of wet.
    Senator Smith. I had a few of those campouts myself.
    Mr. Ward. If you don't mind, I'd like to make a comment.
    Senator Smith. Yes, go ahead.
    Mr. Ward. From the hunting perspective, just the word, 
national recreation area scares hunters. When you hear 
``national,'' the first thing you start thinking of is national 
park and as you know, there are very few, if any, national 
parks that you can hunt in. And national wildlife refuges, 
although you can hunt waterfowl in most of them, big game 
hunting is off limits to them. So from the hunting community's 
perspective, when you start talking about national recreation 
area versus wilderness, we like the Big W. We know we can hunt 
in it.
    Senator Smith. Very good.
    Senator Wyden.
    Senator Wyden. Well, thank you all very, very much, not 
just for today but for the three plus years that we have been 
working closely with all of your organizations. I think Mary 
Cottrell, for example, in my Portland office, has practically 
camped out with a lot of you, literally and figuratively over 
the years in an effort to have the citizens driven kind of 
process. So I want to start by thanking all of you. I think all 
of you have just been exceptionally constructive.
    Let me begin by asking a question about how Oregonians are 
approaching this whole issue because Mount Hood is really our 
icon, as Senator Smith said. You know, my hometown is Portland 
and I love it. Best hometown in America and my only frustration 
is I didn't get to play for the Portland Trailblazers. Wasn't 
to be. But I'm not a United States Senator from the State of 
Portland. I'm an United States Senator to represent every nook 
and cranny of Oregon and that's why I have open community 
meetings in every county, every year and for the last 3 years 
at almost all of these meetings, in every part of Oregon, I get 
the message that what I and Senator Smith have been trying to 
do is pretty much on track. Not only are there no people out 
there protesting it and carrying signs, you know, hunters 
against Smith and Wyden or Mountain Bikers against us. It's 
quite the opposite. They say, you fellows go get them, get this 
done. We think you're headed in the right direction. So I'll 
start perhaps with you, Brian, just so we've got it on the 
record. Do you think it is fair to say that Oregonians in every 
part of our State are in general agreement with what 3854 is 
all about? Brian?
    Mr. Maguire. Absolutely. We have members all over the 
western United States and Board Members in most Western States 
but we have a lot of--you know, being a hunter and hunters, 
they typically come from rural areas and our members are 
ecstatic about this. I think a lot of hunters--elk love 
wilderness. Elk love these areas. They like to be protected and 
I think, generally, hunters are for this.
    Mr. Ward. Mr. Chairman, Senator Wyden, I won't purport to 
know how everybody feels but at the few town meetings I have 
attended, I certainly have seen the kind of support you are 
describing there.
    In a previous career, I used to be a salesman in eastern 
Oregon, southern Oregon and south Idaho were part of my sales 
territory and while you might find the individual opinions on 
wilderness quite diverse, I think, as you described in your 
comments earlier, Senator Smith, the affection and passion for 
which people hold Mount Hood is unique and I think we might 
have more contentious discussions about other wilderness areas. 
But I do think there is a universal understanding that that is 
a special place that we should protect and it is a place that, 
you know, every Oregonian, whenever there is a picture of 
Oregon on national TV, it's--generally Mount Hood is in the 
backdrop, whether it is at a gold tournament or a basketball 
tournament, it's what people think of when they think of 
Oregon--that and rain.
    Senator Smith. Jill?
    Ms. Van Winkle. Yeah, I think Jay made a good point there, 
that it is definitely an icon of Oregon and Mr. Walden referred 
to it earlier as our recreation mountain and I think that a lot 
of people--just given its proximity to Portland. Our 
organization has been working with bicycle communities all 
surrounding the mountain, in Bend, Portland and the Hood River 
area and I think that we've been very excited to have been so 
involved in the process and we want to thank you again as well 
as the Congressman, for involving us and giving us a seat at 
the table, which is more than we have had in the past. We 
really appreciate that. We've been able to come with an Oregon-
type solution, which again, I think Oregon is known around the 
country for having very innovative solutions where we can have 
a wilderness and national recreation area, so that we can 
accommodate a lot of different existing uses on the mountain 
and please everyone and I think that we have the potential to 
do that here.
    Senator Wyden. And your folks feel comfortable about S. 
3854? You're not seeing folks--you know, we are definitely 
going to be following up on your suggestions and the like but I 
think since this is a hearing and I've felt that you all have 
been so constructive and just kind of take it as a given that 
we're going to follow up on some of these trails. My sense was 
and as you know, we went through a variety of iterations with 
you. Mary, in particular, thought maybe the way to go was the 
Hood PDX kind of approach and your folks had concerns about 
that, so with Senator Smith's counsel, we went a different 
route and my sense is now, we're not hearing opposition from 
folks in the mountain biking community in any part of the State 
and I'd just like your thoughts on that.
    Ms. Van Winkle. I think there are a few areas where we 
would prefer to see national recreation areas because you know 
that wilderness, while we enjoy the experience that wilderness 
can provide, small w, the Big W excludes mountain bicycling and 
that puts us in an awkward position. We understand the needs of 
protecting some of these very special areas so we would like to 
see more national recreation areas. We are ecstatic that you 
were able to propose it and get a significant chunk of land 
that is protected under that and it can be made very stringent, 
you know, national recreation areas can vary and you can 
designate exactly what uses are acceptable and what are not. So 
I can't commit the people I represent right now but there are 
certainly some areas that we would like to see more national 
recreation areas and even expanding those national recreation 
areas, like outside of any wilderness boundaries, to protect 
more land. We would be supportive of that as well.
    Senator Wyden. Brian, with respect to your comments and I 
think you specifically talked about Upper Big Bottom and your 
interests in it. This is one of the areas that we are going to 
have talk about with our colleagues in the House. I don't know 
if you are aware, but I feel very strongly that this is not 
primarily a contest about how many acres somebody has and the 
like but it's really, at the end of the day, about saying to 
future generations, to your kids and your grandkids, did you 
really get it right for the special places? These extraordinary 
places that you mentioned, Jay mentioned and I guess Jill's 
ancestors were in. In the Senate bill, we said that the 
terrific hunting and salmon habitat and those big trees, we 
were going to protect. And I gather that it is a pretty small 
number of acres, even, that you're talking about, maybe--I 
don't have the number right in front of me but I guess it's 
like 1,500 acres. We're not talking about a huge amount but it 
is in the Senate bill, along with a number of these other 
areas, the Salmon River Meadows and the South Fork, the 
Clackamas and Badger Creek Wilderness and Memaloose Lake and 
the Lower White River. We felt that was important to really 
send a message about special places. I wonder what your 
thinking is on that, both with respect to the bill and kind of 
how we go from here.
    Mr. Maguire. You're absolutely right and I think you guys 
nailed it on the head. It's not about quantity. It's about the 
quality and Upper Big Bottom specifically--you can't even 
imagine the place. I mean, this is the kind of place where you 
expect Ewoks to jump out. It's just a true ancient forest. You 
can get the solitude in there and the quality of the old growth 
habitat is far none in western Oregon. I think that the State's 
largest western U-tree actually resides in Upper Big Bottom. I 
found it a couple of years ago while I was hunting but I was 
hunting so I didn't have any gear to measure it. I went back a 
couple of weeks ago--I was bow hunting up there and tried to 
find it again and I couldn't find it. That tells you what the 
quality of this place is. I know this--I've been going to this 
place since I was 8 years old and I still couldn't find it. 
That's how wild this State still is. It is an utterly amazing 
place. The same with Lower White River. I mean, you're talking 
about a place where bears den on the rim, where the elk and 
deer winter on the rim and down below and are able to escape 
hunters, much to our dismay, because it is wild. A place where, 
frankly--it's a river that perhaps hasn't been fished in 
western Oregon. Imagine that! I mean, that's--and it's not big. 
But is has been protected from, I guess humans in a sense, 
because of its isolation and it's small. But it doesn't mean 
that it is not the quality. And I think both of you saw that 
and your bill produced exactly what I think the intent of the 
wilderness bill was, to provide quality, not quantity.
    Senator Wyden. Mr. Ward, Jill, do you want to comment on 
that?
    Mr. Ward. I would say two things. One thing about Upper Big 
Bottom. It's directly--probably not surprising that it's 
directly adjacent to Lower Big Bottom. So when you are looking 
at contiguous habitat in the Hannah River corridor, for 
instance, other than about 100 foot of road there, it's a 
pretty good chunk of river and a good chunk of forest. So if 
you're either an avian or terrestrial species, you're kind of 
in cover for a while, so you can move back and forth. Also, 
that road that bisects the two is not heavily used, so again, 
if you're looking for that solitary experience that can be had 
in there. And talking before the hearing with Mr. Maguire, Mr. 
Chairman and Senator Wyden, you've mentioned getting it right 
for future generations. He is too modest to bring this up. 
After he almost bored me with his descriptions of going back to 
Upper Big Bottom, he said, ``That's why I'm here.'' He said, 
``My wife is going to deliver a baby on Saturday.'' She's 
scheduled for a cesarean but he took time out to come and 
testify on this because of future generations--specifically 
his. I'm sorry if I'm betraying your confidence there.
    Senator Smith. Hopefully your child has a lower big bottom.
    [Laughter.]
    Mr. Maguire. Well, the baby is breach, so the lower big 
bottom is causing a problem at this point.
    Senator Wyden. I may steer clear of this discussion. Jill, 
do you want to comment at all with respect to this notion of 
you thought some of these places are in the Senate bill and 
they aren't in the House bill. We've got to work with the House 
folks in a cooperative way. What are your thoughts on that?
    Ms. Van Winkle. Yeah, there are quite a few that we don't 
have any problems with. There are a couple that--at Larch 
Mountain and at Twin Lakes and Bonney Butte, that we would like 
to have minor adjustments made to allow for some continued 
trail access. But any of those adjustments, those minor 
adjustments, would include a land protection so there are some 
that are already overlapping and existing or proposed wild and 
scenic river corridor so there is already a protection there. 
Or we could expand the national recreation area protections so 
that these lands wouldn't be unprotected but a minor adjustment 
that could allow a continued access or a varying critical 
connection for us to other trail riding areas.
    Senator Wyden. On the Larch Mountain point, we can save a 
little time on this because I'm looking at your sheet and your 
folks feel that we haven't done right by Larch Mountain. 
Senator Smith and I--it's our desire to make sure that all 
those open trails remain open, which is what you all want. We 
think we've done that in the language. We're going to follow up 
with you so that we make sure it's done and done right and 
we'll all continue to work on this and make sure that the 
terminology is something we agree on because certainly, when I 
saw that from the handout you have and I know Senator Smith 
feels this way, too. We said, holy Toledo! We want to make sure 
that those open trails remain open. They are, in fact, very 
special kind of places and you've got a pledge that we'll 
follow up with you because I think what you all are asking for 
is reasonable. It's what we've been thinking we were going to 
do and we're interested in doing that.
    Ms. Van Winkle. Thank you.
    Senator Wyden. Maybe by way of wrapping up, your thoughts 
with respect to how we ought to look at this legislation as an 
integrated kind of package. Maybe we can start with you on 
this, Mr. Maguire. At the end of the day, we've got to deal 
with a host of issues where there are differences of opinion in 
terms of the Senate and House. I don't know if you were here 
earlier this morning. I tried to outline some of the treatment 
of the special places and wild and scenic rivers. We've got to 
figure out how to get these land exchanges done. We want to 
reward that citizens' movement kind of process but we want to 
make sure that we address the concerns and the Government 
Accountability Office report at the end of the day, we've got 
to reconcile all of these differences and get an integrated 
package. What's your counsel with respect to how we proceed 
from here in terms of trying to get this integrated?
    Mr. Maguire. Well, I think that your bill is very fair and 
it takes into consideration some of these lower elevation areas 
that include organizations and people like myself, that utilize 
these. I mean, you don't hunt up on rock and ice. It is just 
not good wildlife habitat and that's why I think your bill is 
very fair in that respect.
    With regards to treatment, Congressman Walden brought up a 
map and showed a lot of beetle kill areas and stuff like that, 
in the White River area and some of the area, I kind of 
disagree with it because I know the land really well there. He 
had beetle kill areas in some places that I know danged well, 
they aren't beetle killed.
    The other thing that you need to consider too, with regards 
to the House in this, is you have two totally different types 
of climates here. You were talking about Upper Big Bottom and 
the Clackamas River Basin. That's a temperate rainforest. Then 
you go on the east side of Mount Hood and you quickly drop out 
of the rainforest, high elevation stuff down to Ponderosa pine 
and even Lower White River is oak and sagebrush, some of it. So 
there are different considerations to be taken with regards 
to--especially to fuels treatment. And I don't think the things 
in arguments with fuels treatment need to be applied to western 
Oregon--you know, temperate rain forest versus east side stuff. 
I generally think, personally, I thought your bill was very 
fair. I see the need to perhaps mitigate some danger but I also 
think that is also sometimes speak for something else.
    Senator Wyden. Well, you made my day with that last 
comment. I appreciate it. Why don't, if you would, Brian, 
follow up with the staff and get us this information you have 
about the beetle kill issues because if you have a difference 
of opinion with the House folks on that, we ought to----
    Mr. Maguire. Well, they probably got that from the Forest 
Service. It was produced there.
    Senator Wyden. We'd like to be responsive to them and 
obviously if it was in there----
    Mr. Maguire. Yeah, they had my turkey hunting area. I saw 
the map. They had my turkey hunting areas as beetle killed and 
I was in there this spring. It's not beetle killed.
    Senator Wyden. I think generally you all have just been 
exceptionally responsive and what we have tried to do 
throughout this is to be responsive to folks--hunters, mountain 
bikers and others who, I think in past discussions, just didn't 
feel like they were part of the effort. I know when we were 
looking at Badger Creek, for example, folks told us 
particularly about the fall up there and that you have just 
some terrific deer and elk hunting up there on the fall and 
that was one of the principle factors in our putting it in that 
sort of special places approach. So, Mr. Ward, your thoughts on 
integrating this whole effort and how we've done it and move 
from here.
    Mr. Ward. Mr. Chairman, Senator Wyden, over the past 3 
years, as you noted, not only have you been interacting with 
the various user groups, our organization has spent a great 
deal of time and continual time, actually, with our friends at 
the Mountain Bike Association, some county commissioners, the 
interest at Government Camp, back country horsemen, not hunters 
and anglers--sort of trying to discuss what their concerns 
were. And we directed our staff to make adjustments in our 
wilderness proposal to accommodate as many of their concerns as 
we could. Around Government Camp, we didn't--we removed a place 
from ours that one of the principles was looking for future ski 
expansion. We adjusted a number of our map boundaries so that 
they didn't overlap with mountain bike trails. So I think you 
all have crafted a pretty integrated package. But the reality 
is, you know, there is a bicameral process and your package now 
gets to interact with the House package and I guess I would 
just urge you to, given the amount of time left, that as been 
repeated here before, there is an Oregon solution here and it's 
one that at the end of the day, people will remember you as the 
elected leaders, even your colleagues in the House, as the 
elected leaders who protected what people want to see protected 
and that they care about. And at the end of the day, I really 
think that's what it is all about.
    Senator Wyden. Jill?
    Ms. Van Winkle. I would concur with Jay there. We've 
certainly been through a lot in the last two to 3 years, 
working on this and it has been an incredibly educational 
process. I am very excited to have been invited to be here, 
actually, to be able to testify at one of the few groups that 
have been able to be this high profile involved in the process 
and really trying to make us a solution that works for 
everyone. At the risk of losing 100 miles of trail, we were 
losing about 60 with the House bill and we supported that. So 
we are willing to make a compromise. We'd like to lose as few 
as we can, of course, just as everyone else wants to protect as 
much land as they can. So we'll see what we can do with those 
few sticking points and some confusion that has come up over 
trail miles of open versus closed and see if we can hammer out 
some of those last little details. But again, I wanted to thank 
you for having us involved in this process. It was very 
educational and informative and it has helped us build better 
relationships with the environmental community as well.
    Senator Wyden. A good one to quit on, Jill. We'll have you 
at the table with the other stakeholders every step of the way 
and as far as I'm concerned--I know Senator Smith feels very 
strongly, this is a big, big deal to the people of Oregon. I'm 
sort of the Methuselah of the Oregon congressional delegation, 
at this point. I've been between the House and the Senate the 
Congress. I've had the honor to represent Oregon for 26 years 
in the U.S. Congress and in every part of the State, people 
say, ``we want you to do this and we want you to get it 
right.'' This is special to us and it's true if you live in the 
rural part of the State, it's true if you live in the urban 
part of the State. Senator Smith and I feel we got it right. 
And we feel we got it right because we tried to spend a lot of 
time on the ground, listening. All those discussions you had 
with Mary Cottrell in Oregon. Matt Hill is here from Senator 
Smith's office and if Matt was paid on the basis of the number 
of hours that he has put into this legislation, he would be a 
wealthy fellow and it is because we want to get this done, we 
want to get it done in a bipartisan way. Obviously, we're going 
to have try to move fast. We've got a little bit of time left 
in this Congress. Predictions for the 1-week, lame-duck session 
in November seem to be going by the boards with a sense that it 
is going to go a little longer but we have to assume that maybe 
it's just going to be a short period of time in November. So we 
will be reaching out to you all often and working to try to 
find the common ground that has been part of the Oregon 
tradition with respect to public lands and natural resources. 
So Senator Smith, you've got the gavel in your hands and just 
know as you go to the last word, again, how much I appreciate 
your help on this and Oregonians could have seen a very 
different outcome in the U.S. Senate and if we can continue the 
kind of partnership that we've had, extending it across the 
other side of the hill, we're going to get something very 
important done for the people of Oregon and I look forward to 
working with you to make that happen.
    Senator Smith. Thank you, Senator Wyden. It is a pleasure 
and a privilege to work with you on this and so many other 
issues. I just have one final question, based on one of Brian's 
responses. Brian, you talked about the beetle kill area that 
you disputed and I'd be interested, Jay and Jill and your 
responses to this, too. If it is the beetle kill issue and you 
heard Secretary Rey speak to the difficulty of some of the 
areas that we've marked off, needing fuels treatment, worry for 
fires that could begin there. Have we roped off any part that 
you think is legitimate of concern to the Forest Service? Is 
there some fuels treatment that should precede the final 
designation or just let it go?
    Mr. Maguire. Well, specific areas, I don't know. I've been 
also very active in protecting the Deschutes National Forest 
because I like to hunt there as well and I've been very 
supportive of the Forest Service in doing thinning to prevent 
catastrophic fires there. Specifically with this bill in the 
areas that I know, I know of no areas that have conflict that I 
think would need some, perhaps some thinning to prevent a 
catastrophic fire.
    Mr. Ward. Mr. Chairman and Senator Wyden, I was actually 
taken aback this morning because I thought I heard one of the 
witnesses--and I'm sorry, I can't remember which one, testify 
that Upper Big Bottom or Clackamas Canyon was in need of--it 
was fuel loaded or had a fuel loading problem and that's an 
area, west side forest with a 200 to 300 year fire return 
interval. It gets about 80 inches of rain a year so if it's 
fuel, it's pretty wet fuel and I would say for those areas, 
it's probably--that would be overstated. We actually looked at 
other areas and we have 260,000 acres on the Mount Hood 
National Forest that we think are worthy of wilderness 
protections. That being said, some of the areas, the Mill Creek 
Watershed, for instance, which was in our original proposal, we 
basically worked with the local watershed group in a 
collaborative way and identified that they wanted to do some 
fuel treatment so we basically removed that from this proposal, 
recognizing their interests in it. I think that, with all due 
respect to the Forest Service and their ability to accurately 
analyze condition class, because they're--from a funding point 
of view and just a technology point of view, it's a place where 
we haven't really applied the kind of research that we need to. 
It's a very coarse look at the land and saying, well this area 
has an insect infestation or has a fuel loading problem because 
they are using satellite technology, you may be looking at 
something that is a quarter mile across, when in actuality, if 
there is a fuel loading problem, it may be very site specific. 
So more funding and more research in that area would, I think, 
help determine whether or not that is really a concern. There 
are certainly places that have fuel buildups. We're actually 
putting forward a project on the Deschutes National Forest 
right now, that we've brought before the racks, to do some 
thinning of fairly significant diameter thinning, actually, on 
some forest around Black Butte Ranch and it's going to both 
restore complexity to the forest there and reduce the risk of 
fire to that community. It's kind of an unusual thing for us--
--
    Senator Smith. It got kind of close this summer, didn't it?
    Mr. Ward. It did. Actually, I spent the summer lifeguarding 
up there, decades ago and----
    Senator Smith. You've been in sales and lifeguarding. What 
did you sell, by the way?
    Mr. Ward. Oh, footwear for a few years and then optical 
lenses.
    Senator Smith. I was kind of hoping, pushing for bees.
    Mr. Ward. I did spend a summer working at a frozen food 
plant in Albany, though, so that was my tuition money.
    Senator Smith. Probably green beans there.
    Mr. Ward. Lots of green beans and corn.
    Mr. Maguire. Mr. Chairman, if you don't mind, I'd like 
actually to make a comment after what Jay said with regards to 
Upper Big Bottom. If the Forest Service does actually believe 
that Upper Big Bottom needs fuels treatment, if anything, it 
strengthens the need to protect this wilderness. Because that 
area does not--my family has been in the forest fire fighting 
business for 30 years. My dad was a smoke jumper. My brother 
currently works in fire control for the Forest Service and 
we've been active in doing good things for fire control and for 
fire and if they think that Upper Big Bottom needs fuels 
treatment, they are wrong. That area does not. That would 
suffer terribly, the amount of slash they're going to leave in 
there and none of that stuff is really--it's exactly the way it 
should be. They should leave that place alone. If they want to 
do fuels treatment on it, that gives more impetus to save that 
and not allow them to, in my opinion.
    Senator Smith. So in your view, Brian, there is nothing in 
the Senate version or the House version that needs fuel----
    Mr. Maguire. From the land pieces that I know of 
personally, no.
    Senator Smith. Jill, do you have a final comment?
    Ms. Van Winkle: Yes, but it's not entirely related to the 
fuels issue or the beetle issue but from a management issue for 
the Forest Service and this is something we've talked with the 
Forest Service personnel about, is their ability to maintain 
trails. They rely almost exclusively now on volunteer labor to 
maintain their trails and the mountain bikers are per capita, 
based on our membership, the largest group of donating their 
time to trail maintenance and if our trails get closed off to 
wilderness, you lose that steward. So that would be our 
concern, is that we dedicate a lot of time to doing trail 
maintenance on the mountain and I know that is a big issue for 
the Forest Service. They just don't have the staffing and the 
resources to manage trails and to get in there with a misery 
whip and cut out trails. Even the non-wilderness trails, right 
now they don't have the staffing so they rely on volunteer 
groups. The Back Country Horsemen and hikers and mountain 
bikers to do that volunteer maintenance and we are more than 
happy to do it and we do it a lot and that's what I teach every 
week when I'm out there, is sustainable trail building and 
maintenance and we want to continue to be involved and we will 
on trails that are open to us.
    Senator Smith. Well, all three of you, you've been here on 
an important day for a very important piece of Oregon and 
American legislation. You've added measurably to our 
understanding and we thank you for your service and your 
sacrifice to be here. All the best to your wife.
    Mr. Maguire. Oh, thank you. Liz will be--it took quite a 
few hours of explaining to be here. The entire family had to 
get marshaled around to make sure that she didn't get out of 
bed for 3 days while I was gone.
    Senator Smith. Have you picked out a name?
    Mr. Maguire. Collin. Collin Patrick Maguire. Good Irish 
name.
    Senator Smith. Not little Bob, then?
    [Laughter.]
    Senator Smith. Well, to each of you, our heartfelt thanks 
and with that, Senator Wyden? We're adjourned.
    [Whereupon, at 3:27 p.m., the hearing was adjourned.]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

        Responses of Carole King to Questions From Senator Craig

    Question 1. I note that you believe that wilderness should be ``as 
the creator created it''. I also note that the 1964 Wilderness Act in 
part said: ``Wilderness, in contrast with those areas where man and his 
own works dominate the landscape, is hereby recognized as an area where 
the earth and its community of life are untrammeled by man . . . 
retaining its primeval character and influence, without permanent 
improvements or human habitation.''
    Given the number of mines and mining development that has taken 
place in much of the proposed wilderness, areas, do you agree with me 
that perhaps none of this area or very little of this area qualifies 
under the original provisions of the 1964 Wilderness Act?
    Answer. This question reminds me of a story I once heard about the 
Menendez brothers, who were convicted a decade ago of murdering their 
parents. When the time came for the brothers to be sentenced, their 
lawyer reportedly asked for mercy because the young men were orphans.
    In this day and age, it is increasingly hard to find land without 
the fingerprint of civilization. We cannot let that be an excuse not to 
protect wilderness. Where certain lands have been developed, to say 
that such land is ineligible for protection under the Wilderness Act 
because it is already developed does a disservice to the intent of the 
Wilderness Act, and also to the land, wildlife and wilderness values 
that the Wilderness Act was meant to protect for future generations.
    Question 2. Do you believe that once roads have been built in an 
area that it is not ``as the creator created it''?
    Answer. Please see my answer to question 1.
    Question 3. What accommodations should be made to help the economic 
stability of the small communities like Stanley, Challis, and Mackey?
    Answer. To begin with, I would support a separate bill to provide 
meaningful economic assistance for rural communities in Idaho--not just 
authorizations but appropriations. Such assistance should not be tied 
to wilderness designation or the disposal of public land.
    It is well-documented that communities near large, intact areas of 
protected wilderness prosper economically. With large intact tracts of 
protected wilderness an increasingly rare commodity in today's world, 
the roadless areas in the Boulder-White Cloud Mountains protected as 
Wilderness Act-quality Wilderness have the potential to be an economic 
engine that will help traditional businesses do better as part of a 
thriving Custer County for many generations to come. Where conflicts 
are perceived, it doesn't have to be ``either or.'' Reasonable people 
working together can make it ``and.''
    Four years ago I met with members of the Challis business community 
and challenged them to come up with ways they could use an adjacent 
large intact protected wilderness to fuel our community's economic 
engine. After several more meetings, they came up with the idea of an 
observatory based on the lack of ambient light in what had, and still 
has, the potential to be a large intact permanently protected Boulder-
White Clouds Wilderness. The observatory is now in development.
    I also suggested other achievable models. I would be happy to meet 
with you to discuss them.
    I recommended that the Commissioners hire a planner to determine 
the most effective use of the existing private land in Custer County. 
The Commissioners have since hired Ms. Teri Ottens in that capacity. I 
also recommended that they hire someone skilled at marketing and 
outreach to promote Custer County's proximity to what today has the 
potential to be the largest intact protected wilderness in the lower 
48. I sincerely hope you will encourage your constituents to sit down 
together to work out how that might happen and address the concerns of 
those who fear that they would lose too much if such wilderness were 
designated.
    I have already begun discussions with members of constituencies who 
typically do not support wilderness. Rather than create the illusion of 
consensus, as CIEDRA does, I believe elected officials should encourage 
differing constituencies to sit down together and identify where they 
have common ground, no pun intended, and also explore ways to overcome 
fears and differences. Your support of this type of effort will be 
greatly appreciated.
    One of the most immediate ways you can help is to oppose passage of 
CIEDRA. Its passage will foreclose too many options. I ask not only 
that you allow H.R. 3603 to die in committee, but also let it be known 
that you oppose its passage as a rider or amendment or attached to 
other bills.
    Mr. Simpson promised to let CIEDRA fall into the abyss of former 
wilderness proposals if there were any significant changes. At least 
two significant changes have already been made, with the likelihood of 
more to come. You are uniquely positioned to hold Mr. Simpson to his 
promise, and I hope you will do so.
    Question 4. Would you support the federal government getting into 
and controlling local zoning rules in any of the other communities that 
you currently own homes in?
    Answer. I believe that the best way for the federal government to 
control land it owns is to retain federal ownership. Once federal land 
is privatized, deed restrictions and local zoning regulations on such 
land are often (1) ineffective; (2) difficult to enforce; and (3) not a 
good substitute for the federal government retaining ownership of the 
land and managing it accordingly.
    Question 5. Are you worried that the addition of more land for 
building in the area might reduce the value of the ranch property that 
you're currently trying to sell?
    Answer. I never thought about it.
    Question 6. Have you considered donating your ranch to the Forest 
Service for it's inclusion in the Sawtooth National Recreation Area?
    Answer. No, I have not considered donating my ranch to the federal 
government, but I have considered and am willing to continue to 
consider the use of strategic scenic easements to the mutual benefit of 
the Sawtooth National Recreation Area and the ranch.
                                 ______
                                 
      Responses of Adrian Hunt to Questions From Senator Domenici

    Question 1. I understand that you were involved in preparing the 
Trackways report required in our 1990 legislation. How many of the 
proposals from the report have been implemented?
    Answer. The proposals in the report did not relate to management 
but rather to physical protection, interpretation and management. These 
issues have not in general been addressed.
    Question 2. I understand many of the trackways have been collected 
and are being stored in your museum. Are there any significant exposed 
trackways within the proposed monument boundaries today suitable for 
public viewing?
    Answer. The majority of the trackways that were previously exposed 
have been removed to our museum or have been illegally collected. 
Track-bearing layers could be easily be excavated at many sites for 
public viewing (if they were protected from theft and damage from the 
elements).
    Question 3. Has there been any documented vandalism to known sites 
and what action if any has been taken to investigate and recover stolen 
artifacts?
    Answer. I am personally aware of several slabs of fossil footprints 
that were lying on the surface in the Robledo Mountains that have been 
removed. I am not aware of any actions that have been taken to 
investigate or recover the fossils.
    Question 4. Have any other Paleozoic trackways been discovered 
within the Western United States since 1994? If so, what is their 
significance?
    Answer. New specimens of Paleozoic trackways have been discovered 
since 1994 from several localities in the Western United States. None 
of these new sites preserve specimens of the same quality or quantity 
as those preserved in the Robledo Mountains.
    Question 5. Have other Paleozoic trackways been discovered in 
United States and, if so, what is their significance and what type of 
protection do they have?
    Answer. Paleozoic Trackways are known from several localities in 
the United States, principally in Arizona, New Mexico and Colorado and 
in some areas in the East, notably Alabama and Pennsylvania. The 
Alabama Department of Conservation and Natural Resources manages the 
Steve Minkin Paleozoic Footprint Site in Walker County, Alabama. This 
site is an abandoned mine site whose spoil piles yield footprints. This 
is the only protection given to a Paleozoic track locality in the 
United States.
    Question 6. It seems to me that making a national designation could 
be as damaging as it is beneficial. Won't a national designation draw 
more attention to this area, attracting more visitation and the 
potential for vandalism?
    Answer. A national designation would attract more attention which 
would be good for education and tourism. I would presume that as a 
result of a new designation the land-managing agency would greatly 
increase the protection of the resource.
    Question 7. In the administration's testimony, they suggested that 
a National Monument designation would create the wrong expectation for 
the public and recommended an alternative designation. Can you support 
another designation if it provides the appropriate protection for the 
resource?
    Answer. I believe that the Trackways of the Robledo Mountains merit 
the designation of National Monument.
    Question 8. One of the requirements of the 1990 legislation called 
for a recommendation on ``the preferred administrative designation for 
the area . . . and the appropriate management agency'', yet the report 
was silent about this. Was there a reason the authors chose to avoid 
this issue?
    Answer. It was the authors' understanding (from the BLM) that the 
BLM would continue to administer the land. Furthermore, the BLM at that 
time indicated to us no plan to change the administrative designation 
of the area--they asked only for specific recommendations regarding the 
scientific significance of the tracks, and a list of management options 
regarding the tracksites themselves, ranging from ``do nothing'' to 
build a museum at the site. Thus, we were following specific 
instructions from BLM.
    Question 9. The original discovery area was a relatively small 
area. Why does the monument need to be over 5000 acres?
    Answer. There are several localities within the area which preserve 
the same exquisite and scientifically important trackways. Preservation 
of a smaller area is possible, but I would consider it analogous to 
only preserving a portion of Chaco Canyon.
    Question 10. The preservation language in the legislation looks 
like it could be very easily limit Paleozoic site excavation 
activities. Is this a desired result of the legislation?
    Answer. The balance between preservation and the inhibition of 
scientific research is always an issue, but it has been handled 
successfully in other national monuments.
    Question 11. Is there reason to expect that undiscovered sites may 
exist in formations other than the Abo Tongue as described in the 
Smithsonian report?
    Answer. Fossils of various kinds (shells, logs etc.) occur in other 
rock layers within the Robledo Mountains, but trackways appear to only 
occur in the rocks that were referred to as the Abo Tongue.
    Question 12. Would it be reasonable to legislate development of an 
appropriate display in Las Cruces of some of recovered artifacts from 
the Robledos for public viewing?
    Answer. I think that it would be appropriate and beneficial if a 
display facility was constructed in the Las Cruces area, possibly close 
to the proposed monument area. This would have great potential benefits 
for education and economic development.
                                 ______
                                 
  Responses of Secretary Kempthorne to Questions From Senator Domenici

    Question 1. BLM's Paleozoic Trackways Research Natural Area (RNA) 
has been around for sometime:
    Does the current active gravel mine have any impact on the 
trackways or other Paleozoic sites?
    Answer. The community pit has several layers of the ``Abo Tongue'' 
formations (Permian red beds) within undisturbed areas. The BLM 
monitors the mine to ensure that there will be no impact to the 
trackways. Specifically, by permit the New Mexico Museum of Natural 
History and Science (NMMNHS) staff and a museum volunteer work with BLM 
minerals and cultural staff to monitor extraction in the red beds, 
ensuring protection of vertebrate fossils.
    Question 2. In your testimony, you proposed a National Conservation 
Area designation. Doesn't this also create the wrong expectation for 
the public?
    Answer. As stated in our testimony, we believe that the proposed 
area for the Prehistoric Trackways National Monument is appropriate for 
designation as a national conservation area (NCA). An NCA is a special 
designation managed for a variety of uses while conserving the 
resources that exist in the area. The public's expectation is that the 
BLM manages a diversity of uses and the NCA designation satisfies those 
expectations. The BLM manages 13 NCAs throughout the West and we 
believe that a Prehistoric Trackways NCA would be consistent with our 
management of other NCAs.
    Question 3. Since the site offers little for the public to see but 
is very important to the scientific community, are there other 
alternatives for a designation more fitting to this need?
    Answer. While some of the trackways have been removed for further 
study and curation, some remain in situ. The site is visited by the 
public as well as members of the scientific community and we expect 
that would continue. We believe that an NCA designation would be 
appropriate since it would allow for research opportunities while also 
allowing for other educational and recreational uses for the public.
    Question 4. There is currently an administrative designation as a 
``Research Natural Area''. What if this were made a legislative 
designation to protect the sites for scientific purposes?
    Answer. Designation of this area as an NCA would provide both 
protections and opportunities that are not available under the current 
Research Natural Area (RNA) designation. For example, the purposes of 
the area as described in section 4(a) are not only scientifically-
related but also include a recreational purpose. Additionally, the 
current RNA does not provide certain protections such as the withdrawal 
from mining and mineral leasing in section 5(g).
    Question 5. The current RNA protects an area that is 736 acres. The 
bill proposes a 5,367 acre designation. It's unclear why the extra 
acreage is necessary. Can the boundary be readjusted to more closely 
relate to the ``Abo Tongue'' formation?
    Answer. The Congress can designate any boundary it determines 
appropriate and it would be possible to readjust the boundaries on the 
maps. Readjustment would require plotting the locations of the 34 
localities noted in the 1994 Smithsonian report on a geologic map and 
color aerial photos. By adding the 34 localities to a geologic map and 
color aerial photos, an area could be delineated that bounds the ``Abo 
Tongue'' formation (Permian red beds). However, the red beds are 
sandwiched between limestone units, and a boundary drawn along 
topographic lines would be more difficult to mark and administer. We 
would be happy to work with the sponsors and the Committee to find 
manageable boundaries that more narrowly enclose the formation.
    Question 6. The bill allows the Secretary to make ``minor boundary 
adjustments'' without defining any limits. How might this kind of 
authority be used?
    Answer. The use of the word ``minor'' in section 4(d) suggests that 
the Secretary's discretion to expand the boundary is limited to include 
newly discovered paleontological resources immediately adjacent to the 
proposed monument.
    Question 7. The current legislation requires the Secretary to 
manage the adjacent lands as a buffer. Can these resources be protected 
without a protective buffer?
    Answer. The language in section 5(a)(3) requires the Department to 
manage adjacent lands in a manner that is consistent with the 
protection of the resources and values of the Monument. This language 
is vague in its geographic scope and is unnecessary. Furthermore, it 
could limit multiple uses on public lands nearby that would otherwise 
be authorized under the public land and mineral laws. The Department 
can protect the paleontological resources in the designated area 
through the management plan established under section 5(b) and would 
recommend section 5(a)(3) be removed.
    Question 8. The bill in questions defines ``authorized uses'' as 
those that ``would further the purposes for which the Monument has been 
established''. How would it be impossible to show that grazing, OHV 
riding, bike riding, hunting, gravel mining or just about any other use 
would ``further'' the purpose even though they may have no impact on 
the resource?
    Answer. The resources and values to be conserved, protected, and 
enhanced by this bill are outlined in section 4(a), and include 
``paleontological, scientific, educational, scenic and recreational. . 
. .'' OHV use, bike riding and hunting would normally fit within the 
recreation designation, but would be limited if the managing officer 
determined they were no longer furthering, or in fact were threatening 
the purposes for which the Monument was created. Furthermore, motorized 
vehicles are expressly limited to roads and trails designated for use 
pursuant to the management plan. Grazing is expressly authorized to 
continue in areas where it is allowed on the date of enactment. It is 
unlikely that new gravel or other mineral materials mining would be 
permitted within the proposed monument because the physical activities 
generally essential to mineral materials mining would likely threaten 
the protection of the resources for which the monument is being 
created.
    Question 9. Would the Paleozoic resources be adequately protected 
if this were changed to ``not inconsistent with the purposes?''
    Answer. For clarity, previous legislation frequently has used the 
phrase ``consistent with'' rather than the phrase ``not inconsistent 
with.'' We believe the Paleozoic resources would be protected with 
either phrase.
    Question 10. The current legislation does not address use by bikes. 
Is this a popular activity in the area?
    Answer. There is a 16 mile technical mountain bike trail in the 
area; approximately 7 miles of the trail are within the proposed 
monument area. We estimate that there are approximately 1,500 trail 
users per year.
    Question 11. The legislation also authorizes BLM to regulate 
hunting (in consultation w/NMDept of Game and Fish). I know of no 
situation where BLM regulates hunting in the lower 48 states and we do 
not want to start this now. Doesn't the BLM already have the ability to 
manage OHV use and the discharge of firearms for public safety and the 
protection of resources?
    Answer. As we noted in our testimony, ``the BLM does not regulate 
hunting on public lands, but may in some circumstances work 
cooperatively with the state to limit firearms in particular areas such 
as campgrounds or active excavation sites.'' We believe that this is 
the intent of the legislation and we recommend that the legislation be 
modified to make this explicit. For example, Section 605(f) of Public 
Law 107-282 addresses this issue in a preferred fashion:

          (f) Hunting, Fishing, and Trapping.--
                  (1) In general.--Nothing in this title affects the 
                jurisdiction of the State with respect to fish and 
                wildlife, including hunting, fishing, and trapping in 
                the Conservation Area.
                  (2) Limitations.----
                          (A) Regulations.--The Secretary may designate 
                        by regulation areas in which, and establish 
                        periods during which, for reasons of public 
                        safety, administration, or compliance with 
                        applicable laws, no hunting, fishing, or 
                        trapping will be permitted in the conservation 
                        Area.
                          (B) Consultation.--Except in emergencies, the 
                        Secretary shall consult with the appropriate 
                        State agency before promulgating regulations 
                        under subparagraph (A) that close a portion of 
                        the Conservation Area to hunting, fishing, or 
                        trapping.

    Question 12. Does the RNA designation require a permit to be 
obtained before conducting research or removing artifacts from the area 
for study? Who is eligible to obtain a permit?
    Answer. While the RNA designation does not bring with it any 
specific requirements for permits, the removal of vertebrate or trace 
fossils from all public land managed by the BLM requires a permit. 
Among other requirements, applicants must demonstrate professional 
experience in the field of paleontology relevant to the work proposed. 
The requirements for obtaining a permit from BLM managed land can be 
found in Chapter 4 of the 8270 BLM Handbook entitled General Procedural 
Guidance for Paleontological Resource Management.
    Question 13. If permits are required, how many people or 
institutions have been given permits to study the trackways since the 
establishment of the RNA?
    Answer. No new paleontological permits have been issued for the 
removal of vertebrate or trace fossils within the RNA since its 
establishment in 1993. However, two permits were issued prior to the 
establishment of the RNA. In addition, the New Mexico Museum of Natural 
History and Science (NMMNHS) has a statewide permit for all BLM lands 
in New Mexico. Representatives of this institution have visited and 
collected from sites within the RNA and the adjacent Robledo Mountains. 
Visiting paleontologists from a number of states and countries have 
also studied specimens housed at the NMMNHS that were collected from 
this site.
    Question 14. The 1994 Smithsonian report identifies 34 localities 
as paleontological sites within the area. Have BLM Geologists or 
Paleontologists visited these sites? Are all of these sites in the 
``Abo Tongue'' formation?
    Answer. The BLM regional paleontologists have visited several 
localities and have relied on the vertebrate paleontologists at the 
NMMNHS to assess the significance of the localities. As cooperators 
with the BLM, these paleontologists from NMMNHS have visited additional 
localities noted in the 1994 Smithsonian report. The BLM geologists 
have also visited some of the localities. All of the localities noted 
in the 1994 Smithsonian report are within the ``Abo Tongue'' formation 
(Permian red beds).
    Question 15. Are there currently any permits to conduct more 
excavations in the area?
    Answer. No applications have been received to conduct excavations 
in the area; consequently no permits have been issued.
    Question 16. Has there been any documented vandalism to known sites 
and what has BLM done to investigate and recover stolen artifacts?
    Answer. No vandalism has been documented or investigated by the 
BLM.

  Responses of Secretary Kempthorne to Questions From Senator Bingaman

                       S. 3794--OWYHEE INITIATIVE

    Question 1a. Your testimony recommends that title I be clarified, 
and that the language ``is ambiguous as to what is expected of the 
Department.'' I find your testimony equally ambiguous and would like to 
better understand the Administration's views on the proposal.
    Does the Department support the legislative implementation of the 
Owyhee Initiative?
    Answer. The Department supports the concept of a legislative 
implementation of the Owyhee Initiative. However, the Department would 
like to work with the sponsors and the Committee to resolve or clarify 
serious concerns related to the acquisition and valuation of land and 
grazing preferences in the bill as written.
    Question 1b. Does the Department support the legislation's 
requirement that the Secretary coordinate with the Board of Directors 
of the Owyhee Initiative Project in implementing this Act and in the 
conduct of the science review process as described in the Owyhee 
Initiative Agreement?
    Answer. As we noted in our testimony, it is unclear what the 
expectation is regarding the Secretary's responsibilities (if any) in 
the science review process and how the results of that process are to 
be used.
    Question 1c. Does that directive expand the existing rights of the 
Board to participate in the Secretary's implementation of the Act?
    Answer. Yes. The level of public participation in agency management 
actions--where not legislated--is generally subject to the discretion 
of the Department. This legislation would require coordination with the 
Board during implementation; as we noted in our statement at the 
hearing and above, because the language in the bill is ambiguous, it is 
unclear what the expectations regarding the Secretary's (or the 
Board's) responsibilities would be.
    Question 1d. Why is the existing Resource Advisory Council not 
appropriate to undertake the role proposed for the Board of Directors 
of the Owyhee Initiative Project?
    Answer. Many of the roles set out in the legislation for the Board 
of Directors would not be consistent with the role of the existing 
Resource Advisory Councils, which operate under the Federal Advisory 
Committee Act. The Idaho BLM currently has four RACs for the different 
regions of the state which are responsible for providing advice to the 
Secretary and the BLM on a wide-range of public land issues. The RACs 
act in an advisory capacity only.
    Question 1e. Section 104 of S. 3794 authorizes $20 million to carry 
out title I. What are the Department's estimates of the costs necessary 
to carry out this title? Also please list any additional costs likely 
to be incurred by the BLM in the implementation of this title.
    Answer. While we have not done an in-depth review, we would 
estimate that it would cost the BLM in Idaho in excess of $200,000 
annually to carry out title I. This estimate does not include any 
potential BLM costs associated with the Conservation and Research 
Center Program, which the Owyhee Initiative Agreement indicates will 
fund landscape conservation and research projects through grants, 
donations, or appropriations received from government agencies and non-
governmental agencies.
    Question 2. Your testimony states that the Administration would 
``like the opportunity to clarify some of the management language [in 
title II] to ensure consistency with the Wild and Scenic Rivers Act.'' 
Given that section 202 incorporates the additions into the WSRA, 
wouldn't simply deleting the management language ensure consistency 
with that Act?
    Answer. Deleting the referenced language, principally subsections 
202(c) and 202(e), would ensure consistency with the Wild and Scenic 
Rivers Act (WSRA), but it would likely impede or frustrate the purposes 
of the sponsors. Furthermore it is not necessary to delete them to 
ensure consistency with the WSRA. The WSRA, as amended, includes 
numerous provisions and exceptions for special circumstances on 
individual river segments. We would recommend some changes, however, to 
simplify implementation.
    The effect of subsection 202(c)--which would narrow the boundaries 
to the ordinary high-water mark on designated river segments--will 
preclude establishment of a wider management area as generally provided 
in the WSRA, and the automatic withdrawal of public lands in that area 
from entry, sale or other disposition under the public land laws of the 
United States. This may impede or frustrate the purpose of designating 
these river segments as wild or scenic. The Department suggests the 
sponsors could modify the language to allow for standard boundary 
designation and management plan process, but mandate that public land 
uses that are of concern, could continue in the management area.
    In subsection 202(e), the Department recommends removing part 
202(e)(3) because it presents a potential conflict with parts (1) and 
(2) of this subsection.
    Question 3. Is it the Administration's opinion that the laws and 
regulations of the State of Idaho recognize federal water rights 
reserved in accordance with the Wild & Scenic Rivers Act? Please 
provide relevant citations to Idaho laws and regulations.
    Answer. Idaho water law recognizes that the Wild and Scenic Rivers 
Act of 1968 expressly reserved water rights for rivers designated under 
the Act (Potlatch Corporation v. United States, 12P.3d 1256 (Idaho 
2000)).
    Question 4. Is it the Administration's opinion that the terms of 
the Owyhee Initiative Agreement permit reservation of federal water 
rights in accordance with the Wild & Scenic Rivers Act?
    Answer. No. The Water Rights Agreement (Appendix B) of the Owyhee 
Initiative Agreement recognizes that the Department of the Interior 
will file for a quantified Federal Reserved Water Right. The Agreement 
then subordinates those rights to any subsequent future domestic, de 
minimis stockwater, and commercial, municipal, industrial, irrigation 
and other state-recognized beneficial uses in the watersheds or on 
tributaries. This minimizes the value of the filing by the Department 
of a quantified right.
    Question 5. If reserved as contemplated by the Owyhee Initiative 
Agreement, would sufficient water be reserved to protect the fish, 
wildlife, scenic, and recreational values of the Wild and Scenic Rivers 
designated by the bill?
    Answer. Sufficient water could be reserved to protect the natural 
resources, but that federal reservation could be diminished by future 
beneficial use claimants to the point where the water available to 
protect the wild and scenic river values becomes insufficient. The 
minimum flow standards identified by the Agreement for perennial 
streams are that these streams not be de-watered. Depending on the 
needs, this standard may be insufficient to protect the federal values 
and uses.
    Question 6. The Administration testified on S. 3854 (the Mt. Hood 
wilderness bill) that the Forest Service was ``concerned about its 
ability to protect wild and scenic river values with the language 
relative to water rights and flow requirements; . . . We prefer to use 
our existing authority under the Wild and Scenic Rivers Act to protect 
the values associated with those special resources.'' Does the 
Department of the Interior share those concerns and preferences with 
regard to the rivers designated by S. 3794?
    Answer. Yes.
    Question 7. Section 202(c) states that the boundaries of wild and 
segments shall be the ordinary high-water mark. Does the Department 
support this boundary? If a high-water mark boundary is adopted, how is 
that consistent with the policy articulated in the Wild and Scenic 
Rivers Act that designated rivers and their immediate environments be 
protected?
    Answer. The high-water mark boundary for wild and scenic rivers is 
inconsistent with the policy in the Wild and Scenic Rivers Act. The 
Wild and Scenic Rivers Act Section 2(b) states ``A wild, scenic or 
recreational river area eligible to be included in the system is a 
free-flowing stream and the related adjacent land. . . .'' Further, 
Section 2(b) (1), (2), and (3) differentiates between wild, scenic, or 
recreational rivers largely based on the types of activities that occur 
within the river corridor. A high-water boundary muddles these 
distinctions. Please also see the answer to question 2.
    Question 8. Have the river segments proposed for designation in S. 
3794 been studied by the Department to assess their suitability for 
inclusion in the Wild and Scenic Rivers System? If the segments have 
been studied, does a high-water mark boundary protect all of the 
outstandingly remarkable values identified in the Wild and Scenic 
Rivers Act?
    Answer. Suitability studies have been completed for the majority of 
the river segments proposed for designation. The remaining segments are 
currently being analyzed in the Bruneau Land Use Plan. For the segments 
that have been studied, a high-water mark boundary does not protect the 
identified values in the WSRA. Many of the outstandingly remarkable 
scenic, recreational, geologic, fish and wildlife, cultural, and other 
similar values are outside of the ordinary high water mark, but within 
the immediate environment.
    Question 9. Your testimony does not appear to take a position on 
section 204(b), which deals with the sale or donation of grazing 
preferences. The Department of Agriculture testified before the House 
Subcommittee on Forests and Forest Health regarding an analogous 
provision in H.R. 3603 as follows: ``We have serious concerns about the 
policy and proposed system for compensating permittees for the use of 
these allotments. Grazing on National Forest System land has been 
determined by the courts to be a privilege, not a right. The Department 
does not believe grazing privileges should be compensated since Forest 
Service regulations allow for a grazing permit to be canceled, 
modified, or suspended, in whole or part, where lands grazed under the 
permit are to be devoted to another public purpose including disposal. 
This fundamental change in national policy and federal law would be a 
costly precedent that we do not support.'' Does the Department of the 
Interior share those views with regards to section 204 of S. 3794? If 
not, why not?
    Answer. We generally agree with the Forest Service views regarding 
compensation for grazing permits, and, as you know, the Department 
expressed reservations about the bill's approach to this issue in our 
testimony on S. 3794.
    Question 10. What is the Administration's estimate of what it would 
cost to implement the grazing buyout provision?
    Answer. Section 204(b)(3) of S. 3794 assigns specific values to the 
compensation for grazing reductions pursuant to a document entitled 
``Land Exchanges and Acquisitions'' dated September 1, 2006. According 
to that document the total cost would be a little more than $8 million. 
In addition, S. 3794 requires the Secretary to install and maintain 
fences to prevent grazing use on lands where grazing would no longer be 
allowed. These costs could be substantial (costing between $5,000 and 
$12,000 per mile to construct fencing) but could not be determined 
until it was clear how much fencing would be required.
    Question 11. The testimony mentions that section 204(b) would 
``permanently retire the AUMs associated with the conveyed preference 
rights.'' Can you explain how that reduction would be implemented? 
Could the AUMs permitted to the allottee increase in the future--as a 
result of future increases in forage-capacity for example?
    Answer. As we noted in our testimony, ``the legislation would also 
permanently retire the AUMs associated with conveyed preference rights. 
This approach is consistent with a Solicitor's Opinion issued by 
Solicitor Bill Myers in 2002 which stated only Congress can permanently 
retire AUMs permitted in districts originally created pursuant to the 
Taylor Grazing Act, where these lands had been identified as `chiefly 
valuable for grazing.' '' If Congress specifically legislates the 
exclusion of grazing on certain allotments, the BLM would issue 
decisions to the current permit holders to cancel the permits. The 
BLM's land use plans would be amended to reflect the legislated removal 
of livestock grazing, and the BLM would no longer authorize livestock 
grazing on those allotments unless Congress subsequently directed 
otherwise.

    H.R. 3603--CENTRAL IDAHO ECONOMIC DEVELOPMENT AND RECREATION ACT

    Question 1. Which of the parcels identified for conveyance 
identified in sections 102, 104, 105, and 106 has been identified for 
disposal by the BLM through its land use planning process?

------------------------------------------------------------------------
                                            Preliminarily identified for
                                                       disposal
------------------------------------------------------------------------
Sec. 102 (Blaine County) 444 acres
  BLM Plan: 2003 Amendments to the
   Shoshone Field Office Land Use Plans
   for Land Tenure Adjustment and Areas of
   Critical Environmental Concern
   (Shoshone Amendments)
  Map: ``Blaine County Conveyances, Map
   #1, September 13, 2006''
  Parcel A (40 acres).....................        yes
  Parcel B (80 acres).....................        yes
  Parcel C (160 acres)....................        yes

  Map: ``Blaine County Conveyances, Map
   #2, September 13, 2006''
  Parcel A (120 acres)....................        yes
  Parcel B (40 acres).....................        yes
Sec. 104 (City of Clayton) 33 acres
  BLM Plan: 1999 Challis Resource
   Management Plan (RMP)
  Map: ``City of Clayton Conveyances,
   September 13, 2006''
  Parcel A (23 acres).....................        yes
  Parcel B (2 acres)......................        yes
  Parcel C (2 acres)......................        yes
  Parcel D (6 acres)......................        no
Sec. 105 (Custer County and City of
 Mackay) 853 acres
  BLM Plan: 1999 Challis Resource
   Management Plan (RMP)
  Map: ``Custer County and City of Mackay
   Conveyances, September 13, 2006''
  Parcel A (120 acres)....................        no
  Parcel B (40 acres).....................        yes
  Parcel C (243 acres)....................        yes
  Parcel D (200 of 319 acres).............        yes
  Parcel D (119 of 319 acres).............        no
  Parcel F (10 acres).....................        yes
  Parcel E (121 acres)....................        no
Sec. 106 (Custer County and City of
 Challis) 3,198 acres
  BLM Plan: 1999 Challis Resource
   Management Plan (RMP)
  Map: ``Custer County and City of Challis
   Conveyances, September 13, 2006''
  Parcel A (120 of 253 acres).............        yes
  Parcel A (133 of 253 acres).............        no
  Parcel B (201 acres)....................        yes
  Parcel C (375 acres)....................        no
  Parcel D (648 acres)....................        no
  Parcel E (461 acres)....................        yes
  Parcel F (1,261 acres)..................        no
------------------------------------------------------------------------

    Question 2. Are all of the trails and routes in the proposed 
Boulder-White Clouds Management Area currently maintained to relevant 
BLM standards? If not, what is your estimate of the amount of money 
that will be necessary to bring them up to standard?
    Answer. The Idaho BLM estimates that it would cost in excess of $25 
million to bring the routes up to standard.
    Question 3. With regard to the Mt. Hood bill (S. 3854), the 
Administration's testimony states that directives to carry out projects 
raise the concern that it ``will redirect other available funds 
allocated to meet priority need determined at the national scale to 
conduct ongoing activities. . . .'' Is the Department of the Interior 
concerned that directives such as those included in section 303 could 
redirect funds from other regional and national priority projects?
    Answer. The BLM supports the President's FY 2007 Budget request. 
Any unfunded mandates impact the Agency's ability to fund its highest 
priority budget needs as presented in the President's budget. In this 
case the various requirements included in section 303 of the bill would 
reduce our ability to cooperatively complete priority recreation 
projects that ensure public health and safety, improve resource 
conditions, and increase the accessibility of the public lands. These 
requirements would also lessen our ability to initiate new travel 
management plans or continue work on plans that have been cooperatively 
studied, developed, and are being implemented at the local level.
    Question 4. In its testimony before the House Forests and Forest 
Health Subcommittee, the Department expressed concerns about some of 
the management provisions in sections 204, 205, 207, 208, and 209, 
suggesting instead that ``the applicable provisions in the Wilderness 
Act of 1964 are adequate for administering the areas designated as 
wilderness by this title.'' The Department's Senate testimony only 
mentions concerns regarding sections 206 and 207. Does the Department's 
House testimony relating to the other sections in Title II still 
reflect its position? If not, why not?
    Answer. The Senate Energy & Natural Resources Committee staff has 
indicated that this question was intended for the Forest Service not 
the Department of the Interior. We defer to the Forest Service.
                                 ______
                                 
       Responses of Fred Huff to Questions From Senator Domenici

    Question 1. You indicated that you have visited most of these 
sites. As a trained geologist, are the rock formations (the Smithsonian 
Report refers to the Abo Tongue) where the trackways have been found 
easily distinguishable?
    Answer. Yes they are very easily distinguishable.
    This picture * is from the area by Socorro, NM where the Abo 
formation was first named and described. The distinct red color is why 
they are referred to as red beds.
---------------------------------------------------------------------------
    * The pictures mentioned have been retained in subcommittee files.
---------------------------------------------------------------------------
    A paper by Dr. Adrian Hunt describes the Abo Formation as such: The 
Abo Formation is a red bed unit of Lower Permian age that is widely 
exposed in central New Mexico, particularly in Socorro County. In 
Socorro County, the Abo contains some Plant fossils (Hunt, 1983) and 
vertebrate body fossils (Berman, 1993), but the most abundant fossils 
are tetrapod footprints.\1\
---------------------------------------------------------------------------
    \1\ Hunt et al., EARLY PERMIAN VERTEBRATE TRACKS FROM THE ABO 
FORMATION, SOCORRO COUNTY, CENTRAL NEW MEXICO: A PRELIMINARY REPORT, 
NMMNHS Bulletin 6, P. 263.
---------------------------------------------------------------------------
    The paper further describes that prior to 1990, in Socorro County, 
NM, only a few tracks had been found, but it also states that since 
1990 things have changed: From 1990 onward, WC and JC have collected 
nearly 200 specimens of tracks and plant fossils from this area for the 
NMMNH.\2\
---------------------------------------------------------------------------
    \2\ Hunt et al., EARLY PERMIAN VERTEBRATE TRACKS FROM THE ABO 
FORMATION, SOCORRO COUNTY, CENTRAL NEW MEXICO: A PRELIMINARY REPORT, 
NMMNHS Bulletin 6, P. 263.
---------------------------------------------------------------------------
    This is a typical Abo outcrop in the Robledo Mountains. This 
outcrop is about 20 feet up the mountainside and covered with hundreds 
of feet of overburden.
    This also shows why vehicles are not driving over any alleged trace 
fossils. The red beds are almost always exposed as cliffs, well above 
the arroyo floors.
    The issue is not whether the Abo red beds are easily 
distinguishable or even if vehicles will drive over them. The larger 
issue that should be addressed is the lack of evidence about the nature 
and extent of the alleged trace fossils. It is important to know that 
the mere presence of red beds does not mean there are automatically 
trace fossils present, let alone significant ones. There has been no 
verification that significant fossils (besides the initial 1987 find) 
exist in this area. An unbiased study must be done to determine whether 
or not there is really anything in this area that merits a national 
monument designation.
    In this vein, I asked the local BLM office a few questions to see 
if their office had done any verification of the claims being made:

          Huff question: Page 45 of the 1994 Smithsonian report 
        identifies 34 localities as paleontological sites within the 
        southern Robledo Mountains. Have BLM Geologists or 
        Paleontologists visited each and every site and verified the 
        validity of the claim?
          BLM answer: No. BLM geologists have not visited all the 
        localities.

    Congress is being asked to designate a National Monument even 
though there is no proof that the reason for the monument even exists. 
The Department of the Interior manages this land and its own staff 
members have not thoroughly analyzed all of the alleged trace fossil 
sites. I then asked if they knew who had visited all the localities:

          Huff question: If so, who did, when and what did they find.
          BLM answer: BLM Regional paleontologists, Mike O'Neill and 
        currently Pat Hester have visited several localities and have 
        relied on the Vertebrate Paleontologists at the NMMNHS to 
        assess the significance of the localities. Mr. O'Neill visited 
        localities in the late early 1990's. Ms. Hester has visited 
        localities in the early 1990s, 1994, 2003 and 2005. The NMMNHS 
        is the BLM's partner in the management of fossil resources on 
        public land. The localities were found to contain important 
        invertebrate trace fossils, vertebrate trace fossils and 
        important plant material that provide information used to 
        interpret ancient environments.

    Their response indicates than only two employees of the BLM have 
ever set foot in the area with the intent of looking at these trace 
fossils. The response also indicates that some localities were not ever 
looked at.
    I have researched numerous scientific reports from the New Mexico 
Museum of Natural History and Science and the Internet. This research 
has revealed that most of the literature was written by a handful of 
people, mainly from the New Mexico Museum of Natural History and 
Science. Nothing in any of the discovered literature confirms that 
every site identified in the 1994 Smithsonian report has ever been 
independently verified. The 1994 Smithsonian Report, starts out on page 
one by stating: ``The most extensively studied and scientifically 
significant Robledo tracksite occurs in redbeds of tidal flat origin at 
UTM 3584120N, 323070E, zone 13.'' At the bottom of that page, the 
report states that ``. . . with the discovery of the deposit now known 
as AF2 (NMMNH locality 846), on which this report is primarily based.'' 
The report acknowledges that only one small area was studied. So, for 
most of these sites, only one person has ever made the claim that the 
alleged trace fossils exist.
    A number of local people and I spent the summer of 2006 using GPS 
units to track down 30 of the 34 alleged trace fossil localities. At 20 
locations, we found that the indicated coordinates placed us right 
where digging had taken place or very near a red bed outcrop. And at 
five of these sites we did find a few tiny tracks, but nothing worthy 
of national monument status. The other ten sites placed us well away 
from any visibly exposed Abo red bed or digging. The monument 
proponents are also claiming that there are only twenty sites within 
the proposed national monument with this quote from a brochure that 
they have placed in various locations around town: ``There are at least 
20 sites within the boundaries of the proposed national monument . . 
.'' This implies that 14 of the Smithsonian report sites, or 30%, may 
not contain any trace fossils at all. A 30% error is not acceptable and 
certainly calls for an independent verification.
    Question 1a. What percentage of the area proposed for designation 
is made up of Abo redbeds?
    Answer. This question is easily answered by using computers and 
mapping software to combine information from several sources.
    The results of combining all of this data indicates that only 20%, 
or about 1043 acres of the proposed area contains exposed Abo Red 
beds.\3\
---------------------------------------------------------------------------
    \3\ To combine this data, we went to Peter Gilbert, a local expert 
with over 18 years of experience in the GIS field. Gilbert designed and 
built the Municipal GIS system and has done GPS mapping for over ten 
years using mostly Trimble mapping grade asset surveyor and similar 
units and is familiar with both post and pre processed data. He has 
also been the recipient of a special achievement in GIS award from ESRI 
of Redlands California. He was also a member of our track location 
field study.
    The maps and statistical data used are from readily available 
parcel and street data from Dona Ana County GIS and Aerial and DTM data 
obtained from Dona Ana County Flood Commission. Software used is ESRI 
ArcMap 9.1, in New Mexico State Plane NAD 83 NM Central. OHV trails 
where downloaded from a Magellan Meridian GPS and then verified against 
6" resolution aerial photography at 2 ft error. New Mexico Geology 
data was digitized from a 2003 New Mexico Bureau of Geology and Mineral 
resources geotif developed by Peter Scholle. Areas and lengths where 
taken from the GIS Spatial database. Proposed trackway boundary was 
digitized from BLM source map of the proposed legislation. Robledo area 
geological map data was provided by BJ Stroup that was digitized from 
field work done by William Seager et al, (NMSU geology professor(s) in 
1987 and reproduced on page 7 of the 1994 Smithsonian report. Trackway 
points themselves are based on UTM Zone 13 NAD 83 data provided by the 
1994 Smithsonian report, page 45.
---------------------------------------------------------------------------
    The Abo red beds in the map to the right are indicated with the Pa 
notation and are colored light blue. The green dots are the claimed 
localities from Page 45 of the Smithsonian report: The varying sizes of 
the green dots for these localities is to give a visual representation 
of the rank that was arbitrarily assigned, signifying the 
``importance'' of each of these sites It is to easily see that AF1/2 is 
at the very edge of an Abo red bed outcrop.
    Question 1b. Does this formation exist in other areas of the state?
    Answer. Yes, the Abo formation does exist in other areas of the 
state. Not only does it extend north of Santa Fe, New Mexico, it goes 
over 300 miles south to the U.S./Mexico border. The tracks found in 
these localities are the same as found in the Robledo Mountains. So, 
the possibility of discovering more trackways within the Abo formation 
is not confined to just the area contained within the boundaries of the 
proposed monument
    Data extracted by Mr. Gilbert using the process described above 
reveals that there are 164.3 sq. miles of Abo formation in New Mexico, 
of which the Robledos contain 3.29 sq. miles. However, only 1.63 sq. 
miles, or less than 1% of the total Abo formation in New Mexico is 
slated for inclusion in the proposed national monument.
    Question 1c. How much overlap exists between these formations and 
the trails frequented by your club?
    Answer. There are 26.68 miles of trails within the boundaries of 
the proposed monument. and only 7.62 miles near Abo red beds. There is 
only one identified place (about twenty feet) where a trail actually 
crosses an exposed red bed formation. It is located in Apache Canyon 
(locality AF21). It is apparent in the following picture that seasonal 
flood waters have scoured the rocks bare. Driving this area would not 
have any effect on the red beds since it is in the bottom of an arroyo 
\4\ where the most significant damage comes from periodic raging water, 
not soft rubber tires.
---------------------------------------------------------------------------
    \4\ Arroyo is Spanish for ``wash'' and is usually a dry, natural 
drainage or gulch that temporarily fills with water after a heavy rain 
storm. During heavy rain storms, water can flow fast and deep enough to 
pick up automobile sized boulders.
---------------------------------------------------------------------------
    Everywhere else, the Abo outcrops are either in side canyons, the 
canyon walls, or high up the hillsides where no vehicle could possibly 
go. Also, most of the red beds are still buried under hundreds of feet 
of overburden or otherwise naturally protected as they have been for 
280 million years.
    This is a typical Abo redbed exposed in the wall of Apache Canyon 
with an off road vehicle route running adjacent to it.
    Question 2. How will the National Monument designation, as 
proposed, affect off-road enthusiasts?
    Answer. Monument proponents claim that they do not want to close 
the area to off-road vehicle use. They say that the details will be 
worked out with the resource management plan that the BLM develops. I 
am sure the record shows that the same promises were made when the 
Vermilion Cliffs and Grand Canyon-Parashant National Monuments were 
being debated. Once the monuments were designated, however, the story 
changed very rapidly. When the BLM tried to develop their Resource 
Management Plan, the following information was released by the Sierra 
Club, Wilderness Society, and Grand Canyon Wildlands Council as soon as 
the draft plan was unveiled:
    vermilion cliffs and grand canyon-parashant national monuments: 
                     magnificent resources at risk
          The draft Resource Management Plan for the Arizona Strip 
        prioritizes off-road vehicle access at the expense of wildlife, 
        cultural resources, and wilderness, instead of distinguishing 
        these lands from other BLM lands. Current threats to the quiet, 
        remote backcountry and northern watershed of the Grand Canyon 
        include vandals, pot hunters, and off-road vehicles.

    The article continues with many pseudo-scientific, inflammatory, 
and emotional statements:

          Many of these ORV routes are unsafe and lead nowhere, and 
        disrupt the region's wild and primitive character, threaten 
        wildlife populations, and invite damage to cultural and 
        archaeological resources.
          Roads and ORVs cause a range of effects on wildlife, 
        including: mortality from collisions, modifications of animal 
        behavior, disruption of the physical environment, alteration of 
        the chemical environment, spread of exotic species, and changes 
        in human use of lands and water
          The effects of roads and ORVs include: habitat loss and 
        fragmentation; diminished animal use of habitats because of 
        noise, dust, emissions, and the presence of humans; loss of 
        forage for herbivores; interference with wildlife functions, 
        such as courtship, nesting, and migrations; spread of non-
        native species that are introduced by vehicles; increased 
        poaching or unethical hunting practices; increased recreation 
        impacts; and degradation of aquatic habitats through alteration 
        of stream banks and increased sediment loads.
          Roads and ORVS reduce the size and number of core wildlife 
        habitat areas. This leads to cumulative adverse effects on 
        species that depend on natural interior landscapes, including 
        greater competition; nest predation and parasitism; secondary 
        extinctions from the loss of keystone species; and changing 
        microclimates such as increased evaporation, increased 
        temperature, increased solar radiation, and decreased soil 
        moisture.

    We can easily see this exact same article being re-published to 
``prove'' how much damage the off road vehicles are doing to the 
alleged trace fossils. Not only do they attack the use of motorized 
vehicles, they are calling for the monument to be treated as 
wilderness. They identify threats to the resources as including 
``vandals, pot hunters, and of road vehicles''.
    This is exactly the same rhetoric we are hearing from proponents of 
this monuments. They are citing vehicles as damaging the alledged trace 
fossils with this statement in their printed literature: ``Illegal 
removal of tracks can be a problem, and vehicle traffic off of the 
established trails can damage the tracks.'' They ignore the fact that 
vehicles do not drive within a mile of the discovery site.
    The Wilderness Society web page about the monument also makes the 
claim that vehicles are a threat with this statement:

          The Paleozoic Trackways Foundation formed to gather support 
        to protect the ancient site. ``If the site isn't protected, our 
        fear is it will be lost due to mining, looting and weather,'' 
        said Keith Whelpley of Las Cruces, chairman of the Paleozoic 
        Trackways Foundation. Another concern is the threat of off road 
        vehicle use in the area.

    What reason will it be, vibrations from the vehicles, pollution, 
noise, people to close to the alleged trace fossile sites? They will 
come up with something!
    History has proven that even when Congress has specifically allowed 
certain uses to continue, a way is found to circumvent the law. A 
perfect example of this is when the Escalante-Grand Staircase National 
Monument was established, it very specifically contained wording that 
protected specific existing uses (like grazing). That did absolutely 
nothing to keep the BLM from almost immediately starting to effectively 
eliminate grazing from the monument by not renewing the grazing leases 
as they came up for renewal.
    Even though this proposed monument bill specifically allows 
permitted events such as the Chile Challenge to continue, the BLM could 
just refuse to issue the permits for these events, thus ending them. If 
the proposed monument dosen't give the Sierra Club and others 
additional leverage to close the area to off road vehicles, why are 
they pushing so hard for the designation?
    There is just too much past history of using a monument designation 
to close an area to existing uses to ignore. Monument status in the 
Robledo Mountains will also be just another excuse for the Sierra Club 
and others to file lawsuits to close this area to off road vehicles. It 
is especially likely in this case, since one of the main monument 
proponents is a board member of the local Sierra Club and already has a 
lawsuit in Federal District Court opposing the quarry.
    Other examples of using monument status to close an area to 
existing uses are easily located on the Internet. In a press release 
dated March 27, 2002, the Sierra Club, The Wilderness Society, Friends 
of the Earth, National Wildlife Federation, and U.S. Public Interest 
Research Group again indicated how they think monuments should be 
managed:
   thirty thousand americans call for the protection of new national 
                               monuments
   Conservation groups warn Secretary Norton about the threats posed 
                           by poor management
          Washington, D.C.--Conservation groups sent a letter to 
        Secretary of Interior Gale Norton today urging her to protect 
        our nation's newest National Monuments from risky development 
        schemes that threaten to open them up to oil and gas drilling, 
        mining, and off-road vehicles. The groups, which include the 
        Sierra Club, The Wilderness Society, Friends of the Earth, U.S. 
        Public Interest Research Group, and the National Wildlife 
        Federation . . .

    Notice that off-road vehicles are again on the list of unacceptable 
activities for a national monument.
    A classic example here in New Mexico of the Sierra Club and others 
ignoring Congressional intent and using the courts to push their agenda 
is the Petroglyph National Monument outside of Albuquerque. The 
monument is a 17 mile long barrier along the west side of the city and 
contains over 25,000 petroglyphs.
    In 1992, Senator Domenici, pressed for the passage of legislation 
in Congress that removed 8.5 acres from the Petroglyph National 
Monument and transferred it from federal jurisdiction to the city of 
Albuquerque so a freeway could be built through the monument. It is 
projected that the freeway through the monument would only disturb 
about 50 petroglyphs. Since the freeway would ease commuter traffic on 
Albuquerque's east side, voters approved the $8.7 million freeway 
extension and funds for the extension were included in a $52.5 million 
road bond.
    However, a lawsuit filed Feb. 17, 2005 by the Sierra Club, and 
others totally ignores the needs of the community and the desires of 
Congress while trying to stop this much needed freeway.
    The proposed trackways national monument has nothing exposed that 
requires protection, nothing unique to see, and fails to meet the grand 
expectations that Americans have of a national monument. Currently any 
alleged trace fossils are buried, up to hundreds of feet below the 
surface and are well away from any vehicle routes, except for one 20 
foot section of Abo red bed with only alleged trace fossils within it.
    Question 3. How would limiting off road use to designated roads and 
trails affect the Chile Challenge off-roading event you hold each year?
    Answer. The website for Las Cruces office of the BLM has this 
information about the trails we are discussing:

          The Robledo Mountains Off-Highway Vehicle Trail System is a 
        network of trails, including both extreme OHV and mountain bike 
        trails, in the southern Robledo Mountains. The trails are 
        dominated by enormous rocks, making the terrain extraordinarily 
        challenging for riders. The extreme OHV trails require 
        specialized vehicles, with locking differentials, winches, and 
        expert drivers. Vehicle damage is not uncommon on these very 
        difficult OHV trails.
          The area also includes the ``SST'' mountain bike trail, which 
        is open only to non-motorized uses. It also is an extremely 
        technical trail--traversing challenging rocky terrain, steep 
        canyons, and mountain-top ridges--and requires expert riding 
        skills.

    We refer to this area as The Chile Canyons OHV Trail System. 
Regardless of what they are called, they are a legally designated 
series of trails that is already limited to designated roads and trails 
and has undergone the stringent analysis of an Environmental Impact 
Statement (EIS). This EIS also included a public comment period and the 
opportunity for challenging the conclusions. This study was commenced 
in September 1997, three years after the RNA was established. The EIS 
was completed and signed, in December of 1997 and does not raise any 
concerns of damage to fossil resources. There is also no record that 
anyone opposed the trails because they would damage fossil resources. 
National monument designation is not needed to protect this area from 
off road use. As documented above, our concern is that this already 
designated trail system will be closed.
    The purpose of a national monument is to protect known resources, 
not alleged ones. Known trackways came out of the discovery area. No 
other area within the proposed national monument has produced anything 
of that significance. Since additional trace fossil finds have yet to 
be made, I suggest the continued designation as a research area. The 
Committee could appropriate funds to conduct field studies. If unique 
fossil finds are discovered, the monument designation could be 
reconsidered at that time. If something has to be protected now, 
protect a few acres around the discovery site but remember that no 
other trackways have been discovered at that site since 1987 and those 
are no longer there.
    Opposition to this bill grows daily as more and more people learn 
that there is nothing worthy of national monument status in the Robledo 
Mountains. They are seeing this bill for what it really is, a massive 
land grab by an elitist few.
    Attached are two such letters of opposition.*
---------------------------------------------------------------------------
    * The letters have been retained in subcommittee files.
---------------------------------------------------------------------------
                                 ______
                                 
         Responses of Jay Ward to Questions From Senator Craig

    Question 1. Do you believe that mountain bikers cause more harm to 
Mt. Hood than hikers and horseback riders?
    Answer. According to research performed by the USFS Pacific 
Northwest Research Station, bikes cause less harm than ATVs, similar or 
less than horses, and more than hikers.\1\ While the impact of a mile 
hiked and a mile biked isn't necessarily very different, mountain bikes 
travel much farther than hikers and horseback riders and therefore 
their impacts are extended over a greater area. On the Mount Hood 
National Forest, as on many of our public lands, there are places where 
bikes simply aren't appropriate, such as Boulder Lake. The trail system 
in Boulder Lake covers a significant amount of wetland habitat, and 
includes a number of unbridged stream crossings. For example, trail 
#464 should be closed to bikes, ATVs, horses, and hikers, as it is such 
a sensitive area. See attached photo.
---------------------------------------------------------------------------
    \1\ Wisdom, M. J., H. K. Preisler, N.J. Cimon, B.K. Johnson. 2004. 
Effects of Off-Road Recreation on Mule Deer and Elk. Transactions of 
the North American Wildlife and Natural Resource Conference 69: in 
press.
---------------------------------------------------------------------------
    Question 2. Would ONRC support this legislation fit allowed 
mountain bikers continued access to all the trails impacted by this 
legislation?
    Answer. We have been working with the bike clubs on all sides of 
the mountain (Portland United Mountain Pedalers, Columbia Area Mountain 
Bike Advocates, International Mountain Bike Assoc., and Central Oregon 
Trails Alliance) to identify the most popular bike trails for several 
years. We have agreed to, and the congress has made additional 
adjustments, to the degree that there will be no impact to any popular 
bike trails around the mountain. This is a reasonable approach. We 
would not support, and would oppose allowing mountain bikes into 
designated Wilderness areas.
    Question 3. Did ONRC take a position when the Forest Service 
proposed enforcing party-size limits in wilderness areas on Mt. Hood in 
1999? Would ONRC support a raffle-style permit system for Wilderness 
entry?
    Answer. Oregon Wild (formerly ONRC) did not support the party-size 
limitation proposed in 1999. We also do not currently see a need for a 
raffle system for Wilderness entry. While there are some areas in the 
Mount Hood Wilderness that experience heavy use (e.g. the South 
climbing route), the wilderness provides fantastic opportunities for 
the enjoyment of numerous wilderness values. In fact, the heavy use of 
the South face ascent of the mountain precedes the designation of the 
Mount Hood Wilderness. In looking to the future, in its LRMP, the Mount 
Hood National Forest has recognized that there is a shortage of 
backcountry opportunities on the forest, and a surplus of roaded 
recreation opportunities. With this in mind, it is imperative that we 
protect the remaining backcountry roadless areas as wilderness. On the 
Mount Hood National Forest there are 261,000 acres that provide this 
opportunity. Designation of additional Wilderness on the forest will 
spread the use out over additional areas, rather than focusing people 
into the few protected areas already designated as Wilderness.
    Question 4. Does ONRC support vegetative management within 
Wilderness Areas to meet huckleberry patch development for the Warm 
Springs Tribe? Does ONRC support mechanized access for Tribal members 
to gather huckleberries?
    Answer. For generations the Confederated Tribes of the Warm Springs 
stimulated huckleberry patches by lighting fires. We encourage the USFS 
to continue this use of prescribed fire in Wilderness where 
appropriate. Huckleberry growth and wilderness preservation are very 
compatible as there is no requirement that huckleberries need 
mechanical treatments or clear-cuts in order to grow. We support 
traditional tribal access to huckleberry patches on most public lands, 
however in Wilderness and sensitive environments motorized access is 
not appropriate. The Lewis and Clark Mount Hood Wilderness proposal 
closes only a few small roads, and those that are closed are short 
dead-end roads that accessible by foot and horseback. Such traditional 
access by members of the Confederated Tribes of the Warm Springs is 
compatible with Wilderness designation.
    Question 5. Are there any ecological impacts of snowmobiling after 
the snow melts?
    Answer. The two stroke engines most snowmobiles use emit a 
significant amount of pollutants into the surrounding environment. 
These pollutants infiltrate snow cover and vegetation eventually ending 
up streams after the snow melts. This harms aquatic species and 
degrades fish habitat. Richard Bury of the University of Texas A&M 
performed a study on the impacts of snowmobiles on fish and water 
quality. The results shows that after a winter of snowmobiling 
``hydrocarbon levels undetectable prior to snowmobiling reached 10 ppm 
in the water and 1ppm in exposed fish . . . The influence of these 
pollutants on stamina, measured by ability to swim against a current, 
was significantly less in trout exposed to snowmobile exhaust than in 
control fish; the exposed fish make fewer tries to swim against the 
current, and swam for shorter lengths of time before resting''. 
Snowmobiles also disturb large game such as elk, forcing them to 
scatter and run when they are at their weakest in the winter months. 
The effects on terrestrial species like elk and deer persist long after 
the snow melts.
    Question 6. Many environmental groups have maintained that revenues 
lost from reduced timber harvest can be made up through recreation and 
tourism. What type of changes in tourism and recreation related 
revenues do you anticipate as a result of this legislation?
    Answer. We see the increased revenues from recreation and tourism 
activities on the national forest to affect both local economies and 
the USFS in positive ways.
    Two examples of affected local economies: We would expect to see 
that preservation of big game habitat in places like Fifteenmile Creek 
will increase spending from hunters in local gateway communities on the 
east side of Mount Hood. Gas, food and lodging would likely be 
purchased locally, enhancing the local economy. On the west side, the 
city of Sandy will likely see an increase in tourism as urbanites from 
the Willamette Valley seek out the Wilderness experience around Mount 
Hood.
    USFS funding: We would anticipate that the fee retention provision 
in both the House and Senate Mount Hood bills would increase funding 
for local projects around Mount Hood. Over time, the retained funds 
could be used to fund more recreation infrastructure such as trail 
signs, outhouses at trail heads, and interpretive sites. These 
expenditures would likely draw more individuals to the Mount Hood 
national forest. A recent study performed by the USFS drew the 
following conclusion ``Wilderness seems to be a catalyst promoting the 
transition from stagnating extractive economies to relatively 
competitive amenity economies''.\2\
---------------------------------------------------------------------------
    \2\ Lorah, Paul A. 2000. Population growth, economic security, and 
cultural change in wilderness counties. In: McCool, Stephen F.; Cole, 
David N.; Borrie, William T.; O'Loughlin, Jennifer, comps. 2000. 
Wilderness science in a time of change conference--Volume 2: Wilderness 
within the context of larger systems; 1999 May 23--27; Missoula, MT. 
Proceedings RMRS-P-15-VOL-2. Ogden, UT: U.S. Department of Agriculture, 
Forest Service, Rocky Mountain Research Station. p. 230-237.
---------------------------------------------------------------------------
    The timber sale program has long been a money-losing venture for 
the taxpayers and the USFS, especially in light of the current backlog 
of road maintenance for old logging roads. A reduction of road building 
will save the taxpayers and the USFS considerable amounts of money over 
time.
    Question 7. One of the primary tenets behind support of this 
legislation is that Portland's growing population is placing ecological 
pressure on the Mt. Hood National Forest. Does ONRC still concur with 
Andy Kerr's thesis in his ``ONRC's Executive Director Outlines 100-Year 
Plan for State'' (1994) that Oregon can only effectively sustain 1 
million people?
    Answer. Andy Kerr is senior counsel to Oregon Wild; the thesis 
referenced is his own opinion and does not represent a position taken 
by Oregon Wild (now or in the past). While overpopulation is a vital 
issue facing Oregon and beyond, Oregon Wild is not actively engaged on 
this issue.

          According to the Forest Service, there are 40 some miles of 
        road that will be within the designated Wilderness Areas in S. 
        3854. They also believe that a number of recent harvest units 
        and several older harvest units are located within these 
        Wilderness Areas. The 1964 Wilderness Act in part said: 
        ``Wilderness, in contrast with those areas where man and his 
        own works dominate the landscape, is hereby recognized as an 
        area where the earth and its community of life are untrammeled 
        by man . . . retaining its primeval character and influence, 
        without permanent improvements or human habitation.''

    Question 8. If we are going to deviate from the provisions of 1964 
Wilderness Act by making areas with paved roads Wilderness or areas 
that have been harvested Wilderness, why shouldn't we deviate from the 
1964 Wilderness Act to allow mountain bikers access to the 100 or so 
miles of trails they currently use in the area?
    Answer. Please see the attached document for the response to this 
question and the related congressional history.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

    [Due to the enormous amount of materials received, only a 
representative sample of statements follow. Additional 
documents and statements have been retained in subcommittee 
files.]

          Statement of Nemecio R. Chavez, Jr., Las Cruces, NM
    Mountain biking has been a part of my everyday life over the last 
15 years. It started as something occasional to do on the weekends and 
then gradually became my favorite way to exercise. Now, it's something 
I can't live nor want to be without.
    I've been lucky enough to have lived in Colorado for a number of 
years and to have mountain biked many of their wonderful trails. I've 
also biked a good number of amazing trails in the west Texas area. I've 
even survived Slick Rock (Moab, Utah's legendary trail, which is 
considered by many to be one of the most technical trails in the U.S.), 
more than my fair share of times. All of these areas are well-known in 
the mountain biking community for their trails.
    While not as well-known but gaining visibility in recent years (see 
June, 2001 issue of Bike Magazine where Las Cruces was picked as one of 
the top 5 places to live and mountain bike), the trails in the Las 
Cruces area range from simple to extreme and anywhere in-between in 
terms of their riding difficulty. However, one trail stands out the 
most. The Robledo mountain biking trail not only offers beautiful 
scenery, but arguable some of the most technical riding in North 
America. The total length of the trail is only about 6.2 miles and 
challenges the rider with tight, obstacle filled (e.g. rocks, ledges, 
and various cacti) single track that winds and scales the sides of 
desert canyon walls. Most riders, regardless of fitness level and 
technical ability, will find themselves pushing their bike along the 
trail at some point, smiling, thinking, and swearing they will do 
better the next time they try the trail again. When asked, I without 
hesitation say that the Robledo trail is my favorite mountain biking 
trail of all time. I've ridden it about a dozen times and it's 
challenged me in numerous ways each time. Admittedly, I am biased. 
However, my concern is that a National Monument designation of this 
area would result in closing this trail. This would not only harm the 
Las Cruces mountain biking community but the greater Las Cruces 
community and that would do no one any good. Please help keep the 
Robledo area open to the public.
                                 ______
                                 
               Statement of Peggy Bogart, Las Cruces, NM
    I wish to summit the following comments and ask that they be added 
to the testimony on the Dona Ana County Trackways Bill.
    My name is Peggy Bogart, and I am Environmental Director for the 
Family Motor Coach Four Wheel Drive Chapter. We have 350 members 
nationwide. Our group holds four-wheel drive rallies in Las Cruces at 
least every two years utilizing the four-wheel drive trails in the 
area. Most of our members are senior citizens and can no longer hike 
distances, so the only way we have to access the backcountry is by road 
or trail.
    We find several problems with the Trackways Monument Bill. There is 
already a Research Natural Area protecting an area that is 736 acres. 
Why do we need the extra acreage the Monument proposes? The trackways 
that were found are now in the museum in Albuquerque and not even at 
the site. The rest of the trackways are buried and would take mining to 
uncover them. What makes this area qualify for a National Monument? The 
bill also lets the Secretary make minor boundary adjustments without 
defining any limits. Therefore the Monument could grow in acreage. It 
would also require the Secretary the adjacent lands as a buffer. This 
would close the four-wheel drive and bicycle trails in the area.
    We support a Dona Ana County Comprehensive Land-Bill. We feel that 
this bill could support multiple use of these lands and perhaps have a 
Backcountry designation, which would protect against development, while 
still providing for access to our roads and trails in the area. Many 
Las Cruces residents and tourists alike use this area for OHV riding, 
four wheeling, and bicycle riding. If this were a national monument or 
wilderness area then only those that are fit to hike could use the 
area, and leave out senior citizens, and the handicapped.
    Thank you for letting me comment on this important matter.
                                 ______
                                 
         Statement of Kaz Thea, Wildlife Ecologist, Hailey, ID
    I request that this letter be made part of the record on CIEDRA, 
H.R. 3603 for the hearing scheduled on September 27, 2006.
    I am a resident of Hailey, Idaho and therefore, a constituent of 
Representative Simpson. In addition to being a wife and mother of a 4-
year old, I am a professional ecologist having worked for the U.S. Fish 
and Wildlife Service (Service) for about 10 years. For several years I 
was assigned oversight for Service work on the Sawtooth National 
Forest, the Salmon-Challis National Forest and the Challis BLM Resource 
Area, all of which are in the areas affected by Representative 
Simpson's CIEDRA bill. I am very familiar and knowledgeable with these 
public lands. I am also a passionate wilderness advocate and an outdoor 
enthusiast participating actively in many of the non-motorized sports 
central Idaho has to offer. While I applaud Simpson's effort to 
designate part of the largest intact roadless areas in the lower 48 
states as wilderness, the bill includes provisions that I strongly 
oppose. I strongly oppose H.R. 3603 and ask for your opposition to 
CIEDRA.
    1. Title I of CIEDRA would give away public lands in the 
congressionally-protected SNRA that include elk wintering grounds and 
critical salmon spawning waters near Stanley, Idaho. Including lands 
outside the SNRA, CIEDRA would give away, for free, up to 5,100 acres 
of National Forest and BLM-managed public land to local government and 
development interests representing a significant downward spiral 
towards public land privatization. This bill has significant national 
implications whose particular title provisions must be stopped. This is 
a trend that should be nipped in the bud, public lands belong to ALL 
Americans not local special interests.
    CIEDRA would weaken protections afforded under PL 92-400, passed in 
1972 to protect the natural, rural, historic, pastoral, and scenic 
values of the SNRA. Taxpayers have already spent $65 million with 
conservation easements and purchase to protect habitat for fish and 
wildlife within the SNRA, an icon among America's western landscapes. 
The bill would give away for trophy home development a 162-acre parcel 
near Stanley, Idaho, purchased for $341,000 by federal taxpayers during 
the 1980s for wildlife protection. CIEDRA would set a precedent of 
dismantling protections on public land to benefit a few local 
interests, despite the strong opposition of many area residents.
    2. Title II designates 300,011 acres of wilderness but does so in a 
way that erodes the intent of the Wilderness Act and degrades its 
quality. CIEDRA authorizes motorized recreation on trails inside the 
proposed wilderness boundaries, whose authors carefully created these 
trails as internal boundaries. One trail would bisect the wilderness 
west to east, and the other two trails would provide a motorized loop 
trail. The boundaries of the proposed wilderness are far smaller than 
the 550,000 acres within the Boulder-White Cloud roadless area that 
qualify for wilderness and have been recommended by other conservation 
groups including Rockies Prosperity Act introduced in the House. 
Motorized trails should not be included within the proposed wilderness 
boundaries. To allow this use we accept degradation of the wilderness 
values we seek to protect.

          Section 2(c) of the Wilderness Act defines wilderness as ``an 
        area where the Earth and its community of life are untrammeled 
        by man . . . retaining it's primeval character and influence . 
        . . and which generally appears to have been affected primarily 
        by the forces of nature and the imprint of man's work 
        substantially unnoticed . . .'' The 1964 Wilderness Act is our 
        best law to protect nature as it exists and provide those who 
        want to experience the quiet and solitude of nature without the 
        noise and pollution of motor vehicles.

    Section 210. Wilderness Review. This section repeals approximately 
50,000 acres of Forest Service Recommended Wilderness in the SNRA 
Boulder-White Cloud roadless area. In addition, the bill releases 
83,000 acres of 4 wilderness study areas on land managed by the BLM 
including Jerry Peak, Jerry Peak West, Corral-Horse Basin and Boulder 
Creek. These lands shall be managed under intensive multiple use. This 
will permanently remove their eligibility for wilderness in the future. 
These lands qualify as wilderness today due to their outstanding 
quality and unique habitats. They should not be subject to intensive 
management that will likely erode their unique high quality. There are 
191 million acres of National Forest lands and nearly 2/3 of these 
lands are already roaded, developed and intensively used. Approximately 
9% of the U.S. in the lower 48 states remains roadless and wild 
providing clean water to our municipal watersheds, and important 
habitat for fish and wildlife. Only 2\1/2\ percent of the lower 48 
states is legally protected wilderness. This is a fraction of the land 
that is left as wild and intact. We should not be subjecting these 
eligible lands to degradation, fragmentation, and intrusion by priority 
motorized use.
    Title II would also strip the wilderness areas of many of the 
traditional protections. The bill would weaken restrictions on access 
to mining claims in the wilderness. The bill gives authority to state 
and local entities for fire management on public land. It allows lethal 
predator control, which is arguably an archaic action to take for 
natural cycles of wildlife interactions to be carried out particularly 
in wilderness areas set aside untrammeled by humans for nature to exist 
on its own. Motor vehicles would be allowed in the wilderness for 
routine game management activities. This is very troubling as the 
Wilderness Act expressly closes the area to motor vehicles for routine 
activities. Allowing managers to use ORV's inside the wilderness is 
harmful to the very species they seek to protect. Impacts to wildlife 
by motorized use are well documented causing animals to disperse, 
abandon young, avoid areas, all which places stress on the animals. 
Wilderness provides refuge habitat and protection from activities that 
scare animals and disrupt their natural movements. Finally, Title II 
would prohibit the reservation of water rights by the Federal 
Government in streams and rivers in the proposed wilderness areas. The 
waters within this area are critical habitat for threatened fish 
including chinook salmon, steelhead, sockeye salmon, kokanee, and bull 
trout. This prohibition could impact these threatened species due to 
future water development (see attached fact Sheet exhibits).
    3. Title Ill of CIEDRA establishes the Boulder-White Cloud 
Management Area that includes about 540,000 acres surrounding the 
proposed wilderness as a motorized recreation area. Section 303 
mandates and locks in this use and prioritizes ORV use over all other 
uses. Approximately 230,000 acres of the Sawtooth National Recreation 
Area created by Public Law 92-400 will be included in this management 
area. Congress created the SNRA clearly for the purpose of conservation 
and states the following:

          (1) In order to assure the preservation and protection of the 
        natural, scenic, historic, pastoral, and fish and wildlife 
        values and to provide for the enhancement of the recreational 
        values associated therewith, the Sawtooth National Recreation 
        Area is hereby established.

    CIEDRA will lock in ORV use regardless of changing values or needs 
of the land and prioritize this use over all other uses. The bill 
mandates a policy of no net loss of ORV trails and restricts SNRA area 
managers' ability to protect the area from ORV damage as necessary to 
protect resources by stating the following:

          Section 303(a) Establishment of Management Area Findings and 
        Purposes ``as a special management area will provide 
        outstanding opportunities for many forms of recreation, 
        including mountain biking, snowmobiling, and the use of off-
        road motorized vehicles.''
          Section 303(d) Grounds for Trail Closure--Resource damage 
        that can be mitigated and issues of user conflict shall not be 
        grounds for the closure of a trail or route in the management 
        area . . .''
          Section 303(e) Mitigation of Trail Closures.--If the 
        Secretary determines that closing a trail or route is necessary 
        for resource protection or public safety, the Secretary shall 
        take any of the following mitigation actions intended to 
        provide commensurate motorized recreation opportunities in the 
        same general area of the management area:

                  (1) repair . . . and re-open
                  (2) replace, relocate, or reroute . . .
                  (3) a combination of the above . . .

          Furthermore, under section 304(a) Grant to Program--a grant 
        of $1,000,000 provided to the State of Idaho Department of 
        State Parks and Recreation ``which is used to support the 
        acquisition, purchase, improvement,, repair, maintenance, 
        furnishing, and equipping of off-road motor vehicle facilities 
        and sites . . .

    This is clearly in conflict with the purpose of the SNRA and 
effectively eliminates the Forest Service's ability to manage motorized 
use. The promotion of ORV use is counter to how the land is used and 
managed today. While motorized vehicle registration has increased 
across the state the use hasn't changed much on the SNRA because this 
use isn't promoted and the infrastructure isn't built to encourage this 
use as it is across the state. If the intent of CIEDRA is to manage in 
accordance with current laws and authorities that govern this area, 
then why establish this area with a new management name and new 
regulations. Why include a policy for trail closure different from 
today and less protective from the tools managers currently have 
available to them to deal with user conflict and resource damage.
    User conflict is real and should not be eliminated from managers' 
options. Conflicts between humans and machines on trails is real, the 
constant noise and air pollution displace hikers, bird watches and 
families out for a quiet walk to enjoy the scenery. Why encourage more 
intensive motorized vehicle use facilitated by the State who promotes 
off-road vehicle use to an area that is an icon among America's western 
landscapes. The money earmarked to the State will definitely encourage 
more use of motorized vehicles then we see today. They will build 
camping areas, turnaround places for trailers, and parking for trailers 
that don't exist today to encourage more use in these newly designated 
areas.
    Motorized recreation use has emerged as a leading and ever-
increasing threat to the ecological integrity of federal lands. There 
is no shortage of access. Thousands of miles of trails and millions of 
acres of lands available for offroaders to enjoy their vehicles. 
However, there are lands where motorized recreation is not appropriate 
including the SNRA, undeveloped forests and rangelands, including 
roadless areas, critical wildlife habitat and other sensitive sites. 
The threats are well documented: damage to wetlands, soil compaction 
and erosion, spread of noxious weeds, displacement of wildlife, air and 
water quality impacts, degrades fish habitat, affects lake shores, 
rivers and bird nesting areas (see attached exhibits).
    Two-stroke engines (used for personal watercrafts, dirt bikes and 
snowmobiles) discharge 25-33% of their fuel unburned into the air. A 
snowmobile with a two-stroke engine operating for four hours can emit 
between 10 and 70 times as much carbon monoxide and between 45 and 250 
times as many hydrocarbons as an automobile driven 100 miles. As the 
power, range and number of these machines increase, so does the damage 
to the natural world and the misuse of gas and oil an important and 
diminishing material that our world depends on. It is irresponsible to 
prioritize purely recreation use of this limited natural resource.
    The Forest Service has no firm policy to handle ORV abuses and they 
lack adequate resources to follow their own rules and policies. Non-
compliance with trail or area closures is a common and well-documented 
concern. Our National Forest System and BLM land is generally open to 
ORV travel unless posted closed. The Sawtooth National Forest including 
the SNRA are not spared from rampant illegal use. Illegal riders are 
almost never caught, not just because their machines are fast but also 
because, on public land, an individual ranger is typically assigned to 
patrol an impossibly large area and most illegal use goes unseen. This 
problem will only grow as more use is encouraged in the new management 
area. The Forest Service must address on-the-ground enforcement and 
management needs as part of any policy change. Currently public land 
managers lack effective ORV monitoring procedures and have not 
allocated sufficient resources to collect data on ORV use and impacts. 
The Forest Service should be required to conduct an environmental 
analysis to assess impacts and consider careful planning before 
assigning these lands locked in prioritized motorized use.
    I hope this will help you and the sub-committee make an informed 
decision. I urge you not to pass it up through your subcommittee. 
Members and their constituents would not be served well by supporting 
this bill. I urge to carefully consider the long-term negative 
consequences this bill would have on our public lands and the recent 
outcry from the public against public land privatization.
    Thank you for the opportunity to provide written testimony. As a 
local to the area, I particularly look forward to following what 
transpires from the subcommittee hearing on September 27, 2006. I hope 
this bill can be stopped.
                                 ______
                                 
                    Magic Valley Trail Machine Association,
                                   Twin Falls, ID, October 5, 2006.
Senator Larry Craig,
Chairman, Public Lands and Forests Subcommittee.
    Dear Senator Craig and Subcommittee Members: My name is Jamey 
Wills, I reside In Twin Falls and currently serve as president of the 
Magic Valley Trail Machine Association. MVTMA was formed in 1964 to 
promote responsible motorized trail recreation and our mission 
continues. I wish to thank Senator Larry Craig for making the audio of 
the September 27th hearing available on his web site, and request these 
comments be made part of the record.
    Both Idaho wilderness bills before this committee give us cause for 
concern. We would prefer no additional, or significantly less 
wilderness than currently proposed. We ask that no existing motorized 
trails be closed. In the Boulder-White Clouds, the Grand Prize/West 
Fork trail is very dear to us. The Washington Lake/Fourth of July trail 
has been a multiple-use trail since before the SNRA was formed. We 
believe boundaries could and should be adjusted to avoid disruption of 
existing motorized recreation.
    If wilderness, in addition to the Sawtooth Wilderness is designated 
within the SNRA, we urge release language that would preclude another 
round sometime in the future. We have observed that a ``what's ours is 
ours and what's yours could be ours'' attitude is prevalent in some 
circles. We would be more inclined to support reasonable wilderness 
additions if we were certain that over time and through future bills we 
will not be excluded from every beautiful and treasured place.
    We find Title III, Section 301, establishing a management area 
surrounding the proposed wilderness particularly troubling. Locked in 
routes are impractical and deny any opportunity to add routes without 
another act of Congress. We urge the Senate to delete section 301. We 
would add that we have no quarrel with providing wheelchair access if 
the wilderness act allows it.
    We would add our voices to those who have objected to the federal 
zoning regulations in CIEDRA, the land and monetary incentives included 
in the bills, and the lack of language in either bill to insure 
promises made are promises kept.
    In closing, we would appeal to those who have within their power 
the ability to permanently exclude our use. We ask that you consider 
there is a very human side to wilderness designation. Those who choose 
motorized and mechanized recreation are as attached to these treasures 
as anyone. Surely Congress can find a better way to accommodate the 
needs of all than through wholesale additions of wilderness.
            Sincerely,
                                               Jamey Wills,
                                                         President.
                                 ______
                                 
   Statement of Craig Gehrke, Regional Director, Idaho Office of The 
                     Wilderness Society, Boise, ID
    The Wilderness Society (TWS) appreciates this opportunity to submit 
its view on H.R. 3603. TWS supports the designation of the Boulder--
White Clouds area of central Idaho as Wilderness. TWS has long been 
committed to achieving permanent protection for this outstandingly wild 
and wildlife-rich area. We have participated for over 20 years in 
issues related to the administrative management of this area through 
two national forest management planning processes and travel planning 
efforts, as well as earlier unsuccessful legislative efforts that have 
included this area. The Boulder-White Clouds are a dramatically 
spectacular region that deserves designation as part of the National 
Wilderness Preservation System.
    While there are provisions within H.R. 3603 that we do not support, 
we believe the legislation contains many positive and important 
benefits. Over the past several months, The Wilderness Society has 
worked with Congressman Simpson to improve this legislation. We will 
continue to actively work with him and other members of Congress to 
improve this legislation and to enact wilderness designation for the 
Boulder-White Clouds.
    The Wilderness Society's position on the major provisions of this 
legislation is detailed below.
Sections 101, 102, 103, 104, 105, 106
    These sections convey specific parcels of national forest and BLM 
land to Custer and Blaine Counties and the cities of Stanley, Clayton, 
Mackay and Challis.
    The Wilderness Society does not support the outright conveyance of 
national forest land to local governments for economic development. 
These are lands that belong to all Americans as part of our collective 
national heritage. It is not appropriate for Congress to override the 
land managers and mandate not only conveyance of these lands but also 
their use for economic development. National forest lands have been 
exchanged in the past with other properties where it makes sense from a 
management viewpoint or where there is a greater public benefit from 
the exchange, and we have often supported such exchanges. However, the 
conveyance of public land simply to foster local economic development 
is not appropriate or warranted.
    Of particular concern are the parcels within the Sawtooth National 
Recreation Area. In 1972 Congress recognized the tremendous public 
values of the Sawtooth area by establishing the Sawtooth National 
Recreation Area. National forest lands from an area already recognized 
and designated for its greater public values should not be conveyed to 
local governments.
    An alternative approach to help local economies would be a grant to 
support sustainable economic development. In fact, this approach is 
already utilized in H.R. 3603, see section 112. TWS urges that H.R. 
3603 increase the grant for economic development to Custer County and 
drop the provisions to convey federal land in the Sawtooth National 
Recreation Area.
    Although we are opposed to the provisions conveying national forest 
land in the Sawtooth National Recreation Area, we believe that such 
provisions are improved by the deed restrictions in H.R. 3603 that 
would be placed on the conveyed land. The same is true for the 
reversion clause that states that if the deed restrictions are not met 
then title to the lands will revert back to the United States. The 
conveyance provisions would be further improved by additional deed 
restrictions on conveyed lands in the form of 100 foot ``setbacks'' 
from anadromous fish streams.
    TWS will review the comprehensive map of all the land conveyances 
in H.R. 3603 when it is available and would appreciate the opportunity 
to provide additional comments at that time.
Section 107
    Section 107 conveys 960 acres of BLM land near Boise to the State 
of Idaho for a motorized and bicycle recreation park. Included is a 
condition that the State of Idaho include a beginner track to teach 
responsible riding techniques. We support programs to teach responsible 
and safe riding of motorized recreational vehicles. However, we do not 
support the establishment of a motorized recreation park for which 
there has been no documented need. Instead, TWS supports a grant to the 
State of Idaho to teach safe and responsible riding.
Section 108
    Section 108 establishes a pedestrian, non-motorized vehicle and 
snowmobile trail between Stanley and Redfish Lake. We support this 
provision.
Section 109
    Section 109 authorizes money for construction and maintenance of 
bicycle trails in the State of Idaho. This provision is silent on where 
such trails can be constructed. We recommend explicitly stating that 
national forest roadless areas, BLM wilderness study areas, sensitive 
habitat and other inappropriate areas should be off limits for the 
construction of these trails, avoiding future conflicts regarding 
mechanized uses in candidate wilderness areas.
Section 110
    Section 110 authorizes 10-year extensions of outfitter and guide 
operating permits. Presently, such contracts are left to the discretion 
of the agencies managing the land. It is vital that the Secretaries 
retain their full authority to manage and regulate outfitting and 
guiding permits in order to protect public resources.
Section 111
    Section 111 authorizes a Red Trees Phase II study to evaluate 
landscape approaches to risk assessment to identify forest health 
projects to mitigate major fire risks on land in the Sawtooth National 
Recreation Area. All existing laws, including the current forest plan 
for the Sawtooth National Forest, must continue to apply in this 
effort.
Sections 112, 113, 114, 115
    We support the grants made under Section 112 and the projects under 
Sections 113 and 114. We support the land exchanges proposed under 
Section 115.
Section 201
    Section 201 designates the Ernest Hemingway-Boulder Wilderness, 
White Clouds Wilderness, and Jerry Peak Wilderness. TWS supports the 
designation of these wilderness areas with the following additions and 
considerations.
    The Forest Service recommended wilderness in the North Fork Big 
Wood River should be added to the Ernest Hemingway-Boulder Wilderness. 
This area has been recommended for wilderness by the Forest Service for 
over 20 years and should be designated wilderness. We understand that 
this area has been excluded due to a local agreement in the Wood River 
Valley between cross-country skiers and snowmobilers regarding use in 
this area. However, it was an error of the Forest Service to have 
allowed motorized use in a recommended wilderness area. While TWS 
respects efforts by local user groups to reach agreements, the 
participants to the skier/snowmobile agreement were fully aware of the 
fact that the North Fork of the Big Wood River was recommended by the 
Forest Service for Wilderness designation. Their agreement should not 
override the Forest Service's recommendation about wilderness 
designation for this area.
    We support moving the boundary of the Jerry Peak Wilderness off the 
ridge and towards the North Fork Big Lost River.
    The Champion Lakes area should be included in the White Clouds 
Wilderness. Like the North Fork Big Wood River, this area is part of 
the Forest Service recommended wilderness and motorized use should not 
be allowed in a recommended wilderness area. H.R. 3603 does take steps 
towards protecting this area by closing it to summer motorized use, but 
the best outcome would be inclusion of this area in designated 
wilderness.
    TWS supports the designation of The Jerry Peak Wilderness. It is a 
much-needed, ecologically critical addition to the National Wilderness 
Preservation System. In 2002, TWS released a report titled ``Roadless 
Areas: The Missing Link in Conservation'' that details the contribution 
that protection of roadless areas makes to the diversification of 
conservation reserves like designated wilderness areas. (The report is 
available at www.wilderness.org/Library/Document/upload/MissingLink_ 
ReportHighlights.pdf. We request that this report be added to the 
hearing record.) Establishing the Jerry Peak Wilderness, with lands 
ranging from mountain peaks to sagebrush grasslands, represents a 
diversification of designated wilderness areas within Idaho.
Section 202
    We support the construction of the new trailhead for nonmotorized 
users at Trail #684 and at the Big Boulder Trailhead to separate 
motorized/bicycle users from nonmotorized users. We support the 
Secretary's authority to establish non-paved wheelchair accessible 
trails.
Section 210
    Section 210 addresses release of lands from further review. 
Provision (a) is unnecessary. The first land and resource management 
plan issued by the Forest Service for the Sawtooth National Forest and 
National Recreation Area essentially completed the wilderness review 
and made a designation recommendation for the Boulder-White Cloud 
wilderness study area. Non-recommended lands were not necessarily 
managed to protect their wilderness characteristics. Similarly, the 
second generation land and resource management plan for the Sawtooth 
Forest and NRA made wilderness and non-wilderness recommendations.
Section 301
    We appreciate the efforts to make absolutely clear that the 
creation of the Boulder-White Cloud Management Area is supplemental to, 
and not in derogation of, the Sawtooth National Recreation Area.
    TWS believes that within the Boulder-White Cloud Management Area, 
the unique nature of the Railroad Ridge roadless area (roadless area 
#922 in the revised Land and Resource Management Plan for the Sawtooth 
National Forest) should be recognized with funding provided to the 
Forest Service for education about the nature of the area and 
enforcement of the closure to cross-country motorized use. Railroad 
Ridge, a remnant of a glacial moraine with a high elevation of 9,600 
feet, supports some of the most unique and well-developed alpine plant 
communities in Idaho, including whitebark pine stands with trees up to 
1,000 years old. Railroad Ridge and surrounding alpine and subalpine 
habitats support a wider variety of alpine communities than in any 
other similar areas studied in Idaho. Some communities found on 
Railroad Ridge are uncommon and known only from a few alpine sits in 
Idaho and the Great Basin, and one has not been documented in any other 
Idaho alpine studies. This area is also host to several extremely rare, 
Threatened, Endangered, Proposed, Candidate, or Sensitive species. 
Unique soils, increased precipitation, and topography as compared to 
other alpine areas in Idaho and the Great Basin make Railroad Ridge and 
the surrounding area more botanically diverse than most alpine 
communities in North America.
    We support funding for the Forest Service to implement public 
education management actions in the Railroad Ridge area that promote 
the conservation and recovery of listed plant species and conserve the 
ecosystems upon which the listed species depend, such as putting up 
educational signs explaining the unique nature of Railroad Ridge. We 
also support funding for the Forest Service to enforce the closure of 
this area to cross-country motorized use.
Section 303
    Section 303 addresses motorized and mechanized access within the 
Special Management Area.
    Subsections (d) and (e) take away the managing agency's authority 
to close routes or trails due to either resource damage that 
theoretically can be mitigated or due to user conflicts. We believe 
that for all practical purposes, the trails currently open to motorized 
users will remain so most have been open to motorized use for nearly 30 
years--in to the future. There is no demonstrated need to take 
management authority away from the Forest Service. We are unaware of 
circumstances in this area where the Forest Service has ever 
aggressively closed trails due to resource damage or user conflicts. 
With increasing numbers of motorcycles using the public lands, H.R. 
3603 runs a real risk of creating an intolerable management situation 
for the Forest Service if the agency cannot close trails due to user 
conflicts or resource damage. We support mitigation of damage where 
possible, but we are concerned that expensive, elaborate actions to 
mitigate damage will simply be a ``band aid'' approach to larger 
management problems.
Section 304
    We do not support Section 304's provisions to establish a grant 
program to the State of Idaho's Off Road Motor Vehicle program of the 
Idaho Department of Parks and Recreation. Any federal funds for 
enforcement activities and rehabilitation of land damaged by off road 
vehicle use should remain within the jurisdiction of the managing 
federal agency. The Idaho Outdoor Recreation Demand Assessment, 
prepared by the Idaho Department of Parks and Recreation, revealed that 
there is little support for providing designated ATV trails in Idaho. 
Issues like ``Protecting natural resources on public land,'' and 
``Educating adults about natural resources and the environment'' ranked 
much higher than providing ATV trail or snowmobile trail systems. The 
``Outdoor Recreation Participation and Spending Study'' conducted by 
the Outdoor Industry Foundation ranked Idaho number one in terms of per 
capita participation in outdoor recreation activities, consisting of 
backpacking, bicycling, bird watching, camping, canoeing, climbing, fly 
fishing, hiking, kayaking, skiing, snowshoeing, and trail running. (See 
vvww.outdoorindustry.org/pdf/State_by_State_Study.pdf) There is no need 
or justification for the federal government to offer financial support 
to motorized recreation in Idaho.
Section 305
    Section 305 is unnecessary. There are no aircraft landing strips 
within the areas designated as wilderness by this bill, and clearly no 
intent to close any in the Boulder-White Cloud Management Area.
Sections 401, 402, 403
    TWS supports reasonable compensation for the permanent, voluntary 
retirement of grazing privileges. TWS preference is for compensation 
based on fair market value, including appropriate recognition of the 
wilderness values that are protected by the permanent retirement of the 
grazing privileges. While the dollar amounts that have been widely 
reported for those retirements are not what TWS prefers, in the larger 
context of the positive aspects of this bill we will not oppose them. 
We believe that Section 402(a) should be expanded to include areas 
designated wilderness by this legislation, areas within the Boulder-
White Cloud Management Area, the watershed of the East Fork of the 
Salmon River, as well as the remaining lands within the Sawtooth 
National Recreation Area.
                               conclusion
    The Wilderness Society appreciates the opportunity to submit our 
testimony on H.R. 3603. Congressman Simpson's legislation would provide 
much needed protection to Idaho's Boulder-White Clouds region, and 
there are many significant, positive benefits provided by this 
legislation. While we do not support all the provisions within the 
legislation, we will continue to support Congressman Simpson's efforts 
to designate wilderness and are committed working diligently with him 
and others to improve this bill. We are hopeful that others will 
approach this work in the same spirit, and that the legislative process 
will ultimately produce a bill that we can fully support.
                                 ______
                                 
      Statement of David R.W. Hoefer, Retired, U.S. Forest Service
    I am opposed to HB 3603 also known as Central Idaho Economic 
Development and Recreation Act.
    I am a former Assistant Superintendent on the Sawtooth National 
Recreation Area. This bill, in my opinion, would not enhance the area 
at all. It was designated by Congress in 1972 and has been managed for 
the best good of the American people. One remaining action as 
designated in the act is to decided on the wilderness suitability of 
the undeveloped and unimproved (roadless) areas with the Recreation 
Area.
    The bill does designated 300,000+ acres for wilderness but goes 
beyond what is needed in designating other areas which remove 
management options from the Area Ranger. It also gives away 5,120 acres 
of federal land, 162 of which are within the Recreation Area. More than 
$65 million have been spent to purchase lands in fee or with scenic 
easements to retain the natural character of the area. Privatizing 
these lands is in opposition of the direction of the efforts made by 
the U.S. Forest Service to retain the special character of the area.
    I worked on the area for 11 years. Let's address the wilderness 
issue and not create compromises that reduce the areas values.
                                 ______
                                 
              International Mountain Bicycling Association,
                                   Boulder, CO, September 29, 2006.
Congressman Greg Walden, Chair,
Congressman Tom Udall, Ranking Member,
House Resources Committee, Subcommittee on Forests and Forest Health, 
        Longworth House Office Building, Washington, DC.
    Dear Chairman Walden and Ranking Member Udall: On behalf of the 
International Mountain Bicycling Association (IMBA), I write to offer 
comments on H.R. 3603, the Central Idaho Economic Development and 
Recreation Act.
    The International Mountain Bicycling Association (IMBA), founded in 
1988, leads the national and worldwide mountain bicycling communities 
through a network of 80,000 supporters and more than 550 affiliated 
clubs, including 11 in Idaho. Seven Idaho bicycle retailers are IMBA 
members.
    Unfortunately, this legislation, as currently written, will ban 
bicycles from 85 miles of valuable backcountry singletrack. Mountain 
bicyclists are currently enjoying these trails and our community does 
not understand why our quiet, low-impact, human-powered use is being 
prohibited. Like hikers and equestrians, bicyclists value the Boulder-
White Clouds for their solitude, serenity, and unparalleled rugged high 
country with its expansive views. A list of the threatened trails is 
attached.
    Please consider another way of protecting our most important 
trails. National Scenic Areas, National Recreation Areas, and boundary 
adjustments are currently being proposed in other Wilderness bills. 
Non-Wilderness corridors and cherry-stems also preserve trails for all 
non-motorized uses, including bicycles, while protecting the vast 
majority of the land as Wilderness. IMBA believes there are a variety 
of solutions that will protect the land in a way that allows bicycles.
    IMBA teaches sustainable trailbuilding techniques and has become a 
leader in trail design, construction, and maintenance; and encourages 
responsible riding, volunteer trailwork, and cooperation among trail 
user groups and land managers. Nationwide, IMBA members and affiliated 
clubs conduct close to 1,000,000 hours of trail and advocacy work 
annually and are some of the best assistants to federal, state, and 
local land managers. The USDA Forest Service is one of our best 
partners and, earlier this year, our third consecutive Memorandum of 
Understanding with the agency was extended until 2010.
    Mountain bicycling is a very popular sport, with 39 million 
participants nationally and more than 300,000 participants in Idaho, 
making it the number one state in per capita participation, according 
to the Outdoor Industry Association (2003). Outdoor recreation is 
ingrained in Idaho's lifestyle, economy, and tourism and we hope the 
collaboration that has resulted in this legislation can still protect 
some of the most unique mountain bicycling trails in the state.
    Bicyclists have a fundamental interest in the protection of 
undeveloped public lands for the same reasons as hikers and 
equestrians. The connection with nature provided by narrow trails is an 
extremely important component of mountain bicycling treasured by all 
experienced cyclists. These backcountry areas provide a setting 
equivalent to a powder day for skiers or 18 holes at Pebble Beach for 
golfers.
    Science has shown that the environmental impacts of bicycling are 
similar to hiking and far less than horse or OHV use. Mountain 
bicycling is a rugged, self-reliant form of travel compatible with 
backcountry areas. Just as with hikers and equestrians, only a small 
percentage of bicyclists enjoy the fitness required to access these 
wild places. Those who do visit the Boulder-White Clouds by bicycle 
cherish the land for its solitude, serenity, and untrammeled landscape.
    IMBA wants to support H.R. 3603, the Central Idaho Economic 
Development and Recreation Act, but we are concerned it prohibits 
bicycles from nearly all non-motorized trails in the Boulder-White 
Clouds area. IMBA believes bicyclists deserve access to quiet trails 
away from the distraction of motorized travel. From the 85 miles of 
trail that will be made off-limits to bicycles, IMBA and local 
bicyclists have identified the most important 17 miles. They include:

  <bullet> Trail 219 from the Fourth of July Trail to Ants Basin
  <bullet> Trail 671 from Born Lakes to Warm Springs Meadow and on to 
        Robinson Bar
  <bullet> Trail 111 from Three Cabins Trailhead (also known as 
        Germania)
  <bullet> Trails 109 and 047 to Castle Peak and Chamberlain Basin, and 
        on to motorized trail corridor 682 and 047
  <bullet> Trail 110 as it links to Germania from Chamberlain Creek
  <bullet> Trails 332 and 671 (also known as Pigtail) that connect Warm 
        Springs Meadow to Williams Creek

    IMBA asks for a cherry stem around these 17 miles of trail, similar 
to the provisions that have been made for OHV travel. This eliminates 
the unnecessary choice between Wilderness and a low-impact, quiet, 
human powered form of recreation by protecting the land and allowing 
current mountain bike access to continue. The Boulder-White Clouds 
needs to be protected from resource extraction, commercial activity, 
structures, and road building. It does not need to be protected from 
bicycles.
    Further, allowing continued use of mountain bicycles on these 
trails should not complicate management concerns for the Forest Service 
and includes one more constituency to help maintain the trails.
    Since there is historical and existing use of mountain bicycles on 
these trails, we believe this request is reasonable and consistent with 
other exceptions in the legislation for OHV travel, military 
overflights, mechanized firefighting, Native American cultural and 
religious uses, and motorized vehicle use for fish and wildlife 
management. A detailed list of other special considerations in existing 
Wilderness around the country can be found on the Wilderness.net 
website.
    Mountain bicycling is a quiet, healthy, human-powered outdoor 
activity with minimal environmental impact and a positive economic 
influence for Idaho. IMBA requests the committee amend this legislation 
to allow continued mountain bike access on 17 miles of trail as 
identified above. We support preserving access to these trails without 
compromising environmental protection. Just as wild lands foster an 
appreciation of nature in hikers, equestrians, and others, the pristine 
riding opportunities preserved in our request strengthen cyclists' 
commitment to public lands preservation.
    Thank you for the opportunity to submit comments on this important 
legislation.
            Sincerely,
                                                 Jenn Dice,
                                       Government Affairs Director.
                                 ______
                                 
               Theodore Roosevelt Conservation Partnership,
                                Washington, DC, September 27, 2006.
Hon. Larry E. Craig,
Chairman, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, Dirksen Senate Office Building, 
        Washington, DC.
    Dear Mr. Chairman: The Central Idaho Economic Development and 
Recreation Act (CIEDRA), H.R. 3603, provides a sensible balance between 
protecting some of America's last pristine wild lands and allowing for 
continued use of these special places for outdoor recreation, including 
hunting and fishing. We urge the subcommittee to fully support the 
concepts of this bill and to expedite passage of comprehensive economic 
development and recreation legislation for the Boulder-White Clouds 
area.
    The Boulder-White Clouds encompass a roadless core that is 400,000 
acres and supports diverse ecosystems providing critical habitat to 
numerous fish and wildlife species. The area also contains more than 
150 mountains that tower above 10,000 feet. Hunting and fishing are 
popular here, as the absence of roads creates large contiguous tracts 
of land that support salmon spawning and big game such as elk, moose, 
mountain goat, bighorn sheep, black bear, and cougar.
    According to the U.S. Fish and Wildlife Service, in Idaho, 173,000 
hunters (or 88 percent) identify themselves as public-land hunters. 
Most of those (93 percent) are residents of the state. These sportsmen 
spend more than $231 million annually at rural, gateway towns and 
cities. There are also 416,000 anglers that use Idaho's public lands, 
including the Boulder-White Clouds. Their average annual expenditure 
throughout the state is $800/angler or more than $311 million.
    The broad, bipartisan support that CIEDRA has received from its 
Republican and Democratic proponents reflects the diversity and depth 
of support from the governor, mayors, and a wide range of organizations 
across Idaho and the country, including sportsmen's groups, 
conservation organizations, land trusts, the outdoor recreation 
industry, realtors and chambers of commerce, and county commissioners 
for a comprehensive proposal to protect outdoor recreation 
opportunities in the Boulder-White Clouds area.
    We look forward to working with you to advance CIEDRA through the 
Senate Energy and Natural Resources Committee and to ensure a full vote 
on the Senate Floor.
            Sincerely,
                                           Matthew B. Connolly, Jr.
                                 ______
                                 
Statement of Erik Schultz, Board Chairman, Sun Valley Adaptive Sports, 
                              Ketchum, ID
    Sun Valley Adaptive Sports (SVAS) is a non-profit organization 
based in Ketchum, Idaho, at the doorstep of the Boulder-White Cloud 
Mountains. Our mission is to improve the lives of individuals with 
disabilities through sports and recreation. We serve over 500 disabled 
clients every year, including rehabilitating disabled veterans 
returning home from the conflicts in Iraq and Afghanistan.
    The Boulder-White Cloud Mountains provide the setting for a host of 
our adaptive recreation activities such as hiking, horseback riding, 
fishing, skiing, and camping. As such, we have followed with much 
interest Representative Mike Simpson's efforts to craft a collaborative 
solution to management of this special area.
    We support the Central Idaho Economic Development and Recreation 
Act (CIEDRA) and believe it to be appropriately balanced legislation 
meeting the needs of multiple interest groups who enjoy the Boulder-
White Clouds. CIEDRA enjoys broad backing from Idaho's disability 
community, including Sun Valley Adaptive Sports in Ketchum, the 
Cooperative Wilderness Handicapped Outdoor Group at Idaho State 
University, Pocatello, and Living Independent Network, a statewide 
group headquartered in Boise.
    The reason for this broad support is clear. CIEDRA is the first-
ever wilderness legislation from any state that would authorize and 
appropriate funds for specific accessible trails, both within and 
adjacent to the proposed Boulder-White Clouds Wilderness. These trails 
are non-paved, natural surface, primitive-access wheelchair accessible 
trails totaling less than one mile each. They will enable disabled and 
elderly users to enjoy an independent wilderness experience in harmony 
with the wilderness resource.
    Passage of CIEDRA with its accessible trails provision would set a 
precedent for inclusion of accessible trails in future wilderness 
legislation nationwide. Access to wilderness is already guaranteed by 
the reconciliation of the Wilderness Act of 1964 with the Americans 
with Disabilities Act (ADA) of 1990. Section 507 of the ADA states that 
disabled individuals may use whatever assistive device they use for 
everyday indoor mobility in wilderness areas; however, agency managers 
are not obligated to make special accommodations for disabled access to 
wilderness. But neither are they prohibited from doing so.
    The primary impediments to establishing accessible wilderness 
trails have been a lack of pressure on the managing agencies and a 
chronic lack of funding for trail improvements. CIEDRA provides both 
the mandate and the money that have been previously lacking. It is a 
visionary bill with the potential for far-reaching therapeutic benefits 
for the disabled and elderly communities, civilian and veteran alike, 
both in Idaho and nationwide. We urge the Subcommittee to endorse this 
pioneering piece of legislation.
                                 ______
                                 
                            Owyhee Cattlemen's Association,
                                                   October 4, 2006.
Hon. Larry Craig,
Chairman, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, Dirksen Senate Office Building, 
        Washington, DC.

Re: Hearing before the Subcommittee on Public Lands and Forest, comment 
        in regard to S. 3794 The Owyhee Initiative Implementation Act
    Dear Senator Craig: First of all we want you to know how very much 
we appreciate your efforts to provide a prompt hearing on the Owyhee 
Initiative Implementation Act, S. 3794. This legislation is very 
important to Owyhee County and your support is greatly appreciated. 
While there is little expectation for immediate action, it is important 
to make known the important elements of the legislation and to identify 
any concerns that need to be addressed. The hearing process provides a 
forum to that end and again we are extremely appreciative of your help.
    We also wish to express our sincere thanks to Senator Mike Crapo 
for his support and leadership as Owyhee County has pressed forward 
over these past 5+ years. He is fulfilling his commitment to the county 
to carry the legislation when the Initiative Work Group reached an 
agreement
                            purpose and need
    There is a long history of land use conflict in the west and 
particularly in Owyhee County, Idaho. The conflict over use of land 
seldom involved actual conflicting use on the ground but is anchored in 
philosophical beliefs and positions where the courts are used to gain 
advantage for one or anther. These legal actions along with agency 
attempts to impose new procedures to avoid legal challenge has resulted 
in gridlock that prevents the agencies from taking any positive actions 
or significantly delays such actions. For example, At one time, the 
Bureau of Land Management could take a year to plan a prescribed fire 
project to control invading Western juniper and then proceed with the 
action the following year. It now takes three or more years for 
planning and another three years or more to clear legal challenges if 
they can be cleared at all. Meanwhile, juniper expansion and increasing 
dominance continues to reduce the natural sagebrush steppe habitat of 
dependent and sensitive wildlife species and to reduce the forage 
available for livestock grazing.
    Deadlines for completing required work whether imposed by a court 
or self imposed by the BLM have caused the agency at times to rely on 
inappropriate scientific information, to short cut scientific methods 
and protocols, to rely on erroneous interpretation of information and 
propose actions that are not supported by or are contradicted by the 
available information. (For example, a Federal District Court imposed a 
grazing permit term and condition recommended by the BLM, to limit 
stream bank trampling damage by livestock to 10%. However, at the time 
the BLM didn't even have a definition for ``trampling damage'' or a 
scientific protocol to measure trampling effect. Similar and equally 
unfounded or shortcut study methods have been documented for Stream 
Proper Functioning Condition evaluations, riparian stubble height 
measures, water quality assessments, upland utilization studies and 
upland range health assessments.)
    Failure to rely on the best available and defensible science has 
caused a high percentage of grazing decisions be appealed by the 
permittees just to correct errors and clarify ambiguities so they can 
legally comply with the terms of their grazing permit. Where 
satisfactory settlements have not been possible, BLM has requested 
remands of many decisions in order to develop entirely new proposals 
from scratch. Clearly the scientific deficiencies that lead to more and 
more legal challenges and the inability of BLM to respond to the need 
for sound science based decisions creates an ever increasing circular 
reinforcement of gridlock. The science review mandated in S. 3794 will 
assure that the best available science is appropriately applied in a 
timely manner and significantly reduces the need for administrative 
review.
    Another contributor to gridlock is the BLM interim management 
policies for areas proposed for as wild and scenic rivers and/or 
wilderness that are awaiting congressional action. The interim policy 
has a vague purpose to maintain the land in a state that preserves its 
eligibility for a special designation. This leads to largely arbitrary 
and subjective conclusions and decisions as to allowed management. Some 
of these have been waiting 30 years and the interim policy has evolved 
into a do nothing management scheme that prohibits virtually all on 
site management. Resolution of the status of these areas through 
designation as wilderness, wild and scenic rivers or release to 
multiple use frees the area from the highly restrictive and often 
prejudiced interim management policy. Designation and/or release of an 
area brings with it clearly defined management parameters and options 
that will avoid the gridlock of the past 30 years.
    The status-quo is not satisfactory for any user of these lands. The 
failure of management on Federal land affects the use of intermingled 
private land and by default creates a nearly impossible management 
barrier on those private lands. Unmanaged and unrestricted recreational 
use poses a threat to federal lands, private lands and recreational 
users who will be shut out unless their use can be properly managed. 
The absence of and ability to profitably manage private land as part of 
a ranch enterprise can have only one outcome, which is the sale of 
these lands for other use. Conversion of private land to development, 
private get-a-way, or commercial use will fragment the landscape, 
restrict public access, and increase cost to the Owyhee County 
government far beyond any potential tax revenue benefit.
    In 2001, the Owyhee County Commissioners announced an effort to 
address gridlock and to change the status quo through an ongoing 
collaborative program to resolve issues of wilderness, wild and scenic 
rivers, scientific information, local conservation and research 
efforts, recreational travel management and recognition and protection 
for cultural resources. The stated goal was ``To develop and implement 
a landscape-scale program that preserves the natural processes that 
create and maintain a functioning, unfragmented landscape supporting 
and sustaining a flourishing community of human, plant, and animal 
life, that provides for economic stability by preserving livestock 
grazing as an economically viable use, and that provides for protection 
of cultural resource;''
    The Owyhee Cattlemen's Association gladly accepted an offer to 
participate in this venture and have been heavily involved throughout 
the 5+ years of effort. We believe the product of this undertaking, S. 
3794, is essential for the future of ranching in Owyhee County and that 
it will significantly contribute to achieve of the stated goal that 
benefits all users of the land.
                         science review program
    The Owyhee Initiative Agreement, setting forth the member 
commitment to work toward the established goal, developed specific 
actions and understandings with regard to the designation and 
management of wilderness and wild and scenic rivers. The OCA agreed to 
those conditions in exchange for the implementation of a process that 
assures independent scientific peer review of information used in 
grazing management decisions. The science review can be conducted well 
within the legal time frame established for appeal of a grazing 
decision. It requires only that BLM provide the relevant documents, 
examine the science panel report, and explain their position if they 
choose to ignore the panel conclusions and place a copy of the report 
into the administrative record. Poor interpretation of bad information 
and unworkable and ineffective solutions have forced many permittees to 
appeal grazing decisions just to get their grazing permit corrected and 
clarified to the point it can be legally complied with. The independent 
science review will significantly improve the quality and effectiveness 
of grazing decisions in the future.
                        wilderness designations
    Designation of wilderness and wild and scenic rivers affects the 
management on more than 700,000 acres of Federal, private and State 
land in Owyhee County. Those areas released from further consideration 
(approximately 200,000 acres) will be subjected to multiple use 
management. Areas designated as wilderness (approximately 500,000 
acres) will be managed consistent with the provisions of the Wilderness 
Act and the guidance provided in House Report 101-405. The stream or 
river beds of designated Wild and Scenic Rivers will be managed in 
accordance with the WSR Act. In each case there are provisions for 
recognition and preservation of grandfathered rights and uses, 
protection of access to and use of inholdings, preservation of 
significant recreational user access to wilderness interiors and 
protection of upstream private water rights.
    Given the conditions for management for special designations and 
the benefit of an independent peer review of the science being used for 
grazing decisions, the designation of wilderness is an essential 
component of S. 3794. The OCA supports the designation of wilderness 
because it will clarify and assure proper management within those 
areas, will release some 200,000 acres from interim non-management, and 
requires implementation of an essential independent science review 
process.
                      recreational ohv management
    The OCA fully supports the recreational travel management component 
of S. 3794. The explosive population growth in the Treasure Valley is 
separated from the vast Owyhee country only by the Snake River. Growing 
demand for recreational OHV activity parallels the population increases 
and is expected continue increasing exponentially. The Owyhee Front has 
experienced significant damage to vegetation, soils and conflict with 
outer users because the area has essentially had no direct management 
applied. It is essential that the current OHV use and future growth be 
managed in a way that provides opportunity and yet does not allow 
destruction of the landscape. The same conflicts with OHV sue are 
spreading to remote areas of the County. The lack of management and 
enforcement is also creating more problems for landowners where 
trespass damages are increasing. The problem of lack of planning and 
consequently lack of management enforcement is recognized in S. 2794 
and it directs BLM to address these issues in a comprehensive and 
timely manner.
 clarification regarding use of grazing livestock as a management tool
    Some entities have criticized S. 3794 because they believe that 
grazing as a management tool should remain available in wilderness. The 
fact is that this legislation does not prohibit grazing as a management 
tool in any part of the proposed wilderness. While the legislation does 
provide that in some areas, grazing preference rights will no longer be 
recognized, this does not prohibit other means of utilizing grazing as 
a management tool.
    clarification regarding adjustments in the amount of grazing use
    Some entities have indicated that S. 3794 must contain strong 
language protecting the continuance of grazing in wilderness such as 
requiring adequate trend monitoring information before making any 
adjustments. However, this situation is addressed through the science 
review program where the legislated protections are far greater than 
just trend monitoring information.
clarification of the compensation program: the compensation program is 
    not a ``buyout'' of aums or grazing permits or an aum retirement
    Some entities have criticized S. 3794 as an AUM retirement program 
or grazing permit buyout intended to remove livestock from Federal 
land. This legislation does neither. The terms ``AUM retirement'' and 
``permit buyout'' are often misused by critics. An AUM is only a 
measure of forage that can only be leased or rented because once it is 
consumed it is gone. Similarly, a grazing permit has no cash value 
because it is only an authorization issued periodically by BLM to 
establish the terms for using the underlying grazing preference. It is 
the grazing preference for which a permit is issued that has a monetary 
value.
    The Owyhee Cattlemen's Association took the position early in the 
initiative process that they were willing to accept a rim to rim 
wilderness recommendation for the canyonlands. Any expansion of 
wilderness beyond the rim to rim recommendation would only be accepted 
if the affected landowners or ranchers agreed to the change. The 
proposed wilderness designations beyond the canyon rims are based on 
discussions with the affected landowners and/or permittees and 
agreement as to terms under which wilderness is acceptable.
    In some cases the landowner(s) and permittee(s) determined that 
avoiding the risk of some future designation perhaps worse than 
wilderness, initiation of an independent science review, generation of 
locally directed research programs and the institutional memory 
preserved through the OI board of directors was sufficient 
justification for acceptance of additional wilderness. In still other 
cases landowners and/or permittees chose to modify their ranch 
operations and reorganize management of new and remaining ranch 
resources to avoid conflict with wilderness designation. These 
landowners offered to accept compensation through equal value land 
exchanges and direct payments for loss of ranch resources including 
required grazing management facilities and the associated grazing 
preference rights. Some landowners chose to dispose of private land 
affected by wilderness designation. They have offered to sell and/or 
trade such land consistent with the values representative of recent and 
substantially similar inholding conservation transactions in the area. 
The range of values for identical lands is $1,000 to $3,000 per acre 
and the landowner offers range from $800 to $2,500 per acre consistent 
with individual scenic and wilderness amenities, benefit to wilderness 
access, development risk and wildlife values.
    The management response to wilderness designation requires 
reorganizing the use of ranch resources and restructuring ranch 
business plans that are unique to each landowner. The changes are 
necessary to mitigate potential negative effects of wilderness 
designation on the ability to properly manage livestock grazing in 
their allotments and to effectively and efficiently utilize other 
associated private and leased ranch resources. Each offer is intended 
to offset the effects of wilderness designation by assuring that the 
operator remains whole either in terms of cash value, continuation of a 
viable ranching operation or a combination of the two. Reorganizing 
resource use and restructuring business plans are accomplished through 
a variety of transaction elements including land exchanges, land sales, 
land exchange and/or sale, relinquishing grazing management facilities 
and associated grazing preference, granting scenic and/or access 
easements, relinquishing private interests such as water rights on 
Federal land and various combinations of these.
                               conclusion
    We hope this information provides a clear explanation of to the 
reasons we believe the Owyhee Initiative Implementation Act should 
become law and thereby provide a significant public benefit to the 
nation, state of Idaho and the citizens, ranching community and 
visitors in Owyhee County. If there are any questions regarding S. 3794 
or this testimony please notify us and we will provide further 
clarification of our position.

                                            Russell Turner,
                                                         President.
                                 ______
                                 
                                           American Rivers,
                                Washington, DC, September 26, 2006.
Hon. Larry Craig,
Chairman, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, Washington, DC.
Hon. Ron Wyden,
Ranking Member, Subcommittee on Public Lands and Forests, Committee on 
        Energy and Natural Resources, Washington, DC.
    Dear Chairman Craig and Ranking Member Wyden: Thank you for the 
opportunity to submit our views to the Subcommittee regarding S. 3794, 
the Owyhee Initiative Implementation Act of 2006. As an organization 
founded to support the implementation of the Wild and Scenic Rivers Act 
and dedicated to the protection of the outstanding rivers of the United 
States, we always applaud the addition of new rivers to the National 
Wild and Scenic Rivers System. We believe that the rivers named in S. 
3794 are deserving of Wild and Scenic protection, but we fear that 
without significant amendments these rivers would be designated ``in 
name only'' and would not receive the protections essential to Wild and 
Scenic designation.
    Several elements in S. 3794 and the corresponding Owyhee Initiative 
Agreement (OIA) would critically undermine the fundamental purpose of 
the Wild and Scenic Rivers Act and run contrary to established western 
water law. In particular, we seek amendments to the following 
provisions:

  <bullet> Section 202(c), restricting all the Wild and Scenic River 
        corridor boundaries to the ordinary high water mark;
  <bullet> Section 202(e), referencing the OIA, which overturns the 
        well established ``first in time, first in right'' principle of 
        western water law, designating federal reserved water rights 
        for the new Wild and Scenic Rivers as perpetually junior to 
        future claims; and
  <bullet> ``WSR Buffer Zones'' language in the OIA that eliminates the 
        ability of federal land managers to protect the ``Outstandingly 
        Remarkable Values'' of the river as directed by Section 7(a) of 
        the Wild and Scenic Rivers Act.

    We sincerely hope the legislation can be amended to address these 
deficiencies and provide true Wild and Scenic protection for these 
rivers.
                          boundary limitations
    S. 3794 limits the boundaries of the Wild and Scenic River corridor 
to the ordinary high water mark. This boundary would make the 
designation almost meaningless. Under Section 3(b) of the Wild and 
Scenic Rivers Act, federal agencies have discretion to establish Wild 
and Scenic River ``boundaries [that] shall include an average of not 
more than 320 acres of land per mile . . . measured from the ordinary 
high water mark on both sides of the river'' in order to provide 
adequate protection of the river and its unique values. The boundary 
proposed by S. 3794 would protect almost none of the identified 
Outstandingly Remarkable Values for each of the river segments, 
nullifying established management principles.
    The Interagency Wild and Scenic Rivers Coordinating Council 
guidelines strongly discourage the setting of ``bank to bank'' 
boundaries like those proposed in S. 3794:

        ``. . . it is unlikely that a managing agency will be able to 
        demonstrate that adoption of such a boundary will provide 
        necessary protection and, therefore, compliance with the law. 
        Even if the values for which the river was designated are 
        instream values only, such as anadromous fish, a bank-to-bank 
        boundary will not suffice to provide protection.'' 
        (Establishment of Wild and Scenic River Boundaries, August, 
        1998)

    American Rivers recommends that the normal boundary be adopted for 
the Wild and Scenic Rivers proposed by S. 3794. A rim-to-rim boundary 
in the canyonlands along these rivers would be more appropriate, with 
situational exceptions to accommodate specific concerns that we 
understand were raised during OIA negotiations.
                         water rights language
    The OIA Wild and Scenic Appendix fundamentally runs afoul of 
Congressional direction under the Wild and Scenic Rivers Act and also 
the prior appropriations doctrine of western water law. The federal 
reserve water right accorded these new river designations would 
naturally be junior to existing rights, but the OIA overturns the 
concept of ``first in time, first in right'' by making the federal 
reserve water right permanently junior to an unquantified and as-of-yet 
unadjudicated amount of future water withdrawals.
    Under decades of judicial precedent and Section 13(c) of the Wild 
and Scenic Rivers Act (WSRA), it is well settled that: (1) the WSRA 
expressly reserves water in designated rivers; (2) the priority date 
for such rights is the date of the legislation; (3) all prior 
appropriations will be senior; and (4) the designation does not affect 
any existing water rights. Once the river is designated, the managing 
federal agency is directed to quantify how much water is needed to 
protect the river's Outstandingly Remarkable Values and then seek to 
secure this quantity of water by purchase or adjudication. This system 
ensures compliance with all state water laws while protecting the 
designated rivers. The language of the OIA Appendix turns this 
established system on its head by giving all ``future irrigation, 
commercial, municipal, and industrial water rights'' seniority over the 
federal reserve right, up to 10% of the streams' mean flow during the 
traditional high flow months.
    This language in the OIA unnecessarily complicates the water rights 
adjudication system and could in fact result in harm, both to the 
rivers and to downstream users, given the uncertainties surrounding the 
actual amount of water that might be diverted. For example, preliminary 
reviews of fish populations indicate that a 10% withdrawal during low 
flow years would have a negative impact on juvenile populations for 
some species. Considering the variability of flow in these desert 
rivers, withdrawal of 10% of mean flow might decimate the rivers during 
low water years.
    To rectify this serious problem, we recommend amending S. 3794 to 
provide for the protection of the rivers' Outstandingly Remarkable 
Values. The bill should make the addition withdrawal of 10% of flow 
contingent upon a finding by the managing agency that such withdrawals 
would not have a direct and adverse effect on the Outstandingly 
Remarkable Values.
    Failing that, we recommend that S. 3794 strike the reference to the 
OIA regarding water rights and instead direct the Bureau of Land 
Management to apply for a federal reserved water right under the normal 
state adjudication system. This would preserve state water law and the 
principle of ``first in time, first in right.''
                            wsr buffer zones
    The OIA Wild and Scenic Water Rights Appendix contains the 
following language:

          ``WSR management plans, other land use plans and site-
        specific management plans, decisions or actions will not 
        recognize any buffer zone on which restrictions would be placed 
        due to the proximity to a designated segment of WSR, WSR 
        boundary or to a WSR related purpose.''

    This language contradicts Section 7(a) of the WSRA. The limitation 
on buffer zones mirrors common practice for Wilderness Areas, but is 
wholly unsuited for a Wild and Scenic designation. Unlike the 
Wilderness Act, the Congressional drafters of the Wild and Scenic 
Rivers Act foresaw the need for federal agencies to review actions 
taken on federal lands outside of the designated Wild and Scenic 
corridor that may ``invade or unreasonably diminish'' the free-flowing 
nature or Outstandingly Remarkable Values of the river. S. 3794 should 
be amended to make it clear that the OIA Appendix language will not 
govern management of the new Wild and Scenic Rivers.
    We appreciate this opportunity to comment on S. 3794, and we urge 
amendment of the bill as described above to provide true Wild and 
Scenic protections for the rivers designated in the bill.
    Please do not hesitate to contact us if you have any questions 
regarding these wild and Scenic designations; your staff may wish to 
contact Quinn McKew at (202) 347-7550, x3069, or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d3a2beb0b8b6a493b2beb6a1bab0b2bda1baa5b6a1a0fdbca1b4fd">[email&#160;protected]</a>
            Sincerely,
                                         Rebecca R. Wodder,
                                                         President.
                                 ______
                                 
  Statement of Bill Sedivy, Executive Director, Idaho Rivers United, 
                               Boise, ID
                      introduction and background
    Idaho Rivers United (IRU) supports congressional passage of S. 
3794, The Owyhee Initiative Implementation Act of 2006. Idaho Rivers 
United is a membership based, non-profit river conservation 
organization with 3,100 members, most of whom live in the state of 
Idaho. The organization's mission is to protect and restore the rivers 
of Idaho.
    Idaho Rivers United has been engaged in the Owyhee Initiative 
collaborative process for nearly five years, and is a signer of the 
Initiative Agreement, a compromise agreement negotiated by county 
officials and county residents, local representatives of national 
conservation groups, Idaho-based conservationists and sportsmen, 
cattlemen, outfitters and other recreationists who live, work and play 
on the amazing public lands and great rivers of Owyhee County.
    This bill is not perfect. However, in considering this measure, we 
urge members of the committee to look at the big picture this 
legislation paints. If passed by Congress and signed by the President, 
we believe S. 3794 will:

  <bullet> Protect and conserve the most spectacular landscapes, rivers 
        and wildlife habitat in the Owyhee Canyonlands region.
  <bullet> Help end decades of costly and bitter battles over how best 
        to manage and maintain our precious public lands and rivers in 
        Owyhee County.
  <bullet> Protect a way of life unique to Owyhee County, and protect 
        ranching families and family businesses by providing more 
        certainty about public land management.
  <bullet> Provide the Bureau of Land Management with better tools for 
        managing public lands and waters in the region.
  <bullet> And protect the rich Native American heritage of the region.

    While Idaho Rivers United may have chosen to write portions of the 
Owyhee agreement and S. 3794 a bit differently than we see in the final 
products, the Act accurately reflects the compromise agreements 
hammered out by diverse local and national interests over the past five 
years. More importantly, S. 3794 will provide real, on-the-ground 
conservation and social benefits in this unique corner of the Western 
U.S.
    The remainder of this statement will focus on the proposed Wild and 
Scenic River designations outlined in Section 202 of the bill. Idaho 
Rivers United worked within the Owyhee Initiative framework to secure 
agreement on river protections, and the rivers are of greatest interest 
and importance to our membership.
         about the rivers--why these designations are important
    Protecting the rivers proposed for Wild and Scenic River 
designation in Section 202 of S. 3794 is a critical component for 
ensuring the long-term ecological health of the Owyhee region.
    In the dry, desert landscapes of the Owyhee country, rivers mean 
life.
    River corridors are home to approximately 70 percent of all plant 
and animal species found in the region. Important populations of 
California Bighorn Sheep and redband trout, as well as raptors, 
songbirds, river otters and other animals call Owyhee Canyonland river 
corridors home.
    The rivers listed in Section 202 deserve protection for other 
reasons:

  <bullet> The rhyolite/basalt canyons these rivers flow through are 
        part of the largest canyon system in the Western U.S. In 
        places, the sheer walls rise up more than 1,200 feet above the 
        river's edge.
  <bullet> The rivers of the Owyhee country offer outstanding 
        recreational opportunities. In the Jacks Creek area there are 
        remote backpacking, hiking and bird-watching opportunities. 
        Rivers like the Jarbidge, Bruneau and mainstem Owyhee are 
        floatable, and provide fantastic and remote canoe, kayak and 
        raft trips.
  <bullet> These rivers also offer travelers a sense of solitude that 
        is hard to find elsewhere in the continental U.S.--getting to 
        these rivers is often more difficult than navigating the rivers 
        themselves.

    Indeed, the rivers proposed for designation in this bill are all 
worth protecting and will add tremendous value to the national Wild and 
Scenic River System. They are unique among the rivers of Idaho, and 
they are unique among American rivers.
    Congress recognized the special character of Owyhee Canyonland 
rivers in 1968, when it identified in the original Wild & Scenic Rivers 
Act the Bruneau River as one of 27 around the nation warranting 
immediate study for possible designation. The Bruneau was studied and 
recommended to Congress for designation in 1976, but no action on 
designation has yet occurred. Passage of this bill would give the 
Bruneau the protection and recognition it has long deserved.
    Other rivers proposed for designation by this bill include sections 
of the Jarbidge, the mainstem Owyhee and key tributaries, along with 
important streams and key tributaries in the Jacks Creek basin.
    For the most part, river reaches proposed for designations follow 
the recommendations made in Bureau of Land Management Resource 
Management Plans. Streams in the Jacks Creek Basin have not yet been 
evaluated by the agency, but they certainly exemplify the remarkable 
wild character of other rivers and streams in the region and are worthy 
of federal protection.
    Conservation benefits of Wild and Scenic River designation will be 
significant. Designation will:

  <bullet> Prohibit the construction of new dams and water diversions 
        in the designated reaches.
  <bullet> Prompt development of agency management plans designed to 
        protect the outstanding values of the rivers.
  <bullet> Give the rivers a higher `profile,' which hopefully will 
        encourage better stewardship by river users.
  <bullet> Protect river flows by ensuring a Federal Reserved Water 
        Right designed to protect river values.

    In addition, these designations are particularly important in the 
context of this bill, and for the protection of the Owyhee Canyonland 
ecosystems generally, as Idaho water law does not recognize federal 
water rights for wilderness areas, but does recognize federally held 
water rights for Wild and Scenic Rivers. (We will address Wild & Scenic 
Water Rights further, later in this statement.)

    OVERCOMING STATE AND LOCAL OBSTACLES TO BUILD THE WILD & SCENIC 
                     PROPOSAL CONTAINED IN S. 3974

    To achieve consensus support for Wild and Scenic River designations 
in the Owyhee agreement and subsequent legislation, two major obstacles 
had to be overcome. They were:

          1. Concern voiced by the State of Idaho over the potential 
        for conflict and legal battles surrounding quantification of 
        Federal Reserved Water Rights for designated rivers.
          2. Concerns voiced by Owyhee County landowners about the 
        impact of court cases that affected grazing in Wild and Scenic 
        River corridors in Oregon. In those cases, including Oregon 
        Natural Desert Association v. Green, federal courts halted 
        grazing in the Donner, Blitzen and Owyhee rivers based on a 
        court finding that grazing conflicted with the outstandingly 
        remarkable values for which the rivers were designated.

                              WATER RIGHTS

    In seeking state support for the Owyhee Initiative agreement, 
including proposed Wild and Scenic River designations, it became clear 
that support would be difficult to obtain--if not impossible--if the 
issue of federal reserved water rights was not dealt with up front, and 
decisively.
    While the Idaho Supreme Court has clearly established that Wild and 
Scenic River designations warrant federal reserved water rights for 
designated rivers, there has been considerable conflict in Idaho over 
the quantification of federal rights for existing Wild and Scenic 
rivers.
    For instance, the federal government and the state of Idaho both 
spent five years, millions of dollars and devoted significant manpower 
in settling water right quantification battles over existing Wild and 
Scenic Rivers rivers as part of the Snake River Basin Adjudication. At 
the core of disputes over quantification in these river basins 
(including the Selway, Lochsa, Middle Fork Clearwater, Middle Fork 
Salmon and Main Salmon rivers) was the possibility of future, upstream 
water development by municipalities and other non-domestic water users. 
Eventually, this adjudication battle was settled via an agreement that 
subordinated some portions of federal reserved rights to limited, 
potential future development. (Note--The issue of subordinating Wild 
and Scenic water rights to future appropriations is not unique to 
Idaho. Agreements between the federal government and the states of 
Wyoming (Clarks Fork of the Yellowstone), New Mexico (Red River) and 
Montana (the Upper Missouri) have either made allowances for future 
appropriations, or, grandfathered private water rights issued after 
designation as `senior' to Wild and Scenic Rights.)
    In order to obtain state support and avoid potentially costly 
litigation over Wild and Scenic Water Right quantification, Owyhee work 
group participants agreed to find a way to protect flows in designated 
rivers, while allowing the flexibility for limited, future water 
development.
    The water rights agreement resulting from that effort is spelled 
out in Appendix B of the Owyhee Initiative Agreement. It would be 
giving the force of law by passage of S. 3974, specifically Section 
202(e) of S. 3974.
    In short, the Water Rights Agreement provides for future water 
uses, provided that ``[c]umulative withdrawals of water from each 
Designated Rivers principal watershed . . . shall be limited to a 
maximum instantaneous diversion rate of ten percent of mean monthly 
flows . . . in March, April, May and June.'' Water may only be diverted 
during these four months--the highest flow months of the year--and only 
so long as the diversions do not de-water perennial streams or 
prematurely de-water intermittent streams.
    We believe that this agreement, and the federal water rights it 
will allow the managing agency to acquire, will be very protective of 
in-stream values. It will also provide levels of protection for 
designated rivers that have not typically been afforded to other wild 
and scenic rivers in the West.
    In summary, the water rights agreement supported by this 
legislation will protect existing water right holders, as well as in-
stream values. As a result, the agreement enjoys broad and wide-ranging 
support--from conservation groups like Idaho Rivers United, to river 
recreationists, outfitters and guides, local ranchers and senior water 
right holders in the area, to the State of Idaho and the Idaho Water 
Users Association.
               landowner concerns over grazing management
    To address landowner concerns over the potential impact of Wild and 
Scenic River designations on grazing, the Owyhee Work Group initially 
agreed that where Wild and Scenic River designations overlapped with 
Wilderness designations, Wilderness Act grazing management regulations, 
like that found in Section 203(c) of this bill, would prevail.
    Idaho Rivers United agreed to that concept because:

          1. The geology of the river corridors makes grazing in many 
        of the sensitive riparian corridors physically impossible.
          2. We respected landowner desires to continue grazing 
        operations in places where they are currently being conducted. 
        And,
          3. Current BLM management plans already prohibit grazing in 
        many of the river corridors proposed for designation.

    However, when a national river conservation group raised concerns 
about this approach, the work group agreed to change legislative 
language on the Wild and Scenic River corridor boundaries to follow the 
`ordinary high water mark' along both sides of the rivers.
    These corridor boundaries give us pause, as we can envision that it 
will be difficult for the managing agency to protect out-of-water 
values with such unusually narrow corridors. Still, we can support the 
designations as offered in the bill because, we believe:

  <bullet> Protecting in-stream values is the most critical benefit 
        offered by designation for ensuring the health of Owyhee 
        ecosystems.
  <bullet> The entire Owyhee Initiative package--with its suite of 
        Wilderness designations and other management proposals--will 
        protect river corridors from incompatible development that 
        could harm outstanding values above the ordinary high water 
        mark.
  <bullet> And finally, the geography of the area and current BLM 
        management plans already restrict grazing in a majority of the 
        river corridors proposed for designation.

                               CONCLUSION

    Thank you for your consideration of S. 3974, and the 3,100 members 
of Idaho Rivers United hope that members of the committee will be able 
to support this bill as it moves through the legislative process. 
Passage will help protect remarkable landscapes, rivers and wildlife 
habitat, will protect ranching families, and, will help resolve decades 
of conflict over public land management issues in Southwest Idaho.
                                 ______
                                 
                 Statement of Jack Trueblood, Boise, ID

    This is my testimony-statement for the record on the Owyhee 
Initiative Implementation Act of 2006.
    I believe the Owyhee Initiative Implementation Act of 2006 is bad 
legislation for Idaho. Some of the reasons I feel this way follow:
    The process was not inclusive. Hunters, the largest Owyhee County 
recreation group, were not represented in negotiations creating the 
legislation. The Idaho Outfitters and Guides Association, which did 
have a seat at the table, is a business organization representing 
outfitters and their clients, not the general public. On the signature 
sheet of the Owyhee Initiative Agreement one can find names associated 
with a variety of county, agriculture and business groups but there is 
no name which could be attributed to a sportsman organization 
representative of members of the public.
    Landowners who sell access, land, or easements under this law would 
get to name their own price without appraisals. You or I would not buy 
land under those circumstances. Why should the taxpayers? If landowners 
trade for federal land, it will be appraised, therefore much lower-
valued. Large acreages of the lower-valued federal land will have to be 
traded for small private parcels. The public will lose access to the 
traded federal land.
    Using the proposed Science Review process, a person can call for 
review of any Bureau of Land Management (BLM) land management decision. 
A ``Board of Directors'' made up of the signers of the OI Agreement 
would decide if the complaint merits review. Many of them have no land 
management education or experience to make such a judgment. If the 
complaint has merit, staff from universities will get involved and, 
with other professionals, issue a non-binding opinion. I feel the BLM 
is a scientific agency capable of managing resources without adding 
this extra layer of bureaucracy.
    The bill proclaims livestock grazing an ``economically viable use'' 
of the resource. Well, it may or may not be, depending on how good a 
rancher is, but this hardly seems the stuff from which law should be 
made.
    Dickshooter Ridge, an area I have hunted and camped on since the 
late 1960s, previously was not a BLM Wilderness Study Area because it 
has roads. The Owyhee Canyonlands Wilderness Environmental Impact 
Statement printed in 1989 clearly shows WSA on the east, south and west 
areas of the Ridge, omitting the network of roads. In S. 3794 
Dickshooter Ridge is proclaimed wilderness, roads and all. I do not 
believe it fits the criteria of the Wilderness Act. Leaving the roads 
open but surrounded by Wilderness, as the BLM designated, would allow 
hunters to continue bird and big game hunting the length of the ridge. 
If it is all proclaimed Wilderness this opportunity will be lost 
because walking down the seven or so miles of ridge and back, carrying 
water for your self and a dog, is not a practical hunt.
    The Owyhee Initiative (OI) legislation states that the boundaries 
of wild and scenic rivers named in the bill ``shall be the ordinary 
high water mark.'' To my knowledge, this has never been done before 
since the Wild and Scenic Rivers Act was passed in 1968. The Rivers Act 
says streams included in the system ``shall be preserved in free-
flowing condition, and that they and their immediate environments shall 
be protected for the benefit and enjoyment of present and future 
generations.'' In previous designations, there has always been a 
``river corridor'' of adjacent land as called for in the Act. Under the 
Owyhee Initiative ``high-water'' rule, the selected streams do not 
qualify for protection under the Wild and Scenic Rivers Act because no 
``immediate environments'' have been designated.
    There are other reasons to oppose this legislation, but these 
highlight some of my concerns. Please help Idaho by stopping this 
legislation.
                                 ______
                                 
                                  Meridian, ID, September 15, 2006.
Hon. Larry Craig,
U.S. Senator, Hart Senate Building, Washington, DC.
    Dear Senator Craig: My name is Lee Sutherland and I live in 
Meridian, Idaho. I am a game bird hunter that hunts extensively in 
Owyhee County. I am writing to ask you to vote no on the Owyhee 
Initiative Implementation Act (OI Implementation Act). There are 
several reasons this legislation should not be enacted. My concerns 
with the bill are:

  <bullet> Bird hunters, big game hunters, trappers and other users of 
        the public lands in Owyhee County will lose traditional hunting 
        areas. These areas are remote and are generally only used by 
        hunters and trappers willing to travel the primitive roads. In 
        one case, Dickshooter Ridge, this area was not included in any 
        Wilderness Study Area. Now suddenly it may become wilderness 
        with no motorized access, not even a cherry stem road. This 
        area is used by a variety of hunters, however, never generally 
        at the same time, therefore retaining its solitude.
  <bullet> The release of Wilderness Study Areas (WSA) would not be 
        beneficial to hunters or the game they hunt. Presently, under 
        WSA management hunters, motorized recreationists, ranchers and 
        others use these areas. The motorized users are restricted to 
        established roads and ranchers graze their cattle with some 
        restrictions. WSA's provide good wildlife habitat and good 
        hunting. Under the OI Implementation Act much of this will be 
        off limits to hunters and motorized users.
  <bullet> The conditions of the sale of land to the Bureau of Land 
        Management (BLM) are highly unusual and questionable, as are 
        the terms for exchange of land. The land owner gets to set the 
        price of his land and BLM is bound by their appraisal 
        procedures. This means of land sales and exchange is not in the 
        hunters or taxpayers interest. Hunters stand to lose good 
        hunting locations and likely good wildlife habitat that is 
        essential to good hunting.
  <bullet> The Science Review Process only adds an unnecessary layer of 
        bureaucracy to the land decision process. The pubic users, 
        commercial and non-commercial have ample opportunity under the 
        present process to provide input and challenge decisions.

    Hunters were excluded from the collaborative process on the Owyhee 
Initiative. Owyhee County and the environmental representatives on the 
OI Initiative claimed the Outfitters and Guides Association (IOGA) 
representative was a representative for hunters. The IOGA 
representative is and was not the spokes person for hunters since he 
never approached hunters or their organizations asking or volunteering 
to be their representative. Therefore, hunters were not and currently 
under represented on the OI Working Group and Board of Directors.
    For these foregoing reasons I ask that you vote no on the OI 
Implementation Act, S. 3794.
    I wish to thank you for your efforts to secure funding for sage 
grouse conservation in Idaho. Your support for Idaho's sage grouse is 
greatly appreciated.
            Cordially,
                                                    Lee Sutherland.
                                 ______
                                 
   Statement of TinaMarie Ekker, Policy Director, Wilderness Watch, 
                              Missoula, MT

    Wilderness Watch appreciates this opportunity to provide written 
testimony into the hearing record regarding S. 3794, the Owyhee 
Initiative Implementation Act of 2006 (OJA).
    Wilderness Watch is a national conservation organization dedicated 
to assuring ongoing protection for the lands and waters within the 
National Wilderness Preservation System and Wild & Scenic Rivers 
System. Our mission is to ensure that the unique qualities and values 
of wilderness character are preserved throughout our National 
Wilderness Preservation System and not allowed to diminish over time.
    Wilderness Watch strongly supports authentic wilderness designation 
for the Owyhee Canyonlands and adjacent sagebrush steppe of southwest 
Idaho. Unfortunately, the OIA does not provide the traditional 
protections of the Wilderness Act and therefore does not assure 
protection for the wilderness character of this special place. In the 
OIA, a number of traditional Wilderness Act and Wild & Scenic Rivers 
Act protections are either excluded or significantly undermined by 
wilderness-weakening exceptions.
    For these reasons Wilderness Watch cannot support the OIA until 
substantial changes and improvements are made in the bill. As currently 
written, we believe that the OIA would be bad for wilderness, bad for 
public lands, and bad public policy for America in general. Our 
concerns and suggestions are outlined below.

                         CALL FOR A MORATORIUM

    On September 12th, 2006 Wilderness Watch joined with 80 other 
conservation organizations across the country in issuing a public 
letter calling upon our colleagues and Congress to support a Moratorium 
on any further action at this time on four omnibus public lands bills 
that privatize public lands and undermine wilderness protections:

          (1) White Pine County Conservation, Recreation and 
        Development Bill of 2006, S. 3772
          (2) Central Idaho Economic Development and Recreation Act, 
        H.R. 3603
          (3) Washington County Growth and Conservation Act of 2006, S. 
        3636, H.R. 5769
          (4) Owyhee Initiative Implementation Act of 2006, S. 3794

    The purpose of the Moratorium is to provide a temporary ``time 
out'' to allow sufficient time for public analysis and discussion 
regarding the complex details in these bills. The Owyhee Initiative 
Implementation Act (OIA) was introduced just weeks ago, in August, so 
there has been very little time for conservationists and the rest of 
the public to review and publicly discuss this lengthy and complex 
measure. Prior to introduction the most recent draft that was available 
for public review was dated December 2004. With 18 months intervening 
between the last draft and the bill's introduction, it is only prudent 
to allow sufficient time for review of this bill. Although the Senate 
held a subcommittee hearing on September 27th there have been no field 
hearings in Idaho on the OIA, so local residents have not had a full 
opportunity to have their views heard and recorded by Congress.
    For all of these reasons it is prudent for the Senate and Congress 
to support a ``time out'' on each of these complicated omnibus public 
lands bills so that there is sufficient time for each bill to be fully 
reviewed and evaluated in an open, transparent and public manner. 
Rushing such broad, sweeping public lands bills through Congress with 
very little time for detailed public scrutiny is not the way to create 
sound public land policies.
    Wilderness Watch urges the Senate to support conservationists' 
national call for a Moratorium on the OIA along with the other three 
sweeping quid pro quo bills named, until there has been sufficient time 
for further review and public field hearings held in local communities 
on these complex bills.

                         OVERALL RECOMMENDATION

    The single biggest and simplest change that would greatly improve 
the OIA's ability to actually protect the wilderness character and wild 
rivers of the Owyhee Canyonlands region would be to eliminate all of 
the following sections from the legislation:

          Sec. 202(c)
          Sec. 202(e)(3)
          Sec. 203(c), (d), (e), (f), (h), (i), (l) (remove each of 
        these sections in their entirety)

    We recommend that these sections of the bill be replaced with the 
following provision that has been incorporated into numerous pieces of 
wilderness legislation:

          The Wildernesses designated by this Act shall be administered 
        by the Secretary of the Interior in accordance with the 
        provisions of the Wilderness Act governing areas designated by 
        that Act as wilderness, except that any reference in such 
        provisions to the effective date of the Wilderness Act shall be 
        deemed to be a reference to the effective date of this Act.
          The Wild Rivers designated by this Act shall be administered 
        by the Secretary of the Interior in accordance with the 
        provisions of the Wild & Scenic Rivers Act, provided that where 
        management requirements for a stream segment described in the 
        amendments made by this section differ between the Wild & 
        Scenic Rivers Act and the Wilderness Act, the more restrictive 
        requirements shall apply.

    By including pages of new language and provisions that differ from 
the Wilderness Act and Wild & Scenic Rivers Act, the OIA ensures that 
the areas designated will not be managed in accordance with the 
provisions and intent of the Wilderness Act or Wild & Scenic Rivers 
Act. If in fact the true intent is to manage these areas as authentic 
wilderness and wild rivers, then there is no need for any additional 
verbage beyond the simple paragraphs suggested above. We urge the 
Senate to amend the bill to incorporate this recommendation.

                           PURPOSE OF THE OIA

    A primary purpose of the OIA is to ``provide for economic stability 
by preserving livestock grazing as an economically viable use.'' It is 
inappropriate for legislation to elevate one user groups' use of public 
lands to a special right protected by law. America's economy is very 
dynamic and has undergone a number of major changes in the last 100 
years. The various sectors of our national economy are strongest and 
function best when they are flexible and responsive to changing 
societal forces.
    Public lands ranching occurs in many locations across the West. We 
should not be elevating 15 ranchers in one Idaho county above all other 
public land ranchers by guaranteeing the Owyhee county ranchers 
economic viability for their livestock operations via statute. This is 
not good national public lands policy and is at best narrow special 
interest legislation that neither benefits other ranchers or the public 
at large.

                    THE OWYHEE INITIATIVE AGREEMENT

    The Owyhee Initiative (OI) was crafted by a small group of 
interests that were hand-selected by Owyhee County Commissioners. Many 
interests and organizations were excluded from those discussions that 
centered on the future of 3 million acres of public lands in southern 
Idaho. It is highly inappropriate for County Commissioners to be 
selecting who can and cannot participate in discussions that will 
affect federal public lands belonging to all Americans. Despite claims 
of ``collaboration,'' the OI was a closed, exclusionary process from 
the very beginning, with details and updates extremely difficult to 
obtain from those who participated.
    The outcome of those closed-door negotiations is therefore not a 
product of public input or review. The OI and the OIA therefore both 
lack public legitimacy, and are not good models for determining the 
future management of our public lands.
    Furthermore, it is not clear in the OIA whether the OI Agreement is 
fully adopted into law as part of the OIA. Although the OIA notes that 
a key purpose of the bill is to implement the OI, the OI is not 
explicitly attached to the bill, so it is difficult for the public to 
know what is and isn't planned for this sizable expanse of public 
lands. It would be better if all specific provisions intended for 
implementation are specifically spelled out within the legislation 
itself.

                           BOARD OF DIRECTORS

    Originally, the OI called for establishing a Board of Directors to 
``oversee implementation'' of the OI Agreement. Participants in the OI 
self-selected themselves to comprise the Board. The stated reason for 
that self-selection was to retain the ``institutional memory'' of the 
ad hoc group that had crafted the OI Agreement.
    However, some participants of that ad hoc group have now moved on 
to other states so their ``memory'' is no longer available for 
participation on the Board. In recent months several new interest 
groups have suddenly been added to the OI group (with permission from 
the county commissioners). The new groups that were not at the table 
during the multi-year discussions on the OI Agreement certainly bring 
no ``institutional memory'' to a new OI Board. One can only surmise 
that the county commissioners are handpicking new interests to join the 
OI the Board for self-interested political reasons, while continuing to 
keep the whole process closed to the general public.
    The creation of a Board of Directors to oversee the OI Agreement is 
not necessary and is not beneficial to the public or our public lands. 
The Board is specifically set up to grant livestock producers more 
avenues to challenge and dispute BLM's grazing management decisions.
    Ranchers as well as the general public already have public avenues 
for providing input and challenging agency decisions through NEPA, 
administrative appeals, and the courts. The OI Board of Directors 
creates a whole new layer of non-public oversight over BLM management 
decisions. The Board would review any grazing-related issue brought 
before the Board by any of the local 15 ranchers, and would refer those 
issues for further review to a new Science Review panel. In contrast, 
the Board would have discretion whether or not to review issues raised 
by non-ranching interests and refer those for scientific review.
    Why is it necessary for ranchers or the rest of the public to bring 
their concerns before a new self-appointed Board of Directors rather 
than present those issues directly to BLM through the existing public 
involvement and dispute resolution processes? How will the OI Board be 
beneficial in protecting public lands and wilderness in Owyhee County?
    Pending further examination and discussion as to the necessity and 
role(s) of an OI Board of Directors, Wilderness Watch recommends that 
establishment of such a Board be removed from the OIA.

                         SCIENCE REVIEW PROGRAM

    The OI would establish a science review process to review certain 
decisions or actions of the BLM regarding public land in Owyhee County. 
Any grazing-related issues would be guaranteed outside scientific 
review upon request. The OI Board of Directors would be responsible for 
developing guidelines to select members of the outside scientific 
review team, with input by the Dean of the College of Natural Resources 
of the University of Idaho.
    This provision in the legislation is highly problematic. First, the 
OI Board lacks the expertise to select capable outside scientific 
reviewers. Second, only ranchers are guaranteed access to the outside 
science review of BLM management decisions. This means the OI Board can 
choose to exclude the public from the review procedure, which distances 
the public from decisions affecting public lands. Third, all members of 
the public, including ranchers, are currently allowed to draw upon 
outside scientific expertise to challenge or affect public land 
management decisions, so there appears little ``scientific'' 
justification for establishing a very localized scientific review 
program.
    For this reason there appears to be no scientific need for 
establishing a ``science review program'' catering to public lands 
issues specifically for Owyhee County. There is a real risk that the 
primary purpose of creating this new level of review will be to slow 
down and limit the public involvement process, and marshal political 
allies to support the views and wishes of the 15 local ranchers.
    A final concern with creating this new science review program is 
the question of how it will be funded. Certainly taxpayers should not 
be expected to finance a quasi-private review entity to which the 
public itself is not guaranteed access. Special interests funding 
should also be prohibited in order to assure that the potential 
scientific reviewers can truly operate independently.
    Pending further examination and discussion as to the necessity and 
role(s) of an OI science review program, Wilderness Watch recommends 
that establishment of such a Board be removed from the OIA.

                    CONSERVATION AND RESEARCH CENTER

    The OI would also create a Owyhee Initiative Conservation and 
Research Center to review, coordinate, and recommend ``landscape-
scale'' conservation and research projects in Owyhee County. The 
Conservation and Research Center would be overseen by the OI Board of 
Directors (another self-selected duty the Board is assigning itself 
with no public involvement or input).
    It is very unclear why such a science center is needed to 
coordinate public land management activities in Owyhee County. Other 
counties in the West with a high percentage of federal lands have not 
required such a Center in order to effectively involve the public and 
science in public land management. It is further questionable given the 
substantial amount of scientific consulting expertise that is already 
available through many universities, government agencies, and private 
institutions. Both the public and land managers already have the 
capacity to avail themselves of this vast amount of available 
information, so there appears to be little scientific justification for 
legislating the cost and potentially micro-management tendencies of a 
research center specializing primarily in Owyhee County and answering 
to a non-qualified, self-selected OI Board of Directors.
    Pending further examination and discussion as to the necessity and 
role(s) and costs of an OI Conservation and Research Center, Wilderness 
Watch recommends that establishment of such a Center be removed from 
the OIA.

                 WILDERNESS AND WILD RIVER PROTECTIONS

    As noted in our introductory remarks, the OIA strays far from the 
provisions and intent of the Wilderness Act and Wild & Scenic Rivers 
Act, undermining the protections outlined in those landmark pieces of 
legislation. We will not describe every wilderness-weakening provision 
in the OIA in detail, but suffice it to say that some of the measures 
would establish new precedents that greatly lower the bar on protection 
and grant statutory rights to certain public land user groups, thereby 
elevating their use above other members of the public.
    A few examples:

  <bullet> The OIA would establish ``wild streambeds'' with boundaries 
        set at the high water mark, instead of designating wild river 
        corridors as specified under the Wild & Scenic Rivers Act.
  <bullet> The OIA would be the first piece of wilderness legislation 
        to authorize ranchers unlimited freedom to ride motorcycles and 
        ATV's cross-country in wilderness as a ``customary use'' 
        associated with their livestock operations.
  <bullet> The OIA would be the first piece of wilderness legislation 
        to make packstock use a statutory right in wilderness, stating 
        that ``nothing in this Act precludes horseback riding or the 
        use of recreational saddle or pack stock in any wilderness 
        designated by section 201.'' This means that use of packstock 
        would trump the obligation of managers to regulate public uses 
        in order to preserve wilderness character. Essentially, the OIA 
        says that protection of wilderness character cannot be the 
        basis for limiting or precluding stock use even if necessary to 
        protect wilderness values.
  <bullet> Similarly, the OIA contains unprecedented language that 
        results in diminishing the importance of preserving wilderness 
        character while elevating the ``rights'' of commercial 
        outfitters to continue conducting their outfitting activities 
        unchanged, including enshrining into law the outfitters' 
        current system of reserved camps and allocated river launches. 
        Outfitters currently have no statutory rights to reserved camps 
        or specified river launches, but under OIA the terms of their 
        current temporary permits would become the permanent law of the 
        land.
  <bullet> OIA contains unprecedented and extremely broad language 
        regarding access through wilderness to reach non-federal land. 
        This language in the OIA sets an extremely new low for 
        wilderness protection!
  <bullet> Unlike most wilderness legislation that Congress has passed 
        to date, the OIA gives State Fish & Game managers statutory 
        authority to do almost anything they want in wilderness in 
        terms of manipulating wildlife, including habitat 
        manipulations, lethal predator control, stocking with non-
        native species, stream poisoning, and use of aircraft and 
        motorized ground vehicles in wilderness for routine game 
        management activities.

    Essentially; the OIA would designate ``wilderness'' and ``wild'' 
rivers on paper, but afford them almost none of the actual protections 
contained in the Wilderness Act and Wild & Scenic Rivers Act. 
Wilderness Watch cannot support designating ``paper wilderness'' 
stripped of most real protections for these worthy areas, and therefore 
we ask that major changes be made to the Act's provisions regarding 
administration of wilderness and the wild rivers.
    Essentially, the OIA would label these places as ``wilderness'' and 
``wild'' but provisions in the OIA would assure that essentially 
nothing would change out on the ground in terms of allowable activities 
in wilderness. The OIA would grant certain user groups new statutory 
rights they don't currently possess while also saddling the wilderness 
with a new bureaucratic overlay in terms of an OI Board of Directors, 
Science Review Program, and Conservation and Research Center to oversee 
grazing and other grazing-related land management activities in 
wilderness. This new overlay would further remove the public from 
meaningful involvement in public land management decisions while 
granting a few special interests--15 ranchers--greatly expanded 
involvement.
    Wilderness Watch asks Congress to consider why we should designate 
areas as wilderness and wild rivers if nothing is really going to 
change out on the ground and if these areas are not going to be managed 
and protected as such designations usually intend.
    Thank you for consideration of our testimony.
                                 ______
                                 
    Statement of Barbara Wilson, Chairperson, Friends of Mt. Hood, 
                             Beaverton, OR

    Friends of Mt. Hood is a conservation group formed in 1989. Our 
mission statement focuses on the healthy ecology of Mt. Hood. The 
majority of our members are not only conservationists but also avid 
hikers, back-country and cross-country skiers and are well acquainted 
with Mt. Hood through our recreational activities.
    With regard to the proposed wilderness legislation, we support the 
entire wilderness proposal of 128,000 acres.
    Friends of Mt. Hood has the following comments:

                               LAND TRADE

    We support the proposed land trade of 759 acres of land at Cooper 
Spur (northeast side of the mountain) for 120 acres of land at 
Government Camp (south side) by Mt. Hood Meadows and the Forest Service 
for the following reasons:
    1. Government Camp is already well developed with condominiums so 
an additional condominium development would be a compatible land use. 
Clackamas County has zoned the 120 acres. for development. Since urban 
development is already rampant in this area, the property will be 
developed eventually. Under these circumstances, the land trade 
proposal is in the public's best interest. No other potential developer 
has land to trade on Mt. Hood.
    2. The land at Cooper Spur (north side of the mountain) is zoned A-
11, winter recreation. It is currently undeveloped and wild. With A-11 
designation, the Forest Service would allow near destruction of the 
undeveloped pristine mountain areas at Cooper Spur by Mt. Hood Meadows, 
the ski resort developer. Please understand how destructive ski runs 
and chair lift towers are to the land. Development of ski facilities 
requires massive tree removal) bulldozing and grading with heavy 
equipment on fragile alpine soils.
    3. WILDLIFE: Friends of Mt. Hood is dedicated to wildlife 
protection Elk, deer, cougar, black bear have used migration corridors 
on the north side for hundreds of thousands of years from the high 
summer meadows to the lower winter browsing areas. To have the proposed 
ski resort development in the middle of the migration corridor, would 
prove devastating for this wildlife. They would not survive. What Dave 
Riley, General Manager of Mt. Hood Meadows, had in mind to save the 
wildlife was a joke! (little bridges over the creeks, and maybe a trail 
a few feet wide. Can you picture how this would work with dogs and 
people in such close proximity?)
    4. WATER SHED: Mt. Hood Meadows would give up their 450-
condominiums, (all on septic tanks,) shopping centers, ice skating 
rink, amphitheater, golf course, hotels, roads and parking lots. etc. 
By giving up the condominiums and the golf course, the purity of the 
Crystal Springs water shed would be retained. This water shed provides 
drinking water for 2500 hook-ups (5,000-6000 people).
    5. REDUCTION IN SIZE OF DEVELOPMENT OF SKI AREA: Instead of using 
1450 acres of magnificent wilderness for ski lifts and ski runs, the 
footprint would be limited to 70 acres. Reducing the size of future ski 
development would be a significant gain in preserving the ecological 
good health of Mt. Hood.
    6. Meadows would abandon all their hardware at Cooper Spur 
including a $1M new chair lift. (the Ribster). They would leave the 
north side totally and a different concessionaire would run the smaller 
ski area.
    7. PAYMENT: MHM would pay $1.7 million to the Forest Service for 
the discrepancy of values between Cooper Spur holdings and Gov Camp 
holdings.
    OTHER COMMENTS We support the entire wilderness proposal of 128,000 
acres. S. 3854
    1. In addition to the land exchange which we strongly support, we 
support the inclusion of BONNEY BUTTE on the east side of Mt. Hood. 
Please be aware that this area is used by approximately 25,000 raptors 
(hawks, eagles, owls) for migration. This area must never be developed.
    2. It seems totally reasonable to us that TAMANAWAS FALLS should be 
included in wilderness designation. This is a favorite hiking trail for 
hundreds of folks every year. Currently this area has large old trees 
that grow near the mountain streams and is truly a magnificent area.
    3. WHITE RIVER must be included in the wilderness proposal. Mt. 
Hood Meadows has pressured the Forest Service for many years to develop 
into White River. This ski resort already has 12 chair lifts on the 
east side of the mountain. Mt. Hood Meadows is only one ski development 
of several on Mt. Hood. Enough is enough! We keep asking the Forest 
Service to STOP development into pristine areas before the mountain is 
totally destroyed. Mt. Hood is a relatively small mountain and has more 
ski lift development than any other mountain its size in the United 
States.
    We urge your support of the entire wilderness proposal of 128,000 
acres proposed by Senators Ron Wyden and Gordon Smith.
                                 ______
                                 
                Statement of Carolyn Eckel, Portland, OR

    This testimony is on behalf of the wilderness legislation proposed 
by the Oregon Senators to expand protection of the wild lands and 
rivers in the Mt. Hood National Forest and the Columbia River Gorge.
    I am a long time hiker and do my hiking primarily on the trails in 
the Mt. Hood area and in the Gorge. When I hike, I notice that parts of 
the trails are in wilderness and other parts are not. This causes me to 
worry that some day many of my favorite hiking trails may be greatly 
shorted by logging because they aren't protected by wilderness status 
for their entire length. Also, I read in various publications that the 
Forest Service plans to allow logging in areas very close to my 
favorite hiking trails. It would greatly diminish my enjoyment of 
hiking to see clearcuts while hiking. All of this is why I would like 
to see the areas where I have hiked which are listed below granted 
wilderness status or designated as wild and scenic rivers or protected 
as national recreation trails. According to my hiking journal, I have 
been to some of these areas many times, some only once, but I think 
they are all worth protecting.

  <bullet> Badger Creek and the adjacent areas
  <bullet> Bonney Butte
  <bullet> 15 Mile Creek trail
  <bullet> Memaloose Lake and surrounding area
  <bullet> Boulder Lake
  <bullet> Larch Mountain trails
  <bullet> Shellrock Mt.
  <bullet> Twin Lakes area and trails
  <bullet> Bull of the Woods
  <bullet> Mirror Lake
  <bullet> Hunchback Mt.
                                 ______
                                 
   Statement of Michael Lang, Conservation Director, Friends of the 
                      Columbia Gorge, Portland, OR

    Mr. Chairman and Members of the Subcommittee on Public Lands and 
Forests:
    Thank you very much for the opportunity to submit comments in 
support of S. 3854. Friends of the Columbia Gorge (Friends) applauds 
the hard work and bipartisan efforts of Senator Ron Wyden and Senator 
Gordon Smith to introduce S. 3854, the Lewis and Clark Mount Hood 
Wilderness Act, a bill to protect wild lands and waters around Mount 
Hood and in the Columbia River Gorge as Wilderness and Wild and Scenic 
Rivers. An overwhelming majority of Oregonians supports the protection 
of this Mount Hood and the Columbia Gorge, and other pristine public 
lands as Wilderness to ensure they remain free of clear cuts, 
developments and roads. Friends and its allies represent thousands of 
Oregonians who want to conserve our beautiful state's remaining wild 
lands for future generations to use and enjoy.
    Friends is pleased that S. 3854 would protect 128,400 acres as 
wilderness, including the iconic waterfalls, ridges and majestic old-
growth forests of the Columbia River Gorge. The bill would permanently 
protect 26,000 acres of the pristine Gorge ridgeline and Larch 
Mountain, which contains the largest remaining stands of old-growth 
forests in the Gorge. The bill also carefully avoids the inclusion of 
trails that are currently open for mountain bike use. This will assure 
continued use and enjoyment of the Larch Mountain loop trails for our 
mountain biking friends, regardless of the light biking use that the 
trails currently experience.
    We also recognize and support the fact that the Senator's were very 
careful to avoid existing development and to establish buffers between 
the proposed wilderness boundary and the existing town of Cascade Locks 
and rural hamlets such as Dodson-Warrendale.
    We also support the bill's protection of: the Badger Creek 
additions of 3,700 acres; the Bull of the Woods additions including 
6,870 acres; the 11,900 acres included in the Clackamas Wilderness 
Areas; the Lower White River Wilderness; pristine backcountry of 
Roaring River; the 21,580 acre additions to the Mount Hood Wilderness; 
and the 17,720-acre addition to the Salmon-Huckleberry Wilderness.
    We also support the inclusion of over 100 miles of streams in the 
Mount Hood National Forest as Wild and Scenic Rivers, helping preserve 
water quality, recreation and important habitat for salmon and 
steelhead.
    We thank the Senators for this legislation to protect some of 
Oregon's most cherished places. This is an important step towards 
preserving the Columbia Gorge and Mount Hood as a legacy for our 
children and future generations to experience and enjoy. We will 
continue to work with the entire delegation toward the goal of passing 
and having wilderness legislation signed into law this year.
    During the past decade Friends and its allies, particularly Oregon 
Wild (formerly Oregon Natural Resources Council) have identified and 
mapped over 261,000 acres of wilderness-quality lands on the Mount Hood 
National Forest. Wild lands like these make and keep Oregon a special 
place to live, work and raise a family. Unfortunately Oregon lags far 
behind our neighbors in wilderness protection--only 3.7% of Oregon is 
protected as wilderness, compared to 10% in Washington and 14% in 
California.
    Wilderness designation, defined by the Wilderness Act of 1964, is 
the strongest, most effective protection for public land. It safeguards 
special places from destructive development, logging and mining, while 
preserving the public's ability to enjoy them through numerous 
recreational activities. Wilderness protection is also one of the best 
ways to preserve healthy salmon runs and clean drinking water for 
Oregon residents. The unspoiled old-growth forests in the wild lands 
around Mount Hood provide clean drinking water for more than 200,000 
Oregonians in Cascade Locks, Hood River, Sandy, Gresham, Estacada, West 
Linn, Lake Oswego, welshes, Oregon City, The Danes, and many other 
municipalities.
    Wilderness designation is also vital to Oregon's tourism and 
recreation industries. Each year hundreds of thousands of people flock 
to Oregon's wild lands to enjoy backcountry recreation like 
snowshoeing, hiking, boating, hunting, fishing, and horseback riding. 
Wilderness tourism pumps millions of dollars into Oregon's economy, and 
is critical to local communities like Hood River, Cascade Locks, Sandy, 
and Estacada. The unspoiled nature of places like Larch Mountain and 
the Oneonta Gorge attract people to visit, recreate and live in Oregon. 
Protecting these areas as Wilderness is the best thing we can do for 
our communities and our quality of life.
    Thank you again for crafting and introducing legislation to protect 
more of Columbia River Gorge ridgelines and forests as a legacy for 
Oregon. We appreciate the opportunity to comment on S. 3854 and 
strongly support the Wilderness and Wild and Scenic River components of 
the legislation. We look forward to working with you throughout the 
legislative process to secure protections for these remaining wild and 
unspoiled lands.
                                 ______
                                 
       Statement of the Confederated Tribes of the Warm Springs 
                         Reservation of Oregon

    Mr. Chairman, the Confederated Tribes of the Warm Springs 
Reservation of Oregon hereby submit this testimony on S. 3854, the 
Lewis and Clark Mount Hood Wilderness Act of 2006, and H.R. 5025, the 
Mount Hood Stewardship Legacy Act, to the Senate Committee on Energy 
and Natural Resources Public Lands and Forests Subcommittee's September 
27, 2006 hearing on these bills. We ask that this testimony be made a 
part of the official hearing record.
    Mr. Chairman, the Confederated Tribes of the Warm Springs 
Reservation of Oregon (hereinafter ``Tribe'' or ``Confederated 
Tribes'') is pleased with the introduction of S. 3854, the development, 
introduction and House passage of H.R. 5025, and this Committee's 
hearing on these bills. These two bills significantly advances the 
prospects of updating the wilderness and other land use designations in 
the Mount Hood National Forest to address the growing demands placed 
upon the Forest by the expanding population in the Portland 
metropolitan area and other nearby areas in the State.
    We are also pleased that both bills seek to address the interests 
of the Warm Springs Tribe in the Mount Hood National Forest. The people 
of the Confederated Tribes have lived since time immemorial within and 
around what is today the Mount Hood National Forest. We have been 
nourished by its fish, game and plants, and enjoyed its sanctuary, 
protection and beauty. We arose from this land, and have long been its 
stewards. In more recent times, as a contemporary government in 
Oregon's community of governments, we also enjoy and exercise our 
rights and interests both along side and within the Mount Hood National 
Forest, including our unique treaty reserved rights and our traditional 
and religious practices.
    Against this background, we make our comments below. Our comments 
are keyed to S. 3854, but also draw upon H.R. 5025 as appropriate.
    Section 2. Findings. (2), page 3 line 9. Please delete Finding (2). 
Ascribing that we ``arrived . . . from Asia by way of the Bering Sea'' 
does not comport with our system of beliefs and makes no needed 
contribution to the bill's Findings. Further, the Findings' tendency to 
emphasize the recreational uses of Mount Hood National Forest by the 
``descendants of the early settlers,'' as in Finding (10), page 5, 
diminishes by comparison the contemporary role the Forest has for our 
Tribe, which is far broader and more essential to our lives than just 
recreation. We ask that, in revising S. 3854's Findings, the Senate 
sponsors will work with our Tribe to achieve a more balanced 
description of what the Mount Hood National Forest means to all the 
people of Oregon.
    Section 102(a)(5). Mark O. Hatfield Wilderness Additions, page 11 
line 23. The Warm Springs Tribe supports the Gorge Ridgeline extension 
of the Mark O. Hatfield Wilderness only to the top of the ridge above 
and to the east and west of the City of Cascade Locks. We do not 
support extension of the Wilderness designation over the top of the 
ridge toward the Columbia River Gorge. We mention this because it is 
not clear from the maps immediately available for our review where the 
Senate proposed extension ends. Full wilderness designation directly on 
the face of the slope leading down into Cascade Locks would unduly 
constrain the City's economic options and pose the prospect of future 
wilderness restriction encroachment.
    Section 102(b)(2). Columbia Gorge Airshed, page 14 line 5. We 
support this section, as well as Section 102(c)(4) in H.R. 5025. It is 
important to the economy of the Columbia River Gorge that the new 
designation of nearby Wilderness not stifle the ability of long-
established Gorge communities to provide strong economies for their 
citizens.
    Section 104. Administration. We note that the Senate bill omits the 
``Continued Use by Members of Indian Tribes'' provisions included in 
H.R. 5025, Section 103 (i)(1), (2) and (3). Throughout all of our 
history, the ancestors of people who today are members of the 
Confederated Tribes have used what is currently called the Mount Hood 
National Forest for traditional cultural and religious purposes. In S. 
3854, which is predicated on providing Wilderness, Recreational Areas, 
and Wild and Scenic River designations for the benefit of the surging 
majority population, it is particularly essential that our people be 
assured that we will be able to continue the sacred and ancient 
traditions that have bound us to the land forever, as in H.R. 5025 
Section 103(i)(1). It is also essential that the Senate bill include 
the temporary closure provision as in Section 103(i)(2) of H.R. 5025 so 
that we can continue to practice our traditional cultural and religious 
activities without fear of intrusion or interruption. We understand 
that such closures will have to be arranged with the Forest Service, 
and that they be for the smallest area and least amount of time 
practicable to carry out these activities. We further understand that 
such activities in Wilderness areas be in accord with the Wilderness 
Act, as well as the American Indian Religious Freedom Act. A clear 
enunciation of these provisions, as in H.R. 5025's Section 103(i)(1), 
(2), and (3), is necessary in S. 3854 for the continued recognition and 
safeguarding of our traditional cultural and religious practices in the 
Mount Hood National Forest.
    Section 105. Buffer Zones, page 16 line 15. Similar to air quality 
designations, as S. 3854 and H.R. 5025 expand Wilderness areas closer 
to established communities, it becomes important that clear language be 
included assuring that the new proximity of Wilderness not stifle those 
communities' ability to economically prosper for the benefit of their 
citizens. While both bills contain such ``no buffer zone'' language, it 
appears to us that the House language in Section 103(j) is clearer, and 
hence preferable to the Senate provisions in Section 105. The House 
language states that ``nothing in this Act creates protective 
perimeters or buffer zones'' while the Senate language states only that 
``Congress does not intend for designation of wilderness . . . to lead 
to the creation of protective perimeters or buffer zones.'' The Senate 
language also states that activities or uses up to boundaries shall 
not, ``of itself,'' preclude the activities. Both Senate provisions 
contain the implicit suggestion that activities can still be precluded. 
Again, the House language on this point is clearer and, so, preferable.
    Section 107. Gateway Communities, page 17 line 12. The Warm Springs 
Tribe, as a government exercising jurisdiction over extensive borders 
with the Mount Hood National Forest, asks that tribal. governments be 
included, along with county governments, as eligible for ``gateway 
community'' grants. S. 3854's proposed Wilderness additions at Lower 
White River and Sisi Butte are both proximate to the Warm Springs 
Reservation, from which they might be accessed. Accordingly, we suggest 
that on page 17, line 17, add ``and tribal'' after ``appropriate 
county.''
    Section 108. Fish and Wildlife; Hunting and Fishing, page 17 line 
23. The Warm Springs Tribe supports this Section, which is very similar 
to Section 103(h) in H.R. 5025, in that it permits fish and wildlife 
restoration and management activities to continue--consistent with 
wilderness management plans and in accord with applicable guidelines 
and policies--in the new Wilderness areas designated in the bill. This 
is particularly important for the on-going efforts to restore the 
salmon runs that are vital to our treaty rights. It is not clear, 
however, why ``Hunting and Fishing'' is included in the caption for 
Section 109 when there is no direct reference to hunting and fishing in 
the text of the section. If the caption title is intended to denote 
that hunting and fishing activities are a component of fish and 
wildlife management, we note that Warm Springs hunting and fishing 
within the Mount Hood National Forest are guided by our Treaty of 1855 
and are subject to the treaty savings language in Section 804 of S. 
3854.
    Title III--Mount Hood National Recreation Area, Section 301. 
Designation, page 28 line 3. Overall, the designation of specific 
Recreation Areas within the Mount Hood National Forest raises for us 
the prospect of ``loving the Mountain to death.'' Intensive 
recreational activity, even in nonmechanized forms such as mountain 
biking, can be destructive. Accordingly, we approach this Title with 
some caution, and we take a measure of reassurance from some of the 
protective provisions in the Title. For instance, within Section 
301(d), we are encouraged by 301(d)(1)(A)(ii)--protection and 
maintenance of fish and wildlife habitats and (1)(B)--conservation of 
cultural and spiritual values, among others. We are concerned, however, 
that 301(d)(1)(D)--protection and interpretation of archeological and 
paleontological sites, would actually identify and attract people to 
these sensitive areas. This attraction may lead to the prospect of 
defacement and destruction of these historic properties that are such a 
major part of the Confederated Tribes of Warm Springs memberships' past 
history and current culture. Accordingly, we ask that the Committee and 
the sponsors work with the Tribe to authorize more generalized 
archeological and paleontological interpretive information, such as an 
interpretive trail that does not identify specific sites.
    We support Section 301(d)(2)(C), which provides for the new 
construction, temporary construction, or reconstruction of roads in the 
proposed Recreation Area ``to allow for reserved or outstanding rights 
provided by a statute or treaty.'' Often, the exercise of treaty rights 
by the Tribal elders can only be accomplished by their driving, or 
being driven, to a particular area, say to a huckleberry patch. The 
elimination of forest roads that we currently use to transport our 
elders would be a concern for us. On that point, we ask that this 
section of the bill specifically mention that Recreation Area 
designation not prevent or impede routine road maintenance.
    Title IV--Transportation and Communication Systems, page 32 line 6. 
Significant areas of the Warm Springs Indian Reservation are included 
within the Section 401 Definition of Mount Hood Region that is to be 
subject to a comprehensive transportation plan. Accordingly, our Tribal 
government should be included in the potential planning process, and we 
ask that ``and tribal'' be added after the word ``local'' on page 33 
line 16.
    Title VI--Mount Hood National Forest and Watershed Stewardship. 
Section 602. Forest Stewardship Assessment, page 48 line 15. The Warm 
Springs Tribe supports this provision, which is identical to Section 
502 in the House bill. Our Reservation has an extensive forested border 
in common with the Mount Hood National Forest. In many ways, the 
management and health of our forest are closely linked to the 
management and health of the Mount Hood National Forest. The required 
development of a stewardship assessment and its implementation for the 
Mount Hood Forest will help protect our forest, for which the United 
States government as a whole, including the U.S. Forest Service, has a 
trust responsibility.
    Section 603. Sustainable Biomass Utilization Study, page 50 line 
20. We support this Section, which is identical to Section 503 in the 
House bill. Our Tribe, through Warm Springs Forest Products Industries, 
is deeply involved in a substantial biomass electric generation project 
that would accept significant amounts of excess biomass material from 
the Mount Hood National Forest. Our Tribe and the U.S. Forest Service, 
including the Mount Hood National Forest, entered into a Memorandum of 
Understanding early in 2006 to facilitate both fuels reduction on the 
Mount Hood National Forest and the provision of biomass for the Tribe's 
biomass generation project.
    Title VIII--Local and Tribal Relationships. Section 801. Findings 
and Purpose, page 61 line 21. Section 802. First Foods Gathering Areas, 
page 62 line 5. The Warm Springs Tribe strongly supports Sections 801 
and 802 of S. 3854. These provisions are identical to Section 701 and 
702 in the House bill, where they were developed and incorporated 
through extensive dialogue and collaboration between the Tribe and the 
House sponsors. These provisions in the Senate and the House bill are 
critical to protecting and preserving the Tribe's treaty protected 
right to gather roots, berries and plants within the Mount Hood 
National Forest. The establishment of Priority Use Areas for tribes 
with treaty gathering rights in the Mount Hood National Forest is an 
exercise of the federal trust obligation to protect treaty resources, 
and is essential today to protect our roots, berries and plants from 
the destructive practices of non-Indians. For instance, in recent years 
when our Tribal members have gone to long-established huckleberry 
patches for the traditional annual harvest, we have been alarmed to see 
others wantonly stripping the berries with rakes and other tools, with 
no regard for the permanent destruction they are causing the 
huckleberry bush. The authorization of Tribal Priority Use Areas 
through collaborative discussions with the Forest Service will enable 
the flexible establishment of such Areas and bring a desperately needed 
measure of protection to our treaty protected roots, berries and 
plants.
    Section 804. Savings Provisions Regarding Relations with Indian 
Tribes, page 64 line 1. This Section preserving the full scope of the 
Warm Springs 1855 Treaty rights and protecting our trust lands and 
allotments, including our fishing access sites, as well as our hunting 
and fishing rights, is essential to this legislation. Tribal treaties 
are the highest law of the land, and their preservation from any 
potential misinterpretation, alternation or diminishment, intentional 
or otherwise, as a consequence of this Act is an absolutely essential 
element for this legislation. Senate Section 804 is identical to House 
Section 704, which was developed in close collaboration with our Tribe, 
and we absolutely support both provisions.
    Section 905. Mount Hood National Forest Recreational Working Group, 
page 70 line 10. The Warm Springs Tribe supports this provision with 
one change: including tribal governments to the list of governments 
that may make nominations for Working Groups members to the Regional 
Forester. We note that this change should be made to the House bill as 
well, where it was also inadvertently overlooked. Like the State 
government and the county governments adjacent to the Mount Hood 
National Forest, the Warm Springs Tribal government is immediately 
adjacent to the Mount Hood National Forest and is extensively engaged 
in wide range of activities involving the Mount Hood National Forest, 
some of which, such as treaty rights, are unique to the Tribe. As a 
simple matter of parity, the Warm Springs Tribal government should have 
the same ability to make Working Group nominations as the State and 
adjacent counties. Accordingly, we suggest that Section 905(c)(5), 
Nominations, page 72 line 4, be amended to read ``The State and county 
governments for each county directly adjacent to or containing any 
portion of Mount Hood National Forest, and an Indian tribe with 
substantial trust lands directly adjacent to Mount Hood National 
Forest, may submit a nomination to the Regional Forester for each 
activity or interest group category described in subsection (d).'' We 
suggest the adjacency of ``substantial trust lands'' to ensure that any 
tribe with adjacent fee land or minor adjacent trust land not be 
inadvertently interpreted as eligible to make nominations. For 
instance, the Yakama Tribe in Washington may have some small trust 
allotments, or have interests in small trust allotments, on the Oregon 
side of the Columbia that are adjacent to the Mount Hood National 
Forest.
    Mr. Chairman, that concludes the S. 3854 and H.R. 5025 testimony of 
the Confederated Tribes of the Warm Springs Reservation of Oregon. We 
look forward to working with the sponsors of the bills and the 
Committee in revising and advancing this important Mount Hood 
wilderness legislation.
    Thank you.
                                 ______
                                 
               Statement of the Sierra Club, Portland, OR

                              INTRODUCTION

    Representing over 750,000 members nationwide and over 23,000 
Oregonians, the Sierra Club submits the following written testimony for 
your consideration regarding S. 3854, the Lewis & Clark Mount Hood 
Wilderness Act of 2006. The Oregon Chapter of the Sierra Club has 
sought additional protection for Mount Hood and the Columbia Gorge for 
some time and we thank Senator Ron Wyden and Senator Gordon Smith for 
introducing legislation that we hope will provide protection for wild 
lands along the route taken by Meriwether Lewis, William Clark and the 
entire crew of the Corps of Discovery.

                                HISTORY

    Wild lands in Oregon are shrinking as we speak. Large-scale 
commercial logging, off road vehicles and development continue to 
threaten the integrity of our forests, the watersheds and natural 
ecosystems they contain, and their loss harms the outdoor enthusiast 
who yearns for places to escape the every day stresses of modern 
civilization. In 2004, we celebrated the 40th year anniversary of the 
Wilderness Act, the 20th year anniversary of the Oregon Wilderness Act 
of 1984, and the 200th year anniversary of Lewis' and Clark's 
traversing this great nation. In light of this history, we see the 
protection of tens of thousands of acres on Mount Hood and in the 
Columbia Gorge as an especially fitting honor to bestow upon these 
Oregon icons. Given the ever-increasing value of scarce water 
resources, the Oregon Chapter also appreciates the recognition of the 
scenic, wild and recreational value of beautiful free-flowing rivers 
that would forever be protected. Overwhelming numbers of Oregonians are 
in favor of these protections.

                              CONSULTATION

    The Oregon Chapter has carefully reviewed S. 3254 and its draft 
maps, and has considered the feelings of our members and our community 
who live, work and play around the mountain. We have been working and 
will continue to work with the Senators to address our concerns over 
provisions in the bill as we did with Representatives Blumenauer and 
Walden regarding H.R. 5025. When H.R. 5025 was first enrolled we 
expressed concerns about the titles related to the wilderness and wild 
and scenic rivers acts, and the potential that these titles, if they 
became law, might create exceptions to the laws and regulations that 
pertain to these acts. As we moved forward with H.R. 5025, we were 
encouraged by the forward progress that Congressmen Blumenauer and 
Walden were able to make with H.R. 5025 and in that vein the Oregon 
Chapter worked for clarifications and appropriate modifications to 
enable the Chapter's full support of the efforts of the Oregon 
Congressional delegation. We anticipate the same positive interaction 
with our Senators.

            ROADLESS LANDS ON THE MOUNT HOOD NATIONAL FOREST

    There are well over 250,000 acres of roadless forests on the Mount 
Hood National Forest that are not protected and this legislation takes 
a significant step towards restoring balance on this forest after 
decades of logging and road building. These islands of diversity are 
key components of a larger network of genetic diversity and ecosystem 
services provided by the landscapes of the Mount Hood National Forest. 
These lands are currently designated late successional reserves, 
matrix, wilderness or other planning designation, all of these areas 
may also have a special emphasis on watershed values or scenic viewshed 
values. Many of these areas are adjacent to existing Wilderness and are 
worthy of being added to the Wilderness system. These areas are not 
part of the active timber base, and they are scenic areas that provide 
drinking water and contain old growth forests. Many matrix lands are 
also key scenic viewshed corridors and are not contemplated to ever be 
part of the active timber base--these areas are also watersheds or 
roadless lands that area part of the larger network of roadless lands 
in the state. The value of goods and services from this urban forest 
from timber harvest is greatly outweighed by the value of its 
recreational offerings, clean water, hunting and fishing, and ecosystem 
services. There are great economic benefits that come from protecting 
intact roadless forests. There are many old growth roadless forests 
that are currently intact and worthy of Wilderness. These areas may be 
in the matrix classification, but are also protected for wildlife, 
watershed or scenic reasons. Future generations of Oregonians are more 
likely to say that we protected too little of these places than they 
will say we protected too many of them.

                         PROTECTING WILDERNESS

    The titles providing for additional Wilderness and Wild & Scenic 
Rivers in S. 3854 are very attractive and a positive step in the 
direction of restoring balance on forests that have been heavily 
logged, roaded and fragmented. With respect to the Wilderness, the 
Oregon Chapter requests additional road closures and inclusions of 
previously impacted surrounding public lands to improve the size and 
shape of some areas as needed to increase the Forest Service's ability 
to comply with its duty to manage them as provided in Section 2(c) of 
the Wilderness Act. The Oregon Chapter is particularly concerned about 
the impact of roads around the roadless areas that are smaller than the 
5,000-acre benchmark contemplated by the Act. While the Oregon Chapter 
recognizes the existence of important wilderness quality areas smaller 
than 5,000 acres, we call on the Committee to respond to the need in 
this forest to enhance the Wilderness experience of those who visit 
these areas and to benefit the habitat of wildlife that live there.

                         SETTING THE BOUNDARIES

    The idea that only pristine areas could be added to the National 
Wilderness Preservation System was set aside long ago, as evidenced by 
the Eastern Wilderness Areas Act and many others that followed soon 
thereafter. The proposal appropriately includes previously logged areas 
improving the contiguity of areas protected. The Oregon Chapter 
encourages that similar additions be made to avoid narrow swaths of 
land being protected as Wilderness. The Oregon Chapter suggests that 
wilderness boundaries include all public lands within a perimeter that 
goes to the nearest permanent road or development. That way, when the 
trees grow back, whether naturally or with help from targeted 
restoration projects, those forests will increase the overall integrity 
of many of the superb wilderness additions in this legislation.

                        BACKLOG OF ROAD CLOSURES

    Gail Achterman, from the Oregon Institute for Natural Resources, 
called for the closure of additional roads to protect watershed health 
and integrity. Knowledgeable community leaders and panelists at both of 
the Mount Hood Summits that were held at Timberline Lodge in 2003 and 
2004 echoed this call. The Oregonian has also reported on the backlog 
of road closures and the management nightmare the excess of unused 
roads causes. With active funding for road rehabilitation and 
additional road closures the Forest Service will have the funds to 
achieve the mandate for these lands and the Oregon Congressional 
delegation has wisely discussed the need for dealing with the extensive 
road system. Therefore, we strongly encourage the inclusion of funding 
for decommissioning, reconstruction, and restoration of all roads 
closed throughout the Mount Hood National Forest in the bill and taking 
a hard look at all potential ways to increase the integrity of this 
Wilderness proposal. This will help create jobs, improve the natural 
function of the ecosystems and ensure a lasting legacy for this and 
future generations.

                            POST-PASSAGE MAP

    The Sierra Club understands that per the requirements of the 1964 
Wilderness Act that all interior roads shown on the current maps within 
the boundaries of new Wilderness will be closed after the legislation 
passes by whatever means are necessary to preclude their use. We have 
had confirmation from all House and Senate sponsors that this is the 
case and we will be monitoring implementation and final map 
construction to assure it is carried out.

                          ROAD DECOMMISSIONING

    We urge you to secure adequate funding for the full decommissioning 
of roads that are in passable condition currently. We have provided a 
list of priority roads to be closured to Congressmen Walden and 
Blumenauer and again to Senators Wyden and Smith. Our top priority is 
4610 Road which is derelict, washed out, and rapidly deteriorating in 
many road segments. The Salmon Huckleberry, if linked to the Roaring 
River addition, would provide a key network of intact passage for big 
game and other wildlife.

                               CORRIDORS

    The Sierra Club has been assured by Senator Wyden's office that 
there are no corridors in the proposed Wilderness areas for mechanized 
uses. However, there appears to be an excessively wide 400 foot wide 
corridor across the White River addition on the alpine flanks of Mount 
Hood. This corridor is far beyond what is needed for an underground 
power line. The Sierra Club requests the language specify a 100' 
corridor for the sole purpose of maintaining the existing underground 
power line.

ENSURING INTEGRITY FOR THE ORGANIC ACTS FOR WILDERNESS & WILD & SCENIC 
                                 RIVERS

    The Oregon Chapter objects to any provision that appears to exempt 
actions from, or change definitions in order to meet, provisions of the 
Wild and Scenic Rivers Act and the Wilderness Act. The Oregon Chapter 
has detailed its concerns previously and asks for confirmation that 
these concerns have been addressed or removed. Existing regulations and 
rules stand on their own. We request that any legislation for new 
Wilderness or Wild & Scenic Rivers on the Mount Hood National Forest 
not cause any conflicts with these existing rules or regulation or 
confuse issues regarding their enforcement.

                           FOREST STEWARDSHIP

    The Oregon Chapter has expressed serious concerns about the recent 
trend to use forest stewardship as a justification and tool to promote 
commercial logging on the Mt. Hood National Forest. Industrial logging 
and decades of roadbuilding have already wreaked havoc on this 
landscape, increasing fire risk and damage to aquatic systems. The key 
is to protect the previously unmanaged stands (roadless and unlogged 
forests) that are most resilient to fire and most beneficial to 
maintaining the intact ecosystems still found on this forest. The 
Sierra Club has been working to address fire protection and forest 
health issues on Mount Hood for a number of years, both promoting 
genuine community protection measures and working to engage the Forest 
Service in dialogue to avoid commercial logging in the remaining mature 
and old-growth forests, sensitive drinking watersheds, scenic areas and 
wildlife corridors. We have also been engaged in meaningful dialogue 
with concerned local citizens around Mount Hood to reduce fire risks in 
priority areas around homes and communities. According to Jack Cohen, 
with the Forest Service's Fire Sciences Lab in Missoula, ``research 
indicates that the home and its immediate surroundings within 100 to 
200 feet principally determine the home ignition potential during 
severe wildland fires.''

            SOUND PLANNING & FISCALLY CONSERVATIVE PLANNING

    Likewise, the Sierra Club understands the public interest in 
exploring and assessing how we can best work to proactively reduce fire 
risk to homes and communities. To accomplish these objectives, there is 
an incredible need for scientific consensus on the mapping that is 
utilized to aid any assessment of the condition of the forest. The 
current condition class maps are based on highly controversial modeling 
and are of questionable scientific integrity. The Department of 
Agriculture's Inspector General recently released a report criticizing 
the implementation of measures to protection communities from fire 
risk. Since 2001, the Administration has spent five years and billions 
of dollars on programs intended to protect communities from wildfire. 
The report found that the Forest Service has failed to put in place 
controls to ensure that the highest priority forest fuels reduction 
work is done first. The result is communities needlessly left at risk 
and tax dollars poorly spent, threatening the future good health of 
America's forests and the communities which surround them. As the Mt. 
Hood National Forest itself has recognized, the fire regime condition 
class model and maps are not ready for use in planning. To achieve 
scientifically defensible results, a science-based assessment will need 
to incorporate the results from a discussion of the divergent 
viewpoints on the fire regime condition class mapping. The standards 
for a forest stewardship strategy must include guidance on priority 
setting and ensure accountability. We need strategic planning and 
thorough scientific analysis to focus the dollars on protecting 
communities and restoring forests. That is why it is critical that the 
Senate ensures independent scientific peer-review of the condition 
class system and mapping.

                            UPDATING MAPPING

    Currently, condition class modeling is not accepted among all 
forest scientists as a useful component of forest and fire planning. 
There are many scientists who have serious concerns about the model, 
its application and its implementation. The scientific consensus is 
that fire regime condition classes need to be based on the long-term 
variability of fire frequency and magnitude experienced by a landscape, 
not just the average conditions in one or two centuries. The condition 
class model needs to incorporate highly accurate mapping of current and 
potential vegetation. The vegetation mapping products should be 
subjected to a rigorous, independent accuracy assessment before being 
used in condition class maps. Vegetation succession and disturbance 
models used in the condition class process need to be carefully peer-
reviewed by independent experts from a wide range of perspectives. The 
resulting map products will need to be carefully reviewed on the ground 
to see how well it matches reality.

                   INDEPENDENT SCIENTIFIC ASSESSMENT

    Forest stewardship and fire planning must incorporate a wide 
variety of information and condition class should be just one of many 
considerations for science-based decision-making. Once new condition 
class mapping is completed it needs to be tested for accuracy and 
reliability through careful internal and external review, this new 
condition class mapping should be combined with many other factors to 
assist in determining what lands should be treated to deal with the 
risk of catastrophic wildfire and insect and disease epidemics/
outbreaks. Forest restoration efforts should emphasize use of 
prescribed fire and fire-use policies over mechanical treatments. Many 
studies of wildfires and the potential benefit of forest restoration 
efforts have shown that prescribed fire and fire-use (using wildfires 
to accomplish forest restoration objectives) are by far the most 
effective means to reduce the risk of wildfire to both forests and 
communities. Thinning and logging often increase the intensity of 
wildfire behavior, therefore these tools should be used with great 
caution if the objective is to reduce fire risk.

          ASSESSING THE BROAD RANGE OF APPROACHES AND IMPACTS

    Community and structure protection are the primary goals of forest 
stewardship planning efforts. To accomplish these goals, it is 
unnecessary for the agency to engage in fuel reduction activities that 
are a substantial distance from communities targeted for protection. 
Often logging and thinning activities may degrade wildlife habitat and 
ecological values present in old forests. Logging activities frequently 
increase both short and long-term wildfire risk. By focusing on 
ecological priorities in areas nearest to communities this legislation 
could both protect forest health and create restoration-economy jobs in 
local communities. We appreciate the efforts of Senators to provide 
guidance on this language regarding Forest Stewardship to ensure the 
best possible assessment.

                          SUSTAINABLE BIOMASS

    The Sierra Club opposes biomass energy projects that use federal 
lands as a source of supply because they are typically unsustainable. 
The use of portable milling equipment undermines efforts to keep 
destructive logging practices out of fragile ecosystems, roadless areas 
and previously unmanaged stands. The Sierra Club supports efforts to 
protect communities from wildfire and restore natural fire cycles via 
removal of small-diameter hazardous fuels around forested communities, 
so some local biomass-to-energy projects may be acceptable under 
strictly controlled conditions. Generally, the use of this material as 
biomass for commercial energy production creates demand for the 
byproduct of poor forest management and logging practices, and 
increases the pressure to disturb wild forest ecosystems. We believe 
that the assessment required by this bill will reveal that small-scale 
forest biomass-to-energy projects on non-federal lands--that are 
carefully monitored and designed under Forest Stewardship Council--will 
provide the only truly sustainable way for Americans to obtain wood 
waste and attempt to meet our energy needs for this and future 
generations of Oregonians.

                     COOPER SPUR HISTORIC SOLUTION

    The Oregon Chapter has been a long-time supporter of the Cooper 
Spur Wild & Free Coalition and its Historic Solution, and national 
Sierra Club approved the land exchanges laid out in H.R. 5025. The 
Oregon Chapter has recommended acceptance of the terms laid out in S. 
3854 to the national Sierra Club which is currently considering it. We 
encourage the delegation to be as specific as possible with the Forest 
Service in order to get the assessments and reviews completed within a 
reasonable timeframe. We encourage the Senate to include language from 
H.R. 5025 that ensures a timely process and the full protection of the 
entire Cooper Spur area. We support the language in S. 3854 regarding 
the protection of the Crystal Springs Watershed Zone of Contribution 
and the limitation of the Cooper Spur Ski Area and the Inn at Cooper 
Spur to its current footprint and the designation of the intact 
roadless lands as Wilderness to preserve this watershed that provides 
drinking water to the residents of Hood River County and a backcountry 
recreation areas for all Oregonians.

                       NATIONAL RECREATION AREAS

    The Oregon Chapter supports the proposed National Recreation Areas 
as an alternative to Wilderness protection for those areas that can not 
be managed to enable a Wilderness experience as long as the language 
used prevents logging and increased development in these natural areas 
outside of the trails that are managed for mountain biking uses. Our 
membership includes many people in the mountain biking community--and 
we wish to see these pristine old growth forests protected and these 
roadless areas with strong protection for their unique qualities. We 
also request that the roads within the areas identified for National 
Recreation Area status be closed to motorized uses as we have 
determined through ground-truthing and review of priority lists from 
the Forest Service.

                               CONCLUSION

    The Oregon Chapter commends the Senators for their hard work 
through this process and for seizing this historic moment. Our local 
volunteers are ready willing and able to provide support and further 
information for this committee. We look forward to working with the 
Senate to ensure our full support for the final legislation.


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
